<html>
<title> - AN OVERVIEW OF THE FEDERAL R&D BUDGET FOR FISCAL YEAR 2007</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                           AN OVERVIEW OF THE
                           FEDERAL R&D BUDGET
                          FOR FISCAL YEAR 2007

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2006

                               __________

                           Serial No. 109-35

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
25-938                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                           February 15, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    22
    Written Statement............................................    24

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    25
    Written Statement............................................    27

Prepared Statement by Representative Ken Calvert, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    29

Prepared Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    29

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    30

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    31

Prepared Statement by Representative Michael M. Honda, Member, 
  Committee on Science, U.S. House of Representatives............    32

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    33

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    33

                               Witnesses:

Dr. John H. Marburger III, Director, Office of Science and 
  Technology Policy
    Oral Statement...............................................    35
    Written Statement............................................    37
    Biography....................................................    48

Dr. Samuel W. Bodman, Secretary, Department of Energy
    Oral Statement...............................................    48
    Written Statement............................................    49
    Biography....................................................    56

Dr. David A. Sampson, Deputy Secretary, Department of Commerce
    Oral Statement...............................................    56
    Written Statement............................................    58
    Biography....................................................    66

Dr. Arden L. Bement, Jr., Director, National Science Foundation
    Oral Statement...............................................    66
    Written Statement............................................    68
    Biography....................................................    71

Dr. Charles E. McQueary, Under Secretary, Science and Technology, 
  Department of Homeland Security
    Oral Statement...............................................    72
    Written Statement............................................    74
    Biography....................................................    90

Discussion.......................................................    90

              Appendix: Answers to Post-Hearing Questions

Dr. John H. Marburger III, Director, Office of Science and 
  Technology Policy..............................................   166

Dr. Samuel W. Bodman, Secretary, Department of Energy............   170

Dr. David A. Sampson, Deputy Secretary, Department of Commerce...   186

Dr. Arden L. Bement, Jr., Director, National Science Foundation..   196

Dr. Charles E. McQueary, Under Secretary, Science and Technology, 
  Department of Homeland Security................................   203


       AN OVERVIEW OF THE FEDERAL R&D BUDGET FOR FISCAL YEAR 2007

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2006

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                           An Overview of the

                           Federal R&D Budget

                          for Fiscal Year 2007

                      wednesday, february 15, 2006
                          10:00 a.m.-1:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, February 15, 2006, the House Science Committee will 
hold a hearing to consider President Bush's fiscal year 2007 (FY07) 
budget request for research and development (R&D). Five Administration 
witnesses will review the proposed budget in the context of the 
President's overall priorities in science and technology. The Science 
Committee will hold a separate hearing on February 16th to examine the 
budget request for the National Aeronautics and Space Administration 
(NASA).

2. Witnesses

Dr. John H. Marburger III is Director of the Office of Science and 
Technology Policy (OSTP), the White House science office. Prior to 
joining OSTP, Dr. Marburger served as President of the State University 
of New York at Stony Brook and as Director of the Brookhaven National 
Laboratory.

Dr. Samuel W. Bodman is the Secretary of the Department of Energy 
(DOE). Prior to joining DOE, Dr. Bodman served as Deputy Secretary of 
the Treasury and Deputy Secretary of the Department of Commerce (DOC). 
He also served in executive positions in several publicly owned 
corporations and as a professor of chemical engineering at the 
Massachusetts Institute of Technology.

Dr. David A. Sampson is the Deputy Secretary of the Department of 
Commerce, which includes the National Institute of Standards and 
Technology (NIST) and the National Oceanic and Atmospheric 
Administration (NOAA). Previously, Dr. Sampson served as Assistant 
Secretary of Commerce for Economic Development and head of the Economic 
Development Administration.

Dr. Arden L. Bement is the Director of the National Science Foundation 
(NSF). Prior to his appointment to NSF, Dr. Bement was Director of NIST 
and professor and head of the School of Nuclear Engineering at Purdue 
University.

Dr. Charles E. McQueary is the Under Secretary for Science and 
Technology (S&T) at the Department of Homeland Security (DHS). Prior to 
joining the Department, Dr. McQueary served as President of General 
Dynamics Advanced Technology Systems, as President and Vice President 
of business units for AT&T, Lucent Technologies, and as a Director for 
AT&T Bell Laboratories.

3. Background

Overall Budget
    Under the President's proposed budget for FY07, overall 
discretionary spending would increase by 3.2 percent, which the 
Administration describes as a level just under the projected rate of 
inflation of 3.3 percent. Consistent with Administration priorities, 
the increases are heavily weighted toward spending on defense and 
homeland security. Discretionary spending, excluding defense spending 
and homeland security spending across the government (i.e., ``non-
security spending'') would be reduced by 0.5 percent, according to the 
Administration's calculations.
Snapshot of Research and Development (R&D) Spending
    There are many ways of describing the R&D budget (see below), 
depending on what one wants to emphasize or determine. For example, 
development can be excluded or included; defense and homeland spending 
can be excluded or included; an entire agency's budget can be included 
or only those parts directly related to research and/or development. In 
addition, different baselines can be used for FY06. For example, 
supplemental funding can be excluded or included; Congressional 
earmarks can be excluded or included. In this charter, the FY06 enacted 
levels are used as the baseline unless otherwise noted.
    The President's proposed FY07 budget does not treat R&D uniformly, 
but rather provides significant increases in priority areas, while 
reducing or freezing spending in other areas. Therefore, aggregate 
numbers mask the wide variation in individual agencies and programs. 
The budget provides large percentage increases for the three physical 
science agencies included in the American Competitiveness Initiative 
the President announced in the State of the Union message--research 
funding at the National Science Foundation (NSF), internal programs at 
the National Institute of Standards and Technology (NIST) and the 
Office of Science at the Department of Energy (DOE). In keeping with 
the Advanced Energy Initiative, also unveiled in the State of the Union 
address, some of the energy supply research programs of DOE also 
receive significant boosts (detailed below). And the basic research 
programs of DOD, which fund a great deal of university research in the 
physical sciences, also appear to fare well if earmarks are removed 
from the FY06 base.
    The budgets for other R&D agencies reflect their lower priority. 
Most notably, the National Aeronautics and Space Administration (NASA), 
after two years of significant increases, would see its budget increase 
by one percent (or by 3.2 percent if emergency money to recover from 
Hurricane Katrina is excluded from the FY06 base). The budget for the 
National Institutes of Health (NIH), which had seen its budget double 
in the years leading up to FY06, would be frozen. These proposals damp 
down the aggregate numbers for research spending since they are larger 
than the agencies receiving increases. (The proposed budgets for the 
three agencies in the American Competitiveness Initiative total about 
$10.5 billion, while NASA alone is slated to receive close to $17 
billion and NIH is budgeted at more than $28 billion.)
Federal Research and Development Budget
    The President's budget proposes to spend $137.2 billion on R&D in 
FY07, an increase of $3.4 billion, or 2.6 percent, over FY06.\1\ Non-
security R&D funding grows by $1.1 billion or 1.8 percent. Funding is 
heavily weighted toward development, which would increase by $4.88 
billion, or seven percent).\2\ Basic research is up slightly ($357 
million, or one percent) and applied research is cut significantly 
($1.83 billion, or seven percent).
---------------------------------------------------------------------------
    \1\ A complete federal R&D spending table is provided at the end of 
the charter in Appendix II.
    \2\ Defense development is by far the largest factor in the overall 
R&D increase, accounting for $3.1 billion in added spending.
---------------------------------------------------------------------------
Federal Science and Technology Budget
    The Federal Science and Technology (FS&T) budget, is a method the 
National Academy of Sciences recommended to evaluate the impact of the 
budget on true research (as opposed to large development projects that 
build on the results of research that has already been completed). In 
the FY07 budget proposal, funding for FS&T declines by one percent, or 
$594 million, to $59.8 billion. Many of the cuts that contribute to 
that number reflect the Administration's zeroing out of FY06 earmarks. 
Earmarking has been increasing rapidly in recent years, and some of the 
earmarks are for projects that are entirely unrelated to the work of 
the program being earmarked.
American Competitiveness Initiative
    The American Competitiveness Initiative calls for doubling the 
combined (not necessarily the individual) budgets of NSF, NIST and the 
DOE Office of Science over the next 10 years, and the FY07 budget 
proposals represent the down-payment to begin that process.
    In addition to those funding increases, the Initiative includes 
education and tax programs. The President's budget request proposes 
$380 million for new programs at the Department of Education to improve 
science, technology, engineering, and math (STEM) education at the K-12 
levels. Specifically, the programs are designed to enable more teachers 
to teach Advanced Placement courses, to bring math and science 
professionals into the classroom to evaluate approaches to teaching 
math and science, and to improve math instruction at the elementary and 
middle school levels. Despite the Initiative, the overall discretionary 
budget for the Department of Education drops by about $2 billion in the 
President's budget.
    Finally, as part of the American Competitiveness Initiative, the 
President has also proposed making the R&D tax credit permanent and 
working with Congress to modernize the rules companies may use to 
calculate how much of their R&D spending is eligible for the tax 
credit. At a cost of about $86 billion over 10 years, the tax credit is 
by far the most expensive aspect of the Initiative.
Earmarking
    The American Association for the Advancement of Science (AAAS) has 
calculated that Congressional earmarks in R&D programs totaled $2.36 
billion in the FY06 appropriations.\3\ This is 13 percent higher than 
in FY05 and 63 percent higher than in FY03. The Administration removes 
earmarks from an agency's base funding before developing the next 
year's budget. (The Administration does not necessarily use the same 
definition of earmark as does AAAS, and the Administration sometimes 
classifies as ``earmarks'' whole programs created by Congress, even if 
they are truly open to all qualified parties.) Moreover, earmarks can 
be for activities that an agency would otherwise undertake but not 
necessarily at the earmarked location, for activities related to an 
agency's programs, or for activities with little connection to an 
agency's activities. NIST's construction account, for example, has been 
earmarked for projects that have no relationship whatsoever to that 
laboratory.
---------------------------------------------------------------------------
    \3\ Note that the $2.36 billion underestimates the total impact of 
earmarking on science agencies and programs, as it does not include 
earmarking of research accounts to pay for non-R&D expenditures. AAAS 
analysis of earmarks is available at http://www.aaas.org/spp/rd/
earm06c.htm.
---------------------------------------------------------------------------

4. Primary Issues

    Here are some key questions raised by the FY07 budget request along 
with relevant background:

Overall Funding Levels and Balance
    The American Competitiveness Initiative reflects the calls from 
leaders in industry and higher education to increase spending for 
physical science research, which has lagged for years behind the 
bounding growth for biomedical research. Most notably, the report the 
National Academy of Sciences released last November, Rising Above the 
Gathering Storm, recommended increasing federal funding for long-term 
basic research for 10 percent a year for seven years, with emphasis on 
the physical sciences, including in the basic research programs of DOD, 
and other reports have made similar recommendations.
    The issues raised by the overall approach to R&D funding are:

        1)  Does the budget set the appropriate priorities for R&D 
        funding and fund them adequately? The budget does provide 
        additional funding for the physical sciences, far in excess of 
        the overall growth in the budget. However, some critics note 
        that the funding increases are less than those called for in 
        various reports and are below the levels authorized in laws 
        that originated in the Science Committee, such as the National 
        Science Foundation Authorization Act of 2002 and the Energy 
        Policy Act of 2005.

        2)  Does the budget provide adequate funding for agencies not 
        considered a priority? The greatest budget disputes are likely 
        to revolve around funding for NIH and other agencies that do 
        not receive increases. As noted earlier, most of those agencies 
        have increased more rapidly in recent years.

        3)  Will the proposed investments ensure future U.S. 
        competitiveness? Critics of increased spending may argue that 
        holding the line on more spending and focusing on regulatory or 
        other changes would have a greater impact on U.S. ability to 
        fend off international competition. Supporters of the spending 
        increases have varying ideas on how to target the funding (in 
        terms of scientific disciplines, areas of technology, and the 
        riskiness of research) to get the best results. Ideas about 
        targeting could be part of future authorizing legislation. For 
        example, many reports recommend that some research funds should 
        be set aside for riskier, more cross-disciplinary research that 
        may not be selected through normal peer review processes.

Applied Energy Research
    Funding for applied research in the FY07 budget is focused on long-
range initiatives, such as the President's hydrogen initiative, while 
shorter payoff areas of research are de-emphasized. For example, energy 
efficiency R&D is slated to decline by 11 percent, and some deployment 
programs are eliminated. Does the budget appropriately balance funding 
for technologies that could reduce energy dependence in the near term 
with research on technologies with longer-term expected payoffs, such 
as hydrogen and fusion? The budget includes a proposal to promote 
nuclear energy worldwide called the Global Nuclear Energy Partnership. 
Included in this effort are design efforts for three new projects. 
These projects would require large outyear funding, in addition to 
existing outyear funding commitments to the Next Generation Nuclear 
Plant. Given the future budget outlook, how will DOE manage these large 
outyear funding commitments? The budget also proposes the elimination 
of DOE's oil and gas R&D, and to repeal the mandatory funding authority 
for the Ultra-Deepwater and Unconventional Natural Gas program created 
by the Energy Policy Act of 2005. Should these programs be eliminated?

NSF Education Funding
    The FY07 budget increases the Education and Human Resources (EHR) 
Directorate at NSF by 2.5 percent to $816 million. While this is a 
significant improvement over the FY06 request of $737 million, it is 
still below the FY04 level of $938 million. Within the proposal, 
elementary, secondary and undergraduate education programs are reduced, 
while graduate education and human resource development programs are 
increased. No money for new grants is proposed for the Math and Science 
Partnership Program, which the Administration seeks to phase out at 
NSF, while preserving the program at the Department of Education. Is 
the funding for NSF education programs adequate, and what is NSF's role 
in science and math education compared to that of the Department of 
Education?

Technology Programs at NIST
    While the internal programs of NIST receive healthy increases in 
the President's budget, the budget proposes again to eliminate the 
Advanced Technology Program (ATP), which funds research at private 
firms, and to halve the budget for the Manufacturing Extension 
Partnership program (MEP), which runs centers across the country to 
counsel smaller companies. Both programs were created by Congress in 
1988. MEP centers generally receive one-third of their funding from the 
Federal Government, with the remainder equally divided between states 
and fees charged to companies that use the centers. Should ATP be 
eliminated? Can MEP function effectively with sharply reduced federal 
funding? How high a priority are they compared to other government 
activities designed to promote applied technology development and U.S. 
manufacturing competitiveness?

5. Interagency Research Activities

    Budget tables for select interagency programs are provided in 
Appendix I. The Administration has not proposed any new interagency R&D 
initiatives for FY07.

National Nanotechnology Initiative (NNI): Between FY01 and FY06, 
spending on federal nanotechnology R&D has nearly tripled, rising from 
$464 million in FY01 to $1.3 billion in FY06. The FY07 budget requests 
an estimated $1.28 billion for the program in FY07, a decrease of $24 
million, or 1.8 percent, from the estimated FY06 level.\4\ Requested 
funding for the five agencies\5\ authorized in the 21st Century 
Nanotechnology Research and Development Act (P.L. 108-153) is $751 
million, a 10.1 percent increase over the FY06 level, but below the 
$955 million authorized for these agencies for FY07 in the Act. Of 
particular note is the proposed near doubling of funding, from $5 
million to $9 million, for EPA to work on potential environmental and 
safety issues associated with nanotechnology. The Committee held a 
hearing in the fall at which both industry and environmental groups 
called for increased research on the potential environmental 
consequences of nanotechnology.
---------------------------------------------------------------------------
    \4\ The Administration notes that the FY06 NNI funding includes 
over $100 million in earmarks at DOD and over $10 million in earmarks 
at NASA. When those are removed, the request for NNI is for an increase 
of 7.2 percent.
    \5\ The five agencies authorized by the Act are: NSF, DOE, NASA, 
EPA, and NIST. The total funding authorized by the Act for these 
agencies is $3.7 billion over four years.

Networking and Information Technology R&D (NITRD): NITRD is an 
interagency program coordinating information technology (IT) R&D across 
twelve agencies. Areas of emphasis include high-end computing systems 
and software, networking, software design, and human-computer 
interaction. In addition, for the first time in FY07, cyber security 
and information assurance research activities will be included in the 
interagency coordination effort. Information technology research has 
played a critical role in U.S. economic strength over the past several 
decades, and consistent with the President's prioritization of areas 
that impact U.S. competitiveness, the budget request recommends $3.07 
billion for NITRD programs in FY07, a 7.7 percent increase over FY06. A 
significant part of that increase is designated for expanded work on 
---------------------------------------------------------------------------
high-performance computing at NSF, the DOE Office of Science, and NOAA.

Cyber Security R&D: Significant increases are requested for cyber 
security R&D programs in FY07 at NSF, NIST, and DHS. While funding for 
cyber security activities at NSF and NIST is still below the levels 
authorized in the Cyber Security Research and Development Act (P.L. 
107-305),\6\ both agencies have directed considerable portions of their 
overall increases to their cyber security research programs. At NSF, 
the budget requests $94 million for cyber security R&D (up 27 percent), 
and keeps cyber security-focused education programs flat at $14 
million. At NIST, the request is $21 million for cyber security R&D (up 
11 percent from FY06). Within a flat budget at the DHS Science and 
Technology (S&T) Directorate, the cyber security R&D program was one of 
a very few programs in which funding is requested to start new projects 
in FY07; the budget proposes $24.9 million for cyber security R&D, up 
50 percent from the FY06 level.\7\
---------------------------------------------------------------------------
    \6\ For FY07, NSF cyber security programs are authorized at $142 
million and NIST cyber security programs are authorized at $92 million.
    \7\ DHS also supports operational cyber security programs, such as 
tracking computer and network vulnerabilities and coordinating the 
monitoring of government networks for cyber incidents. Located in the 
National Cyber Security Division of the DHS Preparedness Directorate, 
operational cyber security receives $92 million in FY07, the same as in 
FY06.

Climate Change Research: The FY07 budget requests $1.7 billion for the 
interagency Climate Change Science Program (CCSP), about the same level 
as enacted in FY06. There is an $18 million (two percent) decrease in 
NASA's contribution to CCSP, offset primarily by a $23 million (14 
percent) increase in NOAA and a $5 million (four percent) decrease in 
DOE's contributions to the program. The request for CCSP includes $200 
million for the interagency Climate Change Research Initiative (CCRI), 
about the same level as enacted in FY06. CCRI is intended to target 
critical scientific uncertainties and deliver results in three to five 
---------------------------------------------------------------------------
years.

The National Earthquake Hazard Reduction Program (NEHRP): NEHRP is an 
interagency effort aimed at reducing earthquake hazards through 
activities such as seismic and engineering research, earthquake 
monitoring, and code development and adoption. It includes NIST, NSF, 
the U.S. Geological Survey (USGS), and the Federal Emergency Management 
Agency (FEMA). While the complete NEHRP budget for FY07 is not 
currently available, NIST requests $1.7 million (up $0.8 million), NSF 
requests $54.7 million (up $1.0 million), and USGS requests $55.4 
million (up $1.6 million) for earthquake activities. Included in the 
USGS NEHRP budget is $8.1 million for the Advanced National Seismic 
System (ANSS). The FEMA request is not available.\8\ NIST is the lead 
agency for NEHRP and it is funded at about $10 million below the 
authorized level.
---------------------------------------------------------------------------
    \8\ The NEHRP agencies are authorized to receive a total of $160.55 
million in FY07, including $12.10 million for NIST, $40.31 million for 
NSF, $22.28 million for FEMA, and $85.86 million for USGS (of which $36 
million is designated for the ANSS).

The National Windstorm Impact Reduction Program (NWIRP): NWIRP, 
authorized in October 2004, is an interagency effort to improve 
scientific understanding of wind hazards and developing cost-effective 
measures to reduce their impact on lives and property through 
atmospheric research, code development, and creation of risk assessment 
tools. The participating agencies include NSF, NIST, FEMA, and NOAA. 
While a plan for program implementation was due to Congress in October 
2005, it has not yet been received, and proposed spending levels for 
this program in FY07 have not been provided to the Committee. The 
authorized appropriations for FY07 total $25 million--$9.4 million for 
FEMA, $9.4 million for NSF, $4 million for NIST, and $2.2 million for 
---------------------------------------------------------------------------
NOAA.

6. Agency R&D Highlights

Department of Energy (DOE)
    The FY07 request for civilian R&D at DOE of $6.3 billion represents 
an increase of nine percent\9\ from FY06 enacted levels. The 
Administration's top funding priorities are the Office of Science and 
nuclear energy research focused on reprocessing of nuclear waste to 
reduce its toxicity, make more fuel available for future use, and 
reduce the volume of waste requiring disposal.
---------------------------------------------------------------------------
    \9\ These figures do not include a proposed cancellation of 
balances in the dormant Clean Coal Technology account.
---------------------------------------------------------------------------
            Office of Science
    As part of the American Competitiveness Initiative, the budget 
requests $4.1 billion for the Office of Science, an increase of $505 
million or 14 percent. The budget seeks to strike a balance between 
support for researchers (45 percent) and the operation of national 
scientific user facilities (38 percent). Major increases in research 
support are provided for university-based nuclear physics (up 17 
percent to $64.5 million), the development of advanced computing 
software (up 51 percent to $50 million) and research at the nanoscale 
(up 62 percent to $158 million). Office of Science funding for the 
President's Hydrogen Fuel Initiative increases 54 percent to $50 
million.
    Funding requested for facility operations allows the Office of 
Science to operate its suite of scientific user facilities at 96 
percent of the optimal number of operating hours, compared to 88 
percent in FY06. The request also allows DOE to bring into full 
operation the new Spallation Neutron Source and four of five new 
Nanoscale Science Research Centers. An additional $20 million is 
provided for project engineering and design for the National 
Synchrotron Light Source II project at Brookhaven National Laboratory. 
In addition, resources are nearly doubled from $54 million to $102 
million to acquire and upgrade the leadership computing facilities at 
Oak Ridge National Laboratory and Argonne National Laboratory.
    The budget requests neither R&D nor construction funding explicitly 
for the Rare Isotope Accelerator (RIA), a nuclear physics facility 
accorded relatively high priority in the Office of Science's 20-year 
facilities plan. The budget does request $4 million to continue exotic 
beam R&D, which are the capabilities RIA or a RIA-like machine would 
deliver.
    The request includes $60 million for FY07 in the Fusion program for 
ITER, an international partnership to build a large-scale fusion 
reactor. A significant fraction of that $60 million is a research 
effort at domestic fusion facilities in support of the ITER program. 
Direct ITER project costs are slated to increase only $21 million, 
while the Fusion program overall increases $31 million. The request 
provides fusion facilities with 51 percent of optimal operating hours.
    The request for Biological and Environmental Research (BER) program 
is the only major program area in the Office of Science with a cut: the 
requested budget declines $70 million, or 12 percent. However, the 
request for BER rises to $510 million, a $59 million (13 percent) 
increase after deducting $130 million of FY06 Congressional earmark. 
Within BER, climate change research is reduced $6.6 million, including 
reductions to ocean carbon sequestration research (down $4.9 million) 
and climate modeling (down $1.5 million).
            Applied Energy Programs
    The FY07 request for applied energy programs reflects a series of 
trade-offs to accommodate the Advanced Energy Initiative. Overall, in 
ongoing accounts,\10\ the budget for applied energy programs increases 
one percent or $17 million, from $2.14 billion to $2.16 billion. The 
Nuclear Energy program shows the largest increases, the Energy 
Efficiency and Renewable Energy program is flat, and the Fossil Energy 
and Electricity Distribution and Energy Reliability programs both are 
proposed for funding reductions.
---------------------------------------------------------------------------
    \10\ The budget proposes to rescind $203 balances in the old Clean 
Coal Technology account. The statutory authority for this account does 
not permit new project starts, but a similar demonstration program in 
the Fossil Energy R&D account has been active for several years.
---------------------------------------------------------------------------
    In the Office of Nuclear Energy, after some accounting changes in 
infrastructure are included, total funding for programs in the 
jurisdiction of the Science Committee increases $95 million, or 21 
percent to $554 million. The biggest funding increase occurs in the 
Advanced Fuel Cycle Initiative (AFCI), which is tripled from $79 
million to $243 million. AFCI is the program to develop fuel 
reprocessing and recycling technology, and therefore a key component of 
the Global Nuclear Energy Partnership (see below). Conversely, 
university support, previously funded at $27 million, is terminated; 
Generation IV is down by $23 million (down 42 percent to $31 million), 
including a $16.6 million cut to the Next Generation Nuclear Plant. 
Nuclear hydrogen R&D also is cut by $6 million (down 25 percent to $19 
million). The Nuclear Energy office is now responsible for all of Idaho 
facilities management, which is cut by $4 million (down four percent to 
$95.3 million). Radiological facilities management is cut $4.3 million 
(down eight percent to $50 million).
    DOE also announced the creation of the Global Nuclear Energy 
Partnership (GNEP), a program to promote the use of nuclear power 
worldwide. The program would manage nuclear fuel through international 
agreements as a strategy to reduce proliferation risks. GNEP also will 
include a domestic nuclear fuel reprocessing and recycling component to 
reduce the need for additional long-term waste storage capacity. While 
the GNEP activities will be carried out in various programs throughout 
DOE, the major new funding effort is directed toward accelerating 
activities in AFCI.
    There are major shifts in the Office of Energy Efficiency and 
Renewable Energy (EERE), which overall sees an increase of 0.2 percent 
(up $3 million to $1,176 million). However, R&D programs are up $81 
million (up nine percent to $1,012 million). Reflecting new initiatives 
announced in the State of the Union address, Solar Energy programs are 
slated for a $65 million increase (up 78 percent to $148 million), 
Biomass programs would increase $58 million (up 65 percent to $150 
million), Hydrogen programs would increase $40 million (up 26 percent 
to $196 million), and Wind programs would increase $5 million (up 13 
percent to $44 million).
    The other item mentioned in the State of the Union, battery 
research for plug-in hybrids, standard hybrids, and fuel cell vehicles, 
increases $6.2 million (up 427 percent to $7.6 million), but overall 
funding for Vehicle research is slated to decrease.
    On the Energy Efficiency side, research programs face a proposed 
total decrease of $36 million (down 11 percent to $289 million). In the 
largest single cut in EERE, weatherization grants are cut $78 million 
(down 32 percent to $164 million). This program is not an R&D program, 
but improves energy efficiency in low-income homes; the reduction will 
amount to about 30,000 fewer homes being weatherized in FY07. The 
Vehicles budget is proposed to be cut $23 million (down 12 percent to 
$166 million); the Buildings budget is proposed to be cut $2 million 
(down two percent to $77 million); and the Industries budget is 
proposed to be cut $11 million (down 20 percent to $46 million).
    Looking at subaccounts, the largest reduction in Vehicles R&D is to 
earmarked projects; Materials Technology is proposed to be reduced and 
as is much of the work on Heavy Vehicles throughout the program. In 
Buildings, there is a proposed $4 million increase in Building America 
(program with a goal to achieve zero energy homes by 2020) and a 
proposed $1.2 million increase to commercial buildings R&D; decreases 
come from a cancellation of earmarks and some redistribution of other 
funds.
    In the Office of Fossil Energy, the R&D account is proposed to be 
cut $122 million from FY06 levels (down 21 percent to $470 million) 
with the majority of the savings from the proposed termination of the 
Natural Gas Technology and Oil Technology programs ($33 million and $32 
million in FY06 respectively). An additional $44 million reduction 
(down 90 percent to $5 million) is proposed in funding for the Clean 
Coal Power demonstration program. DOE has explained this reduction by 
noting that there is over $500 million allocated to the program in 
prior years, most of which has not yet been spent. This reduction is 
characterized as temporary, ``so that the program can take steps to 
improve the use of funds already provided for projects.'' In addition 
to the cancellation of the Oil and Gas technology programs, the budget 
proposes to repeal the Ultra-Deepwater and Unconventional Natural Gas 
and Other Petroleum Research program through a future legislative 
proposal, consistent with the decision to terminate the discretionary 
Oil and Gas programs. This program was passed as part of the Energy 
Policy Act of 2005; the proposal would result in the rescission of a 
projected $50 million in mandatory funding.
    The Office of Electricity Delivery and Energy Reliability was again 
substantially reorganized and then cut $37 million (down 23 percent to 
$125 million) with the R&D programs taking the lion's share of the 
cuts, down $40 million (down 30 percent to $96 million). These programs 
include superconductivity research, power grid reliability and research 
on distributed energy systems.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Science Foundation (NSF)
    The National Science Foundation is the primary source of federal 
funding for non-medical basic research conducted at colleges and 
universities and serves as a catalyst for science, technology, 
engineering, and mathematics education reform at all levels. As 
previously mentioned, NSF is one of the research agencies that the 
President has proposed to double over the next 10 years as part of the 
American Competitiveness Initiative. The FY07 budget request for NSF, 
therefore, is $6.02 billion, an increase of 7.9 percent, or $439 
million over the FY06 level.
    The funding increase in the FY07 budget mainly goes to scientific 
research programs and research facilities and is spread fairly evenly 
among all fields NSF supports, including engineering, non-biomedical 
life sciences, physics, and geosciences. New programs begun with the 
increased research funding include $50 million to begin the acquisition 
of a leadership-class high performance computer and $20 million 
requested to support leading edge sensor and related research to help 
predict and detect explosives and related threats. Some of the new 
funding is allotted to the expansion of existing high-priority 
programs, such as a $29 million increase for nanotechnology research 
and $20 million increase for cyber security research. For research 
facilities, the account that funds construction of large user 
facilities increases by $50 million, and NSF requests funding to begin 
building three new facilities.\11\ Finally, the overall funding 
increase allows NSF to request $50 million in additional funds for 
various research and education initiatives associated with the 
International Polar Year, an international activity for which NSF is 
the lead U.S. agency.
---------------------------------------------------------------------------
    \11\ Funding ($81 million) is requested to start construction on 
Alaska Region Research Vessel (ARRV), Ocean Observatories Initiative 
(OOI), and National Ecological Observatory Network (NEON). (NSF has 
requested funding for NEON in past budgets, but no construction funding 
has been appropriated to date.)
---------------------------------------------------------------------------
    As noted above, the FY07 budget requests an increase (2.5 percent) 
for the Education and Human Resources (EHR) Directorate, bringing the 
total funding to $816 million. Additional funds are proposed for 
graduate education, human resource development (activities to broaden 
participation in STEM fields), and the new Discovery Research K-12 (DK-
12) program, which will focus on the grand challenges in education, 
such as the development of quality math and science assessments and the 
translation of cutting edge research into classroom practice. K-12 and 
undergraduate education programs would be reduced.
    In FY06, the responsibility for the costs of the icebreakers that 
support scientific research in the polar regions was transferred to NSF 
from the U.S. Coast Guard, and the budget request proposes that NSF 
continue in this role in FY07. The actual cost for services and ship 
maintenance will be negotiated with the Coast Guard, but the estimated 
cost is $57 million for FY07 (a slight decrease from FY06); this money 
will all be transferred back to the Coast Guard. In addition, NSF plans 
to, as in FY06, purchase ice-breaking services on the open market for 
an additional cost of roughly $10 million.
    NSF continues to receive high marks from the Office of Management 
and Budget for the quality of its management and the excellence of its 
programs. NSF is one of only three agencies (of the 26 evaluated) to be 
awarded at least four green lights on the Executive Branch Management 
Scorecard, which rates agencies with green, yellow and red lights in 
areas such as financial management, e-government, and human capital 
management. In addition, ten NSF programs have been examined to date 
using the Program Assessment Rating Tool (PART),\12\ and all ten 
programs received ratings of ``effective,'' the highest possible 
rating. NSF remains the only agency in the Federal Government to 
receive the highest rating on every program that was ``PART-ed.''
---------------------------------------------------------------------------
    \12\ PART is described by the budget as a tool ``developed to 
assess and improve program performance so that the Federal Government 
can achieve better results. A PART review helps identify a program's 
strengths and weaknesses to inform funding and management decisions 
aimed at making the program more effective.''
---------------------------------------------------------------------------
Issues/Questions Raised by the FY07 Request for NSF

Education and Human Resource (EHR) Directorate

    The increase (2.5 percent) for the EHR Directorate is not 
distributed evenly among the variety of education areas supported by 
NSF. In graduate education, increased funding will enable NSF to 
maintain its current stipend of $30,000 for top graduate students and 
further broaden participation in these programs, and the proposed $26 
million increase for human resource development will provide expanded 
support for programs and activities that expand opportunities for 
traditionally under-served populations. The Math and Science 
Partnership (MSP) Program, envisioned as part of the President's No 
Child Left Behind Initiative and enacted by the NSF Authorization Act 
of 2002, continues to decline, from $140 million in FY04 to $46 million 
in FY07. Without additional resources, the amount proposed will be used 
to fund existing grants only.
    NSF reorganized the EHR Directorate in FY06, masking some 
additional downward funding trends. Specifically, while a notable 
increase ($11 million) is proposed for a newly formed DK-12 program, 
the three K-12 programs\13\ that were merged into DK-12 suffered 
significant cuts from FY05 to FY06. This year's proposed increase does 
little to restore those reductions. In addition, research and 
evaluation activities\14\ have declined each of the past two years and 
are down $25 million overall. Finally, undergraduate education programs 
have also declined over the same period. While workforce development 
programs, such as the Advanced Technological Education, Noyce 
Scholarships, and STEP (a.k.a. Tech Talent), have grown slightly, 
capacity-building programs have fallen appreciably in the past two 
years-for example, the Curriculum, Course, and Laboratory Improvement 
program would decline by $8 million between FY05 and FY07.
---------------------------------------------------------------------------
    \13\ The Instructional Materials Development Program, the Teacher 
Professional Continuum Program, and the Centers for Learning and 
Teaching Program were combined to form the new Discovery Research K-12 
(DK-12) Program in FY06.
    \14\ ``Research and evaluation activities'' refer to the Research, 
Evaluation and Communication Program (REC), which was renamed the 
Research and Evaluation on Education in Science and Engineering (REESE) 
and shifted from a stand-alone program into the new Division of 
Research on Learning in Formal and Informal Settings (DRL).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Homeland Security R&D

Homeland Security R&D at the Department of Homeland Security (DHS)
    The vast majority of R&D at DHS is funded by the Science and 
Technology (S&T) directorate. Proposed funding for S&T is $1.0 billion, 
a decrease of $485 million (33 percent) below the FY06 enacted level. 
This decrease reflects the transfer of almost all nuclear and 
radiological programs to the Domestic Nuclear Detection Office (DNDO), 
which reports directly to the Secretary. In addition, the program to 
develop countermeasures to shoulder-fired anti-aircraft missiles will 
be concluding in FY07. Accounting for these changes, the FY07 request 
is a $47 million reduction (4.5 percent) from FY06.
    S&T directorate funding is split among various technical portfolio 
areas, such as biological countermeasures, standards, critical 
infrastructure protection, and support of DHS component agencies (such 
as Customs and Border Protection and the U.S. Secret Service). A 
complete list of portfolios and their funding is provided in Table 4.
    Within the relatively flat budget, a few new initiatives are 
proposed. An additional $8.3 million is proposed for cyber security R&D 
for Internet security projects, cyber security testbeds and data sets, 
and research on identity management. Also, a Joint Agro-Terror Defense 
Office will be created within the Biological Countermeasures portfolio 
to enhance the interagency coordination of advanced development of 
agro-defense countermeasures.
    A number of portfolios will receive significant decreases. Of 
greatest concern is the 23 percent decrease in the Standards portfolio, 
which is responsible for activities that include coordinating the 
development of metrics for equipment performance and certification, 
protocols for testing and training, and evaluation of equipment. This 
decrease will hamper DHS's ability to provide standards and guidelines 
for existing commercial technologies as well as for novel products 
being developed by other DHS programs. Another area being cut deeply is 
the Emergent and Prototypical Technologies portfolio, a combination of 
basic research on emerging threats and rapid prototyping of new 
technologies. The $18 million (41 percent) decrease in this portfolio 
will limit DHS's ability to tackle potential threats outside the 
existing portfolios, perform basic research for vulnerability 
characterization and countermeasure identification, and quickly address 
DHS-specific requirements for technologies.
    Despite the decrease in funding for the DHS S&T directorate, the 
overall funding devoted to R&D at DHS does not drop appreciably, as a 
substantial increase is requested for DNDO (up $221 million). DNDO now 
includes all the radiological and nuclear countermeasures activities 
formerly within DHS S&T, including development and evaluation of 
detection equipment and forensics, attribution, and standards programs. 
Of the $536 million requested for DNDO for FY07, $103 million ($46 
million above the FY06 level) is for transformational research and 
development projects to be conducted at universities and national 
laboratories and in industry.

Homeland Security R&D at Other Agencies
    Approximately $3.4 billion is proposed for homeland security R&D 
programs in departments and agencies outside of DHS (Table 10). The 
bulk of this funding, $1.8 billion (up 6.3 percent from FY06), is for 
bio-defense programs at NIH, such as basic research on infectious 
microbial agents, applied research on diagnostics, vaccines, and 
therapeutics, and construction of bio-containment facilities. The 
remaining funds (approximately $1.7 billion) go to a number of other 
agencies, such as: EPA, which has been sharply increasing its funding 
for research on detection of chemical and biological agents in the 
water supply, microbial risk assessment and environmental 
decontamination; NSF, for research related to critical infrastructure 
protection, microbial genomics, and a new program for sensor 
technologies; the U.S. Department of Agriculture (USDA), for research 
on animal disease diagnostics and vaccines; DOD for detection systems, 
protective gear, and medical countermeasures for biological and 
chemical agents; and DOE's National Nuclear Security Administration for 
research on detection and attribution of radiological and nuclear 
materials.
    In addition to individual agency programs, a number of cooperative 
efforts between DHS and other agencies exist: NSF and DHS jointly fund 
a cyber security testbed; DHS provides funding to NIST for standards 
work in a number of areas, such as standards for radiation detectors; 
and EPA and DHS co-fund a university center on microbial risk 
assessment.

Issues/Questions Raised by the FY07 Request for DHS

Balance of DHS S&T Programs: Most of the work of the S&T directorate is 
heavily weighted toward development. Relatively little goes to fund 
longer-term, more basic research. As a result, relatively little of the 
funding is available to universities, although DHS S&T does fund 
several university centers. Whether this shorter-range focus is optimal 
for U.S. long-term security has been a matter of debate.

Priorities across Threat Areas: DHS S&T has to balance research 
priorities across a wide range of different kinds of threats--from 
cyber attacks to dirty bombs to foot and mouth disease--as well as 
supporting technology adoption in a wide variety of environments, 
including new inter-operable communications systems for first 
responders and stand-alone laboratories that can safely receive and 
identify unknown hazardous substances. Yet for the first time since DHS 
was formed in FY03, funding for the S&T directorate has decreased. In 
these circumstances, robust risk assessment methodologies both within 
and across portfolios are needed.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Institute of Standards and Technology (NIST)
            NIST's Laboratory Programs
    The FY07 budget requests $467 million for a wide range of research 
conducted at NIST laboratories in Gaithersburg, Maryland, and Boulder, 
Colorado. The request is $67 million (17 percent) above the FY06 
enacted level of $399 million and is $41 million above the FY06 
request. The request also includes $68 million for construction and 
renovation of NIST's scientific facilities.
    The increase in laboratory programs for FY07 comprises 12 
initiatives that span a range of scientific and engineering 
disciplines. Two of the initiatives are major upgrades and enhancements 
of NIST national research facilities: the NIST Center for Neutron 
Research (NCNR) and the Center for Nanoscale Research and Technology 
(CNRT, located within NIST's Advanced Measurements Laboratory). One 
initiative is to expand NIST's existing presence at the National 
Synchrotron Light Source (NSLS) at Brookhaven National Laboratory. The 
other nine initiatives are increases to NIST laboratory and technical 
programs that are directed at solving measurement and other technical 
problems in energy, medical technology, manufacturing, homeland 
security, and public safety.

Issues/Questions Raised by the FY07 Request for NIST

Impact of Proposed Elimination of the Advanced Technology Program 
(ATP): The FY07 budget request proposes to eliminate ATP (funded at $80 
million in FY06). Moreover, ATP funded an estimated $8 million worth of 
R&D conducted at the NIST laboratories in FY06. Therefore, the proposal 
to end ATP could result in a reduction in research funding to the NIST 
laboratories, eating up a portion of the proposed increase under the 
American Competitiveness Initiative.

Impact of Scaling Back the Manufacturing Extension Partnership (MEP) 
Program: The FY07 request for MEP is $46.3 million, which represents a 
56 percent cut from the FY06 enacted level of $106 million. At this 
level, it is unclear how the MEP program would function as a national 
network.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Oceanic and Atmospheric Administration (NOAA)
    The FY07 budget requests $3.7 billion for NOAA, a decrease of $227 
million (six percent) compared to the FY06 enacted level of $3.9 
billion. However, NOAA's FY06 budget includes approximately $600 
million worth of earmarked projects. If these earmarks are removed from 
the FY06 baseline, then the President's budget could be construed as 
proposing an additional $345 million (10 percent increase) for NOAA in 
FY07.
            National Weather Service
    The FY07 budget requests $882 million for the National Weather 
Service (NWS), an increase of $33.6 million (four percent). The 
increase includes $29 million to develop, operate, and maintain a 
variety of warning and forecast systems such as the Tsunami Warning 
Program, the Air Quality Forecasting Program, and the Wind Profiler 
Network which improves tornado, severe storm, and flash flood 
forecasting.
            Satellite Acquisition
    The FY07 budget requests $1.03 billion for satellite programs at 
NOAA, an $82 million (8.6 percent) increase over the FY06 enacted level 
of $952 million. The proposed increase is for procurement and 
construction of the next generation of geostationary and polar weather 
satellites, and it is in line with the original budget plans for these 
satellite systems. In FY07, NOAA expects to let the prime contract for 
its next generation of geostationary satellites, ``GOES-R.'' The 
geostationary satellites provide a constant watch for severe weather 
conditions such as tornadoes, flash floods, hail storms, and 
hurricanes, and they are important for short-term (between real-time 
and two days) weather forecasts. In contrast, NOAA's polar-weather 
satellites are essential for long-term (between three and seven days) 
weather forecasts, tracking of severe weather, and climate 
observations.
            Hurricane Research
    The FY07 budget includes requests for $13 million for high 
performance computing (a 100 percent or $6.5 million increase over FY06 
enacted levels) and also includes $2.5 million in new funds to 
accelerate hurricane research programs. Both requests will help NOAA 
improve its hurricane forecast models, in particular, its models of 
hurricane intensity.

Issues/Questions Raised by the FY07 Request for NOAA

Weather Satellite Program Management: NOAA's next generation polar 
weather satellite program, National Polar-orbiting Operational 
Environmental Satellite System (NPOESS), is currently running as much 
as $3 billion (more than 25 percent) over budget and as many as three 
years behind schedule. Since NPOESS is a joint NOAA-DOD program, this 
large cost increase triggered a review under the DOD's Nunn-McCurdy 
process. The review will finish in May or June. Currently, no increased 
funding is anticipated (or requested) in the FY07 budget as a result of 
the review, but increased funding will be required in future years. 
This could force NOAA to take resources away from other important 
missions at the agency.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


7. Witnesses Questions

    All of the witnesses have been asked to:

        1.  Review the R&D budget request in the context of the 
        Administration's overall priorities in science and technology.

        2.  Describe the mechanisms that the Administration uses to 
        determine priorities across scientific disciplines.

        3.  Describe the mechanisms the Administration uses to 
        coordinate its scientific research and technical development 
        activities with other federal agencies.

    In addition, Dr. Bodman has been asked to:

        1.  Describe how the budget request will contribute to the 
        development of climate change technologies.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Boehlert. This hearing will come to order. I want 
to welcome everyone here today for our first hearing of the new 
year, which is also the first hearing in Congress to bring 
together all the research agencies that will be participating 
in the American Competitiveness Initiative. I want everyone in 
this room and everyone viewing this hearing to remember that 
phrase, American Competitiveness Initiative. This is one of the 
most important topics that can be discussed at any place at any 
time.
    It is a rare thing to think of a budget hearing as a time 
of celebration, but I think that that's how we should view this 
morning's proceedings. For a long time, a long time, many of 
us, particularly on this committee, have been calling for a 
renewed emphasis on research in the physical sciences. The 
commitment that would be demonstrated, not with rhetorical 
feints, but with genuine investments. The eloquent words in the 
State of the Union, recited by the President of the United 
States, had to be followed by meaningful deeds, when the budget 
was submitted by the Congress and the American people, and they 
were.
    Perhaps more importantly, the Nation's leaders in industry 
and higher education have been calling for such an investment, 
because they see it as a must, if the United States is to 
retain its competitive edge. One might say that there has been 
a gathering storm of lobbying on this subject, as an increasing 
number of leaders have issued thundering statements about the 
need to rethink our research and education and energy policies. 
But now that the storm can abate a bit, or at least blow over 
Capitol Hill, because in the Executive Branch our words have 
been heard and they have been heeded. And I want especially to 
thank Dr. Jack Marburger and Secretary Sam Bodman for their 
tireless efforts to bring the American Competitiveness 
Initiative into being. I have to say to Secretary Bodman that I 
didn't think I'd ever see a cabinet officer have such an 
immediate visible and positive impact on a department. I salute 
you, sir.
    And let me just tell everyone, there's a new dynamic and we 
should all be thrilled with that new dynamic. In the past, the 
Science Committee would beat a path to a door of the decision-
makers and say you must, absolutely must, invest more in 
science on the part of the United States Government. And we 
would say to those same leaders of government, you must, you 
must invest more and do it better in providing quality 
educational training, starting at the very earliest level in 
science and math. You must do that.
    And then people like Tom Friedman issue a book and goes to 
number one in the bestseller list. But the new dynamic is this: 
it's not just those of us on the Science Committee promoting 
science, or scientists promoting science, because the people on 
the other end listening, say well, that's sort of self-serving. 
You want to broaden your portfolio. Or you're after your 
special interest. And it's not just the education people saying 
we must invest more in K through 12 science and math education. 
They'd say well, you've got vested interest. The new dynamic is 
that the business community is providing leadership. They are 
engaged, in a sense ``Rising Above the Gathering Storm,'' that 
outstanding report issued by the National Academy of Science. 
Business all over is saying you know what? We've got to be 
involved. And you know what? They have to be involved, and the 
good news is that they are, so I couldn't be happier.
    Now it's our job in Congress to follow through. We're 
calling for leadership, but there better darn well be 
followership, because we've got to be on the same page and 
we've got to move forward and I think we will. I know that 
everyone on this committee will be devoted to that effort. 
We've already been in contact with our colleagues on the 
Appropriations Committee, and Chairman Wolf and Chairman Hobson 
share our enthusiasm, and I couldn't be happier about that. How 
refreshing it is for veterans of Capitol Hill to look up here 
and to see authorizers and appropriators marching hand in hand 
in common cause. That is really refreshing. We all understand 
that the future employment and prosperity of the American 
people are at stake. In my speeches around the country, I say 
the same thing: we're still number one. That's a position I 
like, but we used to be so far ahead of the others that when we 
looked over our shoulder, the second and third place and beyond 
were way back. We could hardly see them even with binoculars. 
Now we can't take a nanosecond to just glance over our 
shoulder, because the competition is breathing down our neck. 
And boy, if that's not a signal, I don't know what is. So we've 
got to move and I'm confident we will.
    On this committee, we will also pass and enact whatever 
authorizing legislation will help make the proposed funding a 
reality both this year and years to come. That's a pledge. 
That's a commitment and it's not just from me, and it's not 
just a Republican Chairman, where the Republicans enjoy the 
majority. It's the Democrats, with Congressman Gordon providing 
real leadership. We're all working together in common cause and 
that is very, very helpful. But I don't want to pass bills that 
are a laundry list of new or duplicative programs that will 
never come into being. I want to focus on a few key issues and 
programs that will help promote and wisely use additional 
appropriations, and I'm sure that we'll be working more 
publicly on all this next month.
    In developing legislation and a hearing agenda, we will be 
looking at the Advanced Energy Initiative as well as the 
American Competitiveness Initiative. The Energy Initiative is 
just as important and just as promising as the efforts to 
increase research funding in the basic sciences, but I remain 
concerned that our nation still lacks a sensible energy policy. 
We still haven't got it right, in my estimation, and we need to 
get beyond the illusion that pouring money into technology 
development, which we need to do, is enough to transform our 
energy portfolio. The market will not adequately value a 
collective need to become more energy independent before prices 
become intolerable. So the Energy Initiative is a necessary but 
hardly sufficient step in the right direction.
    Now while today's hearing is a celebration, I don't want to 
leave the impression that there are no problems with the 
proposed budget. Keep in mind, I'm from the Legislative Branch. 
We want to have our say. I expect that Mr. Gordon won't leave 
that impression any way, but I do have concerns, such as the 
inadequate funding for education programs at the National 
Science Foundation. We've got to deal with that. But we can get 
to those in questions and in other statements, and I won't 
belabor those points now. I think it's important that our main 
message this morning be one of victory, because we need to 
communicate that message to our colleagues concerning the 
American Competitiveness Initiative in reality. We're not going 
to declare victory and go home. We're not going to put up a 
sign, mission accomplished. Rather, we need to think of it this 
way: we won the battle and now it's time to win the war.
    I look forward to working with today's witnesses and with 
all of my colleagues to do just that, and I thank you for your 
indulgence. I went over my five-minute limit, but I have the 
advantage of being the Chair and I control the clock. Mr. 
Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everybody here today for our first hearing of the 
year, which is also the first hearing in Congress to bring together all 
the research agencies that will be participating in the American 
Competitiveness Initiative.
    It's a rare thing to think of a budget hearing as a time of 
celebration, but I think that that's how we should view this morning's 
proceedings. For a long time, many of us have been calling for a 
renewed emphasis on research in the physical sciences--a commitment 
that would be demonstrated not with rhetorical feints, but with genuine 
investments.
    Perhaps more importantly, the Nation's leaders in industry and 
higher education have been calling for such an investment because they 
see it as a ``must'' if the United States is to retain its competitive 
edge. One might say that there has been a ``gathering storm'' of 
lobbying on this subject, as an increasing number of leaders have 
issued thundering statements about the need to rethink our research and 
education and energy policies.
    But now that storm can abate a bit--or at least blow over to 
Capitol Hill--because in the Executive Branch our words have been heard 
and they have been heeded. And I want especially to thank Dr. Marburger 
and Secretary Bodman for their tireless efforts to bring the American 
Competitiveness Initiative into being. I have to say to Secretary 
Bodman that I don't think I ever seen a cabinet officer have such an 
immediate, visible and positive impact on a department.
    Now it's our job in Congress to follow through. And I think we 
will. I know that everyone on this committee will be devoted to that 
effort. We have already been in contact with our colleagues on the 
Appropriations Committee, and Chairman Wolf and Chairman Hobson share 
our enthusiasm--which should come as no surprise given their 
longstanding positions on science funding. We all understand that the 
future employment and prosperity of the American people are at stake.
    On this committee, we will also pass and enact whatever authorizing 
legislation will help make the proposed funding a reality both this 
year and in years to come, and whatever legislation will help ensure 
that any additional funds are spent as wisely as possible. We are 
currently reviewing all the ideas that have been offered up around this 
town, as well as our own, and we will develop bipartisan legislation on 
funding, education and energy.
    But I don't want to pass bills that are laundry lists of new or 
duplicative programs that will never come into being. I want to focus 
on a few key ideas and programs that will help promote and wisely use 
additional appropriations. And I'm sure that we'll be working more 
publicly on all of this next month.
    In developing legislation and a hearing agenda, we will be looking 
at the Advanced Energy Initiative as well as the American 
Competitiveness Initiative. The energy initiative is just as important 
and just as promising as the effort to increase research funding in the 
basic sciences.
    But I remain concerned that our nation still lacks a sensible 
energy policy, and we need to get beyond the illusion that pouring 
money into technology development--which we need to do--is enough to 
transform our energy portfolio. The market will not adequately value 
the collective need to become more energy independent before prices 
become intolerable. So the energy initiative is a necessary, but hardly 
sufficient step in the right direction.
    Now while today's hearing is a celebration, I don't want to leave 
the impression that there are no problems with the proposed budget. I 
expect that Mr. Gordon won't leave that impression anyway. But I do 
have concerns, such as the inadequate funding for education programs at 
the National Science Foundation (NSF). But we can get to those in 
questions and in other statements, and I won't belabor those points 
now.
    I think it's important that our main message this morning be one of 
victory because we need to communicate that message to our colleagues 
to turn the American Competitiveness Initiative into reality. We're not 
going to ``declare victory and go home.'' Rather, we need to think of 
it this way: we've won the battle, now it's time to win the war.
    I look forward to working with today's witnesses and with all my 
colleagues to do just that. Thank you.

    Mr. Gordon. Thank you, Mr. Chairman. Let me first 
compliment you on your very sincere passion and energy into 
this competitive agenda. You have been tireless in your--not 
only your rhetoric, but also trying to make things happen, and 
I say that sincerely. I also share your concerns about the lack 
of funding, in terms of the K to 12 science portion, for 
education, within the NSF, but simply looking at this budget, I 
can't share your optimism. I am concerned that we're going to 
have a situation similar to when the President rolled out his 
lunar Mars mission. It was a big splash one day, but then the 
money didn't come and we haven't heard anything about it since. 
So I guess, what did your--our President say, for us to verify? 
I think we're going to have to do our part to try to verify and 
make sure that there is follow up. So I want to join you in 
welcoming our distinguished panel to this morning's hearing. 
I'm glad to see all of you again. However, I think it's 
unfortunate that we have all of you here for just one day of 
hearings. I'm afraid that the Committee is once again 
acquiescing its oversight responsibility not holding individual 
hearings for each of the five important agencies before us 
today.
    The good in this budget request is the proposed increase in 
the Federal R&D. The bad news is that that increase is less 
than the projected rate of inflation. So once again we're 
investing less than the rate of inflation at a time when many 
of our international competitors are increasing their 
investment in science and technology at faster rates than ever 
before. Even more alarming is the fact that the 
Administration's science and technology investment is actually 
decreasing. The Federal S&T budget is the best method to 
evaluate research funding. S&T represents the amount of funding 
directed toward creation of new knowledge and technologies as 
opposed to development activities. Dr. Marburger himself has 
stated that the Federal R&D is an imperfect measure of 
evaluating science and technology funding, and most agree that 
the S&T is the correct metric.
    A lot of numbers will be thrown around this morning to put 
a pretty face on the budget, but the fact of the matter is that 
the Administration's own table, 5-2, clearly shows, and I'll 
show you here, a one percent decrease in the Federal S&T 
investment for fiscal year 2007. And knowing the fact and being 
aware that Dr. Marburger's statements in recent budget 
hearings, in the spirit of the Olympics, Dr. Marburger, I would 
like to nominate you for a gold medal. The category would be 
statistical gymnastics for making a one percent decrease look 
like a one percent increase, despite the fact that it's almost 
$600 million less than fiscal year 2006 funding and $1 billion 
less than the Administration requested last year, according to 
their own budget document. So in the same breath, the 
Administration decries the earmarks in last year's budget, but 
then counts earmarks when showing how much the S&T budget has 
increased during the Administration, from 2001 to 2007.
    As for the National Science Foundation fiscal year 2007 
funding, I'm very pleased that the Administration has proposed 
an eight percent increase. In 2002 the Congress passed and the 
President signed into law an authorization bill doubling NSF 
funding over five years. However, the President's request for 
NSF since that signing ceremony are still $3.8 billion short of 
that commitment. And when we dig deeper, we find, at least in 
my opinion, misguided priorities. I was very disappointed to 
see a continued de-emphasis of the K to 12 science education at 
the National Science Foundation. Even as the NSF budget grows, 
the Administration proposes a seven percent cut to the K to 12 
programs, on top of already 37 percent cuts. NSF has been a 
leader in improving science and math education for over 50 
years. I do not understand how ignoring NSF's expertise in 
education helps our competitiveness.
    From my point of view, competitiveness is about keeping our 
good jobs and creating even more and better jobs. Yet the 
Administration proposes to cut MEP funding by 56 percent. MEP 
is the only federal program designed specifically to assist 
small manufacturers. MEP is the only program that has a proven 
track record in creating and retaining manufacturing jobs. 
We've lost 2.8 million manufacturing jobs since 2001. This year 
alone we've lost 55,000 manufacturing jobs. I don't see how 
cutting MEP by 56 percent, and NIST overall by 23 percent, 
increases American competitiveness. The bipartisan National 
Association of Governors has wholeheartedly endorsed the MEP 
Program. So yes, there are winners, but unfortunately there are 
also many losers.
    Now hopefully, as our nation becomes more familiar with the 
Augustine Report, we will all recognize that when we talk about 
science funding, it's more than just welfare for people in lab 
coats looking through microscopes. It's not an academic 
exercise, knowledge for the sake of knowledge. It's about jobs, 
competing in the global, in our kids, in our grandkids' 
standard of living.
    As the Augustine Commission pointed out, ``the thrust of 
our findings is straightforward. The standard of living of 
Americans in the years ahead will depend to a large extent on 
the quality of jobs that they are able to hold. Without quality 
jobs, our citizens will not have the purchasing power to 
support the standard of living which they seek and to which 
many have become accustomed. Tax revenues will not be generated 
to provide for strong national security and health care, and 
the lack of a vibrant domestic consumer market will provide a 
disincentive for either U.S. or foreign companies to invest in 
jobs in America.'' That means we must invest in S&T, but I'm 
afraid this budget simply does not make an adequate investment.
    However, bipartisan legislation in the Senate includes many 
of the recommendations of the Augustine Commission. I've also 
introduced legislation that will incorporate the education and 
energy recommendations of the Augustine report. So I'm hopeful 
that we can mount a bipartisan, bicameral effort, together with 
Executive Branch cooperation, to improve this budget into 
something that truly helps our nation remain strong 
economically now and long into the future. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Thank you Mr. Chairman. I join you in welcoming our distinguished 
panel to this morning's hearing. It's good to see you all again. 
However, I do think it's unfortunate that we have you all here for only 
one day of hearings.
    I'm afraid that this committee is once again acquiescing its 
oversight responsibilities by not holding individual hearings for each 
of the five important agencies in front of us today.
    The good news in this budget request is the proposed increase in 
federal R&D. The bad news is that that increase is less than the 
projected rate of inflation. So, once again, we are investing less than 
the rate of inflation at a time when many of our international 
competitors are increasing their investment in science and technology 
at faster rates than ever before.
    Even more alarming is the fact that the Administration's science 
and technology investment is actually decreasing. The federal S&T 
budget is the best method to evaluate research funding. S&T represents 
the amount of funding directed towards the creation of new knowledge 
and technologies as opposed to development activities.
    Dr. Marburger himself has stated that federal R&D is an imperfect 
measure for evaluating science and technology funding and most agree 
that S&T is the correct metric.
    A lot of numbers will get thrown around this morning to put a 
pretty face on the budget but the fact of the matter is that the 
Administration's own Table 5-2 clearly shows a one percent decrease for 
Federal S&T investment for FY07 (see attachment).
    Knowing that fact and being aware of Dr. Marburger's statements in 
recent budget briefings, in the spirit of the Olympics, I'd like 
nominate to Dr. Marburger for a gold medal in the category of 
statistical gymnastics for making a one percent decrease look like a 
one percent increase despite the fact that it's almost $600 million 
less than FY06 funding and $1 billion less than what the Administration 
requested last year according to their own budget documents.
    So, in the same breath, the Administration decries earmarks in last 
year's budget but then counts earmarks when showing how much the S&T 
budget has increases during their administration from 2001-2007.
    As for NSF FY07 funding, I'm glad that the Administration has 
proposed an eight percent increase. In 2002, the Congress passed, and 
this President signed into law, an authorization bill doubling NSF 
funding over five years. However, the President's requests for NSF 
since that signing ceremony are still $3.8 billion short of their 
commitment.
    When we dig deeper we find, at least in my opinion, misguided 
priorities. I was very disappointed to see a continued de-emphasis of 
K-12 science education at NSF. Even as the NSF budget grows, the 
Administration proposes a seven percent cut to K-12 programs.
    NSF has been a leader in improving science and math education for 
over 50 years. I do not understand how ignoring NSF's expertise in the 
education component of the President's initiative helps 
competitiveness.
    From my point of view competitiveness is about keeping our good 
jobs and creating even more and better jobs. Yet, the Administration 
proposed to cut MEP funding by 56 percent. MEP is the only federal 
program designed specifically to assist small manufacturers. MEP is the 
only program with a proven track record in creating and retaining 
manufacturing jobs right now. We have lost 2.8 million manufacturing 
jobs since 2001. This last year alone, we lost another 55,000 
manufacturing jobs.
    I don't see how cutting MEP 56 percent, and NIST overall by 23 
percent, increases American competitiveness. The bipartisan National 
Association of Governors has wholeheartedly endorsed MEP.
    So Yes, there are winners but unfortunately there are too many 
losers.
    That's the reason we have hearings and hopefully as we go through 
the legislative process we be able to realign some of these priorities 
in ways that increase our nation's competitive edge.
    As people become more familiar with the Augustine Report, they will 
recognize that when we talk about science funding, it's more than just 
welfare for people in lab coats looking though microscopes. It's not an 
academic exercise--knowledge for the sake of knowledge--it's about 
jobs, competing in the global market and our kids and our grandkids' 
standard of living.
    As the Augustine Commission pointed out, ``The thrust of our 
findings is straightforward. The standard of living of Americans in the 
years ahead will depend to a very large degree on the quality of the 
jobs that they are able to hold. Without quality jobs our citizens will 
not have the purchasing power to support the standard of living which 
they seek, and to which many have become accustomed; tax revenues will 
not be generated to provide for strong national security and health 
care; and the lack of a vibrant domestic consumer market will provide a 
disincentive for either U.S. or foreign companies to invest in jobs in 
America.''
    That means we must invest in S&T. But I'm afraid this budget simply 
does not make an adequate investment.
    However, bipartisan legislation in the Senate includes many of the 
recommendations of the Augustine commission. I also have introduced 
legislation that will incorporate the education and energy 
recommendations of the report.
    I hope we can mount a bipartisan, bi-cameral effort together with 
executive branch cooperation to improve this budget into something that 
truly helps our nation remain strong economically now and long into the 
future.
    Thank you and I yield back to the Chairman.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Boehlert. Thank you very much, particularly for 
your close. Eloquent words and I think you'll find that we're 
all in agreement with those words. And let me observe this. I, 
too, wish we had just more than one hearing with this very 
distinguished panel, but guess what? The reality is, these 
people, everyone wants their time. We're getting them first and 
we're having a good opportunity for a thorough dialogue, a 
meaningful dialogue, and then, as in all previous years, we'll 
have our subcommittees go into play and deal with each of the 
agencies in a meaningful way.
    Secondly, and I know this because we've participated in 
many joint sessions where we have one or more of these 
distinguished guests sitting down over a cup of coffee in the 
office and after we get talking about baseball--tomorrow's the 
first day of spring training--then we get down to serious 
business. But these are very busy people and we're fortunate to 
have them. These are the lead-off hitters. We're anxious to 
hear from them and I think today will be a very important start 
of something really significant, not just for this 
Administration or this committee, but for our beloved country.
    [The prepared statement of Mr. Calvert follows:]

               Prepared Statement of Chairman Ken Calvert

    I welcome our honored witnesses today and look forward to their 
testimony. In the State of the Union Address, the President committed 
$5.9 billion in the upcoming fiscal year, and more than $136 billion 
over ten years to increase our nation's investment in R&D, to 
strengthen education and to encourage entrepreneurship and innovation. 
The centerpiece of the American Competitiveness Initiative will help to 
ensure our global leadership by doubling over 10 years, our investment 
in key federal agencies that support basic research in the physical 
sciences and engineering. Your agencies are the recipients of this 
critical investment and now have a mandate to keep our country 
competitive globally.
    We all expect this to be a tough budget year, but I believe there 
is strong bipartisan support for this initiative and I plan to work 
with the President and my colleagues to ensure strong funding for our 
science programs and science agencies, including NASA, in order to 
retain our global competitiveness and to grow our economy through the 
next generation.

    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    The President's FY 2007 budget request reflects several pressing 
national priorities, including the continuing war on terrorism, 
facilitating economic stimulus, and maintaining fiscal responsibility. 
The Congress will have many difficult choices to make in order to 
balance these priorities, control the deficit and implement our 
considerable domestic spending commitments.
    In making these choices, we must not overlook the fact that 
scientific research and development underpins all of these priorities. 
Scientific research and development forms the foundation of increased 
innovation, economic vitality and national security. Scientific 
research is an investment that promises, and has historically 
delivered, significant returns on that investment.
    I strongly support the President's call to maintain the competitive 
ability of the United States in an increasingly innovative world 
economy. His American Competitiveness Initiative (ACI) requests focused 
funding on areas that will improve STEM education and promote domestic 
innovation and economic productivity.
    Our investment in physical science research has been slipping, and 
our overall national investment in research and development is at a 
rate much slower when compared to other growing economies. Furthermore, 
Congress has actually reduced the appropriated funds for the physical 
sciences in recent years, compared to the request.
    I want to particularly emphasize three science research and 
development programs that have garnered the attention of the President 
and deserve Congress' utmost attention: the National Institute of 
Standards and Technology, the National Science Foundation, and the 
Department of Energy's Office of Science.
    I am pleased that the budget request includes $467 for the core 
NIST laboratory programs arid facilities in FY07, a 17 percent increase 
over FY06 enacted. This increase includes $72 million for new research 
initiatives and enhancements to NIST's user facilities. I believe it is 
very important to support this request, as it represents a significant 
yet sensible investment in programs that give the U.S. a significant 
head start in several fields of emerging technology in quantum physics 
and nanotechnology that will ultimately have great economic impacts.
    While I am pleased that the President has included NIST labs in his 
ACI, I am very concerned about other manufacturing programs at NIST. 
The President's FY 2007 budget request cuts the Manufacturing Extension 
Partnership (MEP) program by over 50 percent to $46 million. I have 
worked very hard over the years to help my colleagues in Congress 
understand that MEP is vital to retaining American competitiveness and 
American jobs, and I believe they appreciate the value of this program. 
Furthermore, I continue to support the Advanced Technology Program 
(ATP) and am disappointed that the Administration has again included no 
funds for the program in the budget request. ATP is NIST's only 
extramural research grant program, funding high-risk, high-return 
technology research and development on a cost-shared basis with U.S. 
industry, and as such can make a major contribution to the American 
Competitiveness Initiative.
    The NSF's FY 2007 budget request of $6.0 billion is an eight 
percent increase over FY 2006 appropriations, the first year in a ten-
year commitment to double its budget. This marks a shift from previous 
budget requests, as the NSF budget has been stagnant in recent years, 
and even cut in FY 2005. The request is still well below the authorized 
funding level necessary to complete the commitment Congress made to 
double NSF funding in 2002, but I am confident that this request is the 
start of a new doubling path that we can follow.
    While I am heartened by the commitment the Administration's request 
shows for the fundamental research budget at NSF, I would like to 
register my concern that the education programs at the Foundation have 
not been included in the ACI. NSF is the primary federal supporter of 
science and math education; it underwrites the development of the next 
generation of scientists and engineers. In the FY 2007 budget request, 
many of the education programs at the K-12 and undergraduate level will 
be cut. I am particularly concerned about the trend of the current 
budget request that restructures the Education and Human Resources 
(EHR) budget at the Foundation and eliminates three programs critical 
to our nation, including the Math and Science Partnership program. 
These budget choices seriously undercut the ACI's goals to improve math 
and science education and to ensure that America has an educated 
workforce capable of competing in the global economy.
    The Department of Energy's Office of Science funds 40 percent of 
our nation's physical science research. To maintain our economic, 
technical, and military preeminence, the Federal Government must 
continue to support research in alternative energy sources, 
nanotechnology and supercomputing. I am pleased that the Office of 
Science is included in the President's ACI and that the FY 2007 budget 
request for the Office of Science is $4.1 billion--an increase of 14 
percent from the FY 2006 enacted level. Last year the Office endured 
significant cuts that, in part, led to layoffs and the delay of many 
important instruments. As part of the American Competitiveness 
Initiative, the Office of Science is not only important to the future 
of U.S. science, but also our competitiveness and energy security.
    FY 2007 will be another tough budget year. Significant sacrifices 
and compromises in spending must be made. We must not, however, 
sacrifice the research and education which future generations will need 
to ensure their economic prosperity and domestic security. I look 
forward to working with my colleagues and the witnesses testifying 
today to bolster American research and education.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss the President's FY07 Budget for research and 
development. Today's hearing serves as an opportunity for oversight of 
certain departmental programs.
    Although I am pleased with the Administration's strong commitment 
to the FutureGen Initiative and the Biofuels Initiative, I am 
disappointed to learn that important jobs programs were severely cut 
and the fossil energy research and development budget was decreased.
    First, as part of the Administration's ``American Competitiveness 
Initiative,'' the President's budget proposes significant increases to 
support basic research in physical sciences for the Department of 
Energy (DOE) Office of Science, National Science Foundation (NSF) and 
parts of the National Institute of Standards and Technology (NIST). 
While I am pleased there are increases in this area, the majority of 
science and technology programs are faced with significant losses in 
the FY07 budget. For instance, the overall federal science and 
technology budget has been targeted for a decrease again this year by 
the Administration.
    Competitiveness is about job creation and retention. Yet, the 
single best government program to provide immediate help to U.S. 
manufacturers, the Manufacturing Extension Program (MEP), is severely 
cut again this year. MEP is the only federal program with a proven 
track record in creating and retaining manufacturing jobs; yet, the 
Administration proposes to cut MEP by 56 percent. Annually, the 
Illinois Manufacturing Extension Center (IMEC) provides assistance to 
about 450 small and mid-sized manufacturers. These companies reported 
an average cost savings of $179,000 with IMEC's assistance. Year after 
year, MEP Centers struggle to survive rather than focus on what they do 
best: helping businesses increase efficiency and productivity in order 
to be competitive in the global marketplace.
    Additionally, the Advanced Technology Program (ATP) is targeted for 
elimination. Both MEP and ATP have widespread Congressional and private 
sector support because they help in job creation now and in the future 
and reduce the loss of jobs overseas. The lack of funding for these 
jobs programs shows complete disregard for important domestic 
priorities, such as maintaining high-skill, high-wage jobs for hard 
working Americans.
    Second, the Department of Energy's Fossil Energy Research and 
Development programs make prudent investments in long-range research 
and development that help protect the environment through higher 
efficiency power generation, advanced technologies and improved 
compliance and stewardship operations. These activities safeguard our 
domestic energy security. This country will continue to rely on 
traditional fuels for the majority of its energy requirements for the 
foreseeable future, and the activities funded through this account 
ensure that energy technologies continue to improve with respect to 
emissions reductions and control and energy efficiency. The Fossil 
Energy Research and Development program impacts my congressional 
district because the coal industry is of great importance to the 
economy and livelihood of my constituents in Southern Illinois. 
Therefore, I am disappointed to learn that coal programs within fossil 
energy and research and development received $330 million in FY07, a 
decrease of $46 million from FY06. I have been a strong advocate for 
developing technology that focuses on carbon sequestration and am proud 
of the $7.6 million increase it received in the President's budget. 
However, I would like to see a future increase of advanced research and 
coal-based fuel programs and will work with my Democratic and 
Republican colleagues to accomplish these goals.
    Third, I applaud the Administration's strong commitment to launch a 
public-private partnership, FutureGen, to develop a coal-based facility 
that will produce electricity and hydrogen with essentially zero 
atmospheric emissions. This budget includes $54 million in FY07 and 
proposes an advance appropriation of $203 million for the program in 
FY08. I am committed to working with the Department of Energy, the 
Committee, and appropriators from both sides of the aisle to secure 
funding for FutureGen. I strongly believe the project is a great 
national investment and Illinois stands ready to provide the resources 
and expertise needed to operate this state-of-the-art coal-fired power 
plant.
    I have led the effort to locate FutureGen in Illinois, including a 
bipartisan effort in the House to secure funding for the project. The 
Illinois delegation has sent a letter to Secretary Bodman, expressing 
our strong support for locating the FutureGen project in Southern 
Illinois.
    Lastly, the FY07 budget proposes $149.7 million for a Biomass and 
Biorefinery Systems Research and Development program to support the new 
Biofuels Initiative to develop cost competitive ethanol from cellulosic 
materials (agricultural wastes, forest residues, and bioenergy crops) 
by 2012. With the enactment of the Energy bill last August, the 
Renewable Fuels Standard (RFS) was signed into law, and it is expected 
to double ethanol production and use by 2012. Illinois ranks second in 
U.S. corn production and corn grown and Illinois is used to produce 40 
percent of the ethanol consumed in the United States. We are in a 
unique position to service this demand. I support the Biofuels 
Initiative because it will boost ethanol production in my state, and 
will work towards achieving the ultimate goal of reducing our 
dependence on foreign sources of oil.
    I welcome our panel of witnesses and look forward to their 
testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member.
    I would like to welcome all of the witnesses who are here today. 
The agencies you represent shape our federal science and technology 
enterprise.
    For the fourteen years that I have been a Member of Congress, I 
have advocated for federal leadership in S&T and sustained, strong 
federal investment in agencies such as the Department of Energy, 
Department of Commerce, National Science Foundation and the Department 
of Homeland Security.
    It is unfortunate that the current federal leadership has 
overlooked the potential of the physical sciences when it comes to 
national prosperity. While the biological sciences have received 
funding increases in recent years, the physical sciences have not been 
supported. As a result, our national competitiveness has suffered.
    The President's recent State of the Union address contained 
promising language suggesting that a more favorable science budget 
authority is on the horizon. I am interested in the details.
    The details will reveal the true commitment--or lack thereof--when 
it comes to support of the physical sciences.
    Again, I thank all of the witnesses for coming today to discuss 
details with us. I know you walk a fine line of science advocacy that 
can be particularly challenging during years of budget constraint. I 
appreciate your leadership and encourage you to continue to take a 
stand for science.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    I thank Chairman Boehlert and Ranking Member Gordon for holding 
this important hearing today, and I thank our distinguished panel of 
witnesses for making the time to be here.
    In his State of the Union address, President Bush said some things 
that sounded pretty good--he proposed an American Competitiveness 
Initiative and said we need to break our addiction to oil. 
Unfortunately, this budget request does not live up to the lofty 
expectations set in that address. Instead, it cuts funding for other 
science and technology programs to fund the Initiative, doesn't invest 
sufficiently in the kind of energy programs we will need to break our 
addiction to oil, falls short of what is needed to create an educated 
and skilled workforce for the future, proposes to kill the very federal 
programs which are able to create jobs, and even places its funding 
initiatives in peril by coupling them with cuts to popular programs 
that Congress is likely to restore.
    Despite a purported focus to end our oil addiction, the budget for 
some programs with the Energy Efficiency and Renewable Energy office 
would decrease by 18 percent. Increases in programs such as solar and 
biomass come at the expense of wind, down two percent; energy 
efficiency, down 13 percent; weatherization, down 27 percent, and 
hydropower and geothermal, which are eliminated. The NSF Math and 
Science Partnerships Program is cut by 27 percent, and the 
undergraduate education program is reduced seven percent. These 
reductions, coupled with the President's proposal to eliminate 42 
education programs and cut the Department of Education budget by the 
largest dollar amount ever, are incompatible with the President's 
rhetoric about the importance of educating our future workforce.
    Two of the most effective government programs at helping to create 
and maintain high tech jobs in the U.S. are the Manufacturing Extension 
Partnership (MEP) Program and the Advanced Technology Program (ATP). In 
a departure from the MEP authorization bill passed by this committee 
last year, the budget would cut the funding for the program by 56 
percent. And once again, like a broken record, the budget proposes 
eliminating ATP. This year the rationale is that the program isn't 
needed ``due to the growth of venture capital and other financing 
sources.'' While VCs raised a great deal of money last year, their 
investments did not go up appreciably, and in 2005, VCs cut their seed 
funding by 54 percent from the 2004 level, from $118.3 million down to 
$54.3 million. This is the stage of technology development that ATP 
funds, and it is clearly needed to fill a growing gap in private sector 
funding.
    Finally, I am worried that in the shell game that this budget is, 
DOE science will ultimately be short changed. The budget is able to 
increase funding for this by making unrealistically low requests in 
other areas, such as the Army Corps of Engineers budget. Congress is 
sure to restore the Corps funding, and since those programs are in the 
same appropriations bill as the DOE research funding, I see serious 
obstacles to getting the total research funding appropriated.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Chairman Boehlert and Ranking Member Gordon, thank you for hosting 
this hearing. Dr. Marburger, Dr. Bodman, Dr. Sampson, Dr. Bement, and 
Dr. McQueary, thank you for taking the time to share your perspectives 
on the science-related components of the President's annual budget.
    Many of us were delighted to hear President Bush declare a national 
focus on science and math education and a renewed interest in 
cultivating an innovative workforce in the United States. As a co-
sponsor of Congressman Gordon's three bills to implement the Augustine 
Report recommendations, I am strongly supportive of efforts to get our 
nation's STEM education and workforce back on pace.
    However, I am saddened to realize that many of the same budget cuts 
proposed last year in the area of science have been again included in 
the President's budget request. In particular, the funding for the 
Manufacturing Extension Partnership program, an invaluable program that 
helps small manufacturers improve productivity through new technologies 
has been slashed by 56 percent.
    While the Department of Energy's Efficiency and Renewable Energy 
Resources line item has remained relatively level in this budget, I am 
aware that major energy efficiency programs, including LIHEAP, 
weatherization and electricity have seen significant cuts in an effort 
to boost up other programs. I look forward to discussing these choices 
as well during this hearing.
    Finally, I am greatly concerned with funding for the National 
Earthquake Hazard Reduction Program (NEHRP) because my congressional 
district resides along the New Madrid fault line. While it appears that 
portions of the NEHRP budget have been increased, NIST, the lead agency 
for NEHRP is funded at about $10 million below the authorized level.
    Thank you for your time today. I look forward to hearing your 
testimony.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    Chairman Boehlert, Ranking Member Gordon, thank you for organizing 
this important hearing to discuss the federal research and development 
budget for the 2007 fiscal year. Clearly, you have compiled an 
impressive panel of witnesses from some of the top agencies affected by 
this budget. The five panelists here represent some of the brightest 
and hardest working minds in America and I look forward to working with 
all of them in the future to improve our nation's scientific and 
technological capabilities.
    I wholeheartedly support the work of the science community, and the 
goal of President Bush's ``American Competitiveness Initiative.'' In 
spite of claims that this 2007 budget includes $5.9 billion for this 
initiative, however, the picture for science and technology looks 
bleak. $4.6 billion of the $5.9 billion simply extends the existing 
research and development tax credit. I applaud the increases in basic 
research at the DOE, NSF and NIST, but I am upset that President Bush's 
Administration decided it was necessary, in order to pay for these 
increases, to make severe cuts to other research areas, including 
applied research.
    Overall, when you exclude research for weapon systems (called the 
Federal Science and Technology Budget), the budget for research is 
actually cut by one percent.
    As Chair of the Congressional Children's caucus, I am especially 
aware of the effect the government's budget can have on children. Cuts 
across the board in the President's budget are especially hurtful to 
our children, including to Head Start, No Child Left Behind, and 
children's health care, will undermine the President's goals of 
ensuring our country remains a competitive nation in the global economy 
into the future. A good amount of money has been redistributed to help 
science and math education, but those truly concerned with the 
preservation of our technological dominance on the world stage agree 
that we must go much further to help the advancement of our children, 
especially young women and minorities.
    Further, this Administration's budget continues to pass record 
deficits on to our children and continues the same bad choices that 
have led to huge deficits and mounting debt during the last four years. 
For the fourth year in a row, the Administration's budget contributes 
to record deficits, and offers no real plan to put the budget in 
balance. This deficit hasn't materialized because our Administration 
has invested so much into the science and technology budget; instead, 
money is funneled to fund tax cuts for the rich. Sadly, with the 
exception of a few well deserving agencies, the overall budget does not 
fund programs that advance our future interests. I strongly agree with 
Ranking Member Gordon's comment that although recognition was given in 
the State of the Union address to the importance of the research and 
development budget, the rhetoric does not match the reality.
    The National Institute of Standards and Technology (NIST) FY07 
request is also well below its authorized level. I am appalled by the 
Administration's effort to slash funding to the Manufacturing Extension 
Program (MEP) and eliminate the Advanced Technology Program (ATP) in 
the National Institute of Standards and Technology (NIST) budget. The 
MEP is a successful federal/State partnership designed to help small 
manufacturers retain their competitive edge. The Administration's 
request of $46.8 million is less than one-half of what is required to 
maintain a fully operational national network of MEP Centers. MEP helps 
smaller manufacturers take advantage of the latest technology. 
Similarly, the ATP provides grants to companies for pre-competitive 
research; this program is now being completely eliminated from the Bush 
Administration budget. This is no way to help the crisis we face in the 
great loss of manufacturing jobs in this nation. In spite of these 
tremendous job losses, this Administration chooses to basically 
eliminate two successful government job creation programs. I find this 
kind of fiscal mismanagement to be baffling, and hope our committee can 
address some of these problems forward.
    Four years ago, the President signed P.L. 107-368, doubling the 
National Science Foundation (NSF) funding over five years. 
Unfortunately, the requests for NSF since the signing ceremony have 
been lackluster at best. As a result of these deficient funds, NSF is 
still $3.8 billion (39 percent) below its FY 2007 authorized target.
    Shortly after this year's horrific hurricane season ended, we sat 
in this room during a hearing and heard how the only agency that 
performed well during the response to Hurricane Katrina was the 
National Oceanic and Atmospheric Administration (NOAA). The President 
has rewarded their hard work by again cutting their budget, down to 
$3.68 billion from $3.85 billion in FY06 and from $3.91 billion in 
FY05.
    Research and development cuts in this budget also target programs 
within the Federal Energy Efficiency and Renewable Energy Office at the 
Department of Energy (an 18 percent cut) and the Environmental 
Protection Agency (a seven percent cut).
    Despite the great deals of flaws in the President's budget and the 
woeful lack of funding for R&D, I remain hopeful. I remain hopeful 
because we still have many tremendous R&D programs that can impact the 
lives of the American people in so many different ways. I look forward 
to seeing our scientific community continue to make advances and 
improve upon our technological infrastructure. I also look forward to 
working with fellow Members of the Science Committee in defending these 
programs for which we all care so much. I am excited to hear from our 
distinguished panel about how their agencies will accomplish the lofty 
standards they have set for themselves, the achievement of which we are 
all so proud. Thank you very much.

    Chairman Boehlert. And with that, let me introduce our 
distinguished panel; Dr. John H. Marburger III, Director of the 
Office Science and Technology Policy, affectionately referred 
to as Science Advisor to the President; Dr. Samuel W. Bodman, 
Secretary of Energy; Dr. David A. Sampson, Deputy Secretary of 
Commerce; Dr. Arden L. Bement, Jr., Director, National Science 
Foundation; and for his farewell presentation, Dr. Charles E. 
McQueary, Under Secretary for Science and Technology, 
Department of Homeland Security.
    And, Dr. McQueary, let me say to you, I know you announced 
last week that you've submitted your resignation. We are going 
to miss you and we thank you for your significant contribution 
to shaping responsible public policy and having that 
responsible public policy implemented. It has been a delight to 
work with you and we wish you well.
    With that, gentlemen, let's go forward. We'll put the clock 
on but ignore the lights. I mean, but just when the red light 
goes on after the five minutes, just say well, maybe I better 
think about wrapping it up. And I'm always offended. You know, 
we have some of the greatest talent in the world. Nobel 
laureates before the Committee. We have some of the most 
dedicated and effective public servants in the world, cabinet 
officers and people who are developing public policy for the 
Nation, and we ask them on Capitol Hill to summarize, in 300 
seconds or less, what they want to tell us. So I couldn't agree 
more with Bart Gordon. I mean, we'd liked to have more of your 
time, but we've got to deal with the reality. With that, Dr. 
Marburger, you're first up.

  STATEMENT OF DR. JOHN H. MARBURGER III, DIRECTOR, OFFICE OF 
                 SCIENCE AND TECHNOLOGY POLICY

    Dr. Marburger. Thank you very much, Mr. Chairman and 
Ranking Member Gordon and Members of the Committee. Thanks for 
inviting me to testify again this year on the President's 
research and development budget, and I have submitted a written 
statement, a very detailed statement for the record, so I can 
be brief. And now, thanks to your remarks, Mr. Chairman, 
everyone here does know that President Bush's State of the 
Union message last month spoke to the importance of basic 
research for America's future economic strength, and launched a 
new American Competitiveness Initiative in that speech.
    The initiative includes multi-year increases in funding for 
three agencies, whose programs support high-impact basic 
research in the physical sciences: the National Science 
Foundation, the Department of Energy Office of Science, and the 
National Institute of Standards and Technology. And the figure 
that's showing on your screen shows how their budgets would 
increase over a decade. These prioritized agencies enjoy a 
collective increase of 9.3 percent in this fiscal year 2007 
request, and a commitment to double their total over the next 
decade, which would require an average increase of seven 
percent per year.
    This initiative also includes enhanced incentives for 
corporate investments in research, improvements in immigration 
policy for highly qualified technical workers and students, 
programs to improve the quality of math and science education, 
experience, and pre-college education, and expansion of worker 
training programs for 21st century careers. There's a copy of a 
brochure describing this initiative. It's been distributed to 
the Members of the Committee and others. It's widely available. 
And I direct your attention to that brochure for further 
information, although we will certainly answer questions about 
it.
    The President also announced the Advanced Energy Initiative 
in his State of the Union message, and my colleague, Secretary 
Bodman, will have more details about that in his testimony.
    I want to emphasize that while this initiative identifies 
priorities, it does not abandon or diminish the importance of 
other areas of science and technology, such as biomedical 
research or space science. The case for increased funding for 
the ACI priority agencies is documented in many reports and 
studies that link strong physical sciences research to progress 
in all fields. And I want to thank the organizations like the 
President's own Council of Advisors on Science and Technology, 
the Council on Competitiveness, and the National Academy of 
Sciences for their excellent reports and advocacy on themes 
that the President's initiative addresses.
    Your own actions, Mr. Chairman, as well as those of other 
Committee Members and Members from both parties of the House 
and the Senate, have added significantly to the favorable 
reception of this initiative and will continue to be important 
as it works its way through Congress. My colleagues on today's 
panel will speak to the impact of this initiative on their 
agencies, but the President's proposal maintains significant 
strength across the breadth of science and adds new funding 
where it is most needed to sustain America's highly successful 
innovation economy.
    Now a superficial examination of the R&D section of the 
President's fiscal year 2007 budget will show that funding 
proposed for some key science areas is lower than appropriated 
amounts for the current year, fiscal year 2006. In nearly all 
cases, this difference is due to the removal of so-called 
earmarks that agencies did not request for fiscal year 2006 and 
that do not contribute to the highest priority needs of their 
programs. The budget proposal before you responds to agency 
priorities as determined by careful planning and consultation 
with scientists, engineers and educators who are experts in 
their fields. This Administration believes strongly that the 
best way to spend public funds for science is through a process 
that judges the merits of proposals from scientists by 
independent panels of experts. I ask this committee's 
assistance in ensuring the best use of these scarce dollars for 
research upon which our future quality of life depends.
    Well, overall, this year's R&D budget exceeds last year's 
by 2.6 percent, establishing a new all-time high of $137 
billion, an increase of 50 percent since 2001, and the figure 
that's now on the screen shows the trend in non-defense R&D in 
constant dollar outlays. It is true that there is a more 
meaningful measure of our investment in science and technology, 
the Federal Science and Technology budget category. As the 
Ranking Member noted, that category is down by one percent, 
relative to 2006 appropriations, but it's up by 3.7 percent 
when earmarks are set aside. The request number, by the way, 
shows--which is a slightly different number. We need more gold 
medals for statistics. There's many of us that have to be 
experts in order to interpret this budget. But the reason for 
the specific number that Congressman Gordon referred to is due 
to a change in the category of applied research within NASA for 
the Crew Exploration Vehicle to development. As that program 
matures, the nature of the work changes and there was more than 
$2 billion transfer in categories that affect the bottom line 
FS&T number.
    I regret to say that earmarks in the category, Federal 
Science and Technology, are now estimated to be $2.7 billion, 
which is five percent of the entire Federal Science and 
Technology budget. Actually, since the NIH and NSF budgets are 
thankfully spared from this practice, that $2.7 billion is 
approximately 10 percent of those budgets that are earmarked. 
Multi-agency initiatives such as the National Nanotechnology 
Initiative and Networking and Information Technology R&D also 
received increases in the President's budget, excluding 
earmarks. Our office produces a detailed budgetary supplement 
document for each of these programs, which we will deliver to 
Congress as soon as possible. One of them is available today on 
the Networking and Information Technology R&D Program. I'm glad 
that we were able to get that out so timely. The next one will 
be ready soon.
    Moving on to other agencies. The $28.4 billion top-line 
budget for the 27 NIH institutes and centers is being held 
constant in this proposal, at a level that exceeds the original 
NIH doubling figure by $1.2 billion. The President strongly 
supports the priorities and distribution of funds within NIH, 
advocated by Director Zerhouni and his forward-looking roadmap 
process. NASA's top line, the 2006 to 2010 five-year budget, is 
also maintained at the $86.4 billion in last year's request, 
while NASA science increases 1.5 percent with, or 2.1 percent 
without, earmarks. I want to say that these two agencies have 
outstanding directors, who enjoy the confidence of this 
Administration. I would point out that research budgets for 
NASA and NIH have been more commensurate with the opportunities 
in their fields, than have budgets of other agencies with 
significant basic physical science research missions.
    One other important physical science and engineering agency 
is the Department of Defense, whose basic and applied research 
budget is severely earmarked with more than $1 billion of 
designated funding not requested by the DOD agencies. The 
President's fiscal year 2007 budget proposes and increase of 
eight percent for DOD 6.1 and 6.2 research, relative to its own 
earmarked base.
    Mr. Chairman, the President's research and development 
budget for fiscal year 2007 demonstrates a significant 
commitment to science essential for the future leadership of 
our country. I look forward to working with you and your 
Committee to begin delivery on that commitment during the 
coming months, and I thank you for this opportunity.
    [The prepared statement of Dr. Marburger follows:]

              Prepared Statement of John H. Marburger III

    Chairman Boehlert, Ranking Minority Member Gordon, and Members of 
the Committee, I am pleased to appear before you once again to discuss 
the President's research and development (R&D) budget. This is my fifth 
year coming before you soon after the budget release to discuss the 
President's commitment to research and development. Once again, let me 
say that I greatly appreciate the effective working relationship 
between our office and your committee, which I believe has resulted in 
good outcomes for the Nation's science and technology enterprise.
    One of these outcomes has been recognition by this Administration 
of the critical nature of research as the foundation to our nation's 
economic competitiveness. This is a message that the President has 
elevated through his American Competitiveness Initiative (ACI), which 
received prominent attention during his State of the Union Address, and 
in many of his speeches and remarks since then.
    I will discuss the ACI in a moment, but first I want to provide 
some overall context for this year's budget.
    President Bush has made it very clear that his top budget priority 
is to cut the deficit in half by 2009 by continuing the President's 
strong pro-growth economic policies and limiting the growth in federal 
spending. The President's FY 2007 Budget does what is required to 
achieve this goal by reducing non-Department of Defense, non-Homeland 
Security discretionary spending by one-half of one percent. Of course, 
a budget is all about priorities. And while winning the war on terror 
and securing the homeland are the top two, investing in America's 
future competitiveness through research and development is also of 
critical importance to this Administration. The proof of this is a two 
percent increase in non-defense R&D within a declining overall non-
defense budget. Under the FY 2007 Budget, R&D is 14.3 percent of non-
defense discretionary budget authority, compared to 13.7 percent in 
2001 when the President took office. At a record $59 billion, non-
defense R&D is up $1.1 billion in this year's request.

MAXIMIZING THE EFFECTIVENESS OF RESEARCH FUNDING

    Before I get into specifics about this year's budget, I want to 
draw your attention to the very serious impact of earmarking on the 
science budget. I do this with some trepidation here, but I believe the 
problem has escalated in recent years and threatens to harm the 
effectiveness of our nation's science if it is not addressed.
    R&D earmarks have been increasing at a rate much faster than the 
growth in the overall R&D budget. The American Association for the 
Advancement of Science (AAAS), which uses a narrow definition of 
earmark, recently estimated that R&D earmarks total $2.4 billion in 
2006, an increase of 13 percent over the Association's 2005 estimate. 
The total has increased by about 63 percent since 2003. Other 
organizations have estimated even higher levels of R&D earmarking. This 
serious problem is noted in the President's Budget: ``Notwithstanding 
the recent progress in restraining discretionary spending, there is a 
widespread public perception that the number of earmarked spending 
items is excessive, and that too many of them are difficult to justify 
on the merits. The large number of earmarks, the lack of transparency, 
and the lack of a rigorous justification process make it difficult to 
assure taxpayers that their dollars are being spent wisely.''
    This administration supports awarding research funds based on merit 
review through a competitive process refereed by scientists, engineers, 
or other relevant experts. Such a system has the best prospects for 
ensuring that the most important research is supported. Research 
earmarks signal to potential investigators that there is an acceptable 
alternative to creating quality research proposals for merit-based 
consideration. Fortunately, Congress has not traditionally earmarked 
the budgets of the National Science Foundation or the National 
Institutes of Health. But major portions of other important science 
budgets are directed outside the agency advisory, planning, and 
evaluation processes. The problem is particularly serious within the 
Department of Defense, where the basic and applied research budgets 
have been subject to earmarks in excess of a billion dollars this year. 
The consequences of excessive earmarking go beyond underfunding the 
best possible science--it also impacts agency jobs and stability. For 
example, just last week the Department of Energy's Renewable Energy 
Laboratory (NREL) was forced to reduce its staff by 32 people to meet 
budget shortfalls caused by earmarked funding.
    The existence of earmarks also affects the interpretation of the 
numbers that appear in the FY 2007 Budget. To maximize the impact of 
competitive, merit-based programs, the Administration often does not 
request funds for projects that had been earmarked the previous year. 
The existence of earmarks in the FY 2006 estimates and their absence in 
the FY 2007 request means that it can appear that the 2007 Budget 
requests less funding for programs, even in instances where relevant 
program content actually is increasing. The fact that a significant 
fraction of an agency's appropriated funds may be unavailable for the 
agency's mission needs deserves much wider attention. In the NIST 
budget, for example, the FY 2006 appropriated budget includes $137 
million in earmarks, many of which do not contribute to NIST's mission. 
This is a huge amount compared to NIST's total budget of about $400M. 
The President is requesting a 24 percent increase for the NIST core 
budget, which amounts to $104M, but since this is less than the 
earmarks the total appearing in the budget documents for NIST appears 
to be a reduction of 5.8 percent from the current year.
    President Bush has called upon Congress to ensure that funds 
provided under the American Competitiveness Initiative are free of 
earmarks. As we discuss the importance of pursuing the best science to 
contribute to U.S. competitiveness, I hope the Congress will join with 
us to encourage competition for research funding by rejecting research 
earmarks in the FY 2007 appropriations process.

THE PRESIDENT'S FY 2007 R&D BUDGET

    Given the overall environment of fiscal discipline, it is notable 
that President Bush once again proposes a record R&D budget--over $137 
billion, $3.4 billion more than this year's funding level. This 
represents an increase of more than 50 percent during this 
Administration. Funding proposed for basic research is $28.2 billion in 
2007, up from $21.3 billion in 2001--a 32 percent increase. While this 
year much focus is justifiably being placed on the President's words in 
his State of the Union address and the American Competitiveness 
Initiative, it is important to emphasize that the President's budgets 
have consistently supported research and development at levels 
commensurate with other major priorities throughout this 
Administration. Real five-year growth in the conduct of the R&D budget 
has exceeded 40 percent for each of the last two years, the first time 
five-year inflation adjusted R&D outlays have topped 40 percent since 
1967 and the Apollo era.

AMERICAN COMPETITIVENESS INITIATIVE (ACI):

    American economic strength and national security depend on our 
nation's rich tradition of innovation. To strengthen our technological 
leadership in the world and build on the Administration's record of 
results, President Bush announced the American Competitiveness 
Initiative (ACI) in his State of the Union address. The ACI commits 
$5.9 billion in FY 2007, and more than $136 billion over 10 years, to 
increase investments in R&D, strengthen education, and encourage 
entrepreneurship and innovation.
    The centerpiece of the American Competitiveness Initiative is the 
President's proposal to double, over ten years, priority basic programs 
emphasizing the physical sciences and engineering. Physical sciences 
research develops and advances knowledge and technologies that are used 
by scientists in nearly every other field. President Bush seeks to 
strengthen federal investments in this area by providing three key, 
innovation-enabling research agencies with landmark initial investments 
in 2007: the National Science Foundation (NSF)--$6 billion; the 
Department of Energy's Office of Science (DOE SC)--$4.1 billion; and 
the Department of Commerce's National Institute of Standards and 
Technology (NIST) core programs--$535 million. In addition to the 
collective doubling effort at these agencies, the President's Budget 
also prioritizes the similarly high-leverage basic and applied research 
at the Department of Defense in 2007 by requesting $5.9 billion, $442 
million (eight percent) more than last year's request.
    In 2007, the ACI proposes overall funding increases for NSF, DOE SC 
and NIST core of $910 million, or 9.3 percent. To achieve ten-year 
doubling, overall annual increases for these agencies will average 
roughly seven percent. This amounts to a total of $50 billion in new 
investments in high-leverage, innovation-enabling research that will 
underpin and complement shorter-term R&D performed by the private 
sector. To encourage private investment in innovation to be equally 
bold, President Bush continues to propose making the R&D tax credit 
permanent and supports modernizing it to make it even more effective.
    While the President has prioritized and focused physical science 
funding in past budgets through such coordinated programs such as the 
Networking Information Technology Research and Development (NITRD) 
program, the National Nanotechnology Initiative (NNI) and others, the 
ACI represents an elevation of the role of the physical sciences 
contributing to national competitiveness and a significant ramping up 
of funding over a sustained budget period. This is good news for the 
science community and is a recognition and endorsement of the 
importance of the physical sciences and math and science education. 
Members of Congress--including many on this committee--have helped to 
bring attention to these issues in our national discourse. Many other 
groups also deserve credit for highlighting the importance of 
investment in this area, including the President's Council of Advisors 
on Science and Technology (PCAST), the Council on Competitiveness and 
the National Academy of Sciences. It is a rare day when so many 
different organizations speak with one voice. I am optimistic that with 
your help and the support of the scientific community, we can provide 
funding for ACI with a minimum of research earmarks.
Networking Information Technology R&D (NITRD)
    A key interagency priority related to ACI is the Networking and 
Information Technology R&D (NITRD). President Bush's 2007 Budget 
contains $2.8 billion for NITRD and represents an increase of nine 
percent over 2006 and a 57 percent increase since 2001. This brings 
total investment in this area over six years to more than $13.7 
billion. Tools and capabilities that result from research in networking 
and information technologies propel advances in nearly every area of 
science and technology, and enhance the Nation's competitiveness. 
Agencies participating in the NITRD program actively coordinate their 
research programs, making these programs far more productive than if 
they were independent.
    High-end computing (HEC) continues to be a major focus of NITRD. 
DOE's Office of Science (DOE SC), NSF and NASA are all engaged in 
developing and/or operating leadership class computing systems as 
recommended in the 2004 Federal Plan for High-End Computing, with the 
goal of deploying petascale computing systems by the year 2010. The DOE 
SC 2007 investment of $103 million in leadership class computing, 
coupled with NSF's investment of $50 million in their Office of Cyber 
Infrastructure, will ensure that U.S. scientists and researchers have 
access to the most powerful computational resources in the world. 
Similarly, NASA continues to emphasize high-end computing within its 
NITRD portfolio through the operation of the Project Columbia 
supercomputer. All three agencies have pledged to make a portion of 
their leadership class computing systems available to other federal 
users and the larger research community. A nine percent increase in 
support for advanced networking research in 2007, primarily by NSF, 
DARPA and DOE SC, will ensure that large-scale networking technologies 
will keep pace with the rapid development of petascale computing 
systems, so that the results of petascale computations are immediately 
accessible for analysis.
    The 2007 Budget also includes significant increases in long-term 
fundamental research in cyber security and information assurance, as 
recommended by the President's Information Technology Advisory 
Committee.

National Nanotechnology Initiative
    The President's 2007 Budget also provides over $1.2 billion for 
another key ACI interagency priority, the National Nanotechnology 
Initiative (NNI). The FY 2007 NNI request brings the total investment 
since the NNI was established in 2001 to over $6.5 billion and nearly 
triples the annual investment since the first year of the Initiative. 
This sustained investment is advancing our understanding of the unique 
phenomena and processes that occur at the nanometer scale and expedite 
the responsible use of this knowledge to achieve advances in medicine, 
manufacturing, high-performance materials, information technology, and 
energy and environmental technologies.
    Critical, broad-ranging investments continue to be made by NSF, 
reflecting the agency's mission in supporting fundamental research 
across all disciplines of science and engineering, whereas the DOD 
investment emphasizes development of materials, devices, and systems 
that address the department's mission. DOE is in the process of 
completing five Nanoscale Science Research Centers that will make 
advanced research facilities and instrumentation, as well as technical 
expertise of DOE laboratory staff, available to researchers from across 
the scientific research community.
    In addition to supporting the development of nanotechnology for 
beneficial uses, the NNI funds research on the human and environmental 
health implications of nanotechnology and methods for managing 
potential risks. The funding within the EPA will nearly double in 2007 
and additional efforts in this area are funded by NSF, HHS, NIST, DOD, 
and USDA.
    In response to recommendations by the President's Council of 
Advisors on Science and Technology (PCAST) in its May 2005 report 
assessing the NNI, the Departments of Labor and Education have become 
participants in the interagency group that manages the NNI, thereby 
facilitating progress toward the education and workforce goals of the 
Initiative.
Advanced Energy Initiative (AEI):
    In his State of the Union address, President Bush outlined the 
Advanced Energy Initiative (AEI) in pursuit of a national goal of 
replacing more than 75 percent of U.S. oil imports from the Middle East 
by 2025. Since 2001, nearly $10 billion has been invested by the 
Federal Government to develop cleaner, cheaper and more reliable 
alternative energy sources. The AEI provides a 22 percent increase for 
certain clean-energy R&D programs at the Department of Energy (DOE). 
The Initiative will accelerate breakthroughs in two vital areas.
    The Administration will work to diversify energy sources for 
American homes and businesses through: the President's Coal Research 
Initiative, with $281 million in FY 2007 for development of clean coal 
technologies--nearly completing the President's $2 billion commitment 
four years ahead of schedule; the FutureGen project, a key part of the 
Coal Research Initiative, with $54 million in 2007 to support the 
partnership between government and the private sector to build a near-
zero atmospheric emissions demonstration coal plant that captures the 
carbon dioxide it produces and stores it in deep geologic formations; 
the President's new $148 million Solar America Initiative--an increase 
of $65 million over FY 2006--to accelerate the development of 
semiconductor materials that convert sunlight directly to electricity; 
$44 million for wind energy research--a $5 million increase over the 
2006 level; and clean and safe nuclear energy under the new $250 
million global nuclear energy partnership.
    The President also proposes acceleration of the development of 
domestic, renewable alternatives to gasoline and diesel fuels through: 
$150 million for the Biofuels Initiative--a $59 million increase over 
FY 2006--to help develop bio-based transportation fuels such as 
``cellulosic ethanol'' from agricultural waste products, such as wood 
chips, stalks, or switch grass; $31 million to speed the development of 
advanced battery technology to extend the range of hybrid vehicles and 
make possible ``plug-in'' hybrids and electric cars--a 27 percent 
increase over FY 2006; and $289 million for the President's Hydrogen 
Fuel Initiative.

Climate Change Science and Technology
    The Administration is also carrying out two important climate 
change programs that represent a continuation of our commitment to 
understanding the climate system and developing technologies that will 
lead to cleaner, cheaper and more reliable alternative energy sources.
    The U.S. Global Change Research Program, authorized by the Global 
Change Research Act of 1990, and the President's Climate Change 
Research Initiative of 2001 are integrated in the comprehensive U.S. 
Climate Change Science Program (CCSP). The CCSP published the Strategic 
Plan for the U.S. Climate Science Program in 2003, describing a 
strategy for developing knowledge of climate variability and change and 
for application of this knowledge. The 2007 CCSP budget sustains the 
level enacted in 2006. The CCSP comprises over 13 agencies, but nearly 
90 percent of the CCSP funding is distributed among NASA, NSF, NOAA and 
DOE. The Climate Change Research Initiative, a focused component of 
CCSP, is sustained at $200 million in 2007.
    The U.S. Climate Change Technology Program (CCTP) supports 
research, development, deployment, and voluntary programs to reduce 
greenhouse gas emissions via renewable energy, fossil energy and 
nuclear energy, and also to improve efficiency and carbon 
sequestration. Led by DOE, CCTP recently published a Vision and 
Framework for Strategy which outlines six strategic goals that will 
guide the CCTP strategy planning and interagency coordination. These 
goals are:

        <bullet>  Reduce Emissions for Energy End-Use and 
        Infrastructure

        <bullet>  Reduce Emissions from Energy Supply

        <bullet>  Capture and Sequester Carbon Dioxide

        <bullet>  Reduce Emissions of Non-CO<INF>2</INF> Greenhouse 
        Gases

        <bullet>  Improve Capabilities to Measure and Monitor GHG 
        Emissions

        <bullet>  Bolster Basic Science Contributions to Technology 
        Development

    CCTP will work toward these goals by employing several core 
approaches that will stimulate participation by others and ensure 
progress in this important area. These approaches include strengthening 
climate change technology research and development by helping to 
coordinate and prioritize ongoing activities, creating new 
opportunities for partnerships and international collaboration, and 
providing technology policy recommendations.

AGENCY BUDGET HIGHLIGHTS

National Science Foundation (NSF):
    Funds are requested to increase the budget for NSF by 7.9 percent 
to $6.02 billion in FY 2007, 36 percent above 2001's $4.4 billion 
level. Similar investments in the past have yielded important 
scientific discoveries, which boost economic growth and enhance 
Americans' quality of life.
    The centerpiece of the American Competitiveness Initiative is 
President Bush's plan to double investment over a 10-year period in key 
federal agencies that support basic research programs emphasizing in 
physical sciences and engineering. NSF is one of the three key 
agencies, as it is the primary source of support for university and 
academic research in the physical sciences, funding potentially 
transformative basic research in areas such as nanotechnology, advanced 
networking and information technology, physics, chemistry, material 
sciences, mathematics and engineering. The NSF funding derived from the 
ACI initiative is expected to support as many as 500 more research 
grants in 2007 and provide opportunities for upwards of 6,400 
additional scientists, students, post-doctoral fellows and technicians 
to contribute to the innovation enterprise.
    NSF leads two previously mentioned Administration priority research 
areas that promise to strengthen the Nation's economy: the National 
Nanotechnology Initiative (NNI) and the Networking and Information 
Technology R&D program (NITRD). NSF-funded nanotechnology research, 
proposed at $373 million in FY 2007, an 8.4 percent increase over 2006 
and 149 percent since 2001, has advanced our understanding of materials 
at the molecular level and has provided insights into how innovative 
mechanisms and tools can be built atom by atom. This emerging field 
holds promise for a broad range of developing technologies, including 
higher-performance materials, more efficient manufacturing processes, 
higher-capacity computer storage, and microscopic biomedical 
instruments and mechanisms. NSF's investments in NITRD, funded at $904 
million in 2007, up $93 million over 2006 and 42 percent since 2001, 
support all major areas of basic information technology (IT) research. 
NSF also incorporates IT advances into its scientific and engineering 
applications, supports using computing and networking infrastructure 
for research, and contributes to IT-related education for scientists, 
engineers, and the IT workforce.
    Continuing concerns about the vulnerability of computers, networks 
and information systems have prompted increased NSF investments in 
cyber security research, education and training. The NITRD investment 
includes $35 million, an increase of $10 million, for Cyber Trust, a 
cutting-edge research program to ensure that computers and networks 
underlying national infrastructures, as well as in homes and offices, 
can be relied upon to work even if faced with cyber attacks. Cyber 
Trust is part of a larger NSF Cyber Security and Information Assurance 
research effort totaling $97 million, an increase of 26 percent for FY 
2007.
    NSF will invest $20 million in fundamental research on new 
technologies for sensors and sensor systems to improve detection of 
explosives, including Improvised Explosive Devices (IEDs).
    The Foundation, in close cooperation with other agencies, will also 
address policy-relevant Science Metrics with a new research effort 
funded at $6.8 million. The goal is to develop the data, tools and 
knowledge needed to establish an evidence-based `science of science 
policy' as a means for informing policy-makers about opportunities and 
to encourage innovation.
    The FY 2007 Budget will continue NSF's efforts to prepare U.S. 
students for the science and engineering workforce. The new Discovery 
Research K-12 program will invest $104 million to strengthen K-12 
science, technology, engineering and mathematics education by 
supporting the development of effective science and math assessments, 
improving learning in K-12 education and introducing cutting edge 
discoveries into K-12 classrooms.
Department of Energy (DOE):
    DOE is the lead agency for the President's Advanced Energy 
Initiative, highlighted above. The 2007 Budget proposes:

        <bullet>  $148 million for the Solar America Initiative (an 
        increase of $65 million over FY06) to accelerate development of 
        cost-effective photovoltaic materials;

        <bullet>  $150 million for the Biofuels Initiative (a $59 
        million increase over FY06), to help enable cellulosic ethanol 
        to be practical and competitive within six years;

        <bullet>  $31 million for development of high-energy, high-
        power batteries (a $6.7 million increase over FY06) for hybrid-
        electric and ``plug-in'' hybrid vehicles (includes $1.4 million 
        for the Department of Transportation);

        <bullet>  $289 million for the Hydrogen Fuel Initiative (an 
        increase of $53 million over FY06) to accelerate development of 
        hydrogen fuel cells and affordable hydrogen-powered cars;

        <bullet>  $44 million for wind energy research (a $5 million 
        increase over FY06) to help improve the efficiency and lower 
        the costs of wind technologies for use in low-speed wind 
        environments; and

        <bullet>  $54 million for the FutureGen Initiative (an increase 
        of $36 million over FY06) to develop technologies for a coal 
        gasification plant with near-zero atmospheric emissions.

    The 2007 budget also proposes $250 million for the Global Nuclear 
Energy Partnership (an increase of $171 million over FY06), with the 
goals to demonstrate advanced fuel cycle technologies, to expand the 
domestic use of nuclear power, and to provide for safe, environmentally 
responsible global nuclear energy systems that support non-
proliferation objectives.
    The Office of Science in DOE (DOE-SC) is one of the three priority 
agencies in the President's American Competitiveness Initiative, 
supporting scientific studies and infrastructure for a wide range of 
R&D related to economically significant innovations. Within DOE-SC, the 
new funding from ACI is expected to support approximately 2,600 new 
researchers. Highlights of the FY07 budget proposal within DOE-SC 
include:

        <bullet>  completion of the Center for Integrated 
        Nanotechnology and the Center for Functional Nanomaterials;

        <bullet>  maximum capacity operations of the full suite of 
        major x-ray light source and neutron research facilities;

        <bullet>  support for project engineering and design and R&D 
        for the National Synchrotron Light Source II;

        <bullet>  upgrade of the leadership class computing facilities 
        at Oak Ridge and Argonne;

        <bullet>  upgrade of the NERSC supercomputer facility at LBNL;

        <bullet>  full operations for the high-energy physics 
        facilities at SLAC and Fermilab;

        <bullet>  increase in support for R&D towards a potential 
        linear collider;

        <bullet>  robust operations for the nuclear physics facilities 
        at TJNAF and RHIC;

        <bullet>  project engineering and design towards an accelerator 
        upgrade for the facility at TJNAF;

        <bullet>  full funding for ITER;

        <bullet>  increase in operations over FY06 for the domestic 
        fusion facilities;

        <bullet>  optimum operations of the BER facilities;

        <bullet>  increase in support for the GTL research.

National Institute of Standards and Technology (NIST):
    National Institute of Standards and Technology (NIST) ``core'' 
programs receive $535 million, an increase of 24 percent after earmarks 
are excluded from the enacted FY 2006 level, but a decrease of 5.8 
percent relative to 2006 appropriated funds. In 2007, the American 
Competitiveness Initiative proposes overall funding increases for NIST 
to focus on meeting the Nation's most urgent measurement science and 
standards to speed innovation and improve U.S. competitiveness. The FY 
2007 request is a 55 percent increase over 2001. The Administration 
continues to insist on the highest priority for NIST lab research which 
is producing the scientific foundation for new technologies and 
providing essential technical support through its standards activities 
for industrial development and commercialization of new and emerging 
technologies, in such areas as advanced manufacturing, 
nanomanufacturing and nanometrology, homeland security, biosystems and 
health, and quantum computing.
    To improve efficiency, the Budget also streamlines administrative 
layers within the Technology Administration (TA). The Budget reflects 
TA's intent to evaluate its current operating practices and incorporate 
methods to improve the effectiveness of its operations.

Department of Defense (DOD):
    DOD's FY 2007 R&D budget is over $74 billion. This level of funding 
will support the Department's transforming commitment to reorient its 
capabilities and forces for greater agility, while enabling effective 
responses to asymmetric and uncertain challenges of future conflicts.
    These funds will also help address emergent threats through 
countermeasures to biological agents and novel technologies to detect 
and neutralize improvised explosive devices, mines, rockets and 
mortars.
    The Science and Technology (S&T) component of the overall DOD R&D 
budget includes basic research (6.1), applied research (6.2), and 
advanced technology development (6.3). At $11.1 billion in the FY 2007 
Budget, DOD S&T exceeds last year's request by $442 million. From 2000 
to 2006, Congressional adds to DOD S&T quadrupled. For 2006, there were 
over 1,300 of these adds (totaling $3.1 billion) that must be 
identified and tracked down, advertised in a way specific to the 
Congressional mark, evaluated, negotiated and awarded, all separate 
from other potential awards. This means that those awards consume 
several times the staff and management resources of the average 
research award, and may not even target a military-specific need. A 
total of $5.9 billion is provided for DOD basic and applied research. 
This is $738 million less than the FY 2006 enacted level in this 
category, but $561 million greater than the FY 2006 budget request. The 
struggle continues over Congressional earmarks and true DOD priorities. 
The Administration wishes to work with Congress to align Legislative 
and Executive priorities for funding the best scientific research 
possible to support our military forces.
    Events of the last few years, including the Global War on Terror 
and federal assistance to disasters in the U.S. and around the world, 
have emphasized the importance of continuing our investment in next 
generation command, control and communication technologies and our 
ability to integrate with sensor platforms. Specific high potential S&T 
programs relating to these challenges have been increased in this 
budget by $42.3 million (30 percent over 2006 enacted levels).
    The DOD also understands the importance of continued investment in 
power and energy technologies. These efforts span a range of topics--
from novel battery technologies to reduce the weight burden that 
soldiers must carry to power their critical equipment--to research on 
advanced propulsion technologies to enable revolutionary aerospace 
capabilities. These aerospace propulsion investments include an 
additional $33 million (13 percent above 2006 enacted) in certain 
applied research and advanced technology development programs.
    The S&T needs of the DOD are diverse and highly challenging, 
drawing upon the best minds in the Service labs, industry and academia. 
The development of the future workforce to support defense S&T remains 
an important challenge. We continue to confront issues relating to 
training the next generation, attracting the best candidates and 
rewarding top performers. Important programs such as the National 
Defense Science and Engineering Graduate (NDSEG) Fellowship program and 
the Science, Mathematics and Research for Transformation (SMART) 
Defense Scholarship program allow us to provide support and incentive 
to graduate and undergraduates to enter into DOD-relevant research 
careers. In fact, this budget virtually doubles the SMART program 
funding to $19.5 million.

Department of Homeland Security (DHS):
    The President's FY 2007 request includes $1 billion for the DHS 
Directorate of Science and Technology (including funding for research 
at TSA, Coast Guard and Secret Service) and $536 million for the 
Domestic Nuclear Detection Office.
    R&D at DHS S&T is focused on countering the threat of terrorism 
through improved threat awareness and infrastructure protection, as 
well as the development of countermeasures against chemical and 
biological agents, explosives, and other catastrophic threats. The 
President's FY 2007 budget request will provide $86.5 million for R&D 
projects to address the threat from conventional explosives used in the 
form of improvised or vehicle born explosive devices, which remain one 
of the most accessible weapons available to terrorists to attack and 
cripple critical infrastructure, or to inflict severe casualties.
    To continue to develop the tools necessary to prevent the terrorist 
use of a nuclear weapon against the United States, the President's FY 
2007 Budget supports aggressive R&D and operational programs for 
nuclear defense with a 70 percent increase over FY 2006 funding to 
expand and support the capabilities of the Domestic Nuclear Detection 
Office (DNDO) DNDO is working to develop and deploy a comprehensive 
system to detect and mitigate any attempt to import, assemble or 
transport a nuclear explosive device, fissile material or radiological 
material intended for illicit use within the United States.
    The Administration is also eager to protect civilian and commercial 
aviation from the threat of man-portable air defense systems (MANPADS). 
The government has developed a multi-layered defense against this 
threat consisting of risk reduction at major airports, counter 
proliferation efforts, and development of new countermeasures. In the 
2007 Budget the President has requested $6 million to complete DHS's 
counter-MANPADS program. The final phase of this program calls for 
actual live testing of the two systems under development.
National Aeronautics and Space Administration (NASA):
    Two years ago, the President outlined a bold vision for sustained 
and affordable human and robotic exploration of space, with the Moon as 
a first step toward human missions to Mars and beyond. NASA instituted 
various organizational and programmatic steps to pursue this vision in 
the initial months after its release. Over the last year, NASA has 
continued working to redirect its existing human space flight 
programs--the Space Shuttle and International Space Station (ISS)--
toward the goal of supporting the vision. Further, it has determined 
the launch and spacecraft architecture requirements necessary to 
implement the vision in earnest. An exciting array of space science 
missions is also being planned that will enhance our understanding of 
the solar system, the complex interaction between the Earth and space 
and its impact on our environment, and the origin, structure, 
evolution, and destiny of the universe.
    In support of these goals, the President has requested $16.8 
billion in his 2007 budget for NASA, a 3.2 percent increase over the 
enacted 2006 level (excluding one-time supplementals), reflecting a 
strong commitment by the Administration to continued pursuit of the 
exploration vision. Of this amount, the budget provides $5.33 billion 
for earth and space science activities 1.5 percent increase in FY 2007 
over FY 2006 in order to continue advancing our knowledge of the Sun, 
Earth, planets and broader universe. Further, the budget requests $3.98 
billion for the new vehicles and technologies necessary to move forward 
on the exploration activities contained in the vision. Such activities 
include beginning development of the Crew Exploration Vehicle (which 
will eventually carry astronauts to the Moon), pursuing the lunar 
robotic exploration program, and researching other critical new 
technologies to support exploration. The budget also proposes $6.23 
billion for operating the Space Shuttle and continuing assembly and 
operations of the ISS. With regard to this activity, NASA has selected 
a configuration for the ISS that is consistent with the President's 
vision and meets the needs of our international partners, while 
employing the minimum number of Shuttle flights required to complete 
assembly of the ISS before Shuttle retirement in 2010. I should note 
here that, of necessity, the budget for NASA also makes some difficult 
decisions, canceling some projects with high technical risk and/or 
whose cost would have led to the certain delay or cancellation of other 
important programs.
    In addition to supporting a broad range of space activities, the 
President has requested $724 million for NASA's aeronautics program. 
NASA is restructuring its aeronautics activities in order to dedicate 
itself to the mastery and intellectual stewardship of the core 
competencies of aeronautics in all flight regimes, as well as ensuring 
that research is focused on appropriate areas that are unique to NASA's 
capabilities. NASA will implement a completely replanned Airspace 
Systems Program in FY 2007 that aligns with key research requirements 
of the Next Generation Air Transportation System, and is working with 
the DOD to take a strategic, national asset view of aeronautics 
facilities such as wind tunnels.
    NASA is also working with the DOD to take a strategic, national 
asset view of aeronautics facilities such as wind tunnels.
National Oceanic and Atmospheric Administration (NOAA):
    For the National Oceanic and Atmospheric Administration (NOAA) in 
the Department of Commerce, the FY 2007 Budget provides $338 million 
for Oceanic and Atmospheric Research (OAR), an 8.6 percent reduction 
from 2006 enacted, due mostly to earmarks. This investment provides for 
ongoing research on climate, weather, air quality, and ocean processes. 
For NOAA programs that support the climate change science program, $181 
million is provided, and the National Sea Grant College Program is 
sustained at the 2006 level of $55 million.

Environmental Protection Agency (EPA):
    The FY 2007 request for science and technology funding at EPA is 
$788 million, approximately eight percent above the FY 2006 level, even 
before accounting for earmarks. This investment supports core Agency 
programs and strengthens high priority program areas, including 
maintaining and improving our nation's water collection and 
distribution systems, understanding the potential environmental impacts 
of nanotechnology, and expanding EPA's computational toxicology 
program. In addition, the FY 2007 request continues to support the 
Integrated Risk Information System (IRIS) and the Science to Achieve 
Results (STAR) program. (OMB version)

Department of Transportation (DOT):
    The FY 2007 Budget request for highway-related research is $562 
million, which is $38 million more than 2006. Highway research includes 
the Federal Highway Administration's transportation research and 
technology contract programs and National Highway Traffic Safety 
Administration research and analysis. These research programs include 
the investigation of ways to improve safety, reduce congestion, improve 
mobility, reduce life cycle construction and maintenance costs, improve 
the durability and longevity of highway pavements and structures, 
enhance the cost-effectiveness of highway infrastructure investments, 
and minimize negative impacts on the natural and human environment.
    The 2007 Budget request for Federal Aviation Administration (FAA) 
Research, Engineering, and Development is $130 million, including $88 
million for continued research on aviation safety issues. The remaining 
research funding is for mobility and environmental issues, including 
$18 million for the Joint Planning and Development Office for the 
advancement of the Next Generation Air Transportation System.
    In addition, the 2007 Budget requests $8.2 million for the Research 
and Innovative Technology Administration to coordinate and advance the 
pursuit of transportation research that cuts across all modes of 
transportation, such as hydrogen fuels and remote sensing. DOT research 
programs also support the National Nanotechnology Initiative, the U.S. 
Climate Change Technology Program, and the President's Hydrogen Fuel 
Initiative.

CONCLUSION

    Making choices is difficult even when budgets are generous, but 
tight budgets have the virtue of focusing on priorities and 
strengthening program management. This year's R&D budget proposal 
maintains levels of funding that allow America to maintain its 
leadership position in science and move ahead in selected priority 
areas. The American Competitiveness Initiative and Advanced Energy 
Initiative properly focus R&D investments in areas that will increase 
our economic competitiveness decrease our dependence on foreign oil, 
and accelerate development of clean energy technologies.
    America currently spends one and a half times as much on federally 
funded research and development as Europe, and three times as much as 
Japan, the next largest investor. Our scientists collectively have the 
best laboratories in the world, the most extensive infrastructure 
supporting research, the greatest opportunities to pursue novel lines 
of investigation, and the most freedom to turn their discoveries into 
profitable ventures if they are inclined to do so.
    We lead not only in science, but also in translating science to 
economically significant products that enhance the quality of life for 
all people.
    This budget will sustain this leadership and maintain science and 
technology capabilities that are the envy of the world. I would be 
pleased to respond to questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  Biography for John H. Marburger III

    John H. Marburger III, Science Adviser to the President and 
Director of the Office of Science and Technology Policy, was born on 
Staten Island, N.Y., grew up in Maryland near Washington D.C. and 
attended Princeton University (B.A., Physics 1962) and Stanford 
University (Ph.D. Applied Physics 1967). Before his appointment in the 
Executive Office of the President, he served as Director of Brookhaven 
National Laboratory from 1998, and as the third President of the State 
University of New York at Stony Brook (1980-1994). He came to Long 
Island in 1980 from the University of Southern California where he had 
been a Professor of Physics and Electrical Engineering, serving as 
Physics Department Chairman and Dean of the College of Letters, Arts 
and Sciences in the 1970's. In the fall of 1994 he returned to the 
faculty at Stony Brook, teaching and doing research in optical science 
as a University Professor. Three years later he became President of 
Brookhaven Science Associates, a partnership between the University and 
Battelle Memorial Institute that competed for and won the contract to 
operate Brookhaven National Laboratory.
    While at the University of Southern California, Marburger 
contributed to the rapidly growing field of nonlinear optics, a subject 
created by the invention of the laser in 1960. He developed theory for 
various laser phenomena and was a co-founder of the University of 
Southern California's Center for Laser Studies. His teaching activities 
included ``Frontiers of Electronics,'' a series of educational programs 
on CBS television.
    Marburger's presidency at Stony Brook coincided with the opening 
and growth of University Hospital and the development of the biological 
sciences as a major strength of the university. During the 1980's 
federally sponsored scientific research at Stony Brook grew to exceed 
that of any other public university in the northeastern United States.
    During his presidency, Marburger served on numerous boards and 
committees, including chairmanship of the governor's commission on the 
Shoreham Nuclear Power facility, and chairmanship of the 80 campus 
``Universities Research Association'' which operates Fermi National 
Accelerator Laboratory near Chicago. He served as a trustee of 
Princeton University and many other organizations. He also chaired the 
highly successful 1991/92 Long Island United Way campaign.
    While on leave from Stony Brook, Marburger carried out the mandates 
of the Department of Energy to improve management practice at 
Brookhaven National Laboratory. His company, Brookhaven Science 
Associates, continued to produce excellent science at the lab while 
achieving ISO14001 certification of the lab's environmental management 
system, and winning back the confidence and support of the community.

    Chairman Boehlert. Thank you very much, Dr. Marburger. 
Secretary Bodman.

  STATEMENT OF DR. SAMUEL W. BODMAN, SECRETARY, DEPARTMENT OF 
                             ENERGY

    Secretary Bodman. Good morning, Mr. Chairman and Ranking 
Member Gordon. I'm very happy to be here. I'm very proud to be 
here representing the Department of Energy today, and I hardly 
need to tell you that there is a great sense of excitement and 
enthusiasm within the entire Department of Energy, and in 
particular the Office of Science, which deals with the subject 
of this morning's activities, or at least some of the subjects 
of this morning's activities.
    Our Office of Science is responsible for 10 world-class 
national laboratories and is the primary builder and operator 
of large scientific facilities in the United States, and this 
office plays a critical role in ensuring the continued American 
leadership as well as contributions to our overall economic 
well-being. Investments in these facilities is a lot more than 
just bricks and mortar. It is an investment in, if you will, in 
discovery, in the future of our country. As you've heard in the 
State of the Union and has been talked about, the President 
announced several new priorities in the energy area, including 
two new Presidential initiatives. We believe that these 
initiatives will significantly change the future of science in 
this country and will be a bold statement to our science 
colleagues around the world. All of this is spelled out in 
detail in my formal written remarks.
    Let me just take this opportunity, while I have the floor, 
to mention a few highlights. As a part of the ACI, the 2007 
budget includes a $505 million increase for the Office of 
Science in the Department of Energy. That is a 14 percent 
increase up to a level of $4.1 billion. Frankly, we are 
thrilled with that and we think we know exactly how to put that 
money to work. This reflects the President's commitment to 
double the federal investment in the most critical basic 
research programs in the physical sciences over the next ten 
years. Developing revolutionary science-driven technology is at 
the heart of the Department of Energy's mission. And to ensure 
that America remains at the forefront in our very increasingly 
competitive world, our department is pursuing what we have come 
to call transformational new technologies in the cutting edge 
scientific fields that will be important in this next century, 
areas like nanotechnology, material science, biotechnology, and 
high speed computing.
    The President has also announced the new Advanced Energy 
Initiative, to increase spending on clean energy sources that 
will transform our transportation sector. It will literally 
transform our entire economy and reduce our dependence on 
imported fossil fuel. Specifically, the 2007 budget request 
proposes $149 million for biomass and biofuel programs, and a 
like amount, $148 million, for solar energy. Both are increases 
of about $50 million, so very sizable percentage increases.
    In addition, the budget requests a total $288 million to 
support implementation of the President's Hydrogen Fuel 
Initiative, and provide $60 million for U.S. participation in 
the International Thermonuclear Experimental Reactor, or ITER, 
as we have come to call it. The goal of ITER is to tap nuclear 
fusion as an enormous source of energy, a plentiful and 
environmentally safe energy. All of that is true, but it is a 
long-term investment that will take, it is expected, a number 
of decades.
    As part of the President's Advanced Energy Initiative, the 
department's 2007 budget also features $250 million to begin 
investments in the Global Nuclear Energy Partnership. This is a 
groundbreaking new international effort to help meet the 
world's rapidly growing electricity needs with safe emissions-
free nuclear power, while enhancing our ability to keep nuclear 
technology and material out of the hands of those who seek to 
use it for non-peaceful purposes.
    Mr. Chairman, that's just a brief outline of the science 
and research activities that are part of this budget and that 
we're engaged in. I look forward to discussing any of these 
matters or other issues in the budget with you. Thank you.
    [The prepared statement of Secretary Bodman follows:]

                 Prepared Statement of Samuel W. Bodman

    Good morning, Chairman Boehlert, Ranking Member Gordon and Members 
of the Committee. I am pleased to appear before you today along with my 
Administration colleagues to discuss the President's FY 2007 budget 
request for the Department of Energy (DOE) and the role that DOE plays 
in the President's science and energy initiatives.
    In his State of the Union address on January 31 President Bush laid 
out an ambitious and exciting path for the Administration when he 
unveiled his American Competitiveness Initiative and the Advanced 
Energy Initiative. The American Competitiveness Initiative will invest 
in and reverse a trend of static funding for research and development 
in the physical sciences; as a result we in the Energy Department 
believe this initiative is a real landmark. The proposal will double 
the federal commitment to the most critical basic research programs in 
the physical sciences over the next ten years; a total of $50 billion 
of new funding through DOE's Office of Science, the National Science 
Foundation, and the Department of Commerce's National Institute of 
Standards and Technology. This historic commitment will significantly 
change the future of science in this country and will be a bold 
statement to our science colleagues around the world. An important 
element of the Advanced Energy Initiative is the Global Nuclear Energy 
Partnership, a comprehensive strategy to enable the safe and secure 
expansion of nuclear energy around the world. We in the Energy 
Department are excited about this vision and mission and the role we 
will play in it. I am pleased to have the opportunity to testify before 
you today to urge the Science Committee to join us in this initiative.
    The Department of Energy's budget for Fiscal Year (FY) 2007 follows 
the blueprint laid out by the President's new initiatives. The $23.5 
billion budget request seeks to address America's short-term energy 
needs while positioning our country for the future. The budget request 
makes bold investments to improve America's energy security while 
protecting our environment, puts policies in place that foster 
continued economic growth, spurs scientific innovation and discovery, 
and addresses and reduces the threat of nuclear proliferation.
    Most notably, this budget request contains:

        <bullet>  A Landmark Investment in Scientific Research

           The FY 2007 budget includes a $505 million increase in DOE's 
        Science programs, which is part of a commitment to double 
        funding for certain high-leverage science agencies over the 
        next ten years. The American Competitiveness Initiative 
        recognizes that scientific discovery and understanding help 
        drive economic strength and security. Developing revolutionary, 
        science-driven technology is at the heart of the Department of 
        Energy's mission. The increase proposed for the Department's 
        Science programs reflects the significant contribution DOE and 
        its world-class research facilities make to the Nation.

        <bullet>  Strategic Investments to Reduce America's Dependence 
        on Foreign Oil and Develop Clean Energy Technologies

           The President's Advanced Energy Initiative provides a 22 
        percent increase for research that can help reduce America's 
        dependence on foreign oil and advance clean energy 
        technologies. The FY 2007 Budget proposes $149.7 million for 
        Biomass and Biorefinery Systems Research and Development (R&D) 
        program to support the new Biofuels Initiative to develop cost 
        competitive ethanol from cellulosic materials (agricultural 
        wastes, forest residues, and bioenergy crops) by 2012.

           In addition, the budget request continues to pursue the 
        vision of reducing greenhouse gas emissions through the 
        development of a hydrogen economy. The FY 2007 Budget requests 
        a total of $289.5 million (including $1.4 million requested by 
        the Department of Transportation) to support implementation of 
        the President's Hydrogen Fuel Initiative. The FY 2007 Budget 
        also provides a 27 percent increase for advanced battery 
        technologies that can improve the efficiency of conventional 
        hybrid electric vehicles (HEV) and help make ``plug-in'' HEV's 
        commercially viable.

           To help develop clean electricity, the FY 2007 Budget funds 
        diverse technology R&D programs. The FY 2007 Budget includes 
        $148.4 million for a new Solar America Initiative to develop 
        cost competitive solar photovoltaic technology by 2015. The FY 
        2007 Budget also provides $60.0 million for U.S. participation 
        in International Thermonuclear Experimental Reactor (ITER), an 
        international experimental reactor program that has the 
        potential for putting us on a pathway to tap nuclear fusion as 
        an enormous source of plentiful and environmentally safe 
        energy. The FY 2007 Budget advances the Administration's 
        commitment to the FutureGen project, which will establish the 
        capability and feasibility of co-producing electricity and 
        hydrogen from coal with near-zero atmospheric emissions of 
        pollutants and greenhouse gasses.

        <bullet>  Strategic Investments to Enable Nuclear Energy 
        Expansion in a Cleaner, Safer Manner

           The Department's FY 2007 budget features $250 million to 
        begin investments in the Global Nuclear Energy Partnership 
        (GNEP). GNEP is a comprehensive strategy to enable an expansion 
        of nuclear power in the U.S. and around the world, to promote 
        non-proliferation goals, and to help resolve nuclear waste 
        disposal issues.

           The Energy Information Administration projects that over the 
        next 25 years, demand for electricity in the United States 
        alone will grow by over 40 percent. Nuclear power is an 
        abundant, safe, reliable and emissions-free way to help meet 
        this growing demand for energy throughout the world. As part of 
        the GNEP strategy, the United States will work with key 
        international partners to develop and demonstrate new 
        proliferation resistant technologies to recycle spent nuclear 
        fuel to reduce waste. To help bring safe, clean nuclear power 
        to countries around the world, the international GNEP partners 
        will also develop a fuel services program to supply developing 
        nations with reliable access to nuclear fuel in exchange for 
        their commitment to forgo developing enrichment and recycling 
        technologies.

           As a complement to the GNEP strategy, the Department will 
        continue to pursue a permanent geologic disposal site for 
        nuclear waste at Yucca Mountain, and the FY 2007 budget 
        includes $544.5 million to support this goal. Based on 
        technological advancements that would be made through GNEP, the 
        volume and radio-toxicity of waste requiring permanent disposal 
        at Yucca Mountain could be greatly reduced, delaying the need 
        for an additional repository indefinitely. It is important to 
        emphasize, however, that GNEP does not diminish in any way the 
        need for, or the urgency of, the nuclear waste disposal program 
        at Yucca Mountain. Yucca Mountain is still required under any 
        fuel cycle scenario. Even with the successful development of a 
        recycling program, there will remain a significant amount of 
        ``once-through'' spent nuclear fuel that will require final 
        disposal in a repository. In addition, the residual material 
        from the recycling program also will require final disposition 
        in a repository. The GNEP will affect the longer-term scope of 
        the repository program, but not the near term need for the 
        Department to put in place a program to begin accepting spent 
        nuclear fuel for disposal as quickly as feasible.

           GNEP builds upon the successes of programs initiated under 
        President Bush's leadership to encourage the construction of 
        new nuclear power plants here in the United States. The FY 2007 
        budget includes $632.7 million for nuclear energy programs, a 
        $97.0 million increase above the FY 2006 appropriation. In 
        addition to the $250 million for GNEP, Generation IV (Gen IV) 
        research and development ($31.4 million) will improve the 
        efficiency, sustainability, and proliferation resistance of 
        advanced nuclear systems and Nuclear Power 2010 ($54.0 
        million), will lead the way, in a cost-sharing manner, for 
        industry to order new, advanced light-water reactors by the end 
        of this decade. In addition, ongoing implementation of the 
        Energy Policy Act of 2005 (EPACT) will establish federal 
        insurance to protect sponsors of the first new nuclear power 
        plants against the financial impact of certain delays during 
        construction or in gaining approval for operation that are 
        beyond the sponsors' control.

PROMOTING SCIENCE AND TECHNOLOGICAL INNOVATION

    As the millennium unfolds, we stand on the threshold of scientific 
revolutions in biotechnology and nanotechnology, in materials science, 
in fusion energy and high-intensity light sources, and in high-
performance computing, to touch on only a few important fields. The 
nations that lead these scientific revolutions will likely dominate the 
global high-tech economy for the foreseeable future. We are on the 
verge of major new discoveries about the nature of our universe, 
solutions to some of the deepest mysteries of the cosmos and the 
fundamental understanding of matter--insights that will transform the 
way we think about ourselves and our world.
    The President's American Competitiveness Initiative will encourage 
American innovation and bolster our ability to compete in the global 
economy through increased federal investment in critical areas of 
research, especially in the physical sciences and engineering. This 
initiative will generate scientific and technological advances for 
decades to come and will help ensure that future generations have an 
even brighter future.
    Twenty-first century science requires sophisticated scientific 
facilities. In many fields, private industry has neither the resources 
nor the near-term incentive to make significant investments on the 
scale required for basic scientific research to yield important 
discoveries. Indeed, in recent years, corporate basic research has 
declined. That is why the Department's Office of Science, which is 
responsible for ten world-class U.S. national laboratories and is the 
primary builder and operator of scientific facilities in the United 
States, plays such a critical role. Investment in these facilities is 
much more than bricks and mortar: it is an investment in discovery and 
in the future of our nation. The Office of Science is also educating 
and training our next generation of scientists and engineers. Roughly 
half of the researchers at Office of Science-run facilities are 
university faculty or graduate or postdoctoral students (who work side 
by side with scientists and researchers employed directly by the labs), 
and about a third of Office of Science research funds go to 
institutions of higher learning. In addition, the National Nuclear 
Security Administration (NNSA) operates three world-class national 
laboratories which greatly advanced the frontiers of science in 
connection with their national security mission and which have many 
interactions with universities.
    I am pleased to inform the Committee that the Department is already 
achieving meaningful scientific results with our latest high end 
supercomputing systems, including Blue Gene L and Purple at Lawrence 
Livermore National Laboratory and our Red Storm supercomputer at Sandia 
National Laboratory. Within a month of coming online, weapons designers 
at Lawrence Livermore and Los Alamos, working jointly, have discovered 
key physics that are important to weapons design that could not have 
been identified using less capable computers. This discovery is 
critically important to predicting the behavior of weapons, and, as a 
result, our ability to be responsive to national needs. Because of the 
interrelationships among the Department's science-based programs, these 
new, remarkably powerful computers are already having a major, positive 
effect on science in several of our laboratories.
    The President's FY 2007 budget request of $4.1 billion for the 
Office of Science will move us forward on several scientific fronts 
designed to produce discoveries that will strengthen our national 
competitiveness. Final international negotiations are close to being 
completed with our international partners in ITER, the fusion 
experimental reactor designed to demonstrate the scientific and 
technological feasibility of fusion as a plentiful, environmentally 
benign source of energy. A request of $60.0 million in FY 2007 provides 
funding for the second year of the ITER project. The return on 
investment will expand across international borders and has the promise 
of tremendous economic opportunity and development.
    The FY 2007 budget also includes $105.9 million to enable us to 
continue construction of the Linac Coherent Light Source (LCLS), the 
world's first x-ray free electron laser. The LCLS will allow us to 
watch matter in action, one molecule at a time, and witness chemical 
reactions at the microscopic level in real time. The structural 
knowledge obtained with x-rays holds the key to understanding the 
properties of matter such as mechanical strength, magnetism, transport 
of electrical currents and light, energy storage, and catalysis. 
Likewise, in biology much of what we know about structure and function 
on a molecular level comes from x-ray studies. Such knowledge forms the 
basis for the development of new materials and molecules and the 
enhancement of their properties, which in turn will advance technology, 
fuel our economy, and improve our quality of life. In addition, the FY 
2007 Budget seeks $19.2 million in FY 2007 for the first full year of 
operations of each of four facilities for nanoscience research and 
$19.4 million to continue with construction of a fifth.
    The FY 2007 budget provides $171.4 million for the Spallation 
Neutron Source (SNS), which enters its first full year of operation as 
the world's foremost facility for neutron scattering.
    The FY 2007 budget request also includes $135.3 million for the 
Genomes: GTL research, which will help us understand how nature's own 
microbial communities can be harnessed to remove carbon from the 
atmosphere, generate hydrogen for fuel, and turn cellulose into 
ethanol.
    Within the $4.1 billion FY 2007 budget request for Science, $143.3 
million is provided to support near full operation of the Relativistic 
Heavy Ion Collider (RHIC), which gives us a lens into the early 
universe, and $80.0 million is allocated to allow near full operation 
of the Continuous Electron Beam Accelerator Facility (CEBAF), which 
will give new insight on the quark-structure of matter. Early studies 
of nuclear and particle physics provided the foundation for 
technologies that have changed our daily lives, giving us televisions, 
transistors, medical imaging devices, and computers, and has enormous 
potential to lead to unexpected discoveries. The Large Hadron Collider 
(LHC) at CERN, in Switzerland, is scheduled to be completed in 2007, 
will open a new chapter in illuminating the structure of matter, space 
and time. At this new energy frontier, qualitatively new phenomena of 
nature should emerge. There are many possibilities--supersymmetry, 
extra space dimensions, or unexpected new symmetries of nature--but 
finding out which, if any, are true can only be settled by experiment. 
In FY 2007, $56.8 million is requested to support U.S. participation in 
the LHC research program. The new results anticipated at the LHC can be 
significantly advanced by discoveries at a potential next generation 
International Linear Collider (ILC) which would break new ground in our 
understanding of nature. In FY 2007, funds for ILC research and 
development are doubled with a funding request of $60.0 million.
    The budget also includes $318.7 million to solidify America's 
leadership in the economically vital field of high-performance 
computing, a tool increasingly integral not only to advanced scientific 
research, but also to industry. The budget will provide the pathway 
toward the development of computational systems that enable researchers 
to attack a wide range of currently intractable scientific problems 
through modeling and simulation, enabling the U.S. to extend our 
leadership in this strategic area. Additionally, from development of 
the suite of scientific software and applications for the petascale 
computers, U.S. industry will be able to accelerate innovation, 
potentially saving billions in development costs and giving our economy 
untold competitive advantages.
    We are on the verge of a revolution across multiple sciences as 
profound as any humanity has witnessed--one that will transform our 
vision of nature and, ultimately, our industry and economy.

ADVANCING AMERICA'S ECONOMIC AND ENERGY SECURITY

    The Energy Policy Act of 2005, signed by President Bush on August 
8, 2005, advances the United States towards a secure energy future. The 
FY 2007 budget request of $2.6 billion to support energy programs 
fulfills President Bush's pledge to promote a strong, secure economy 
and expand our nation's energy supply by developing a diverse, 
dependable energy portfolio for the future.
    The President has proposed the Advanced Energy Initiative to help 
reduce America's dependence on foreign sources of oil and accelerate 
development of clean energy technologies through targeted increases in 
federal investment. This initiative has served as the blueprint for 
DOE's FY 2007 budget proposal.
    The FY 2007 budget request of $1.2 billion for energy efficiency 
and renewable energy includes two initiatives to emphasize technologies 
with the potential for reducing our growing reliance on oil imports and 
for producing clean electricity with reduced emissions. The FY 2007 
budget proposes $149.7 million for the Biofuels Initiative to develop 
by 2012 affordable, domestically-produced bio-based transportation 
fuels, such as ethanol, from cellulosic feedstocks (such as 
agricultural wastes, forest residues, and bioenergy crops), and 
accelerate the development of biorefineries. Biomass has the promise to 
deliver a plentiful domestic energy resource with economic benefits to 
the agricultural sector, and to directly displace oil use. The 
President's Solar America Initiative is proposed to be funded at $148.4 
million, a substantial increase of $65.3 million above FY 2006 funding. 
The increase accelerates the development of solar photovoltaics, a 
technology that converts energy from the sun directly into electricity. 
The goal of this R&D initiative is to make this emissions-free 
technology cost-competitive with other electricity generation sources 
by 2015.
    The President's Hydrogen Fuel Initiative is funded at $289.5 
million and includes $195.8 million for DOE's Energy Efficiency and 
Renewable Energy program, $23.6 million for DOE's Fossil Energy 
program, $18.7 million for DOE's Nuclear Energy program, $50.0 million 
for DOE's Science program, and $1.4 million for the Department of 
Transportation. Hydrogen and fuel cell technology holds the promise of 
an ultra-clean and secure energy option for America's energy future. 
The increase of $40.2 million above the FY 2006 appropriation 
accelerates activities geared to further improve the development of 
hydrogen production and storage technologies, and evaluate the use of 
hydrogen as an emissions-free transportation fuel source.
    While the budget proposes increases for Biomass, Solar and Hydrogen 
research, the Geothermal Program will be closed out in FY 2007 using 
prior year funds. The 2005 Energy Policy Act amended the Geothermal 
Steam Act of 1970 in ways that should spur development of geothermal 
resources without the need for subsidized federal research to further 
reduce costs.
    Nuclear power, which generates 20 percent of the electricity in the 
United States, contributes to a cleaner, more diverse energy portfolio. 
In FY 2007 a total of $632.7 million is requested for nuclear energy 
activities. Within the total, $250 million will support the Global 
Nuclear Energy Partnership (GNEP). GNEP is a comprehensive strategy to 
enable an expansion of nuclear power in the U.S. and around the world, 
to promote nuclear nonproliferation goals; and to help resolve nuclear 
waste disposal issues.
    GNEP will build upon the Administration's commitment to develop 
nuclear energy technology and systems, and enhance the work of the 
United States and our international partners to strengthen 
nonproliferation efforts. GNEP will accelerate efforts to:

        <bullet>  Enable the expansion of emissions-free nuclear power 
        domestically and abroad;

        <bullet>  Reduce the risk of proliferation; and

        <bullet>  Utilize new technologies to recover more energy from 
        nuclear fuel and dramatically reduce the volume of nuclear 
        waste.

    Through GNEP, the United States will work with key international 
partners to develop new recycling technologies that do not result in 
separated plutonium, a traditional proliferation risk. Recycled fuel 
would then be processed through advanced burner reactors to extract 
more energy, reduce waste and actually consume plutonium, dramatically 
reducing proliferation risks. As part of GNEP, the U.S. and other 
nations with advanced nuclear technologies would ensure developing 
nations a reliable supply of nuclear fuel in exchange for their 
commitment to forgo enrichment and reprocessing facilities of their 
own, also alleviating a traditional proliferation concern.
    GNEP will also help resolve America's nuclear waste disposal 
challenges. By recycling spent nuclear fuel, the heat load and volume 
of waste requiring permanent geologic disposal would be significantly 
reduced, delaying the need for an additional repository indefinitely.
    The Administration continues its commitment to open and license 
Yucca Mountain as the Nation's permanent geologic repository for spent 
nuclear fuel, a key complement to the GNEP strategy. Managing and 
disposing of commercial spent nuclear fuel in a safe and 
environmentally sound manner is the mission of DOE's Office of Civilian 
Radioactive Waste Management (RW).
    To support the near-term domestic expansion of nuclear energy, the 
FY 2007 budget seeks $54.0 million for the Nuclear Power 2010 program 
to support continued industry cost-shared efforts to reduce the 
barriers to the deployment of new nuclear power plants. The technology 
focus of the Nuclear Power 2010 program is on Generation III+ advanced 
light water reactor designs, which offer advancements in safety and 
economics over the Generation III designs. If successful, this seven-
year, $1.1 billion project (50 percent to be cost-shared by industry) 
could result in a new nuclear power plant order by 2009 and a new 
nuclear power plant constructed by the private sector and in operation 
by 2014.
    Funding of $1.8 million is provided in FY 2007 to implement a new 
program authorized in the recently enacted Energy Policy Act of 2005. 
The program will allow DOE to offer risk insurance to protect sponsors 
of the first new nuclear power plants against the financial impact of 
certain delays during construction or in gaining approval for operation 
that are beyond the sponsors' control. This program would cover 100 
percent of the covered cost of delay, up to $500 million for the first 
two new reactors and 50 percent of the covered cost of delay, up to 
$250 million each, for up to four additional reactors. This risk 
insurance offers project sponsors additional certainty and incentive to 
provide for the construction of a new nuclear power plant by 2014.
    The FY 2007 budget request includes $31.4 million to continue to 
develop next-generation nuclear energy systems known as Generation IV 
(GenIV). These technologies will offer the promise of a safe, 
economical, and proliferation resistant source of clean, reliable, 
sustainable nuclear power with the potential to generate hydrogen for 
use as a fuel. Resources in FY 2007 for GenIV will be primarily focused 
on long-term research and development of the Very-High Temperature 
Reactor.
    The University Reactor Infrastructure and Educational Assistance 
program was designed to address declining enrollment levels among U.S. 
nuclear engineering programs. Since the late 1990s, enrollment levels 
in nuclear education programs have tripled. In fact, enrollment levels 
for 2005 have reached upwards of 1,500 students, the program's target 
level for the year 2015. In addition, the number of universities 
offering nuclear-related programs also has increased. These trends 
reflect renewed interest in nuclear power. Students will continue to be 
drawn into this course of study, and universities, along with nuclear 
industry societies and utilities, will continue to invest in university 
research reactors, students, and faculty members. Consequently, federal 
assistance is no longer necessary, and the 2007 Budget proposes 
termination of this program. The termination is also supported by the 
fact that the program was unable to demonstrate results from its 
activities when reviewed using the Program Assessment Rating Tool 
(PART), supporting the decision to spend taxpayer dollars on other 
priorities. Funding for providing fresh reactor fuel to universities is 
included in the Research Reactor Infrastructure program, housed within 
Radiological Facilities Management.
    Recognizing the abundance of coal as a domestic energy resource, 
the Department remains committed to research and development to promote 
its clean and efficient use. U.S. coal accounts for twenty five percent 
of the world's coal reserves. For the last three years, the Department 
has been working to launch a public-private partnership, FutureGen, to 
develop a coal-based facility that will produce electricity and 
hydrogen with essentially zero atmospheric emissions. This budget 
includes $54 million in FY 2007 and proposes an advance appropriation 
of $203 million for the program in FY 2008. Funding for FutureGen will 
be derived from rescinding $203 million in balances no longer needed to 
complete active projects in the Clean Coal Technology program. Better 
utilization of these fund balances to support FutureGen will generate 
real benefits for America's energy security and environmental quality.
    The budget request for FY 2007 includes $4.6 million to support 
Alaska Natural Gas Pipeline activities authorized by Congress in late 
2004. Within the total amount of $4.6 million, $2.3 million will be 
used to support an Office of the Federal Coordinator and the remaining 
$2.3 million will support the loan guarantee portion of the program. 
Once constructed, this pipeline will be capable of delivering enough 
gas to meet about 10 percent of the U.S. daily natural gas needs.
    The budget request proposes to terminate the oil and gas research 
and development programs, which have sufficient market incentives for 
private industry support, to other energy priorities.
    The Energy Policy Act of 2005 established a new mandatory oil and 
gas research and development (R&D) program, called the Ultra-Deepwater 
and Unconventional Natural Gas and Other Petroleum Research program, 
which would be funded from federal revenues from oil and gas leases 
beginning in FY 2007. These R&D activities are more appropriate for the 
private-sector oil and gas industry to perform. Therefore this budget 
proposes to repeal the program through a future legislative proposal.
    The FY 2007 budget includes $124.9 million for a refocused 
portfolio of energy reliability and assurance activities in the Office 
of Electricity Delivery and Energy Reliability. This will support 
research and development in areas such as high temperature 
superconductivity, and simulation work needed to enhance the 
reliability and effectiveness of the Nation's power supply. This office 
also operates the Department's energy emergency response capability and 
led DOE's support effort during and after the Gulf Coast hurricanes.

ENSURING A CLEAN ENVIRONMENT

    The Bush Administration is laying a strong technological foundation 
to develop cost-effective options to meet clean development and climate 
objectives. While maintaining core programs in renewable energy, energy 
efficiency, nuclear power, fusion, and other areas, the Administration 
has launched important new initiatives and programs, including 
President Bush's Hydrogen Fuel Initiative, the FutureGen advanced clean 
coal project, and advanced nuclear power. Internationally, the U.S. has 
initiated a number of technology collaborations, including the Asia-
Pacific Partnership for Clean Development and Climate, the Carbon 
Sequestration Leadership Forum, the International Partnership for a 
Hydrogen Economy, the Generation IV International Forum, and the 
Methane to Markets Partnership, and it joined the ITER fusion project.
    The United States leads the world in the development of climate-
friendly technologies and spends more on climate change science and 
technology development--$2 billion and $3 billion in FY 2006, 
respectively--than any other country. As a result of technological 
progress, we are on track to meet the President's goal of reducing GHG 
intensity by 18 percent by 2012. For FY 2007, the President is 
proposing, through the Advanced Energy Initiative announced during the 
State of the Union Address, large increases in funding for solar, 
bioenergy, hydrogen, nuclear, and advanced clean coal R&D to change the 
way we produce power for our homes and automobiles and to reduce oil 
imports. The Department's FY 2007 budget also reflects our continuing 
strategy to reduce the greenhouse gas intensity of the American 
economy. A vital part of this strategy is the Climate Change Technology 
Program (CCTP). CCTP was established within the Department of Energy in 
the fall of 2002 and was authorized by Congress as part of the Energy 
Policy Act of 2005. The goal of CCTP is to accelerate the development 
of advanced, cost-effective technologies that reduce, avoid, or capture 
and sequester GHG emissions. Through leadership in research, 
development, demonstration and deployment, the U.S. approach aims to 
build on America's strengths in innovation and technology and inspire 
others, at home and abroad, to participate in an ambitious 
technological undertaking to address climate change concerns.

CONCLUSION

    The Administration recognizes that science and energy are central 
to our economic and national security. Indeed, energy helps drive the 
global economy and has a significant impact on our quality of life and 
the health of our people and our environment. The FY 2007 Budget 
Request balances the need to address short-term challenges while 
planning for long-term actions as the President outlined in his new 
initiatives, the American Competitiveness Initiative and the Advanced 
Energy Initiative. The request reflects our belief that basic science 
research must remain strong if we are to remain competitive with our 
global partners. The request contains bold new initiatives in nuclear, 
biomass, and solar energy. It continues the President's strong 
commitment to clean coal, hydrogen, and fusion. The request honors our 
commitment to deal with civilian nuclear waste, as well as legacy waste 
from the Cold War, and to further our already successful 
nonproliferation programs in order to help ensure a safer world for 
generations to come.

                     Biography for Samuel W. Bodman

    Samuel Wright Bodman was sworn in as the 11th Secretary of Energy 
on February 1, 2005 after the United States Senate unanimously 
confirmed him on January 31, 2005. He leads the Department of Energy 
with a budget in excess of $23 billion and over 100,000 federal and 
contractor employees.
    Previously, Secretary Bodman served as Deputy Secretary of the 
Treasury beginning in February 2004. He also served the Bush 
Administration as the Deputy Secretary of the Department of Commerce 
beginning in 2001. A financier and executive by trade, with three 
decades of experience in the private sector, Secretary Bodman was well 
suited manage the day-to-day operations of both of these cabinet 
agencies.
    Born in 1938 in Chicago, he graduated in 1961 with a B.S. in 
chemical engineering from Cornell University. In 1965, he completed his 
ScD at Massachusetts Institute of Technology. For the next six years he 
served as an Associate Professor of Chemical Engineering at MIT and 
began his work in the financial sector as Technical Director of the 
American Research and Development Corporation, a pioneer venture 
capital firm. He and his colleagues provided financial and managerial 
support to scores of new business enterprises located throughout the 
United States.
    From there, Secretary Bodman went to Fidelity Venture Associates, a 
division of the Fidelity Investments. In 1983 he was named President 
and Chief Operating Officer of Fidelity Investments and a Director of 
the Fidelity Group of Mutual Funds. In 1987, he joined Cabot 
Corporation, a Boston-based Fortune 300 company with global business 
activities in specialty chemicals and materials, where he served as 
Chairman, CEO, and a Director. Over the years, he has been a Director 
of many other publicly owned corporations.
    Secretary Bodman has also been active in public service. He is a 
former Director of M.I.T.'s School of Engineering Practice and a former 
member of the M.I.T. Commission on Education. He also served as a 
member of the Executive and Investment Committees at M.I.T., a member 
of the American Academy of Arts & Sciences, and a Trustee of the 
Isabella Stewart Gardner Museum and the New England Aquarium.
    Secretary Bodman is married to M. Diane Bodman. He has three 
children, two stepchildren, and eight grandchildren.

    Chairman Boehlert. Thank you very much, Mr. Secretary. Dr. 
Sampson.

STATEMENT OF DR. DAVID A. SAMPSON, DEPUTY SECRETARY, DEPARTMENT 
                          OF COMMERCE

    Dr. Sampson. Good morning, Chairman Boehlert and Ranking 
Member Gordon and Members of the Committee. I'm delighted to 
join my colleagues this morning to talk about the President's 
R&D budget request and the critical matter of American 
competitiveness. Like my colleagues, I'd also like to make a 
few brief comments and ask that my written testimony be a part 
of the hearing record.
    Let me say at the outset that American companies and 
workers are the most competitive and innovative in the world. 
We have the strongest and most diversified economy, so we begin 
this discussion from a position of strength. Over the past four 
years, the United States has experienced faster growth than any 
other major industrialized nation. Our unemployment rate of 4.7 
percent is one of the lowest. Payrolls are growing in almost 
every single state. And one of the major reasons for our 
success is the enormous improvements in worker productivity. In 
fact, U.S. productivity has had one of the fastest five-year 
periods of growth in almost 40 years, and the reason for that 
is that we are a nation of innovators. We have a reputation for 
coming up with new technologies that make us more productive.
    But the challenge is this: how do we maintain our 
leadership role in an increasingly competitive global economy? 
We need to attack this problem on a number of fronts, as 
outlined in President Bush's new and ambitious American 
Competitiveness Initiative. This initiative reflects many of 
the issues that were raised in December at a national summit on 
competitiveness that we hosted at the United States Department 
of Commerce. Chairman Boehlert and Subcommittee Chairman 
Ehlers, among many others, were very supportive of and 
participated in it. It was a highly successful meeting with 
over 50 CEOs and university presidents and officials from 
virtually every federal research agency participating.
    At the core of the President's competitiveness initiative 
are major increases in Federal R&D funding over the next 10 
years, and let me focus on what we're proposing at the Commerce 
Department for fiscal year 2007. First, at the National 
Institute of Standards and Technology, the President's budget 
calls for a 24 percent increase in funding, over $104 million 
for our core laboratory programs and the facilities to support 
them. This funding will allow scientists at NIST, who have won 
three Nobel prizes in recent years, to advance research in 
promising fields. For example, $72 million would go for cutting 
edge efforts in areas such as nanotechnology, hydrogen fuels 
and quantum information. These initiatives hold the promise of 
leading to new cancer therapies, fuel cells for pollution-free 
cars, or unbreakable codes to protect electronic transactions.
    We're planning to invest in critical national assets, 
notably the Center for Neutron Research, and we're also seeking 
$32 million to maintain and upgrade our labs, including the 
aging facilities in Boulder, Colorado.
    At the National Oceanic and Atmospheric Administration, 
we're requesting a $345 million increase to our base programs, 
in order to continue improving key predictions and warnings for 
a variety of weather, climate and water conditions, working 
towards sustainable fisheries and supporting safe and efficient 
transportation. Specifically, we're seeking increases in 
several high priority areas, including $112 million for the 
next generation of weather satellites that I know this 
committee has great interest in, $108 million for ecosystem 
management, $46 million for weather and water information, 
including $12 million to operate the Tsunami Warning Program, 
and $24 million for climate services to better predict and 
better inform the public about droughts.
    Mr. Chairman, President Bush, the Commerce Department and 
this Administration are committed to maintaining America's 
leadership in the global economy, and one of the best ways to 
do that is by creating an environment that encourages 
innovation and risk taking, and that focuses R&D spending on 
the most promising and productive fields. And we believe our 
R&D budget at the Department of Commerce significantly advances 
those goals. I look forward to working with the Committee as we 
move forward on what I believe is one of the most crucial 
issues we face as a nation and I obviously look forward to 
answering any questions that you or the Committee may have.
    [The prepared statement of Dr. Sampson follows:]

                 Prepared Statement of David A. Sampson

    Mr. Chairman and Members of the Committee, I am pleased to join you 
today as we examine the Administration's FY 2007 budget request for 
research and development at the Department of Commerce. I want to thank 
the Committee, especially Chairman Boehlert, for your continued support 
and leadership on innovation issues. You have been a constant and 
strong voice for the science and technology community, and I look 
forward to continuing our work together to ensure that America remains 
the world leader in the science and technology field.

INTRODUCTION

    Innovation and competitiveness drive the Nation's economy. The 
Department of Commerce provides the tools to help maximize U.S. 
competitiveness and ensure the economic health of American industries, 
workers, and consumers.
    I was pleased to play a role in the National Summit on 
Competitiveness that was held at the Department of Commerce on December 
6, 2005. The purpose of the summit was to raise awareness about the 
seriousness of the global competitiveness challenge and to promote an 
action agenda to ensure continued U.S. leadership in innovation. Our 
major international competitors are committing significant resources to 
their scientific and technological infrastructure, and increasing their 
ability to compete with the United States. This has led to a growing 
concern among industry and academia that America should increase its 
response to the changing competitive landscape.
    The summit involved key leaders from Government including Commerce 
Secretary Carlos Gutierrez, Energy Secretary Sam Bodman, Education 
Secretary Margaret Spellings, Labor Secretary Elaine Chao and National 
Science Foundation Director Arden Bement. About 50 corporate CEOs and 
university leaders joined with these Government officials to discuss 
actions necessary to strengthen America's innovation capacity, 
particularly in science and technology research, education, workforce 
development, and the deployment of new technologies.
    In his State of the State of the Union address, President Bush made 
it clear that we are faced with a choice in responding to the 
increasingly global economy. We can pursue the path of isolationism or 
we can choose to compete with confidence. President Bush has chosen the 
latter path by announcing the American Competitiveness Initiative 
(ACI), which will help ensure that America meets this goal and remains 
a leader in science and technology advances. The centerpiece of the ACI 
is the President's strong commitment to double over 10 years investment 
in key federal agencies that support basic research programs in the 
physical sciences and engineering--the National Science Foundation, the 
Department of Energy's Office of Science, and the Department of 
Commerce's National Institute of Standards and Technology (NIST).
    Under the ACI, NIST is slated for $535 million for its laboratory 
research and facilities appropriations. This budget proposal includes a 
$104.1 million increase above NIST's FY 2007 base--or more than 24 
percent. If appropriated this would be the largest dollar increase ever 
for NIST's laboratory research.
    The increase reflects the importance of the work that NIST 
undertakes to promote competitiveness and innovation--with the aim of 
improving economic security and improving the quality of life. It also 
reflects the importance that this Administration places on improving 
the environment for innovation and competitiveness. This commitment--as 
evidenced by the NIST budget proposal--is extraordinary in a budget 
that is mindful of the need to be stringent and restrain federal 
spending and reduce the deficit.
    This funding will support the work of 3,900 scientists and 
engineers from Government, industry and universities--an increase of 
600 researchers over FY 2006. Their work in areas including 
nanotechnology, hydrogen and quantum information will lead to the 
innovations of tomorrow, such as much more efficient batteries, and 
smaller computer chips to power our digital devices, as well as fuel 
cells to power pollution-free cars and unbreakable codes to protect 
electronic financial transactions and video transmissions.
    The Department also proudly houses another extremely important 
science agency, the National Oceanic and Atmospheric Administration 
(NOAA). NOAA's mission is to understand and predict changes in the 
Earth's environment, as well as to conserve and manage wisely the 
coastal and marine resources to meet our nation's economic, social, and 
environmental needs. The work performed at NOAA touches the daily lives 
of every person in the United States and in much of the world. The 
agency:

        <bullet>  provides weather, water, and climate services;

        <bullet>  manages and protects marine resources and ecosystems;

        <bullet>  conducts atmospheric, climate, and ecosystems 
        research;

        <bullet>  promotes efficient and environmentally safe commerce 
        and transportation; and

        <bullet>  provides emergency response and vital information in 
        support of homeland security.

    In addition to using science and technology to create jobs, 
stimulate innovation and improve economic prosperity, the Department is 
also directing resources toward disaster prediction and prevention, to 
better understand and minimize the loss of life and property from 
disasters.
    The 2005 Atlantic hurricane season was the busiest on record and 
extended the current period of increased hurricane activity which began 
in 1995--a trend likely to continue for years to come. This season 
shattered records that have stood for decades--the most named storms, 
most hurricanes and most category five storms. Arguably, it was the 
most devastating hurricane season the country has experienced in modern 
times.
    The devastation along the Gulf Coast from Hurricanes Katrina, Rita 
and Wilma is of historic proportions. It is catastrophic. However, 
without NOAA's forecasts and warnings, and its extensive recovery 
activities after the passage of each storm, the devastation and loss of 
life would have been far greater. As Chairman Ehlers himself has noted, 
NOAA ``alone pays for itself over and over in terms of the protection 
it gives to people and to property.''
    NOAA's forecasts and warnings for the 2005 Gulf hurricanes pushed 
the limits of state-of-the-art hurricane prediction. Our continuous 
research efforts, including observations, modeling, and expanded 
computational resources at NOAA, and in partnership with other federal 
agencies, have led to our current predictive capabilities and improved 
ways of describing uncertainty in prediction. But NOAA's work does not 
end there. NOAA assessed damage from storms, as well as the impact to 
the areas' fisheries. It continues to support hazardous materials 
containment and abatement efforts, provide necessary data critical for 
post-storm response and recovery operations, and assist dredging 
operations, allowing our nation's ports and waterways impacted by the 
storm to open.
    NOAA's science is just as critical to our understanding and 
management of our oceans. In December 2004, the Administration released 
the U.S. Ocean Action Plan (Plan), in response to the U.S. Commission 
on Ocean Policy's report entitled, An Ocean Blueprint for the 21st 
Century. NOAA will continue to play a key role in implementing many of 
the Plan's ocean policy measures, including the establishment of a 
coordinated ocean governance structure. Chairman Ehlers has noted that 
``these are critical issues crucial to the survival of humans on the 
planet when we consider the extent and the complexity of the oceans and 
life on the planet.'' Consistent with this approach, the Administration 
continues to support Commerce's leadership role in oceans policy and 
activities by promoting passage of a NOAA Organic Act.
    NOAA's global leadership extends to monitoring the planet through 
the development of the Global Earth Observation System of Systems 
(GEOSS). Last April, the United States released its first-ever plan to 
monitor the Earth. As a collaborative effort of 15 federal agencies and 
three White House offices, the 10-year Strategic Plan for the U.S. 
Integrated Earth Observation System will, over time, benefit people and 
economies around the world by improving the ability to monitor, 
understand and predict changes to the Earth. The completion of this 
plan marks a significant milestone in the ongoing development of GEOSS, 
involving nearly 50 other countries, the European Commission and 29 
international organizations. The GEOSS will provide NOAA and others 
with the tools to better understand our planet through an integrated, 
comprehensive, and sustained Earth-observation program.
    NOAA also serves as the lead coordinating agency for the U.S. 
Climate Change Science Program (CCSP) which integrates a broad range of 
climate-related observations, field studies and computer model 
projections sponsored by 13 federal agencies. CCSP has a goal of 
substantially improved understanding of both the causes and the 
potential effects of climate variability and change, on time scales 
extending from weeks to decades. NOAA's mission also includes the 
implementation of climate predictive and interpretive services for a 
wide range of applications, thereby providing significant benefits to 
users in several sectors of the economy.

HIGHLIGHTS OF THE FY 2007 BUDGET REQUEST

    The FY 2007 President's budget request for the Technology 
Administration is $582.8 million, including $1.5 million for the Office 
of the Under Secretary and $581.3 million for NIST. TA and its various 
components seek to maximize technology's contribution to economic 
growth, high-wage job creation, and the social well-being of the United 
States. TA and NIST serve as advocates for technological innovation and 
analyze the factors that affect our competitiveness.
    For NOAA, we request a total of $3.684 billion. The request is an 
increase of $345 million or 10 percent above NOAA's FY 2007 base. This 
FY 2007 request reflects our continuing effort to better serve the 
American people by restraining spending and advancing only the most 
mission-critical services. The NOAA staff of dedicated professionals, 
working with extramural researchers and our international partners, is 
extending our knowledge of climate change, expanding meteorological 
prediction capabilities, improving coastal resource management, 
charting more of our oceans and coasts, and enhancing environmental 
stewardship.
    For the remainder of my testimony I would like to focus on the 
Department's science and technology budget priorities for the upcoming 
fiscal year as reflected in TA/NIST's and NOAA's requests. The Commerce 
Department's budget illustrates our commitment to preserve the core 
competencies of TA, NIST and NOAA, and to promote competitiveness, 
innovation and economic growth.
Technology Administration Programs
    The Technology Administration and its various components--NIST, the 
National Technical Information Service, and the Office of the Under 
Secretary--seek to maximize technology's contribution to economic 
growth, high-wage job creation, and the social well-being of the United 
States.
            National Institute of Standards and Technology
    NIST has long been a center for high-impact basic research, as 
evidenced by the three Nobel Prizes that have been awarded to its 
scientists in the last decade. NIST research has led to innovations 
that we can see today, from the high-density magnetic storage 
technology that makes devices such as computer hard drives and mp3 
players so compact, to protective body armor for law enforcement 
officers and diagnostic screening for cancer patients.
            NIST's Scientific and Technical Research and Services 
                    ($467.0 million)
    The NIST budget is divided into three appropriations, the first of 
which is $467.0 million covering Scientific and Technical Research and 
Services (STRS). This includes $459.4 million for NIST's laboratory 
research, which is the core of NIST's operations. Through these 
laboratories, NIST plays a unique role in the Nation's scientific, 
industrial and business communities. Scientists, engineers, health care 
professionals, manufacturers and business people compare and trade 
data, test results, manufactured goods, and commodities with greater 
confidence when NIST is present in the background--anchoring the 
national measurement and standards system that is the language of 
research and commerce.
    This is the oldest and one of the most important of NIST's long-
standing missions. It affects every American who goes to the store, 
buys gasoline or pays a utility bill, because each year $4.5 trillion 
in wholesale and retail trade is measured against standards that are 
ultimately traceable to NIST. It affects:

        <bullet>  every American whose job depends on the ability of 
        our industries to innovate and to compete in global trade--
        because product quality and productivity depend on the ability 
        to measure and precisely control the production process, and 
        because more and more high-tech and high-value products are 
        subject to foreign regulations that require measurements 
        traceable to internationally recognized standards;

        <bullet>  every American who relies on fundamental business 
        services and communications devices--because so many of these 
        services depend upon NIST measurements and standards in ways 
        that are invisible to most consumers and service sector 
        employees; and

        <bullet>  every American concerned with homeland security--
        because NIST is being called upon increasingly to provide the 
        measurement assurance behind sensitive detection systems for 
        chemical, biological, explosive or radiological weapons.

    It is a vital mission, and one that is far from static, because a 
modern, progressive, industrialized society imposes constant demands 
for improvements in its measurements and its standards. The pace of 
America's technological innovation both drives and is driven by our 
ability to observe and to measure, and NIST's infrastructure is vital 
to accelerating that innovation.
    NIST's reputation and past accomplishments are known worldwide 
because of its laboratory-based work, and its level of excellence is 
the goal for all measurement research institutions. NIST is 
increasingly focused on the most intriguing and challenging 
technologies and industries of the new century, and the measurements 
and standards that will be crucial if U.S. industry is to innovate, 
compete, and excel in the future.
    The requested increases for the NIST laboratories match the 
President's R&D priorities and the Nation's measurements and standards 
needs. Discoveries and advances in nanotechnology and manufacturing 
supply chain integration have the potential to dramatically transform 
manufacturing and business industries through innovation and 
productivity improvements. Similarly, developments and discoveries in 
quantum information science, hydrogen research, and new imaging 
techniques for materials and medical applications will potentially 
improve not only the life of every American, but will also have an 
impact on the future of people throughout the world. The ability of 
U.S. companies to sell their goods and services overseas to growing 
global markets will depend on NIST's work to open markets for U.S. 
workers and exporters. The complex information systems that are crucial 
for our daily lives will be more secure with the assistance of NIST's 
computer security expertise. These are the challenges and opportunities 
that face the Nation and NIST in the 21st Century, challenges that NIST 
will be better equipped to address as a result of this budget.
    The President's American Competitiveness Initiative for NIST totals 
$104.1 million in enhancements for the core NIST programs including the 
NIST laboratories and facilities improvements. The major NIST focus of 
the American Competitiveness Initiative includes the following:

        <bullet>  Targeting the most strategic and rapidly developing 
        technologies ($45 million)

                  Enabling Nanotechnology from Discovery to 
                Manufacture ($20 million),

                  Enabling the Hydrogen Economy ($10 million),

                  Quantum Information Science: Infrastructure for 21st 
                Century Innovation ($9 million),

                  Innovations in Measurement Science ($4 million), and

                  Cyber Security: Innovative Technologies for National 
                Security ($2 million).

        <bullet>  Increasing the capacity and capability of critical 
        national assets ($27 million)

                  NIST Center for Neutron Research (NCNR) Expansion 
                and Reliability Improvements: A National Need ($22 
                million including $10 million in STRS for 
                instrumentation development and $12 million in CRF for 
                design of new guide hall), and

                  Synchrotron Measurement Science and Technology: 
                Enabling Next Generation Materials Innovation ($5 
                million).

        <bullet>  Meeting near-term needs ($12 million)

                  Manufacturing Innovation through Supply Chain 
                Integration ($2 million),

                  Structural Safety in Hurricanes, Fires, and 
                Earthquakes ($2 million),

                  International Standards and Innovation: Opening 
                Markets for American Workers and Exporters ($2 
                million),

                  Bioimaging: A 21st Century Toolbox for Medical 
                Technology ($4 million), and

                  Biometrics: Identifying Friend or Foe ($2 million).

        <bullet>  NIST facilities improvement plan ($20.1 million)

                  Phase I design of the renovation of the main 
                Building 1, in Boulder, Colorado ($6.3 million)

                  Design and limited renovation of Building 4 in 
                Boulder, Colorado ($3.8 million), and

                  Increasing the base for Safety, Capacity, 
                Maintenance and Major Repairs of NIST facilities ($10 
                million).

    I want to emphasize and provide additional information about 
several of these important initiatives, to explain why the President 
has decided that they merit such an investment in tight budget times.
            Enabling Nanotechnology from Discovery to Manufacture (+$20 
                    million)
    Nanotechnology is anticipated to be the major breakthrough 
technology in the 21st century--with the nanotechnology-related market 
predicted to exceed $1 trillion globally by 2015. Within the next 10 
years, experts expect at least half of the newly designed advanced 
materials and manufacturing processes to be at the nanoscale. The 
United States is making significant investments in nanoscience and 
nanotechnology, and it is essential that we rapidly and efficiently 
transfer our basic scientific discoveries to practice within our 
manufacturing sector. Globally, no one country or region has a 
significant technological lead in this area--with the European Union, 
Japan, and other countries each investing about the same amount of 
government resources as the United States.
    Successfully translating nanoscale discoveries into manufactured 
products will be critically dependent on:

        <bullet>  developing process technologies to efficiently and 
        reliably produce commercially significant quantities of 
        nanomaterials,

        <bullet>  developing advanced measurement and process-control 
        technologies--including standard reference materials--to 
        monitor production processes and for quality control, and

        <bullet>  close cooperation and interaction between the 
        research sector, the manufacturing sector, and the national 
        measurement standards system.
            Enabling the Hydrogen Economy (+$10 million)
    President Bush issued a challenge to the Nation's scientists and 
engineers in his 2003 State of the Union speech to overcome technical 
obstacles so that ``the first car driven by a child born today could be 
powered by hydrogen, and pollution-free.'' Hydrogen fuels are expected 
to reduce the environmental impact of energy use as well as lower 
dependence on foreign energy sources. NIST has the technical expertise, 
unique facilities, and the mandate from Congress needed to make 
substantial contributions toward a robust hydrogen economy.
    For the past 50 years, NIST has been a leading provider of data on 
the chemical and physical properties of hydrogen. NIST's Center for 
Neutron Research (NCNR) is a premier facility for the study of 
hydrogen. The NCNR already is being used in conjunction with major U.S. 
manufacturers to study the flow of hydrogen through operating fuel 
cells to help improve the efficiency and durability of these devices. 
NIST is, in fact, the lead agency for weights and measures for vehicle 
fuels and will need to develop physical reference standards, 
calibration services, and new consensus standards to help ensure 
equitable trade of hydrogen in the marketplace. The safe handling, 
production, and distribution of hydrogen presents significant 
challenges--which is why Congress has charged NIST with helping to 
develop standards for pipeline safety and reliability. NIST's expertise 
in building and fire research will be essential for developing model 
building codes that foster adoption of hydrogen technologies in local 
communities.
    Moreover, NIST's expertise in manufacturing will be critical for 
advancing hydrogen process control technologies and the design of fuel 
cells that can be manufactured cost-effectively. That is why the 
President is requesting additional funding for NIST's laboratory work 
in this area as part of the effort to achieve the vision of a hydrogen 
economy.
            Quantum Information Science: Infrastructure for 21st 
                    Century Innovation (+$9 million)
    America's future prosperity and economic security may rely in part 
on the exotic properties of some of the smallest particles in nature to 
accomplish feats in physics, information science, and mathematics that 
are impossible with today's technology.
    Research in quantum information seeks to control and use these 
properties for scientific and societal benefits. Researchers are 
working toward quantum computers that can solve problems in seconds 
that today's best supercomputers could not solve in years. Much like 
the way computers of today greatly improved our quality of life, 
quantum computers of the future will solve problems beyond our current 
imagination. We do know that they will create unbreakable codes to 
protect commercial communications, including financial transactions and 
video transmissions, but we also believe they will do much more. 
Advances in quantum information science have the potential to expand 
and strengthen the U.S. economy and security in the 21st century just 
as transistors and lasers did in the last century.
    NIST is a leader in quantum research with several world-renowned 
scientists, including three Nobel laureates--and it is perfectly 
positioned to play a more critical role in advancing the quantum realm 
of science and harnessing its power to achieve benefits for the economy 
and for our security.
    Under the FY 2007 initiative proposed by the President, NIST will 
accelerate the field by expanding its in-house research efforts and by 
enhancing its effort to exploit the fundamental properties of quantum 
systems to develop new metrology tools and methods. Moreover, NIST will 
establish a Joint Quantum Institute to leverage NIST's own expertise 
and resources with those of a university and the National Security 
Agency. Specific, practical benefits will include: improved security 
for electronic commerce; maintenance of the U.S. lead in computing and 
information processing; improved accuracy for electrical and other 
standards based on better understanding of quantum systems; and 
establishment of U.S. industry as the leader in the emerging field of 
quantum engineering.
    It takes wonderful, talented people--the best in the world--to 
conduct the kind of Nobel Prize-winning, McArthur Genius Award-winning, 
National Medal of Science-winning work that is done by NIST. It also 
takes facilities where this work gets done, which is one reason that 
the President's Budget for 2007 includes $68 million--including a $32.1 
million program increase (including $12 million in the NIST Center for 
Neutron Research initiative and $20.1 million for the NIST Facilities 
Improvement Plan--for NIST's Construction and Research Facilities (CRF) 
account). Moreover, these investments at NIST also support industrial 
innovation and competitiveness by making available special research 
facilities used by scientists and engineers from industry, 
universities, and other agencies. Congress has helped NIST to tackle 
some of its most pressing facilities needs, resulting in two relatively 
new additions. The NIST campuses in Boulder, Colorado, and 
Gaithersburg, Maryland, are showing their age (50 and 40 years old, 
respectively). Additional investments are needed if these sites are to 
remain fully serviceable and allow the researchers that use these 
facilities to be as productive as possible.
    The President's proposal for CRF includes resources for safety, 
maintenance, repair, and facilities upgrades. The CRF request would 
fund:

        <bullet>  Construction and renovations at the NIST Center for 
        Neutron Research, tied in with the parallel R&D initiative in 
        STRS ($12 million),

        <bullet>  Increases for the NIST safety, capacity, maintenance 
        and major repairs (SCMMR) budget to repair aging facilities 
        ($10 million), and

        <bullet>  Building renovations at the agency's Boulder, 
        Colorado, site ($10.1 million). This is a repeat request that 
        we are making for these sorely needed renovations. We have been 
        moving forward as quickly as possible to complete the needed 
        projects.

    Finally, the President is requesting $46.3 million to fund the 
Hollings Manufacturing Extension Partnership program. This is a 
reduction from the FY 2006 level that would be made in order to address 
the Nation's most pressing funding needs in an austere fiscal 
environment. NIST will focus the FY 2007 funding to maintain an 
effective network of centers with an emphasis on activities that 
promote innovation and competitiveness in small manufacturers.
    The FY 2006 appropriations and estimated recoveries will be 
sufficient to meet all existing obligations of the Advanced Technology 
Program and to phase it out. Accordingly, no FY 2007 funds are 
requested.
            Office of the Under Secretary ($1.5 million)
    The key administrative and policy operations within the Office of 
the Under Secretary will be streamlined. TA will remain an effective 
advocate for technology within the Department of Commerce. TA, for 
instance, was the lead office at the Commerce Department responsible 
for working on the recent competitiveness summit hosted at the 
Department.
            National Technical Information Service (fee supported)
    The National Technical Information Service (NTIS), the third unit 
of the Technology Administration, is a repository of much of the 
Government's technical information that is used by the science and 
technical communities. NTIS maintains, sells and distributes a 
collection of scientific and technical information from various federal 
agencies. NTIS covers its operating costs through fees for its products 
and services; in keeping with past practice, there is no FY 2007 
appropriation request.
National Oceanic and Atmospheric Administration Programs
    Americans look to NOAA for a wide variety of services and support 
ranging from the local weather forecast, to a sustainable supply of 
quality seafood, to the safe transport of millions of tons of water-
borne cargo. Our scientists and managers also help keep the coastline 
safe and economically vibrant, and maintain detailed research on the 
climate from the frozen Arctic to the depths of the oceans.
    NOAA's budget proposes increases for the following high priority 
areas:

        <bullet>  Satellite Continuity (+$124 million for GOES-R and 
        NPOESS)

        <bullet>  Ecosystem Management (+$108 million, including $19.7 
        million for fisheries activities in the Gulf of Mexico and $6 
        million for the Open Rivers Initiative)

        <bullet>  Weather and Water Information (+$46 million, 
        including $12 million to complete and operate the Tsunami 
        Warning System and $1.4 million to operate and maintain 
        Hurricane Buoys)

        <bullet>  Climate Services (+$24 million, including $6.5 
        million for High-Performance Computing and $4 million for the 
        National Integrated Drought Information System)

        <bullet>  Commerce and Transportation (+$19.5 million, 
        including $10.5 million to address nautical survey backlog and 
        $5 million for critical mapping, charting, and data 
        improvements)

        <bullet>  Improved facilities (+$30 million)

            Mission Support/People and Infrastructure
    The backbone of the NOAA infrastructure is our integrated 
observation effort, including building state-of-the-art satellite 
programs. NOAA serves with NASA and OSTP as lead for the Federal 
Government in developing our U.S. integrated observing strategy. Our 
efforts include state-of-the-art satellite programs, supported by a 
requested increase of $20.3 million for the tri-agency National Polar-
orbiting Operational Environmental Satellite (NPOESS) program, which 
will replace the Polar Orbiting System (POES) program after completion 
of the current K-N' series of satellites.
    As you are aware, the NPOESS program has encountered significant 
cost and schedule overruns, which are not included in the FY 2007 
request. NPOESS is currently undergoing a recertification review in 
accordance with Nunn-McCurdy DOD regulatory requirements. This review 
will shape the way forward, and consequently, the Administration's 
future budget requirements. The Department of Defense request for 
NPOESS matches the NOAA request for FY 2007, as part of the shared 
funding arrangement.
    We are also developing the next generation of geostationary 
satellites to maintain continuity of satellite data into the future. 
The FY 2007 NOAA budget requests $113.4 million to move the GEOS-R 
series satellites into the acquisition and operations phase of its 
procurement.
            Ecosystems ($107.6 million increase)
    The FY 2007 Budget request includes significant resources for 
NOAA's ocean and coastal programs, and fisheries and protected species 
activities in support of the President's U.S. Ocean Action Plan. NOAA's 
primary initiative is to advance ecosystem-based approaches to resource 
management. By applying innovative strategies to improve internal and 
external coordination and integration based on ecosystem principles, 
and by establishing baselines and integrated observations of ecosystem 
indicators, NOAA will increase the effectiveness of its many program 
activities intended to produce healthy and productive ecosystems that 
benefit society. Initiating ecosystem approaches to management requires 
better monitoring and characterization, and more effective integration 
and collaboration among NOAA programs and its external partners.
    Highlights of the FY 2007 request in this area include $19.7 
million to support fisheries programs in the Gulf of Mexico. As the 
Gulf region rebuilds, these programs will ensure that adequate science 
and management resources are available to promote sustainable 
fisheries. In addition, the request includes $6 million for the Open 
Rivers Initiative in support of cooperative conservation. This will be 
a competitive grant program that utilizes a community-based model to 
remove obsolete river barriers in coastal states. NOAA will also extend 
its Habitat Restoration Program to the Great Lakes, expand dedicated 
fishery access privilege programs, improve regional collaboration and 
planning of coastal state managers to improve management of coastal 
watersheds and marine resource areas, and enhance observing and 
information delivery systems to inform the public as part of the U.S. 
Integrated Ocean Observing System (IOOS). These increases allow NOAA to 
meet our responsibilities as stewards of living marine resources for 
the benefit of the Nation, through science-based conservation and 
management and the protection of ecosystem health.
            Climate ($24.1 million increase)
    NOAA requests $24.1 million increase (for a total of $230 million) 
for programs and activities increasing our ability to predict and 
assess current and future impacts of climate events such as droughts, 
floods, and trends in extreme climate events. These programs provide 
vital information for farmers, utilities, land managers, weather risk 
industry, fisheries resource managers, and other customers to make 
better decisions. One such investment will enable NOAA to continue 
building the global component of the Integrated Earth Observing System. 
Advancing observing systems toward global coverage will allow NOAA to 
better understand the state of the climate system and improve climate 
predictions. Another key investment is the request for $4.0 million to 
go towards drought impact research for the National Integrated Drought 
Information System (NIDIS), which will aid decision makers faced with 
drought and water resource management issues. The request also includes 
$7 million to establish the capacity to produce consistent and 
continually updated climate analysis data, deliver regular and 
systematic explanations of the state of the climate system, and advance 
understanding and predictions of climate extremes.
    NOAA's FY 2007 Budget request includes an increase for Data Centers 
and Information Services, which provide access to the world's largest 
collection of data, including climate data, to more than 50,000 users 
per year. The request also includes an increase of $6.5 million for 
high-performance computing and communication, which will allow NOAA to 
use advanced computing power to forecast the Nation's weather and 
climate, to model ecosystems and the ocean, to and disseminate 
environmental information.
            Weather and Water ($46.1 million increase)
    The FY 2007 budget includes $46.1 million in increases to sustain 
and improve weather forecasts and warnings. NOAA's weather and water 
services make a tremendous contribution to the Nation's health and 
economic vitality. For instance, weather warnings protect the public 
from extreme environmental events while forecasts are essential to 
weather- and climate-sensitive industries, which account for one-third 
of the Nation's GDP. As an example of the benefits, during a typical 
hurricane season NOAA's efforts save the Nation $3 billion. Annually, 
drought costs the Nation $6 to $8 billion, and floods cost $5 billion 
and cause more than 80 deaths. There are estimates that indicate that 
the United States can reap a 12-to-1 return annually for every dollar 
invested in better water resource forecasting.
    Support of the FY 2007 budget request will strengthen NOAA's 
ability to sustain critical services and to provide crucial enhanced 
services. Warning improvements include $12.4 million to operate the 
U.S. Tsunami Warning System and expand its scope from the Pacific to 
the Atlantic and Caribbean. We will use $2.5 million to provide 
critical infrastructure protection for the National Weather Service 
Telecommunications Gateway (NWSTG). Funds will be used to implement a 
telecommunications network solution which resolves an existing single-
point-of-failure issue associated with the commercial service provider 
to the NWSTG. This network solution will ensure uninterrupted delivery 
of critical meteorological data necessary for the protection of life 
and property. The budget request includes $3.5 million to support the 
Wind Profiler Network, which will fund engineering design and award a 
development contract for new frequency compliant transmitters, develop 
contingency plans in coordination with data users for the loss of 
Profiler data in the case of potential search and rescue satellite 
(SARSAT) interference, and provide operations and maintenance for the 
current Wind Profiler Network.
            Commerce and Transportation ($19.5 million increase)
    The U.S. economy relies upon an intermodal transportation network 
of ship, rail, highway, and air transport to move people, cargo and 
commerce to, from and across the Nation. This movement is heavily 
dependent upon the information and services that NOAA provides--weather 
and ice forecasts, real-time and forecast water level conditions and 
obstruction surveys, navigational charts, hazardous materials response, 
and satellite search and rescue. From 1990 to 2003, the value of U.S. 
international merchandise trade increased an average six percent 
annually, from $889 billion to about $2 trillion (in current dollars). 
The U.S. Marine Transportation System (MTS) carried 95 percent of this 
trade by volume and 41 percent by value in 2003, more than any other 
transportation mode. The Nation also loses at least $4 billion annually 
due to economic inefficiencies resulting from weather-related air-
traffic delays, and the injuries, loss of life, and property damage 
from surface weather-related crashes cost an average of $42 billion 
annually. NOAA's products and services help maintain the efficient flow 
of transportation and commerce.
    Among our Commerce and Transportation programs, we are requesting 
$2.0 million to continue implementation of the National Vertical Datum 
Transformation Tool database, or VDATUM. VDATUM allows Federal, State, 
and local government agencies to share geospatial data more effectively 
and benefits NOAA's modernization efforts. The FY 2007 budget request 
also includes $1.9 million to continue NOAA's efforts to provide 
Electronic Navigational Charts (ENCs). Sustained funding at this level 
will enable NOAA to cover all U.S. waters by 2010. In addition, $2.7 
million is requested for tide and current data; $2.0 million of these 
funds will be used to rebuild and strengthen the National Water Level 
Observation Network's (NWLON) ability to provide navigation and storm 
tide information throughout extreme weather and water events such as 
hurricanes. Several stations were damaged or destroyed during the 2005 
hurricane season. Lastly, $1.2 million is requested for Aviation 
Weather, which will fund procurement and fielding of 75 additional 
water vapor sensors as part of an Integrated Upper Air Observing System 
to continue to improve U.S. aviation safety and economic efficiencies. 
Water vapor information is critical to depicting weather hazards and 
reducing forecast errors. The remaining $0.7 million will enable NOAA 
to maintain the existing 13 PORTS as well as continue expanding the 
program for the next several years.

CONCLUSION

    We are pleased that the President's Budget reflects the important 
work of the science agencies housed in the Department of Commerce. The 
Department's research and development budget includes a number of 
investments critical to our nation. Thank you for the opportunity to 
appear here today. I welcome any questions that you may have.

                     Biography for David A. Sampson

    David A. Sampson is the Deputy Secretary of the U.S. Commerce 
Department. Dr. Sampson was nominated by President George W. Bush on 
April 1, 2005 and confirmed by the U.S. Senate, on July 22. He was also 
designated by President Bush on June 16, 2005 as a Member of the Board 
of Directors of the Overseas Private Investment Corporation.
    Previously, he served as Assistant Secretary of Commerce for 
Economic Development and head of the Economic Development 
Administration, which leads the Federal Government's efforts to promote 
economic growth and regional competitiveness.
    As Deputy Secretary, Sampson serves as the Department's chief 
operating officer, with responsibility for the day-to-day management of 
its approximately $6.5 billion budget, 13 operating units, and 38,000 
employees. In that capacity, Sampson is also a member of the 
President's Management Council. The Department's portfolio is extremely 
varied. Its missions include promoting U.S. exports, negotiating and 
enforcing international trade agreements and regulating sensitive goods 
and technologies exports.
    The Department also is the Nation's steward of the oceans and 
coastal marine resources; weather forecaster and climate researcher; 
and the lead policy agency on technology and telecommunications and 
administrator for federal radio frequency spectrum. In addition, 
Department bureaus conduct the national census; track the economy and 
release regular updates; issue patents and trademarks; develop and 
apply technology, measurements, and industrial standards; promote 
economic growth in distressed communities; and encourage minority 
business development.
    Prior to joining the Bush Administration in August 2001, Sampson 
worked in both the private and public sectors, serving as President and 
Chief Executive Officer of the Arlington, Texas Chamber of Commerce; 
Chairman of the Texas Council on Workforce and Economic 
Competitiveness; and Vice Chair of the Texas Strategic Economic 
Development Planning Commission in then-Governor Bush's Administration.
    Sampson is a graduate of David Lipscomb University, the New Orleans 
Baptist Theological Seminary and earned his doctorate at Abilene 
Christian University. He and his family currently reside in Northern 
Virginia.

    Chairman Boehlert. Thank you very much. Dr. Bement.

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Ranking Member Gordon and Members of the 
Committee, thank you for this opportunity to provide you with 
some context for our 2007 budget request. As I mentioned to 
Chairman Boehlert before the hearing, my face muscles are 
getting sore from wearing a constant grin, and it's always a 
special pleasure to come before the Committee when we have a 
budget request such as the one we have and will be discussing 
today.
    You're well aware the President's request for NSF for 2007 
is $6.02 billion, or a 7.9 percent increase over last year, and 
the first installment in the Administration's planned ten-year 
doubling of NSF's budget. Mr. Chairman, we're grateful to you 
for your personal leadership and also for the Committee's 
leadership on this issue and looking forward to working with 
you in the months and years ahead to achieve this ambitious 
goal.
    NSF has been selected to play major roles in the 
President's American Competitiveness Initiative. These include 
investing in a generation of fundamental discoveries that 
produce valuable and marketable technologies, providing world-
class facilities and infrastructure that are essential to 
transform research and enable discovery, and preparing the 
Nation's scientific, technological, engineering and mathematics 
workforce for the 21st century, while improving the quality of 
math and science education in America's schools.
    By its longstanding practice of integrating graduate 
research with education, NSF will facilitate the direct 
transfer of new concepts to the private sector as graduate 
students involved in their discovery enter the workforce. The 
President's request for NSF will increase funding for Research 
and Related Activities by 7.7 percent to $4.7 billion. This 
should enable NSF to reverse a decline in our success rate by 
providing 500 more research grants and 6400 additional 
scientists, students, post-doctoral fellows, and technicians to 
contribute to the innovation enterprise. This increase will 
also bolster our ability to fund more high-risk ideas. We 
already make available up to five percent of research funds for 
small grants for exploratory research. Combined with targeted 
activities throughout the research directorates, more than nine 
percent of the research budget specifically challenges the 
community to take risks and engage in research at the 
interdisciplinary frontiers.
    We will also make investments in several Administration 
priority initiatives. We are pleased to be the lead agency in 
two of the Nation's major physical science research programs, 
the Networking and Information Technology Research and 
Development Initiative, or NITRD, and the National 
Nanotechnology Initiative, or NNI. Funding in the request for 
NITRD will increase by 11.5 percent, or $93.4 million, and NNI 
will increase by $29.4 million, or 8.6 percent.
    Within our investment that supports unique tools and world-
class facilities are two new starts in our Major Research 
Equipment and Facilities Construction account. We are 
requesting $56 million for the Alaska Region Research Vessel, a 
ship designed to conduct essential scientific studies in waters 
that are home to enormous fisheries and challenged by climate 
change. The budget also includes $13.5 million for the Ocean 
Observatories Initiative, which will revolutionize our 
understanding of the complex interplay among oceans, geology 
and life in the seas. Both facilities respond to 
recommendations from the Congressionally-mandated U.S. 
Commission on Ocean Policy. The budget includes $597 million, 
an increase of 15 percent, for new cyberinfrastructure, 
including $50 million for transitioning from terascale to 
petascale computing. In addition, $35 million is included for 
NSF's Cyber Trust Program, to improve the reliability of 
computer systems, even if under attack. These programs will be 
conducted in close cooperation with the Department of Energy, 
DARPA and NASA.
    Yet another aspect of NSF's role in the President's 
initiative will focus on preparing a technological workforce 
and improving the math and science education of children. 
Although the Education and Human Resources account increases 
$19 million, or 2.5 percent over last year, this does not 
reflect the total investment in education activities at NSF. 
After accounting for various base changes such as the planned 
$17 million phase-down in the Math and Science Partnership 
Program, and contributions from the research account, K to 12 
investments actually increased by over 10 percent, and 
investments in undergraduate education increased by over six 
percent. The budget request proposes significant increases in 
all other Congressionally-mandated programs such as graduate 
fellowships and traineeships, research experiences for 
undergraduates and teachers, faculty early career development, 
Robert Noyce Scholarships, advanced technology education in 
two-year colleges, and informal science education. Investments 
to broaden participation of women, under-represented minorities 
and persons with disabilities will increase throughout the 
foundation to $640 million, with nearly $100 million from the 
research account. These investments will focus on proven 
programs that have shown success in increasing the pathways for 
broadening participation.
    Mr. Chairman, I am very aware and appreciative of the 
Committee's longstanding bipartisan support for NSF, and I'll 
be happy to respond to any questions.
    [The prepared statement of Dr. Bement follows:]

               Prepared Statement of Arden L. Bement, Jr.

    Chairman Boehlert, Ranking Member Gordon, and Members of the 
Committee, thank you for this opportunity to provide you with some 
context for our FY 2007 budget request. It is always a pleasure to come 
before you, but it is a greater pleasure when we have a budget request 
such as the one before us today.
    As you no doubt know, the President's request for NSF for 2007 is 
$6.02 billion, or a 7.9 percent increase over the appropriation enacted 
last year. As part of the President's American Competitiveness 
Initiative, this request represents the first step in the 
Administration's firm commitment to doubling the NSF budget over the 
next 10 years.
    The ACI encompasses all of NSF's investments in research and 
education. These investments--in discovery, learning, and innovation--
have a longstanding and proven track record of boosting the Nation's 
economic vitality and competitive strength.
    Our focus for 2007 emphasizes four priorities. The first of these--
Advancing the frontier--is at the heart of everything NSF does. In a 
science and technology-based world, to divert our focus from the 
frontier is to put our nation's global preeminence in science and 
engineering at peril.
    One of NSF's strong points is multi-disciplinary integration at the 
frontier, where disciplinary boundaries blur and knowledge converges. 
To explore that territory, our strategy must be to keep all fields and 
disciplines of science and engineering healthy and strong.
    Frontier research is NSF's unique task in pursuing the 
Administration's research priorities within the larger federal research 
and development effort. Over the years, NSF has advanced the frontier 
with support for pioneering research that has spawned new concepts and 
even new disciplines. The NSF budget provides strong support in 
fundamental research for activities coordinated by the National Science 
and Technology Council (NSTC).
    NSF is the lead federal agency supporting NSTC's Networking and 
Information Technology Research and Development (NITRD) program. The 
'07 budget includes investments of $904 million in NITRD--an increase 
of $93 million.
    A highlight of the Foundation's contribution to NITRD is a $35 
million investment--an increase of $10 million--in Cyber Trust. Cyber 
Trust supports cutting-edge research to ensure that computers and 
networks that underlie national infrastructures, as well as in homes 
and offices, can be relied on to work even in the face of cyber 
attacks. It's part of a larger effort in cyber security research, which 
totals $97 million.
    NSF is also the lead in the multi-agency National Nanotechnology 
Initiative (NNI). NSF's '07 investment in NNI is $373 million, an 
increase of $29 million. Of that total, $65 million will fund Nanoscale 
interdisciplinary research teams (NIRTs). These awards encourage team 
approaches to address nanoscale research and education themes, where a 
collaborative blend of expertise is needed to make significant 
contributions.
    NSF will invest $205 million--an increase of $8 million--in the 
interagency Climate Change Science Program. NSF supports a broad 
portfolio of research activities that provides a comprehensive 
scientific foundation for understanding climate and climate 
variability. Climate has a pervasive effect on the U.S. through its 
impact on natural resources, the economy, and the environment, so this 
is work of great significance to the Nation.
    NSF investments in basic research in Homeland Security also 
increase by $42 million to $384 million. An important new effort will 
support a program of fundamental research on novel technologies for 
sensors and sensor systems to improve the detection of explosives, with 
a particular emphasis on Improvised Explosive Devices (IEDs).
    Fundamental research can play a vital role in helping to stem this 
threat, and at the same time, advance the entire field of sensor 
research. A focal point of this $20 million activity will be improving 
the sensitivity and fine resolution of sensors to recognize threats 
earlier than current technologies.
    The International Polar Year (IPY) in 2007 to 2008 will mark the 
50th anniversary of the International Geophysical Year. That was a year 
in which unparalleled exploration of Earth and space led to discoveries 
in many fields of science--and we hope to emulate that success. The 
U.S. vision for IPY, articulated by the National Academies,\1\ urges 
the U.S. scientific community and federal agencies to participate as 
international leaders.
---------------------------------------------------------------------------
    \1\ A Vision for the International Polar Year 2007-2008, National 
Academies Press.
---------------------------------------------------------------------------
    The Administration has asked NSF to lead U.S. IPY activities. In 
2007, we will invest $62 million to address major challenges in polar 
research. Key research programs include: Observing Environmental Change 
in the Arctic; Studying Ice Sheet Dynamics and Stability; and Life in 
the Cold and Dark.
    Recent advances in elementary particle physics strongly suggest 
that we are on the verge of a revolution in our understanding of the 
nature of matter, energy, space, and time. NSF will expand its 
substantial investment in elementary particle physics by $15 million. 
The opportunities for discovery today are greater than at any point in 
the last half-century, particularly for the study of dark matter, dark 
energy, and the physics of the universe.
    A new research effort to address policy-relevant Science Metrics is 
funded initially at $6.8 million, through the Social, Behavioral and 
Economic Sciences Directorate. The goal is to develop the data, tools, 
and knowledge needed to establish the foundations for an evidence-based 
science policy. NSF intends to pursue this in close cooperation with 
other agencies.
    The National Science Foundation has been selected to play major 
roles in the President's American Competitiveness Initiative (ACI). 
These include:

        <bullet>  Investing in the generation of fundamental 
        discoveries that produce valuable and marketable technologies;

        <bullet>  Providing world-class facilities and infrastructure 
        that are essential to transform research and enable discovery; 
        and

        <bullet>  Preparing the Nation's scientific, technological, 
        engineering, and mathematics workforce for the 21st Century 
        while improving the quality of math and science education in 
        America's schools.

    In pursuit of these ACI goals, NSF will continue to make major 
contributions to America's innovation systems by advancing new 
scientific and engineering concepts.
    These investments are all part of the request in the President's 
Budget to increase support for research and related activities by 7.7 
percent to $4.7 billion. This will enable NSF to support as many as 500 
more research grants and provide opportunities for upwards of 6,400 
additional scientists, students, post-doctoral fellows and technicians 
to contribute to the innovation enterprise.
    A hallmark of NSF's approach is to develop the Nation's talent pool 
by integrating research and education. This longstanding NSF practice 
facilitates the direct transfer of new knowledge to the private sector. 
It happens every time graduate students with experience working at the 
frontiers of discovery enter the work force. This is a strong suit in 
U.S. competitiveness, and it is one of NSF's greatest contributions to 
the Nation's innovation system.
    As a priority within our overarching mandate to prepare the STEM 
workforce for the 21st century, NSF will continue to emphasize programs 
aimed at tapping the potential of those under-represented in the 
science and engineering workforce--especially minorities, women, and 
persons with disabilities. Support for this priority will total over 
$640 million in '07.
    Three highly successful programs form the core of this investment: 
the Louis Stokes Alliances for Minority Participation (LSAMP), the 
Alliances for Graduate Education and the Professoriate (AGEP), and the 
Centers of Research Excellence in Science and Technology (CREST). These 
programs increase by $16.2 million--or 24 percent.
    Broadening participation also applies to institutions. In '07, we 
will increase efforts to ensure that the U.S. enjoys a strong 
capability in science and engineering across all regions of the 
country. NSF will invest $100 million in EPSCoR, the Experimental 
Program to Stimulate Competitive Research.
    Providing world-class facilities and infrastructure is our third 
priority for 2007. NSF has a long-established role in providing state-
of-the-art infrastructure to meet major research challenges. Our 
strategy is to invest in tools that promise significant advances in a 
field of research and to make them widely available to a broad cross-
section of investigators.
    Total funding in the Major Research Equipment and Facilities 
Construction (MRFEC) account is $240.45 million. This investment funds 
five on-going projects and two new starts.
    The two new projects are the feature attractions of our major 
equipment investment in 2007: the Alaska Region Research Vessel (ARRV) 
and the Ocean Observatories Initiative (OOI). Both projects will help 
to fulfill the Administration's 2004 U.S. Ocean Action Plan, developed 
in response to the U.S. Commission on Ocean Policy.
    ARRV is a ship that will dramatically improve access to Arctic 
waters. With an operating year as long as 300 days, this ship could 
accommodate some five hundred researchers and students annually. A 
variety of complex regional and global ecosystem and climate studies 
require a technologically advanced oceanographic platform to conduct 
field research at the ice edge as well as in ice up to three feet 
thick.
    OOI is an integrated observatory network, distributed among coastal 
and deep-sea sites, that will help advance our understanding of 
oceanographic and geological features and processes. With these 
fundamentally new tools for local, regional and global ocean science, 
researchers and students will now have continuous, interactive access 
to the ocean.
    As our facilities increase in sophistication and capability, so 
does the amount of data they produce. The sheer volume of information 
is overwhelming our current computational capacity.
    Cyberinfrastructure is a key factor in addressing this problem--and 
also in establishing and continuing global research excellence for many 
years to come. It remains a significant NSF priority. In 2007, funding 
for cyberinfrastructure research and development will reach $597 
million--an increase of $77 million, or 15 percent.
    NSF will invest $50 million to begin the acquisition of a 
leadership-class high performance computing system. This will be our 
first step on the road toward computation and data processing and 
storage, for petascale-level science and engineering. It will be a 
major milestone in NSF's multi-year plan to provide and support a 
world-class computing and data management environment that will make 
the most powerful high performance computing assets broadly available 
to the science and engineering community.
    NSF's fourth priority for '07 is perhaps the most compelling: 
Bolstering K-12 Education. Today's youngsters face a world of 
increasing global competition. We depend on the excellence of U.S. 
schools and universities to provide them with the wherewithal to meet 
this challenge and to make their own contributions to America's future.
    We clearly need to do more to build strong research foundations and 
foster innovation in K-12 science and mathematics education. In line 
with Administration's focus on this vital national priority NSF will 
invest $104 million in a new effort named Discovery Research K-12 that 
aims to strengthen K-12 science, technology, engineering, and 
mathematics education. We will refocus our efforts on a vital cluster 
of research in three well-defined grand challenges:

        <bullet>  Developing more effective science and mathematics 
        assessments for K-12;

        <bullet>  Improving science teaching and learning in the 
        elementary grades; and

        <bullet>  Introducing cutting-edge discoveries into K-12 
        classrooms.

    We will also increase funding for the Graduate Teaching Fellowships 
in K-12 Education--better known as GK-12--by nearly 10 percent to $56 
million, supporting an estimated 1,000 graduate fellows. By pairing 
graduate students and K-12 teachers in the classroom, this program has 
been particularly successful in encouraging effective partnerships 
between institutions of higher education and local school districts and 
in exposing young minds to role models.
    Although the Education and Human Resources account increases $19 
million, or 2.5 percent over last year, this does not reflect the total 
investment in education activities at NSF. After accounting for various 
base changes, such as a planned $17 million phase down in the Math and 
Science Partnership program, and contributions from the research 
account, K-12 investments actually increase by over 10 percent and 
investments in undergraduate education increase by over six percent. 
The budget request proposes significant increases in all other 
Congressionally mandated programs, such as graduate fellowships and 
traineeships, research experiences for undergraduates and teachers, 
faculty early career development, Robert Noyce scholarships, advanced 
technology education in two-year colleges, and informal science 
education.
    Today, I have only mentioned just a few of the FY 2007 investment 
highlights. With this first installment of the ten-year commitment to 
double NSF's budget, we will be able to capitalize on the many areas of 
emerging promise already on the horizon.
    That means generating quality programs year, after year, after 
year--and continuing to lead the federal momentum toward more robust 
business practices as we put tax dollars to work for the Nation. We are 
proud of the leadership we've provided through the President's 
Management Agenda. As is highlighted in the budget, NSF is one of three 
agencies recognized as models of excellence in Grants Management, and 
we are committed to upholding that tradition.
    The President's American Competitiveness Initiative makes clear the 
larger rationale for investments in science and engineering. This is to 
put knowledge to work--to improve the quality of life and enhance the 
security and prosperity of every citizen. NSF is committed to 
cultivating a science and engineering enterprise that not only unlocks 
the mysteries of the universe but that addresses the challenges of 
America and the world.
    Mr. Chairman, I hope that this brief overview conveys to you NSF's 
commitment to advance science and technology in the national interest. 
I am very aware and appreciative of the Committee's long-standing 
bipartisan support for NSF, and I would be happy to respond to any 
questions that you have.

                   Biography for Arden L. Bement, Jr.

    Arden L. Bement, Jr., became Director of the National Science 
Foundation on November 24, 2004. He had been Acting Director since 
February 22, 2004.
    He joined NSF from the National Institute of Standards and 
Technology, where he had been Director since Dec. 7, 2001. Prior to his 
appointment as NIST Director, Bement served as the David A. Ross 
Distinguished Professor of Nuclear Engineering and head of the School 
of Nuclear Engineering at Purdue University. He has held appointments 
at Purdue University in the schools of Nuclear Engineering, Materials 
Engineering, and Electrical and Computer Engineering, as well as a 
courtesy appointment in the Krannert School of Management. He was 
Director of the Midwest Superconductivity Consortium and the Consortium 
for the Intelligent Management of the Electrical Power Grid.
    Bement served as a member of the U.S. National Science Board from 
1989 to 1995. The board guides NSF activities and also serves as a 
policy advisory body to the President and Congress. As NSF Director, 
Bement will now serve as an ex officio member of the NSB.
    He also chaired the Commission for Engineering and Technical 
Studies and the National Materials Advisory Board of the National 
Research Council; was a member of the Space Station Utilization 
Advisory Subcommittee and the Commercialization and Technology Advisory 
Committee for NASA; and consulted for the Department of Energy's 
Argonne National Laboratory and the Idaho National Engineering and 
Environmental Laboratory.
    Bement joined the Purdue faculty in 1992 after a 39-year career in 
industry, government, and academia. These positions included: Vice 
President of Technical Resources and of Science and Technology for TRW 
Inc. (1980-1992); Deputy Under Secretary of Defense for Research and 
Engineering (1979-1980); Director, Office of Materials Science, DARPA 
(1976-1979); Professor of Nuclear Materials, MIT (1970-1976); Manager, 
Fuels and Materials Department and the Metallurgy Research Department, 
Battelle Northwest Laboratories (1965-1970); and Senior Research 
Associate, General Electric Co. (1954-1965).
    He has been a Director of Keithley Instruments Inc. and the Lord 
Corp. and was a member of the Science and Technology Advisory Committee 
for the Howmet Corp. (a division of ALCOA).
    Bement holds an engineer of metallurgy degree from the Colorado 
School of Mines, a Master's degree in metallurgical engineering from 
the University of Idaho, a doctorate degree in metallurgical 
engineering from the University of Michigan, an honorary doctorate 
degree in engineering from Cleveland State University, and an honorary 
doctorate degree in science from Case Western Reserve University. He is 
a member of the U.S. National Academy of Engineering.

    Chairman Boehlert. Thank you very much. Dr. McQueary.

STATEMENT OF DR. CHARLES E. MCQUEARY, UNDER SECRETARY, SCIENCE 
        AND TECHNOLOGY, DEPARTMENT OF HOMELAND SECURITY

    Dr. McQueary. Thank you, Mr. Chairman, Congressman Gordon, 
distinguished Members of the Committee. It is a pleasure to be 
here with you today to discuss the budget for research and 
development activities of the Department of Homeland Security's 
Science and Technology Directorate. The House Science Committee 
was the first Congressional committee I appeared before 
following my confirmation in the spring of 2003, and as I am 
leaving my post next month, I expect this to be the last 
Congressional committee I will testify before as DHS Under 
Secretary for Science and Technology, so this hearing today 
would come full circle.
    As this committee and many of the Nation's leaders 
recognize, advancement in science and technology play a vital 
role in protecting our country from natural and manmade 
disasters. Making such advancements happen and carrying them 
from their hypothetical beginnings to real-life application is 
the job of the Science and Technology Directorate. We are doing 
this, of course, to get the critical tools to those who stand 
between us and disasters.
    In the days and weeks that followed Hurricane Katrina, the 
Science and Technology Directorate staff provided valuable 
subject matter expertise in diverse areas that including 
emergency responder communications, evacuation logistics, 
robot-assisted search and rescue, and hazardous biological 
material disposal. S&T also contributed to modeling and 
simulation analyses of petroleum shortages and disease impacts, 
critical infrastructure damage and economic impact, and of 
course we all know that there were tremendous difficulties 
there and that continues to be discussed at great length within 
the Congress and our country.
    Many of our ongoing efforts focus on improving tools and 
systems that will enhance emergency response capability. Some 
of these include standards to ensure the reliability of 
equipment and processes, personal protective equipment to help 
responders function well in contaminated environments, and a 
framework for wireless inter-operability so the responders can 
communicate effectively with one another during an emergency.
    I'd like to highlight a few of the many accomplishments of 
the R&D programs of the past year. S&T collaborated with local 
partners to implement second generation enhancements to 
BioWatch, a bioaerosol monitoring system operating in more than 
30 U.S. urban areas. We have significantly increased the number 
of air collectors in the top threat cities, extending 
protection to more people while fortifying our coverage of 
transit systems and special events. We also commenced operation 
of the National Bioforensics Analysis Center, the Nation's 
leading resource for the analysis of forensic samples to 
identify perpetrators of biological attacks. We transitioned 
the PROTECT chemical detection system for public facilities to 
the New York City Metro Transit Authority, and PROTECT is now 
operating in subway systems in New York City, Washington, D.C. 
and Boston.
    In the explosives area, S&T collaborated with the Office of 
Domestic Preparedness, which is now called the Office of Grants 
and Training, on preliminary testing of blast-resistant trash 
receptacles. We are using the test results to write the first 
national standard for this technology. S&T's Border Watch 
Program is advancing our border surveillance and monitoring 
capabilities and supporting border patrol agents in remote 
locations. We're developing a wireless communications framework 
that equips field agents with sophisticated tools that enable 
them to quickly determine if people crossing the border 
illegally present a criminal or terrorist threat to the United 
States.
    On the cyber front, and I know that's an area you have a 
great personal interest, as does the Committee, on the cyber 
front, we established the Cyber Security Testbed Program to 
explore threats to network security without compromising the 
Internet. Just as you need a secure biocontainment facility to 
handle live viruses, you need a secure cyber containment 
facility to work with computer viruses, and this is what the 
testbed provides, and I also should say that this work was done 
jointly with NSF. S&T is now participating in the Interagency 
Networking and Information Technology R&D Program to help 
ensure that the department's cyber security and critical 
infrastructure R&D activities are coordinated with those of 
other federal agencies.
    Manufacturers and sellers who can produce and distribute 
effective anti-terrorism technologies require certain 
protections to encourage the development of countermeasures 
that are critical in the fight against terrorism. Towards this 
end, we have certified or designated some 57 technologies as 
qualified anti-terrorism technologies, making them eligible for 
the Safety Act protections, and we are on schedule in reviewing 
all applications that have been submitted to date. A far more 
extensive summary of the accomplishments are in the written 
testimony for the record and you can read that at your leisure.
    Let me just briefly mention the 2007 plan and then I'll 
wrap up. We do support the department's goals and objectives 
through strategic RDT&E investments that weigh the risks facing 
the Nation and the estimated cost and benefits and solutions--
for fiscal year 2007, the S&T Directorate proposes a budget of 
approximately $1 billion and 383 full-time equivalent 
employees. And this year we now have the M&A account properly 
accounted for and it will be much more visible to the Congress 
and others as to how that money is being spent, and that's been 
discussed with with your staff people, I believe, so that 
there's an understanding there.
    Finally, the requested R&D and acquisition operations 
appropriations which we're requesting is $806 million. And I 
think, sir, with that, I will wrap up my comments and thank you 
for the opportunity for appearing before you and I look forward 
to trying to answer the questions you have.
    [The prepared statement of Dr. McQueary follows:]

               Prepared Statement of Charles E. McQueary

INTRODUCTION

    Good morning Chairman Boehlert, Congressman Gordon, and 
distinguished Members of the Committee. It is a pleasure to be with you 
today to discuss the research and development activities of the 
Department of Homeland Security's (DHS) Science and Technology (S&T) 
Directorate.
    As this committee and many of our nation's leaders recognize, 
advancements in science and technology play a vital role in protecting 
our nation from natural and man-made disasters. Making such 
advancements happen--carrying them from their hypothetical beginnings 
to real-life applications--is the job of the S&T Directorate.
    We are committed to developing cutting-edge tools and systems that 
will enable the dedicated men and women who protect and secure our 
homeland to serve more effectively and efficiently. Providing these 
end-users at all levels of government with the technological 
capabilities they need, regardless of the type of threat, is our most 
important mission.
    For example, in the days and weeks that followed Katrina, S&T 
Directorate staff provided valuable subject matter expertise in diverse 
areas, including emergency responder communications, evacuation 
logistics, robot-assisted search and rescue, appropriate technology 
applications, hazardous biological materials disposal, and site 
preparation, and rapid deployment of mobile and modular shelters. Our 
staff also contributed modeling and simulation analysis in areas that 
include petroleum shortages, disease impacts, critical infrastructure 
damage, and economic impact. In addition, a number of staff members 
worked as volunteers, supporting Federal Emergency Management Agency 
(FEMA) in the relief effort.
    Many of our ongoing efforts are improving tools and systems that 
will enhance emergency response capabilities. We are developing 
standards for emergency response to ensure the reliability of equipment 
and processes; developing personal protective equipment for emergency 
responders when operating in hazardous chemical, biological or nuclear 
environments; and developing inter-operable systems to keep the lines 
of communication open and clear during a disaster. In addition, the S&T 
Directorate made significant organizational strides:

        <bullet>  With the transfer of the Transportation Security 
        Laboratory into the S&T Directorate, we completed the plan to 
        consolidate existing research, development, testing and 
        evaluation (RDT&E) within DHS. Given our principal 
        responsibility of coordinating and organizing research and 
        development (R&D) activities throughout the Department, I 
        consider this a major accomplishment that will enable the 
        Department to maximize its science and technology resources.

        <bullet>  The S&T Directorate also made internal management 
        changes that will enable us to productively focus our efforts 
        and work more efficiently. Last year, we established the 
        position of the Chief Financial Officer to oversee finance, 
        budget, planning, and program analysis and evaluation. We also 
        established the position of Director of Plans, Programs and 
        Requirements to coordinate the direction and activities of the 
        S&T Portfolios. I will describe these Portfolios further when I 
        discuss the organization of the S&T Directorate.

        <bullet>  As a three-year-old organization, I am very proud of 
        the great progress the S&T Directorate has made on creating a 
        Strategic Plan that will solidify our five to ten-year-vision 
        for RDT&E. An accompanying performance management system now in 
        development will enable us to establish highly effective, 
        adaptable business operating policies and procedures that will 
        position the organization to meet the current and future needs 
        of our nation, regardless of the threats we face.

SHORT- AND LONG-TERM RESEARCH

    At the S&T Directorate, we know we must also push qualified 
technologies out of the development pipeline faster and deploy them in 
actual operating environments so that we are better prepared the next 
time we are put to the test. To that end, the Directorate has focused 
its efforts on near-term development and deployment of technologies. 
However, as part of the Nation's science and technology complex, we 
recognize the importance of a sustained effort to expand our knowledge 
and resource base for the future.
    Our investments are diversified not only in terms of challenges and 
opportunities, but also in terms of technological maturity as well. 
Some scientific problems are basic--we must achieve a core 
understanding of some phenomena. Others are problems of application--we 
must learn how to apply our knowledge and understanding of an issue or 
problem to our own mission. Finally, other technological problems 
involve engineering development--we must investigate and determine how 
to move applied knowledge from the laboratory bench to the user. The 
Department invests in all three. We conduct and sponsor basic and 
applied research as well as advanced technology development.

        <bullet>  Basic research is sponsored in the expectation that 
        its results will eventually give us new and better ways of 
        accomplishing our mission. For example, understanding terrorist 
        motivations and being able to predict intent; or improving our 
        fundamental knowledge of the properties of non-traditional 
        chemical agents.

        <bullet>  Applied research takes what we already know how to 
        do, and forms it into a useful homeland security application. 
        Integration of biometric data into identification documents and 
        devices used to secure shipping containers during transit are 
        examples of this type of activity.

        <bullet>  Advanced technology development leads to the 
        invention of new devices and systems that can ultimately be 
        transitioned to end-users. Our new handheld scanners for 
        chemical countermeasures are a good example of this.

    These three kinds of work have very different timetables. Basic 
research has the longest--it may take a decade or more before a 
fundamental discovery results in a technology deployed in the field. 
Applied research tends to progress in months and years. Developmental 
research is closest to the user--here we work to take advantage of 
identified opportunities to rapidly develop technologies and deliver 
them to end-users.
    In fiscal year (FY) 2005 approximately two percent of our funding 
went to basic research, 79 percent to applied research, and 19 percent 
to developmental research--very similar to our FY 2004 funding 
distributions. I expect the distribution in FY 2006 and FY 2007 to be 
similar. In addition, it is important to note that the S&T Directorate 
has established an improved method for tracking these types of 
obligations, which will improve the accuracy of these estimates in the 
future.

FY 2005 ACCOMPLISHMENTS

    I am pleased to report to you the progress we have made in just 
three years. Much of the work the S&T Directorate carries out requires 
years of scientific pursuit before it comes to fruition. However, we 
are beginning to see knowledge and technology emerge that will provide 
the foundation for strong and resilient homeland security for the 
Nation.
    I would like to highlight in more detail the accomplishments in our 
research and development programs over the past year.

    Regarding our efforts to develop and implement chemical, 
biological, and explosive countermeasures, we:

        <bullet>  Initiated deployment of BioWatch Enhancement 
        (Generation 2) in more than 30 U.S. urban areas, in 
        collaboration with local partners This enhancement places 
        significantly more air collectors in the top threat cities 
        (including collectors that cover transit systems and special 
        events), allowing them to further increase their broad 
        population protection while also providing targeted coverage of 
        their most vulnerable venues.

        <bullet>  Conducted detailed technical material threat 
        assessments on six agents. This work is done in direct support 
        for the procurement of countermeasures under the DHS/HHS 
        BioShield program.

        <bullet>  Began operating the National Bioforensics Analysis 
        Center (NBFAC) as the Nation's lead facility for technical 
        analysis of forensic samples in order to support attribution, 
        or identify perpetrators, of biological attacks.

        <bullet>  Approved a record of decision on the Environmental 
        Impact Statement (EIS), awarded an architect-engineer design 
        contract, and awarded a contract for construction management 
        services for the National Biodefense Analysis and 
        Countermeasures Center (NBACC).

        <bullet>  Completed and provided the FY 2006 Bioterrorism Risk 
        Analysis to the Administration. This risk assessment, mandated 
        by Homeland Security Presidential Directive (HSPD)-10, is 
        targeted to inform national plans and priorities for biodefense 
        investments and will be a helpful tool to guide DHS policy-
        makers regarding the Department's efforts to anticipate, 
        prevent and respond to acts of bioterrorism.

        <bullet>  Conducted an Interagency exercise to study an 
        incident involving persistent highly toxic chemical agent 
        release.

        <bullet>  Transitioned the Program for Response Options and 
        Technology Enhancements for Chemical Terrorism (PROTECT) 
        networked chemical detection system to the New York City Metro 
        Transit Authority. PROTECT is a chemical detection and response 
        system that was designed for public facilities. It was first 
        installed in the Washington, D.C. metro transit system, and is 
        now operating in the New York and Boston subway systems as 
        well.

        <bullet>  Began establishing the Explosives Knowledge Center, 
        which will enable State, local, and tribal communities to 
        assess the risks of explosive attack and the costs of 
        countermeasures.

        <bullet>  Drafted the first-ever performance standard for a 
        point chemical agent vapor detector for use by civilian 
        responders which is being vetted through the standards 
        organization, ASTM International.

        <bullet>  Developed standards for calibration and optimization 
        of performance for hand-held, trace-explosive detectors.

    Within the areas of support to the Department's components, we:

        <bullet>  Conducted an exercise with Customs and Border 
        Protection (CBP) under the Northern Border Security Initiative 
        that identified capability gaps and the technologies needed to 
        address them. The exercise identified what technologies both 
        Canada and the United States agree will improve border security 
        capabilities. The S&T Directorate will use these outcomes to 
        help focus and maximize the development of border security 
        technologies. A report to Congress was delivered in January 
        2006 on this issue. This effort was in support of CBP.

        <bullet>  Conducted end-to-end testing of the Border and 
        Transportation Security Network (BTSNet) wireless 
        communications backbone installed at the U.S. Border Patrol 
        Station in Douglas, Arizona. The testing focused on the 
        transfer of data from handheld and vehicle-mounted mobile 
        computers to the border patrol station via an existing tower 
        infrastructure. This effort was in support of CBP.

        <bullet>  Designed, built, and tested through the Maritime 
        Automated Scene Understanding (ASU) project, a system that 
        fuses RADAR, camera, and Automatic Identification System (AIS) 
        data, and alerts watchstanders to anomalies in the coastal 
        environment. This effort was in support of the U.S. Coast 
        Guard.

        <bullet>  Completed Phase I design of the Advanced Container 
        Security Device (ACSD). The ACSD is a security device being 
        designed to monitor and communicate security breaches from each 
        of the six sides of a container, as well as detect human 
        presence inside containers. This effort was in support of CBP.

        <bullet>  Developed the Supply Chain Security Architecture 
        (SCSA) that gives DHS the capability to bridge data and 
        information between container security devices and the National 
        Targeting Center. This effort was in support of CBP.

        <bullet>  Brought the Interagency Modeling and Atmospheric 
        Analysis Center (IMAAC) to full operational capability. IMAAC 
        integrates the Nation's best modeling capabilities to provide 
        accurate information to predict the movement and spread of the 
        contaminate cloud in the event of a major disaster or terrorist 
        attack, thereby saving lives and assisting with timely response 
        decisions. This effort is in support of federal, State, and 
        local response organizations through the Homeland Security 
        Operations Center (HSOC), serving as the dissemination point 
        for the Department.

        <bullet>  Established the ``Training Exercise and Lessons 
        Learned'' program to support continuous improvement of our 
        nation's preparedness to respond to catastrophic events, as 
        called for in HSPD-8, ``National Preparedness.'' This effort is 
        in support of federal, State, and local response organizations 
        through the Office of Grants and Training.

        <bullet>  Developed in partnership with the U.S. Coast Guard, 
        the U.S. Navy and others, a low cost commercial anti-swimmer 
        system to protect high value assets from underwater attack. 
        This effort was in support of U.S. Coast Guard.

        <bullet>  Tested non-intrusive technologies to quickly inspect 
        shipboard spaces, to locate or inspect hidden compartments for 
        contraband, and technologies to communicate with boarding team 
        members. This effort was in support of U.S. Coast Guard.

        <bullet>  Began support of three efforts to enhance personal 
        protection for U.S. Secret Service personnel: Escape Mask, 
        Handheld Suicide Bomber Detector, and Portable Entry Point 
        Screening Portal for Explosive Detection. This effort was in 
        support of the U.S. Secret Service.

    Within the areas of critical infrastructure protection and cyber 
security, we:

        <bullet>  Established the Cyber Security R&D Center, the S&T 
        Directorate's primary interface with the academic and 
        industrial cyber security research communities.

        <bullet>  Established the Infrastructure Security Program, the 
        goal of which is to develop more secure and robust mechanisms 
        that will enable the Internet to support the Nation's needs now 
        and in the future.

        <bullet>  Established the Cyber Security Testbed Program, which 
        enables a wide community of researchers to explore threats to 
        network security without risk of compromising the actual 
        Internet.

        <bullet>  Completed development of software algorithms in 
        coordination with the Electric Power Research Institute for a 
        fast-running modeling and simulation prototype for use in 
        preventing cascading blackouts.

        <bullet>  Published two reports that identified technology aids 
        that significantly close existing operational gaps, to increase 
        the accuracy and reduce the time and cost for personnel 
        background investigations for private security guards and 
        insiders in sensitive positions.

        <bullet>  Issued the first annual National Critical 
        Infrastructure Protection R&D Plan that addressed R&D 
        priorities in the areas of protection and prevention, sensors 
        and detectors, insider threats, social and behavioral issues, 
        and future needs.

        <bullet>  Initiated 11 new projects (bringing our total number 
        of those underway to 22) including rapid prototyping at the 
        Kentucky Critical Infrastructure Protection Institute to 
        support the Department's ability to protect community-based 
        infrastructure.

    Within the emerging threats and rapid prototyping areas of the S&T 
Directorate, we:

        <bullet>  Evaluated the compounded infrastructure threat by 
        investigating ways in which infrastructure (i.e., planes into 
        buildings, nuclear plants, chemical plants) could be used as a 
        weapon. The effort was used to discover and identify those 
        infrastructures not previously viewed as concerns.

        <bullet>  Initiated the Rapid Technology Application Program 
        (RTAP) to expeditiously provide needed new technologies to 
        federal, State and local components of the homeland security 
        mission. End-users have generated 28 urgent rapid prototyping 
        requirements including the need for specialized personal 
        protective equipment, rapid biological screening tools, 
        portable explosive trace detectors, and systems to immediately 
        locate emergency responders in the field.

    Within other areas of the S&T Directorate, we:

        <bullet>  Established the National Science and Technology 
        Threat Awareness and Reachback (NSSTAR) system to provide real 
        time, technical analysis and support to the homeland security 
        community for anticipating, preventing, and responding to 
        chemical, biological, radiological, nuclear, and high explosive 
        (CBRNE) threats.

        <bullet>  Established an Institute for Discrete Sciences (IDS) 
        to investigate and develop the specialized computing algorithms 
        and hardware architectures necessary to analyze massive amounts 
        of diverse data from multiple, disparate, distributed data 
        sources and to model terrorist attacks and simulate 
        consequences on a real-time, high-resolution basis.

        <bullet>  Completed an engineering design for the Enhanced 
        International Travel Security (EITS) system, which allows the 
        validity of travel documents and the identity of travelers to 
        be determined in real time at U.S. borders and other points of 
        entry.

        <bullet>  Created the Interagency Center for Applied Homeland 
        Security Technology (ICAHST) to enable collaboration among 
        intelligence and law enforcement community agencies on the 
        testing, evaluation, and prototyping of information analysis 
        and sharing technologies.

        <bullet>  Established Regional Communications Inter-operability 
        Pilot (RCIP) projects in Nevada and Kentucky. These pilots 
        focused on developing models for improved communications and 
        inter-operability to address challenges faced nationwide.

        <bullet>  Established two additional DHS Centers of Excellence 
        at national universities: the National Center for the Study of 
        Terrorism and Responses to Terrorism, and the Center for the 
        Study of High Consequence Event Preparedness and Response. This 
        brings the total number of such university based national 
        centers to five.

        <bullet>  Supported approximately 300 undergraduate and 
        graduate students in DHS mission-relevant fields through the 
        Scholars and Fellows Program, as well as funded postdoctoral 
        scientists and engineers to perform advanced research in areas 
        of critical importance to DHS.

        <bullet>  Integrated two competing Counter-Man Portable Air 
        Defense System (MANPADS) prototypes with planned airframes and 
        performed on-board ground and flight testing to verify system 
        performance and continued air worthiness of the aircraft with 
        the countermeasure system installed.

        <bullet>  Updated SAFECOM's coordinated grant guidance that 
        outlines eligibility requirements, the purposes for which 
        grants may be used, and the guidelines for implementing a 
        wireless communication system. SAFECOM is a communications 
        program that provides RDT&E, guidance, tools, and templates on 
        communications-related issues to local, State, and federal 
        public safety agencies.

        <bullet>  Prepared the survey tools for the Interoperability 
        Baseline Study, which will provide a quantitative National 
        assessment of public safety communications inter-operability.

        <bullet>  Prepared a revised application kit for the Support 
        Anti-terrorism by Fostering Effective Technologies Act of 2002, 
        known as the SAFETY Act, that is easier to use and understand, 
        with examples to assist applicants.

        <bullet>  Processed more than 260 pre-applications and 134 
        unique technology applications under the SAFETY Act. As of Jan. 
        5, 2006, we granted Designation and Certification to 41 
        qualified anti-terrorism technologies. An additional 16 
        technologies have been granted ``designation only'' status.

FY 2006 ACTIVITIES

    As the S&T Directorate matures, we have continued to re-evaluate 
and reassess our priorities to better facilitate capabilities needed by 
the Department and other customers to make information and analysis 
sharing possible, to protect the Nation's borders and critical 
infrastructure, and to ensure that technical and operational solutions 
enable federal, State, and local emergency personnel to anticipate, 
respond to, and recover from attacks on the United States. Just as the 
Nation's science and technology capabilities have helped us defeat 
enemies overseas in the past, so too will they help the Nation defeat 
future efforts of terrorists to successfully attack and disrupt the 
American way of life. To prepare the Nation to counter threats from 
weapons of mass destruction as well as natural disasters, the FY 2006 
budget request included increase for initiatives that supported R&D to 
mitigate these weapons and their potentially devastating effects as 
well as efforts aimed at leveraging technology to produce rapid 
advances in capabilities to enable DHS personnel to protect the 
homeland more efficiently and effectively across many components.

    Our major ongoing FY 2006 initiatives are aimed at mission-critical 
areas and problem sets. Some highlights include:

        <bullet>  National Bio and Agrodefense Facility (NBAF)--The 
        proposed NBAF is envisioned to provide the Nation with the 
        first integrated agricultural, zoonotic disease, and public 
        health RDT&E facility with the capability to address threats 
        from human pathogens, high-consequence zoonotic disease agents, 
        and foreign animal diseases. This supports the complementary 
        missions of DHS, the Department of Human Health and Services 
        (HHS) and the United States Department of Agriculture (USDA). 
        NBAF will provide new RDT&E infrastructure that will allow for 
        research to enhance agricultural and public health. This 
        capability is needed to fill a critical gap in the Nation's 
        agro and biodefense plan. The NBAF would enhance the national 
        biodefense complex by modernizing and integrating agriculture 
        biocontainment laboratories for foreign animal disease, human 
        pathogens, and zoonotic diseases through Biosafety Level (BSL) 
        3 Agricultural and BSL 4 laboratory spaces. It will also 
        provide the additional infrastructure required for threat and 
        vulnerability assessments and for testing and evaluating 
        promising foreign animal disease countermeasures. Development 
        of an integrated, national bio and agrodefense strategy has 
        revealed that the current capabilities are inadequate to meet 
        future research requirements supporting both agricultural and 
        public health national security. Foreign animal disease 
        studies, public health threats from emerging, high-consequence 
        zoonotic pathogens, and the need for development and licensure 
        of medical countermeasures, are generating additional demands 
        for biocontainment laboratory space. Current laboratory space 
        available in the United States is not sufficient to support the 
        increasing levels of research, development, and testing needed 
        to meet the growing concerns about accidental or intentional 
        introduction of foreign animal diseases into this country. DHS 
        issued an Expression of Interest (EOI) on January 19, 2006, to 
        solicit interest for potential sites for the NBAF facility. The 
        EOI will solicit input from organizations or consortia of 
        federal agencies, State and local governments, industry, and 
        academic institutions. In addition to the EOI, the S&T 
        Directorate plans to release a request-for-proposals in 
        February 2006 to procure architect-engineer services to conduct 
        conceptual design studies for the NBAF.

        <bullet>  Low Volatility Agent Warning System--Develop the Low 
        Volatility Agent (LVA) Warning System to serve as the basis for 
        a warning and identification capability against a set of 
        chemical threat agents whose vapor pressure is sufficiently low 
        that detection by conventional approaches is exceptionally 
        difficult. This set of low volatility agents includes some of 
        the most toxic materials currently known. The Chemical 
        Countermeasures Portfolio has initiated an effort to develop a 
        transportable capability for the detection of these materials 
        in a response and recovery mode--the LVA Surface Contamination 
        Monitor. The FY 2006 funding is being used to develop a 
        protection-mode capability to detect these materials upon 
        release in specific environments. This detect-to-warn system 
        will alert the response system of the imminent hazard thereby 
        enabling protection of potential victims from exposure and 
        permitting application of prompt medical countermeasures to 
        minimize or eliminate casualties. This system will be a network 
        of detectors to provide a protect-to-warn capability for 
        specific venues, such as high-value buildings and transit 
        systems. The LVA Warning System will both detect and identify 
        the agent to ensure correct medical countermeasures are 
        engaged.

        <bullet>  Counter-MANPADS--Based on the Phase II results in FY 
        2006, the Counter-MANPADS Program will initiate Phase III to 
        conduct operational test and evaluation on Counter-MANPADS 
        advanced prototype equipment installed on commercial aircraft 
        operated by U.S. cargo carriers. The primary objective is to 
        reduce the residual risk of operations in the commercial 
        environment and lower the cost of ownership. To maintain 
        competition between two different approaches to design and 
        integration, the Counter-MANPADS Program will maintain two 
        contractors in Phase III. In FY 2006, each contractor will 
        update its designs to incorporate enhancements for reliability 
        improvements, technology protection, and emergency ground 
        notification. Operational testing and evaluation will be 
        performed on multiple aircraft types to capture true operations 
        and maintenance costs, as well as technical performance and 
        reliability data. In FY 2006, eight operational test aircraft 
        will be modified and nine Counter-MANPADS systems will be 
        procured to support reliability developments, test data 
        collection, and critical technology protection measures. 
        Additionally, live fire test evaluations will provide insight 
        into the overall effectiveness of the system installed on 
        commercial aircraft. Finally, Federal Aviation Administration 
        (FAA) certification will be completed for additional relevant 
        aircraft types, models and series not addressed in Phase II.

        <bullet>  Research and Development Consolidation--The 
        consolidation of the Department's R&D efforts will continue to 
        be an ongoing priority for the S&T Directorate. We will 
        continue working with the Transportation Security 
        Administration, CBP and others to solidify integration of their 
        RDT&E activities into the S&T Directorate. This consolidation 
        is bringing the scientific and engineering personnel and other 
        RDT&E resources of the Department under a single accountable 
        authority.

FY 2007 PLAN

    In FY 2007, the S&T Directorate will maintain ongoing activities in 
science and technology research to detect and counter threats and 
attacks; protect the Nation's critical infrastructure, both physical 
and cyber; analyze and assess threats and vulnerabilities; and provide 
cutting edge technologies to operational end-users. We will support the 
Department's strategic goals and objectives by performing RDT&E while 
addressing the following criteria:

        <bullet>  Risks facing the Nation that are identified and 
        weighed by the S&T Directorate and others, including DHS's 
        Office of Intelligence Analysis;

        <bullet>  Homeland security needs that are identified through a 
        systematic science and technology needs identification process 
        that the S&T Directorate conducts with its partners;

        <bullet>  Estimated costs, benefits, implementability, and 
        potential effectiveness of results of science and technology 
        research and programs; and

        <bullet>  DHS's overall priorities, since the S&T Directorate 
        supports and enables DHS's overall homeland security efforts.

    To accomplish these goals, the S&T Directorate proposes a total 
budget of $1.0 billion and 383 full-time equivalent employees (FTEs). 
The ``Management and Administration'' request is for $195.9 million and 
provides the resources for the salaries and benefits of the S&T 
Directorate's employees in support of our homeland security R&D 
programs. The request for the ``Research, Development, Acquisition and 
Operations'' appropriation is $806.4 million.
    The FY 2007 President's budget for the S&T Directorate provides the 
Department with the resources necessary to continue and advance our 
efforts to develop and deploy the technologies required to enhance the 
security of the homeland in the 21st century.

    Program increases proposed in the FY 2007 President's budget 
include:

        <bullet>  $7.1 million is requested for the Cyber Security 
        program to enhance efforts in the areas of Domain Name 
        Infrastructure, Secure Protocols for Routing Infrastructure, 
        Cyber Security Testbed development, Large-scale Network 
        Datasets, and Highly Scalable Identity Management.

        <bullet>  $2.0 million is requested to establish a Joint Agro-
        Terror Defense Office (JADO). The Department's agrodefense 
        responsibilities are defined in several public laws and 
        Homeland Security Presidential Directives, including: the 
        Homeland Security Act of 2002; Critical Infrastructure 
        Identification, Prioritization, and Protection (HSPD-7); 
        Defense of United States Agriculture and Food (HSPD-9); and 
        Bio-defense of the 21st Century (HSPD-10). The JADO will be led 
        by an executive director who will lead an interagency staff. 
        The JADO will be responsible for coordinating development and 
        deployment of the integrated government-wide agro-defense 
        programs called for by these directives and law.

        <bullet>  $1.0 million to comply with the requirements of 
        Public Law 108-330, the DHS Financial Accountability Act which 
        requires the annual Performance and Accountability Report to 
        include an assurance by the Secretary of the adequacy of 
        financial reporting controls. These funds are a critical 
        component of the Department's efforts to prevent waste, fraud 
        and abuse and enhance its financial accountability.

    In addition, the FY 2007 S&T Directorate budget proposes the 
realignment of approximately $110.0 million from the S&T Directorate's 
``Research and Development'' appropriation account to the ``Management 
and Administration'' appropriation account. This realignment of funds 
is proposed to more accurately reflect the fact that in the past, these 
funds have been used to support the direct and indirect management, 
administration, and oversight costs associated with the Department's 
science and technology enterprise. Furthermore, it will provide the 
Congress and other interested parties with a more transparent view into 
the S&T Directorate's operations, the distribution of planned and 
actual expenditures between research and development activities, and 
the direct and indirect costs associated with their delivery.

RDT&E PROCESS

    As I stated one year ago, the S&T Directorate developed an RDT&E 
process to provide a clearly defined, replicable method for assessing 
needs and risk, planning, allocating resources and executing programs 
to produce high-impact, cost-effective and critically needed homeland 
security technology solutions. We are in the process of streamlining 
this process to address our programmatic needs. We will use this 
process to carry out risk-based planning.

SCIENCE AND TECHNOLOGY DIRECTORATE ORGANIZATION

    The S&T Directorate is the research and development component of 
the Department of Homeland Security. The S&T Directorate organizes the 
vast scientific and technological resources of the United States to 
prevent or mitigate the effects of catastrophic terrorism against us or 
our allies. It unifies and coordinates much of the Federal Government's 
efforts to develop and implement scientific and technological 
countermeasures to terrorist threats. The S&T Directorate is a 
technically robust, agile, and responsive organization capable of 
meeting all of its current and future roles and responsibilities in the 
Department. The four elements of the S&T Directorate are:

        <bullet>  Office of Plans, Programs, and Requirements (PPR);

        <bullet>  Homeland Security Advanced Research Projects Agency 
        (HSARPA);

        <bullet>  Office of Research and Development (ORD); and

        <bullet>  Office of Systems Engineering and Development (SED).

    The S&T Directorate implements its science and technology 
activities through focused portfolios (organizationally within PPR) 
that address biological, chemical and explosive threats; support the 
research and development needs of the operational components of the 
Department; support federal, State, local and tribal preparedness and 
infrastructure protection; and cross-cut areas such as standards, 
threat awareness, and inter-operability that impact all aspects of the 
S&T Directorate's RDT&E process. These portfolios cut across the four 
elements of the S&T Directorate and integrate the innovative input from 
private industry and academia as well as national and federal 
laboratories. In particular, PPR provides the requirements and 
technical vision for the S&T Directorate and its RDT&E process. HSARPA 
has an essential role in meeting the goals and objectives of the 
Department and the S&T Directorate, through research and development, 
and technology maturation in industry and academia. ORD executes the 
S&T Directorate's RDT&E programs within the national and federal 
laboratories; establishes the University Centers of Excellence; and 
maintains the Nation's enduring research and development complex 
dedicated to homeland security. SED oversees the transition of large-
scale and pilot systems to the field through program offices, which 
bring mature technologies from the laboratory to the user through a 
rapid, efficient, and disciplined project management process. In 
addition, the S&T Directorate houses the Office of Weapons of Mass 
Destruction Operations and Incident Management to offer scientific 
advice and support to meet operational needs. Through this office, the 
S&T Directorate exercises its scientific and technical leadership role 
under the National Response Plan.

Portfolios

Biological Countermeasures
    The Biological Countermeasures Portfolio provides the 
understanding, technologies, and systems needed to anticipate, deter, 
protect against, detect, mitigate, and recover from biological attacks 
on this nation's population, agriculture or infrastructure. Biological 
threats can take many forms and be distributed in many ways, and we 
take an integrated systems approach to countering them. Our principal 
areas of interest include: vulnerability and risk analysis to identify 
the need for vaccines, therapeutics, and diagnostics; development and 
implementation of early detection and warning systems to characterize 
an attack and permit early prophylaxis and decontamination; and 
development of a national bioforensic analysis capability to support 
attribution of biological agent use. Simulation, modeling, and gaming 
form an important part of this effort. They help guide and prioritize 
technical developments, and they are invaluable in training decision 
makers before and during an event. The Directorate's partners include 
the Department of Health and Human Services (HHS), the Department of 
Defense (DOD), the Department of Agriculture (USDA), the Environmental 
Protection Agency (EPA), the Department of Justice (DOJ), the 
Department of State (DOS), the United States Postal Service (USPS), and 
State and local operational end-users.

Chemical Countermeasures
    The Chemical Countermeasures Portfolio enhances the Nation's 
capability to anticipate, prevent, protect from, respond to, and 
recover from chemical threat attacks through interagency leadership and 
innovative research, development, and technology transition.
    Our objectives are to enable comprehensive understanding and 
analyses of chemical threats in the domestic domain; to develop pre-
event assessment, discovery, and interdiction capabilities for chemical 
threats; to develop capability for warning, notification, and timely 
analysis of chemical attack; to optimize technology and process for 
recovery from chemical attacks; and to enhance the capability to 
identify chemical attack sources. Our work reflects our recognition of 
the need to prepare against a range of threats-classical chemical 
warfare agents (CWA), toxic industrial chemicals (TICs), and non-
traditional agents (NTAs). Coordination with other agencies like the 
EPA, HHS, the Federal Bureau of Investigation (FBI), DOD, the 
interagency Technical Support Working Group (TSWG), and the 
Intelligence Community (IC) remains critical to support our national 
chemical preparedness goals. The DOD has developed a particularly 
strong chemical defense program over a number of decades, and is a key 
partner for moving new capabilities into the domain of homeland 
security.

Explosives Countermeasures
    The Explosives Countermeasures Portfolio develops and coordinates 
technical capabilities to detect, interdict, and mitigate the 
consequences of the use of improvised explosives devices (IEDs) in 
terrorist attacks against U.S. citizens and critical infrastructure. 
RDT&E activities include prioritization of efforts among the many 
possible terrorist threats and targets, development of new detection 
technologies, and evaluation of integrated protective systems for high-
value facilities. Our priorities focus on the detection of vehicle 
bombs, suicide bombers, and leave-behind bombs. As a result of the R&D 
consolidation in FY 2006, the Explosives Countermeasures Portfolio will 
also dedicate significant resources to continue the development of 
explosives detection and blast mitigation systems for civil aviation 
security. Consistent with this RDT&E leadership role, the Explosives 
Knowledge Center initiated in FY 2005, will provide guidance and 
information to ensure that preparedness capabilities at the federal, 
State, local, and tribal levels are updated over time to be consistent 
with new and emerging technologies and capabilities as well as with the 
changing and emerging threats.

Threat Awareness
    Formerly known as the Threat and Vulnerability, Testing and 
Assessment Portfolio, the RDT&E activities funded through the Threat 
Awareness Portfolio primarily support two DHS strategic goals: 
awareness and prevention. These activities provide the tools and 
knowledge necessary to meet one of the Secretary's recently announced 
imperatives to increase preparedness, with particular emphasis on 
catastrophic events caused by weapons of mass effect, and the 
requirements delineated in the Department's National Preparedness Goal. 
Our efforts in this area focus on developing information about the two 
basic elements of terrorist threat--terrorist capabilties on the one 
hand, and terrorist motivations and intent on the other--and on 
providing the advanced information processing tools necessary to 
rapidly and accurately discover, use, and share such information. Such 
tools and methods are intended to enable and enhance federal, State, 
and local awareness of a broad range of threats through information 
fusion and information sharing.

Standards Portfolio
    The development, adoption and implementation of standards--
providing the basis for ensuring the effectiveness of scientific and 
technological tools--are critically important for homeland security. 
Measures of effectiveness for any critical technology or tool include 
basic function, appropriateness and adequacy for the task, inter-
operability, efficiency and sustainability. With the mission to develop 
and coordinate the adoption of national standards and appropriate 
evaluation methods to meet homeland security needs, the Standards 
Portfolio cuts across all aspects of the S&T Directorate's mission. 
Homeland Security standards address metrics for products, services, and 
guidelines, performance specifications, testing and evaluation 
protocols, training, certification of equipment and personnel, as well 
as metrics and quality assurance for deployment of systems. Standards 
are also an essential component of codes of practice and standard 
operating procedures. These standards will provide DHS the ability to 
provide guidance to federal, State, local, and tribal homeland security 
entities regarding purchase, deployment, and use of these tools.

Cyber Security
    Our Cyber Security R&D investments will yield technologies that 
improve the security of information and information systems in two 
complementary ways: through the development of a new generation of 
cyber security technologies to increase the security of information and 
information systems, and through the development of tools and 
methodologies to develop more inherently secure systems. The portfolio 
also fosters technology transfer and diffusion of federally funded R&D 
into commercial products and services for private sector applications. 
This technology diffusion will result in broad-based benefits to the 
Information Technology (IT) sector and to users of IT among the other 
critical infrastructure sectors. We coordinate with other federal 
agencies through the National Science and Technology Council's (NSTC) 
Cyber Security and Information Assurance (CSIA) Interagency Working 
Group [co-chaired by DHS and the Office of Science and Technology 
Policy (OSTP)], and the InfoSec (Information Security) Research 
Council. We also collaborate informally with other agencies that share 
interests in the area of cyber security R&D, including the National 
Science Foundation (NSF), various organizations within DOD, and the 
National Institute of Standards and Technology (NIST). We actively 
pursue opportunities to catalyze additional private sector activity. 
Such opportunities include public-private partnerships as well as 
increased cooperation and communication among private sector companies 
and organizations. Finally, we participate in international efforts to 
develop common areas of collaboration in cyber security R&D.

Critical Infrastructure Protection
    The Critical Infrastructure Protection (CIP) R&D Portfolio effort 
protects the Nation's critical infrastructure and key assets from acts 
of terrorism, natural disasters, and other emergencies by developing 
and deploying tools to anticipate, identify, and analyze risks, and 
systems to reduce those risks and the consequences of an event. Funded 
RDT&E and required coordination efforts in this portfolio have been 
categorized into four programs: Modeling, Simulation, and Analysis; 
Protective Security Technologies; the Kentucky Critical Infrastructure 
Protection Laboratory (KyCIPLab); and development of the annual 
National CIP R&D Plan, as required by HSPD-7, ``Critical Infrastructure 
Identification, Prioritization, and Protection.''

Emergent and Prototypical Technology
    Our Emergent and Prototypical Technology Portfolio combines two 
formerly distinct efforts--Emerging Threats and Rapid Prototyping. The 
mission of the Emergent and Prototypical Technology Portfolio is to: 
address the dynamic nature of terrorist threats, as science and 
technology advancements enable new agents of harm and new ways to 
employ them; and accelerate, through rapid prototyping, the deployment 
of advanced technologies to address urgent user requirements. The 
Emergent Threat Program will anticipate and define potential threats 
arising from new scientific and technological advances or from 
terrorists using existing technologies in new or unexpected ways, and 
will jump-start countermeasures capabilities development. Innovative, 
crosscutting approaches to anticipating and responding to new and 
emerging threats will permit us to develop capabilities to thwart them 
before they are used. This Portfolio uses a four-phased process of 
Discovery, Analysis, Tests, and Potential Solution.
    Since relevant R&D is underway at other agencies and organizations, 
partnerships with DOE, DOD, HHS, DOJ, USDA, and the Intelligence 
Community offer great benefits.

Supporting the DHS Components

    We have programs dedicated to supporting four specific components 
within DHS: Border and Transportation, Preparedness and Response, the 
United States Coast Guard, and the United States Secret Service. I will 
address each of these below.

Border and Transportation
    The Border and Transportation (B&T) Portfolio (formerly Border and 
Transportation Security Portfolio) develops and transitions 
capabilities that improve the security of our nation's borders and 
transportation systems without impeding the flow of commerce and 
travel. One of the Department's first priorities is to prevent the 
entry of terrorists and the instruments of terrorism into the United 
States while simultaneously ensuring the efficient flow of lawful 
traffic and commerce. Our Border and Transportation S&T Plan and 
Roadmap represents the combined work of the S&T Directorate and border 
and transportation agencies to identify new capabilities needed and to 
plan how the Department will make technology investments in support of 
B&T mission objectives.

Preparedness and Response
    The S&T Directorate's Preparedness and Response Portfolio (formerly 
Emergency Preparedness and Response) supports the Department's new 
Preparedness Directorate and FEMA, whose mission is to improve the 
ability of the Nation to prepare for, respond to, and recover from 
catastrophic emergencies both natural and man-made through development 
and deployment of enabling capabilities. We emphasize large-scale 
complex events, especially those involving terrorism. Our research 
areas include incident management, decision support, response and 
recovery, and technology integration. Our most important customers are 
State and local emergency responders, emergency managers, and the 
public they serve. The emergency response community consists of more 
than 49,000 separate agencies spread throughout the country. Of 
approximately 18,000 law enforcement agencies, the overwhelming 
majority have 24 or fewer sworn officers. Over 85 percent of our 
nation's firefighters are volunteers. Enhancing the capabilities of 
such a vast and diverse community, especially against terrorist 
threats, requires a rigorous and systematic approach to the development 
and transition of a broad range of technology solutions. Our work is 
dedicated to applying the best available science and technology for the 
safety and security our emergency responders and homeland security 
professionals so that they can effectively and efficiently perform 
their jobs--saving lives and restoring critical services.

United States Coast Guard
    The United States Coast Guard protects the public, the environment, 
and U.S. economic interests in the Nation's ports and waterways, along 
the coast, on international waters, or in any maritime region as 
required to support national security. The Coast Guard research program 
supports this mission through the development of technologies and 
systems to enhance Maritime Domain Awareness (MDA), and to improve 
Operational Presence and Response. MDA includes all systems, sensors, 
and command and control systems necessary to detect, identify, and 
determine the threat potential of all vessel traffic. It also includes 
Port Security to protect important harbors. Operational Presence and 
Response involves safely and effectively stopping a vessel, boarding 
it, and finding or eliminating any threat or contraband. Research and 
development in this program aims to give the Coast Guard the means of 
neutralizing threats as far away from potential targets as possible, 
and of responding to emergencies as quickly and effectively as 
possible. Coast Guard R&D is characterized by its many partnerships 
with other federal agencies and international groups to share costs and 
expedite delivery of important products. This program also supports 
such unique and traditional Coast Guard missions as Search and Rescue, 
Maritime Regulations, and Marine Safety. Research into oil spill 
prevention and response, and Aquatic Nuisance Species prevention 
supports the Marine Environmental Protection Program. Development of 
advanced navigation systems to improve the flow of goods and services 
via our nation's waterways also serves a traditional Coast Guard 
mission.

United States Secret Service
    The United States Secret Service (USSS) Portfolio develops and 
deploys advanced technologies to enhance that agency's protective and 
investigative capabilities. This portfolio supports the unique USSS 
mission by developing and deploying advanced technologies to enhance 
protective and investigative capabilities and has established its first 
direct-funded R&D program. The Portfolio focuses on input from threat-
based models and the lessons learned from direct operational 
experience.

Programs and Offices

Office for Inter-operability and Compatibility
    The Office for Inter-operability and Compatibility's (OIC) mission 
is to strengthen and integrate inter-operability and compatibility 
efforts to improve local, tribal, State, and federal public safety 
preparedness and response. Non-inter-operable, incompatible 
communications equipment and a lack of standardized operating 
procedures have plagued the public safety community for decades. Often 
public safety agencies cannot perform mission-critical duties because 
they cannot effectively cooperate with other agencies or operate in 
other jurisdictions. By coordinating and leveraging the Department's 
inter-operability programs and related efforts, OIC reduces unnecessary 
duplication of effort, identifies and promotes best practices, and 
coordinates activities related to inter-operability. OIC manages 
programs to address inter-operability and compatibility for public 
safety providers and the larger homeland security community. Initial 
program areas include communications (including SAFECOM and Disaster 
Management programs), equipment, training, and other programs 
(including the Risk Assessment Policy Group).

Counter-MANPADS
    The Counter-MANPADS Program focuses on demonstrating the viability, 
economic costs, and effectiveness of adapting existing military 
technology to protect commercial aircraft from the threat of shoulder-
fired missiles, i.e., MANPADS. Its goal is to integrate and evaluate 
existing Counter-MANPADS technologies for potential use by the 
commercial airline industry, not to develop new technologies. The 
Program balances cost, suitability, and performance to meet the needs 
of commercial aviation community stakeholders. Suitable countermeasure 
systems must be capable of being implemented with minimal impact on air 
carrier and airport operations, maintenance, and support activities. 
After completing the second of three planned program phases, DHS will 
provide a report detailing the equipment performance, projected costs, 
and potential deployment options. The anticipated release date for the 
report is mid- to late-March 2006.

University Programs
    University Programs coordinate, leverage, and use the academic 
community's immense intellectual capital to address current and future 
mission-critical homeland security needs, through both research and 
educational programs. Our goals are: 1) developing the scientific 
research base necessary to advancing knowledge in homeland security 
fields; 2) developing a cadre of technical experts within the Nation's 
workforce who are trained to address current and future challenges in 
securing the homeland; and 3) ensuring the results of their research 
are disseminated to DHS and its partners. The University Programs 
portfolio is invested largely in two areas: a university-based system 
of DHS University Research Centers, and a Scholars and Fellows Program 
intended to build and develop the next generation of academic 
researchers in disciplines that are relevant or essential to homeland 
security. University Programs is now a catalyst for mission-relevant 
research at more than 40 major research universities, and is building 
capacity worldwide by attracting over 150 faculty and their peers, 
hundreds of graduate and undergraduate researchers, as well as DHS 
Scholars and Fellows from more than 110 institutions, to focus on 
issues critical to homeland security.

SAFETY Act
    In accordance with criteria set forth in the SAFETY Act of 2002 and 
Interim Regulations the Office of SAFETY Act Implementation evaluates 
technologies. As part of the Homeland Security Act of 2002, Public Law 
107-296, Congress enacted the SAFETY Act to provide ``risk management'' 
and ``litigation management'' protections for sellers of qualified 
anti-terrorism technologies. The Act's purpose is to encourage 
development and deployment of anti-terrorism technologies, particularly 
those aimed at preventing, detecting, identifying, or deterring acts of 
terrorism, or to limiting the harm that such acts might otherwise 
cause. The SAFETY Act creates certain liability limitations for 
``claims arising out of, relating to, or resulting from an act of 
terrorism'' where qualified anti-terrorism technologies have been 
deployed. The office's evaluations are designed to advise DHS 
leadership on whether to grant SAFETY Act protections to technologies 
that applicants submit. In order to stimulate the development and 
adoption of valuable new technologies, the office seeks to raise public 
awareness of the benefits of the protections available under the SAFETY 
Act. The office also coordinates with other DHS elements and other 
federal agencies to support those offices' missions and minimize the 
burden on applicants for SAFETY Act protection. This advance 
coordination regularly occurs in cases where the SAFETY ACT could play 
a positive role in a pending federal procurement.

RDT&E CONSOLIDATION

    To ensure strategic direction and avoid duplication, the S&T 
Directorate is charged with consolidating the Department's research and 
development activities. As I mentioned earlier, we have made 
significant steps by integrating the Transportation Security Laboratory 
into the S&T Directorate. We are continuing to further unify and 
coordinate efforts to develop and implement scientific and 
technological countermeasures.
    In keeping with legislative intent of the Homeland Security Act of 
2002 and the FY 2004 and 2005 Homeland Security Appropriations, the S&T 
Directorate, through RDT&E consolidation, seeks to:

        <bullet>  Bring under a single accountable authority, the 
        scientific and engineering personnel and most RDT&E resources 
        of the Department;

        <bullet>  Maximize the efficiency and effectiveness of the 
        Department's RDT&E capacity;

        <bullet>  Develop and expand synergistic RDT&E programs that 
        cut across the Department's activities;

        <bullet>  Create a world class RDT&E capability; and

        <bullet>  Allow the other organizational elements within DHS to 
        focus on their operational missions by eliminating within them 
        the specialized management infrastructure required to manage 
        organic RDT&E.

    Major RDT&E consolidation measures in FY 2006:

        <bullet>  TSL in Atlantic City, New Jersey became part of the 
        S&T Directorate in FY 2006. The S&T Directorate has been 
        working closely with TSA to ensure the seamless transition of 
        TSL's staff and research capabilities. A Memorandum of 
        Understanding is guiding the transition of responsibility from 
        TSA to the S&T Directorate for the assets, liabilities, and 
        program capabilities of the TSL and defining a collaborative 
        framework that will minimize the disruption of program work at 
        TSL and prevent the duplication of effort during this 
        transition. The S&T Directorate has been assessing and 
        integrating existing TSL projects into its transportation 
        security and high explosives portfolio strategies as 
        appropriate.

        <bullet>  Funds originally requested by the CBP to support 
        salaries for those assigned to its Research, Development, and 
        Evaluation Branch were likewise integrated into the S&T 
        Directorate mission.

    In FY 2007, the S&T Directorate will continue to perform its role 
as the primary research, development, testing and evaluation arm of the 
Department.

TECHNOLOGY TRANSFER

    Providing operational end-users with the technology and 
capabilities they need to detect and prevent terrorist attacks, the 
means of terrorism and other illegal activities is the capstone of the 
S&T Directorate's mission.
    To successfully carry out this aspect of our mission, the S&T 
Directorate actively works to transition cutting-edge homeland security 
technologies to end-users within the Department, other federal 
agencies, State and local government entities, and the private sector. 
Some recent accomplishments in this area include:

        <bullet>  Regional Technology Integration Initiative (RTII)--In 
        FY 2005, RTII completed integrated community-based 
        vulnerability assessments in four pilot locations. We are 
        currently working with these communities to identify 
        appropriate homeland security technology solutions for the gaps 
        identified. In FY 2006, we are focusing on technology 
        deployments in these four regions and on the transfer of 
        lessons learned to ``peer cities.'' Additional locations may be 
        added in the future as we identify gaps that have not been 
        addressed through the pilot locations. RTII provides the basis 
        for improved preparedness, mitigation, and response by regional 
        authorities, including cities and counties that will result in 
        lives saved and greater effectiveness of disaster management 
        resources. This program is a fundamental transition path for 
        technologies that will help regional authorities across the 
        Nation counter emerging threats.

        <bullet>  DOD's 1401 Program--Pursuant to the direction of 
        Congress to quickly deploy technology where it is needed, DHS 
        is working with DOD and DOJ to identify and transfer current 
        appropriate technology to federal, State, and local emergency 
        responders for homeland security applications. The 1401 
        Technology Transfer Program is aimed at efficiently 
        transitioning these technologies to the broader public safety 
        community. As part of this effort, key interagency stakeholders 
        selected five high-priority technologies from a field of 550 
        DOD technologies that matched a list of first responder needs. 
        Through the 1401 Program, the S&T Directorate will ensure that 
        technologies transferred to first responders meet standards of 
        inter-operability and compatibility with existing public safety 
        operations, and that they are tested and evaluated by first 
        responders. In support of this role, the S&T Directorate OIC 
        sponsored a series of focus groups with public safety 
        practitioners in August 2005 in an effort to validate the 
        function and application of these technologies in their 
        respective environments.

        <bullet>  Technology Clearing House--The S&T Directorate has 
        awarded a contract to the Public Safety and Security Institute 
        for Technology (PSITEC) to provide these services, which will 
        all be available through a Knowledge Portal. When complete, the 
        Knowledge Portal will provide a one-stop-shop for access to 
        relevant information from a wide variety of sources, including 
        the existing Responder Knowledge Base and the Lessons Learned 
        Information Sharing (LLIS) created by the Memorial Institute 
        for the Prevention of Terrorism (MIPT), under sponsorship from 
        the DHS Office of Domestic Preparedness. Its architecture will 
        be open, inter-operable, and non-proprietary to facilitate cost 
        effective, long-term operations, maintenance and upgrades.

        <bullet>  Next-Generation Cyber Security Technologies Program--
        To stimulate transfer of DHS-funded technologies into 
        mainstream commercial products and services, FY 2006 activities 
        emphasize testing, evaluation, and piloting of the most 
        promising technologies emerging from the now completed program 
        that began in FY 2004.

    While highlighting these successes, it is important to note that 
the transfer of technology often requires numerous intricate, 
incremental steps over many years. Although the basic scientific 
principles that underpin a particular technology may be leveraged, 
nevertheless significant re-engineering is required to make the 
technology suitable for homeland security purposes. In most cases, 
technology developed for one purpose, such as a military application, 
may not be able to be transferred in a straightforward manner to civil 
operations. The requirements for maintenance and support, for 
performance, and for total cost-of-ownership often must be re-
engineered or otherwise resolved to permit such transfers.
    During the next year, the S&T Directorate will work closely with 
its government, international and private sector partners to overcome 
these institutional and technical challenges. In FY 2007, the S&T 
Directorate plans to continue its technology transfer to end-users. 
Plans include:

        <bullet>  The Facility Restoration Technology Demonstration--
        This demonstration will focus on the transfer and application 
        of the concepts developed in FY 2005 and FY 2006 for airports 
        to other types of critical facilities such as subway systems 
        and other transportation nodes. In addition, FY 2007 
        accomplishments will focus on filling data and technology gaps 
        critical to the restoration of facilities such as the 
        decontamination of sensitive equipment and the interactions of 
        chemical agents on surfaces.

        <bullet>  Technology Clearing House--The Emergent and 
        Prototypical Technology Portfolio will continue to support the 
        Technology Clearinghouse in FY 2007. Development plans include: 
        adding procurement decision support tools and advanced search 
        mechanisms; expanding content to include topics such as public 
        health information; forming communities of interest and 
        professional discussion boards; and establishing a technology 
        transfer community database.

STRATEGIC PARTNERSHIPS

    The S&T Directorate places great importance on its interactions 
with the other federal departments and agencies that are contributing 
to the Nation's homeland security science and technology base. We are 
accustomed to working in an interagency working group mode, and have 
found this approach to be quite effective in addressing a variety of 
key areas. To proceed in this current effort, we must have a complete 
picture of all Federal Government components involved in research and 
development, and regularly utilize the collective wisdom that the 
interagency process brings to the table. We must understand one 
another's R&D capabilities and current activities and plans, both near- 
and long-term, because only when we have an accurate and comprehensive 
picture of the current state of the Nation will we be able to 
effectively develop a roadmap for success.
    Only through increased communication and partnering are we able to 
leverage existing federal resources to sustain the science and 
technology advances essential to homeland security. These advances in 
turn provide security solutions that are technically, economically, and 
socially sustainable. This superior technical base continuously enables 
the United States to stay ahead of the changing threats and escalating 
abilities of our adversaries.
    Research and development needed to enhance the Nation's 
capabilities to thwart terrorist acts and mitigate natural disasters is 
being conducted by the Department of Commerce (DOC), USDA, DOD, DOE, 
DOJ, HHS, DOS, and Veteran's Affairs as well as within the National 
Science Foundation (NSF), EPA, other federal agencies.
    By bringing these organizations together through strategic 
partnerships, we are creating an enduring homeland security science and 
technology community. As directed by the Homeland Security Act of 2002, 
the S&T Directorate is continuing to solidify this community by 
coordinating the Federal Government's civilian efforts to identify and 
develop countermeasures against current and emerging threats. In 
support of these efforts during the last year, the S&T Directorate has:

        <bullet>  Worked with the OSTP, the Homeland Security Council, 
        the National Security Council, the Office of Management and 
        Budget and the Office of the Vice President in the effort to 
        coordinate homeland security research and development across 
        the entire United States Government.

        <bullet>  Led the development of the National Plan for Homeland 
        Security Science and Technology. This strategic plan will 
        establish R&D priorities within and across federal programs and 
        identify opportunities to leverage the R&D efforts of other 
        agencies.

        <bullet>  Established meaningful interagency interactions with 
        Federal, State and local government and private sector entities 
        to meet the high priority homeland security RDT&E needs of the 
        Nation. This includes actively participating in or leading 
        several interagency working groups. Such groups foster an 
        active exchange of information and assist participating 
        agencies in identifying related needs and requirements, 
        conducting research and development of mutual benefit, and 
        avoiding duplication of effort.

    Through these and other interagency interactions, the S&T 
Directorate is bringing together the vast homeland security scientific 
and technology resources of the Nation. Significant accomplishments and 
ongoing collaborative efforts from across the S&T Directorate are 
listed below:

        <bullet>  Biodefense Collaboration--DHS and the S&T Directorate 
        partner with, and support, other federal departments and 
        agencies with lead responsibilities in biological threats--a 
        major focus of our countermeasure R&D. We are working with the 
        HHS on medical countermeasures and mass casualty response; USDA 
        on agriculture biosecurity and food security; and EPA on 
        decontamination and water security including a jointly funded 
        center for microbial risk assessments. In a major initiative, 
        S&T is collaborating with other federal partners to establish 
        the National Interagency Biodefense Campus, which includes our 
        partnership with the DOD on the National Biodefense Analysis 
        and Countermeasures Center (NBACC). This Center will provide 
        the Nation with cutting edge capabilities in bioforensics and 
        biological threat characterization. S&T and DOD's Defense 
        Threat Reduction Agency (DTRA) are collaborating on BioNet, a 
        program to integrate military and civilian biomonitoring 
        activities and establish a shared communications process to 
        provide timely biothreat information. The S&T Directorate 
        maintains a close liaison with the DOS on matters relating to 
        the Biological Weapons Convention (BWC) which is essential to 
        DHS biological countermeasure programs and compliance posture.

        <bullet>  Chemical Countermeasures Collaboration--The S&T 
        Directorate is working with DOD to plan a Chemical Security 
        Analysis Center (CSAC) that will serve as a knowledge 
        management, threat characterization, and forensic analysis hub 
        that will address a full range of chemical threats, 
        particularly chemical warfare agents and non-traditional 
        agents. We are also coordinating with HHS' Centers for Disease 
        Control (CDC) and the EPA on the larger Chemical Laboratory 
        Response Network (CLRN). In the aftermath of Hurricane Katrina, 
        we have already seen how components of CLRN will produce a more 
        coordinated, more effective laboratory response effort. The CDC 
        activated the Laboratory Response Network to conduct sampling 
        and analysis for identification of toxic chemicals and 
        pathogens in Gulf Coast areas.

        <bullet>  Critical Infrastructure Protection--Under HSPD-7, 
        Critical Infrastructure Protection, DHS is assigned the overall 
        responsibility for coordinating the national effort to ensure 
        the security of the Nation's critical infrastructure and key 
        resource sectors. Per this directive, the S&T Directorate is 
        working with the Chemical Sector Coordinating Council, 
        comprised of 16 key stakeholders, to draft the Nation's 
        strategic vision for better securing the chemical sector 
        infrastructure. Our key federal partners in chemical security 
        include DOD, HHS, the FBI, the EPA, and the interagency 
        Technical Support Working Group (TSWG). In addition, we 
        established the Process Control Systems Forum (PCSF) to develop 
        new cross-industry guidelines, protocols and system 
        architecture for provably secure, next-generation Supervisory 
        Control and Data Acquisition (SCADA) and related types of 
        process and distributed control systems. PCSF is comprised of 
        government and private industry stakeholders, owners, and 
        operators.

        <bullet>  Maritime--The Science and Technology Directorate's 
        Coast Guard R&D program is characterized by its many 
        partnerships with other federal agencies and international R&D 
        groups. Beyond the program support for the Coast Guard's 
        traditional missions, we have ongoing collaborations in the 
        maritime security domain. We are supporting the Department's 
        participation in a broad maritime security program review 
        looking at all current U.S. Government maritime policy 
        initiatives and ensuring interagency alignment to guide a 
        focused national effort to improve Maritime Domain Awareness. 
        Maritime Domain Awareness includes all systems, sensors, and 
        command and control systems necessary to detect, identify, and 
        determine the threat potential of all vessel traffic. It also 
        includes Port Security to protect important harbors. In 
        accordance with National Security Presidential Directive 41 and 
        HSPD-13, ``Maritime Security Policy,'' issued last December, 
        DOD and DHS are leading an interagency initiative to develop 
        the National Strategy for Maritime Security. The S&T 
        Directorate is supporting that effort as well as the ongoing 
        comprehensive National Maritime Response Plan that clarifies 
        lead agency roles and responsibilities regarding maritime 
        threats.

        <bullet>  Transportation Security Partnerships--The S&T 
        Directorate works in close cooperation and collaboration 
        through a Cargo Security Integrated Planning Process Team 
        (IPPT) process. The IPPT is co-chaired by S&T and the DHS 
        Policy Office, and has representatives from within the 
        Department as well as the Departments of State, Commerce, 
        Defense, Transportation and Energy. Through this IPPT, DHS 
        actively ensures coordination with existing government programs 
        and leverages those relationships to foster a cohesive program 
        strategy and avoid the duplication of effort. Other 
        transportation security efforts focus on Freight Rail Security 
        with the Federal Railroad Administration and the S&T 
        Directorate's ongoing Counter-MANPADs program. In partnership 
        with other federal agencies (FAA, DOD, DOS), the S&T 
        Directorate initiated a Congressionally-directed aggressive 
        System Development and Demonstration program to counter the 
        threat of shoulder-fired missiles. The program demonstrates and 
        evaluates the possible migration of existing military Counter-
        MANPADS technologies to the commercial airline industry.

        <bullet>  Border Security--Over the past three years, the S&T 
        Directorate has coordinated extensively with DOD, the National 
        Aeronautics and Space Administration (NASA), and FAA with 
        respect to Unmanned Aerial Vehicle (UAV) operations and 
        evaluations for the U.S. Border Patrol. The UAV Executive 
        Steering Group was established to advise the Secretary of 
        Homeland Security and provide a forum for communication, 
        coordination and cooperation. The UAV Executive Steering Group 
        is made up of representatives from DHS components, DOD and the 
        FAA.

International Partnerships

    The S&T Directorate recognizes the enormous benefits gained from 
working with the international community to seek technology solutions 
to our common homeland security problems. We have worked in concert 
with our Federal Government agency counterparts to both negotiate 
agreements with key foreign partners and to implement strategic 
programs under those agreements that meet our mutual high-priority 
needs.
    The S&T Directorate is currently the United States' lead agency for 
umbrella S&T Agreements that have been created with Canada, the United 
Kingdom, and most recently with Australia. These instruments provide 
the mechanism for us to share resources, ideas, and information in 
order to leverage our individual investments, to benefit from each 
other's experiences and perspectives of others, and also importantly to 
create consistency in the tools and systems that we ultimately field. 
We are taking advantage of the opportunities presented by these 
partnerships across the entire suite of civil security mission 
requirements.
    Cooperative research, development, testing and evaluation 
activities are being pursued with other countries as well. In 
particular, we are looking at ways to enhance an already robust 
collaboration with Israel, especially in testing of explosives 
detection and mitigation technologies in operational environments. As 
part of the Security and Prosperity Partnership initiative, we have 
reached out to Mexico to begin a dialog on technology to address 
agricultural security. We understand the need to engage foreign 
entities on technology issues around travel and trade security and have 
initiated interactions with Singapore, the Netherlands, Sweden and 
Japan in this arena.

CONCLUSION

    In conclusion, I thank you for the opportunity to appear before you 
today. I can assure you that we are on-task, and that we are providing 
the planners, operators, and responders we serve with the best support 
our science can offer. Homeland security continues to benefit 
tremendously from the work of our nation's scientists and engineers. 
The knowledge, the systems, the methods, and the tools they give us do 
much to make us safer and more prepared.
    On behalf of all of us in the Science and Technology Directorate, I 
thank you for your continuing support and counsel. I am proud of what 
we have been able to accomplish in just a few years, and I trust we 
will continue to live up to the responsibility the Nation has given us. 
I will be happy to answer any questions that you may have.

                   Biography for Charles E. McQueary

    Dr. Charles E. McQueary was appointed by President Bush as Under 
Secretary for Science and Technology of the Department of Homeland 
Security and confirmed by the U.S. Senate in March of 2003.
    Dr. McQueary leads the research and development arm of the 
Department, utilizing our nation's scientific and technological 
resources to provide federal, State, and local officials with the 
technology and capabilities to protect the homeland.
    Prior to joining Homeland Security, Dr. McQueary served as 
President, General Dynamics Advanced Technology systems, in Greensboro, 
N.C. Earlier in his career, Dr. McQueary served as President and Vice 
President of business units for AT&T, Lucent Technologies, and as a 
Director for AT&T Bell Laboratories.
    In addition to his professional experience, Dr. McQueary has served 
his community in many leadership roles as Chair of the Board, and 
Campaign Chair, of the United Way of Greensboro; Member of the Board of 
Trustees of North Carolina Agricultural and Technical State University; 
Member of the Guilford Technical Community College President's CEO 
Advisory Committee; Member of Board of World Trade Center North 
Carolina; Chair for Action Greensboro Public Education Initiative; and 
as a Member of the Board of Guilford County Education Network.
    Dr. McQueary holds both a Ph.D. in Engineering Mechanics and an 
M.S. in Mechanical Engineering from the University of Texas, Austin. 
The University of Texas has named McQueary a Distinguished Engineering 
Graduate.

                               Discussion

    Chairman Boehlert. And once again let me thank you on 
behalf of the entire Committee for your outstanding public 
service.
    Dr. McQueary. Thank you.
    Chairman Boehlert. We wish you well.
    Dr. McQueary. It's been a pleasure to serve in this role, I 
assure you.
    Chairman Boehlert. You know, when you're charged up as you 
are within the Administration, and I am and we are and the 
majority up here, there's always a temptation to have this as a 
sort of cheerleading session and we high five each other and 
talk about all the good things and boy, there are a lot of good 
things to talk about, but that produces nothing of any real 
value as we go forward. So instead of focusing on all that's 
right in a budget that does much better by science, and instead 
of focusing on the vision that's coming into sharper focus 
because of the budget and the words and deeds from the 
Administration, I'm going to talk about some of the other 
things that are somewhat problematic, if you will.
    Let me start out with one, Dr. Sampson, for you, because 
both Mr. Gordon and I and just about everybody we talk to are 
real believers in the Manufacturing Extension Partnership. In 
the budget submission from the Administration, requesting $46 
million ain't going to fly, I'll tell you. I am determined to 
up that and so is he and I think the majority in Congress are. 
We're talking about, relatively speaking, nickels and dimes for 
a program that has proven its value. So tell me how you think 
the program would work if we were dumb enough to only provide 
$46 million. Can you explain that to me?
    Dr. Sampson. Certainly. First of all, I think what I would 
point out is that in the budget development process, our 
responsibility is to identify priorities that we believe 
address the most critical needs that we have. Secondly, MEP is 
just one method by which NIST supports manufacturing in 
America. Over half of all NIST core laboratory functions 
directly or indirectly benefit manufacturing. At NIST we have 
somewhere in excess of 1800 visiting scientists working from 
industry and from academia, and if the Congress decides to move 
forward with what we believe are the right set of priorities 
for NIST, what we would do would be several things. First of 
all, we will begin----
    Chairman Boehlert. Doctor, well, I mean the time is limited 
and I'm going to hold myself to the same time. Just let me 
signal you so you can go back and----
    Dr. Sampson. Okay.
    Chairman Boehlert.--report to everybody that we're 
determined to do better by MEP and we're determined to do well 
by NIST, but this is something that really impacts on the small 
business manufacturer right on the front lines and they're 
oftentimes like one-armed paperhangers. They don't have 
research departments. They don't have all these other 
departments, but they need some help and it's a good program 
and it makes sense, so I hope you won't be unhappy if we force 
more money into this program on Commerce. That's it.
    Now let me go to Dr. Bodman. As you know, this committee, 
particularly Chairman Biggert and I, have long been concerned 
about the lack of any plan for the Climate Change Technology 
Initiative. Now that, thanks to you and I want to give you high 
marks for this, a drafted strategic plan has finally been 
released, we're still kind of concerned. There doesn't seem to 
be much in there to help set priorities or milestones. Could 
you tell us how you see that plan moving forward from here and 
what you hope it will accomplish? And just let me say I think 
we're finally getting to the point where people no longer think 
that my concern about global climate change and the scientific 
community's concern about global climate change is just a 
figment of our imaginations. It's for real and we've got to 
deal with it in a responsible way. So I give the microphone to 
you, Mr. Secretary.
    Secretary Bodman. Well, without getting into a debate about 
climate change, I would observe that this Administration has 
been doing everything it can do with respect to both science, 
which I was intimately involved with during my days when I had 
Dr. Sampson's job and now at the Energy Department, where we 
are responsible for the technology program that really covers a 
wide range of things, each of those programs have very specific 
milestones and goals and objectives and so forth, and we lay 
those out each year in the budget, so I'm in receipt of a 
letter that you and Congresswoman Biggert sent and I'm in the 
final stages of responding to that, but I'm comfortable that we 
have adequate goals and objectives. And the hope here is to 
develop technologies that will, when they emerge, which they're 
starting to do, into the marketplace will be able to make a 
significant contribution by reducing greenhouse gas emissions.
    Chairman Boehlert. Mr. Secretary, I'm comfortable if you're 
comfortable because I have a very high regard for you and I'm 
very much looking forward to the response that is in the final 
stages of preparation, but we won't get into a debate about 
global climate change because I know that you know, and even 
the President knows, it's for real. It's not the figment of 
somebody's vivid imagination. And I know and you know and the 
President knows that humans have contributed to it, and I know 
and you know and I think the President realizes that we have to 
do something about it, so the discussion would be what that 
doing something should represent, not whether or not the 
problem exists is for real. So thank you very much for that 
answer. We very much look forward to your response.
    And, Dr. Bement, as several of us have noted, we're not 
happy with the level of education commitment at NSF, which we 
think is critical to the Nation's future. Can you please tell 
us what you think the role of NSF is in education? What is the 
justification for reducing K through 12 programs just as the 
Nation is focusing increasingly on the inadequacies of science 
and math education?
    Dr. Bement. Yes, Mr. Chairman. First of all, I would like 
to say that education, outreach, and diversity are core values 
throughout the Foundation, not just in the EHR Directorate. It 
permeates every directorate and every office within the 
Foundation. And the commitment right now in the 2007 budget is 
$816 million in the EHR Directorate, but it's $450 million in 
the Research and Related Activities account, and that includes 
activities at every level, from K to 12 to undergraduate to 
graduate and early career and also in broadening participation.
    And just to give some examples, in K to 12 there's the GK-
12 Program in the R&RA account, which brings mentors into the 
classroom. There are also Research Experiences for Teachers. 
Now these programs are well recognized by the National Science 
Board and they've encouraged us to put more commitment in our 
research directorates, because the kind of programs we can 
bring into the classroom gives more hands-on experience, 
creates more motivation, creates more enthusiasm and puts more 
bright minds into the pipeline for science and engineering, 
which is a critical need in the Nation at the present time.
    Without belaboring that fact, I have eight pages of 
examples of programs within our R&RA----
    Chairman Boehlert. I'm sure you have.
    Dr. Bement.--which I'd like to present--
    Chairman Boehlert. And I know from long experience that the 
Administration sends its witnesses up and boy oh boy, you've 
got volumes to tell us what great work you're doing, and you 
know what? I think you're doing great work and I am a 
cheerleader for the National Science Foundation, but I'm 
anxious to get to that area where I think we want to give you 
an opportunity to do even better than what you are doing. We 
have some dispute about how you come up with the bottom line, 
but the important point is that science and math education is 
in need of attention in this country.
    Dr. Bement. Yes.
    Chairman Boehlert. It's critical that we invest more in 
that and it's also important for everybody else in this town to 
recognize that you guys at NSF have a vital role to play. We 
just can't leave it to the Department of Education, and we've 
got to make darn sure you----
    Dr. Bement. Right.
    Chairman Boehlert.--at NSF and the Department of Education 
are working collaboratively and you're marching forward 
together, not like in the past. I can recall one time when I 
had to introduce the Secretary of Education to the Director of 
the National Science Foundation. They didn't know each other. I 
mean, that was really mind boggling, but we don't have that 
now.
    Dr. Bement. Well, Mr. Chairman----
    Chairman Boehlert. I can----
    Dr. Bement.--we have a common mission and I----
    Chairman Boehlert. That's super.
    Dr. Bement.--appreciate your support. And I should add, 
I've met with the Secretary of Education at least twice.
    Chairman Boehlert. Well, that's great and keep meeting. Mr. 
Gordon.
    Mr. Gordon. Thank you, Mr. Chairman. I will follow your 
admonition and try not to be a cheerleader here today. Let me--
    Chairman Boehlert. But you will concede there is much to 
cheer about. Thank you.
    Mr. Gordon. I want to, as always, or not always, but most 
of the time say that I am in such agreement with the Chairman. 
I understand, Dr. Bement, beside being a scholar, you're also a 
soldier but I know you can't do anything about this K to 12 
situation. It's been cut 37 percent. You listed all the good 
things you're doing, but the funding has been cut by over one-
third for those. I hope----
    Dr. Bement. Are we talking about MSP or K to 12 education?
    Mr. Gordon. K to 12.
    Dr. Bement. That hasn't been cut.
    Mr. Gordon. If you look at the budget, over the last--I 
think it was seven percent this year. It's been 37 percent, I 
think, from 2001 to 2004.
    Dr. Bement. Well, again I would argue that in the EHR 
account, if that's the only account you're looking at, you'll 
see some cuts in K to 12, but you also ought to look at the 
total budget.
    Mr. Gordon. Well, I think, if we look at the Augustine 
Commission Report, K to 12 science education was really a major 
thrust there. I have put their recommendations into 
legislation. Again, you've listed all the good things you're 
doing. Again, I'm just sorry that it's being cut by one-third. 
You are a soldier and so you can--you know, and if you can put 
on a grin on that one, you----
    Dr. Bement. Well, I had.
    Mr. Gordon.--you really are a good one. Let me also say, 
Mr. Chairman, that concerning the MEP Program, clearly I think 
it is a bipartisan program and it's distinguished by the 
Governors Association, saying it's important. And, Dr. Sampson, 
you pointed out a rosy picture, but the fact of the matter is 
that all of the surveys taken of our country's attitudes right 
now, say we're going in the wrong direction and the economy is 
one of those areas that they say is going in the wrong 
direction. And I think a part of that is the fact that since 
2001, we've lost 2.8 million manufacturing jobs. The MEP 
Program really is our only small, little effort to try to save 
those jobs and improve those jobs, and you talked about, what a 
good job NIST is doing. It's being cut by 23 percent. You know, 
we just need more help in these areas.
    And, Mr. Chairman, you pointed out, rightfully so, that 
this is an important group of individuals with the panel. They 
are also dedicated public servants and I would say all have 
made personal sacrifices to do what they're doing and I 
congratulate them for that, but constitutionally, we are an 
equal branch of the government. We do have the responsibility 
of oversight. We are busy also, but part of being busy is 
trying to do our oversight, so I think we--we need to move 
forward with that.
    And finally, Secretary Bodman, Jerry Costello couldn't be 
here today. He has another committee meeting, but he wanted me 
to thank you and the Administration for their commitment to the 
FutureGen issue and he'll be submitting questions to the 
record. I'm glad I could say something nice. I'm going to tell 
him--because I'm sure it's going to be news to him, as well as 
to the world, that you say that the Administration is doing all 
that it can on climate change. I'll let him know that.
    And finally, let me say, Dr. Marburger, I had nominated you 
for the gold medal and now I would like to present that to you. 
You performed with grace. Once again this year it's just 
interesting how when you want to prove the commitment of the 
Administration on overall spending for science, you include 
earmarks. But then, if there are problems, you say bad things 
about the earmarks. One area you pointed out was that five 
percent of the budget was earmarks. That meant that 95 percent 
were your priorities. You know, I'll remind you that the entire 
Administration's budget is an earmark. You are earmarking what 
your priorities are. I don't think it's unreasonable that 
Congress, an equal branch of government, going through 
legislative hearings, having some bit of expertise, would also 
like to have some role in establishing that. You've got 95 
percent of what you wanted. You know, I think to say that five 
percent were earmarks, that were legislative priorities, I 
think it came out pretty well. So, again, my congratulations at 
your gold medal performance and I appreciate you coming here 
and being with us today.
    Chairman Boehlert. Thank you very much. Dr. Bartlett.
    Mr. Bartlett. Thank you very much, gentlemen. I appreciated 
your comments. We're talking today about the federal R&D 
budget, but this is being focused on our competitiveness agenda 
and that's very appropriate. Essential to that, of course, is 
the country turning out adequate numbers of well trained 
scientists, mathematicians and engineers, and do you know the 
statistics? China graduates more English speaking engineers 
than we do and a fair percentage of the English speaking 
engineers that we graduate are Chinese students. They're now 
graduating what? I hear various numbers. Six, eight times as 
many engineers as we're graduating. India, two, three times as 
many engineers as we're graduating. I would submit, gentlemen, 
that a culture gets what it appreciates.
    When I was going to school, we were squares. That's about 
when you went to school, I guess. And now I guess bright young 
boys are geeks and nerds, and pretty girls won't date them, and 
really bright girls have to play dumb to get a date. How smart 
is this of a society where our bright young people are clearly 
under-appreciated? Rarely is a scientific achiever invited to 
the White House to be acclaimed there, and I submit, gentlemen, 
that we're not going to turn this around. Money alone won't do 
it and the good intentions of your departments won't do it. 
This will turn around when we as a culture appreciate this kind 
of endeavor.
    I'd like to start with Dr. Marburger and just go down the 
table. What can we do as a culture so that our bright young 
people--I talk to a lot of them and they are increasingly going 
into what I caution them could be destructive pursuits. They're 
becoming political scientists and lawyers. Now, we need a few 
of each of those, but I would submit that we've got more than a 
few of each of those and I'd like to see more of our bright 
young minds go into science, math and engineering, but that's 
not going to happen until we as a society appreciate them. How 
do we send that message?
    Dr. Marburger. Well, Congressman, I think that one of the 
best ways is to have the leadership of the Nation raise the 
visibility of science as an important function for our society. 
The American Competitiveness Initiative was just an enormous 
stroke of publicity and positive visible leadership. The 
President, following his State of the Union speech, visited a 
number of sites around the country, one of which was a training 
site that had been established by Intel Corporation in 
Albuquerque for bringing teachers into contact with real-life 
scientists and engineers. A major part of the initiative is to 
create a much larger core of adjunct teachers who can come into 
the classroom and let students see a real live human being and 
how excited they are about their work and how they feel what 
they're contributing to the Nation's future competitiveness. I 
believe that leadership is really important and frankly, the 
enthusiasm that Congress has shown, including Members of this 
committee, for this initiative has simply added to a 
groundswell of recognition for the importance of these 
professions to the Nation. So I believe we're on our way to a 
new era of awareness, and I don't doubt it will have a major 
impact on the graduation rates in science, engineering, math 
professions.
    Mr. Bartlett. Dr. Bodman.
    Secretary Bodman. I think Dr. Marburger said it very well. 
I think it takes leadership. I think it takes Congress. I think 
it takes the President. The President has stepped up and made 
proposals, has made, I thought, a very definitive statement 
about the importance of this to this country and if you have 
the President talking about this, I don't know how you'd do 
much better than that, sir. So I do think that we have the 
potential, if we get the kind of support from Congress that I 
hope we will get for the proposals, I think we are embarking on 
a new era.
    I am a product of the Sputnik generation. I used to go out 
in the backyard as a boy and a not so young boy, I guess, and 
look up in the sky and look for that light going across because 
the Russians had one-upped us and that led to a number of 
initiatives, legislative initiatives, and Presidents Eisenhower 
and Kennedy did a great job of, I think, capitalizing on that. 
We're at a point now where we're having a similar kind of 
experience and the importance of science research and 
development, particularly the physical sciences, and its impact 
on the economy, and I think it's starting to become better 
known throughout our society, and I'm hopeful. I don't know 
what more to say than that, sir.
    Mr. Bartlett. I remember a cartoon from that era, 
recognizing the increased interest in engineering science and 
math. It was a kid; a freckled faced, bucktooth kid who said 
that six months ago I couldn't even spell engineer and now I 
are one. Oh, we need that kind of----
    Secretary Bodman. I, too, saw that cartoon. I didn't like 
it a lot, because I was once, sir. Yes.
    Chairman Boehlert. Thank you very much, Dr. Bartlett. Your 
time has expired. But I can't help making an observation. You 
guys get it and we get it, about the importance of the subject 
matter being discussed today, but it warms the cockles of my 
heart to see this attendance here, and one of the things we 
have to do, Dr. Bartlett, is to get the media to focus on this 
very important subject in a significant way.
    For example, Mr. Secretary, you and I were down at the 
White House, and I don't mean to name drop, but Monday, when 
the President of the United States, in a highly visible 
ceremony, presented the National Medal of Science and the 
National Medal of Technology to some very distinguished 
Americans and to some companies who have made a major 
investment and produce something of broad-ranging implication 
that helps fuel our economy and keeps us in our number one 
position. And guess what? I picked up yesterday morning's 
papers. I didn't expect to see my picture with the President, 
but I expected to see some stories about these wonderful, 
wonderful deeds performed by these magnificent national 
treasures and it was almost ignored by the national media, and 
we've got to get them enlisted. We've finally got the attention 
of the business community. I keep telling them, you know, you 
got to lobby for something other than the latest tweaking in 
the tax policy necessary to ensure a better bottom line, or the 
adjustment in trade policy that's necessary to put you in a 
more favorable position. You've got to tell us, in the Congress 
and in the Executive Branch, the importance of investment by 
the United States Government in research, and the importance of 
training the workforce of tomorrow. You've got to start 
training them today.
    So I hope all the media representatives in the room will 
take to heart what I'm saying. We want you to partner with us 
in getting this message out. With that I am pleased to 
recognize the distinguished gentlelady from Texas, Ms. Eddie 
Bernice Johnson.
    Ms. Johnson. Thank you, Mr. Chairman, and I apologize for 
having to run to another meeting, but I will ask unanimous 
consent to submit my complete statement as well as my 
questions.
    Chairman Boehlert. Without objection, so ordered.
    Ms. Johnson. Thank you. And simply say that, to the 
distinguished panelists, your leadership will determine where 
we are in this world. From K through 12 to higher education, to 
research, all of that, you are very, very important leaders. 
And you know, I like and respect our President, but he is a 
slow learner when it comes to this, and it's going to be up to 
you to give him as much of your information as possible. We get 
comments about our attitude on global warming. We are getting 
to the point where our science is being doubted by other 
countries. That's the worst we can get. We were told not to 
attend another meeting, after he came into office, on global 
weather change, and it's unfortunate because we see the 
results. I'm asking all of you to spend more time educating our 
leadership in this area. Nothing is more critical than to 
educate young people, to get our scientists out there and 
become a leader in the world again in this area. We are really 
not right now because we're not prepared, but we can retrieve 
our standing, but it's got to be with your help and your 
leadership. Thank you.
    Chairman Boehlert. Thank you very much. Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, and thank you to the 
panel. Dr. Bement commented that he's having trouble because 
he's constantly smiling ever since the announcement of the 
President. I've had that same problem. In fact, the Speaker 
appointed me Chairman of the House Administration Committee to 
try to get rid of that smile. And those who know the committee 
know why. At any rate, congratulations to all of you and I 
thank you for your good work. And as you know, I've been 
fighting for this for 12 years now and it's very, very 
heartwarming to see progress on this front.
    I also have to agree with the comments made about education 
and I'm disappointed at the cuts in the National Science 
Foundation and parts of their education programs. I understand 
the reason; I simply don't agree with it and I want to state 
that on the record. And Dr. Bartlett was quite right in 
commenting that, you know, being a nerd is not socially 
acceptable in high school. You know, and he said, you know, 
pretty girls don't date nerds. I thought that was true when I 
was in high school. I, however, found out that was just because 
I was obnoxious, and once I solved that problem, I married a 
pretty girl.
    The point he made about being accepted, and it's also the 
point that the Chairman made about the announcements about the 
winners, I don't know what it is about the public. They all 
admire scientists, but don't want to get too close to them and 
that carries over in high school. I'm particularly worried 
about the young women in elementary and secondary grades, where 
some are conveyed this cultural idea that girls can't do 
science or can't do math. That's just nonsense. We're the only 
country that has that culture and we have to get rid of it, and 
if you have any bright ideas of how to get rid of it, that's 
very important.
    But every time I visit a high school and speak to the 
students, I point out to them that they're making very 
important decisions about their future by way of the courses 
they select. And I also tell them they shouldn't look down on 
nerds, because if they are not a nerd, they're going to end up 
working for one, and I think that's a very important truth that 
they have to recognize. That's the direction the world is 
going. What I'm trying to get at is the importance of conveying 
that taking math and science ensures a more stable economic 
future, and we're not communicating that to kids and that's 
what we have to do. It's not a matter of just being socially 
acceptable, that it affects their ability in the years ahead to 
take care of themselves and their family.
    I also want to express my concern about what's done to the 
MEP Program and the ATP Program. We'll continue working on 
that. I don't want to add to that. But getting back to the 
climate change research, a question for Dr. Marburger and then 
Dr. Sampson. The Administration, to its credit, sometime ago, I 
believe 2003, completed a strategic plan for the Climate Change 
Science Program and this was supposed to guide a coordinated 
strategic budget request for climate change research across the 
entire Federal Government. Yet every year it seems we see a 
shift in priorities and funding requests for the various 
climate change programs that are a part of the Climate Change 
Strategic Initiative, or Science Program. And I'm wondering, is 
this really working well? Is the program really coordinated? 
Have you settled on a strategic plan? Are you following that 
plan or are you still running into the problems that, because 
it's spread across many departments and agencies, many of them 
are just taking the money and running in their own direction 
without complete coordination?
    I'm not trying to pin the donkey's tail on you. I'm just 
really concerned about that and whether you were having trouble 
getting a handle on that and keeping their nose to the 
grindstone in the direction that you have decided you should 
go. So Dr. Marburger first and then Dr. Sampson.
    Dr. Marburger. Thank you, Congressman. The Climate Change 
Science Program is one of a very small number of federal 
interagency programs that has a fully staffed coordination 
office. The chairman or the director of that office has been 
Dr. James Mahoney, a----
    Mr. Ehlers. And he did----
    Dr. Marburger.--a prominent meteorologist.
    Mr. Ehlers. And he did an excellent job.
    Dr. Marburger. And he has led that office in a very 
vigorous and proactive way. And part of the function of that 
office is to review the climate change science programs in all 
the agencies every year, to make sure that the budget proposals 
requested from those agencies are consistent with the overall 
strategic plan, and I believe that some of the changes and 
motion that you see in the budgets for those programs is a 
direct result of vigorous oversight and not the result of 
chaotic drifting. So I would interpret the changes that are 
being made as a result of dedication to operating this program 
as well as possible.
    The office has a system that they have adhered to of having 
their progress reviewed by external bodies, including the 
National Academy of Sciences. So I believe there is oversight 
there and I would interpret some of these changes that you 
referred to as not necessarily indicating weakness.
    Mr. Ehlers. So you're saying this is really part of the 
annual review of the planning process and modification as you 
go along?
    Dr. Marburger. Insofar as these changes are reflected in 
the President's requests for these programs, they are in fact a 
result of deliberate review by the coordinating office.
    Chairman Boehlert. The gentleman's time has expired.
    Mr. Ehlers. I wondered if Dr. Sampson could just----
    Chairman Boehlert. Okay. Dr. Sampson.
    Dr. Sampson. Well, I've chaired the Climate Change Science 
Program this past year. OMB sits in on those meetings. Dr. 
Mahoney is, I think, a real national treasure and so yes, I 
believe there is very strong coordination among the agencies.
    Mr. Ehlers. The next question--and I don't have time, but I 
just want to throw it out and you can reply in writing. What 
about the technology program? Is the same thing true there?
    Chairman Boehlert. Thank you very much. Mr. Miller. 
Incidentally, Mr. Miller and I, just about 30 days ago, were 
down at the South Pole and I'm advised by our good friends in 
the National Science Foundation that they're going to initiate 
a new program making us members of the Royal Order of the Ice 
or something like that. But, Dr. Bement, you know what a 
wonderful job NSF does with that polar program and he's got 
firsthand testimony. Mr. Miller, you're recognized.
    Mr. Miller. Thank you, Mr. Chairman. It was wonderful to 
stand at the South Pole and realize that all the politicians of 
the world who thought the world was revolving around them were 
actually wrong. It was revolving around me, at least for that 
moment. I was also pleased when I heard the President, in his 
State of the Union, describe a new competitiveness initiative, 
emphasis on science and math education and emphasis on basic 
research, but this is my third, or that was my fourth State of 
the Union and the budget always comes a week later, and it has 
become apparent to me that the budget writers get one memo and 
the speech writers get a different memo. The speech writers get 
a memo entitled paying Paul, and the budget writes get a memo 
entitled robbing Peter.
    I remember two years ago, and then again last year, the 
President praised community colleges for the important role 
they played in giving our workers the skills that they need. 
Two years ago the President announced a new $250 million job 
training program for community colleges. When his budget came 
out, you couldn't really find it. Now, Congress did fund that 
$250 million as a new initiative, but that year, half of that 
came dollar from dollar for a Displaced Workers Training 
Program that was doing pretty much exactly what the President 
said the new program was going to be doing. And then last year 
Congress funded the new initiative not at all, but the 
Displaced Workers Program didn't get their $125 million back. 
And in fact, over the last three appropriation cycles, programs 
in community colleges for training displaced and new workers 
have lost $120 million. So I was actually a little concerned 
when I heard the President talk about basic research and what 
that would actually mean in the longer run. Is praising it in 
the State of the Union actually the first step in cutting it?
    And Dr. Marburger, I'm not persuaded by the argument that 
you need to back out the earmarks and that we really are 
spending more on science, not less. The earmarks were 
undoubtedly spent on research, just research at the direction 
of Congress instead of research at the direction of the 
Administration. But fundamentally, I agree that what we're 
doing in scientific research should not be guided by politics. 
But, Dr. Marburger, I am very concerned that reports that we 
have heard, that it is being guided by politics in the 
Administration. There was an article this morning in the 
Washington Post, and op-ed piece by Ann Applebaum, about a 
NASA-funded research project into the possible environmental 
effects of hydrogen fuel cell, the hydrogen fuel cell economy 
that the President pushed two or three years ago, and that a 
press conference and a press released announcing the results of 
that study were killed by your office, apparently for political 
reasons. This was a favored project of the Administration and 
this report by NASA was critical of it.
    Dr. Marburger, I know that you're going to say it didn't 
happen, but these were all unnamed, presumably national 
employees speaking and not for--speaking with the understanding 
that their names not be used. What assurances can you give us? 
What procedures are in place to make sure that politics does 
not intrude in what is being funded and what findings are 
acceptable coming out of scientific research, particularly on 
global warming?
    Dr. Marburger. On the contrary, that is a case where my 
office did, in fact, ask NASA to hold up a press release on a 
study that indicated the impact of very large quantities of 
hydrogen in the atmosphere, and we did that specifically 
because another agency that had expertise in this area was 
aware of the conditions of the report were somewhat in 
question, and we wanted to make sure that the Department of 
Energy had an opportunity to say what it thought the case was 
before NASA put out its own press release. We did this in full 
awareness that the paper was about to be published and that the 
institution where the people were working was going to have its 
own press release. I was struck this morning, in the op-ed that 
you referred to, by the contrast between the title of the 
article and the concluding sentences of that commentator 
saying, I have nothing to report.
    So I think this is a case where there's been an effort to 
make a mountain out of molehill, and I'm not at all defensive 
about the action that my office took in that instance. It took 
place three, three and a half years ago, I believe. So I'm very 
aware of the report and its implications and the problems with 
the study that was done, some of which were actually indicated 
in the op-ed article that you're referring to. So I don't think 
this is an indication that supports the contention that the 
Administration interferes with science or censors science in 
any way. I think that this was an appropriate action that we 
took in response to a situation that needed to be clarified to 
the American people.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired. Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. I'm sorry, I was 
meeting with Dr. Sega here in the back and I don't know if the 
question that I'm going to have, whether it's been answered or 
not. If it has, let me know. Dr. Marburger, the Office of 
Science and Technology Policy, OSTP, is currently in the 
process of developing a national aeronautics policy, you're 
probably aware of, to guide research in years to come and the 
question I have, or two questions, one is, how will this policy 
ensure that the United States is competitive globally, in an 
industry that is one of the bright spots that we have left? And 
the other question is, why was aeronautics not included in the 
President's competitiveness initiative?
    Dr. Marburger. Thank you, Congressman. The President's 
competitiveness initiative is an initiative about priorities. 
What are the areas that have the absolute highest impact on our 
future competitiveness? What are the areas that need to be 
tuned up and need to be supported in response to studies that 
have taken place over the past few years? And what are the 
areas that are ready to use the funds that have plans in place 
and detailed spending plans and projects and roadmaps and so 
forth? And I believe that the initiative does accurately 
identify those priorities.
    The civil aviation component of federal operations is 
clearly a very important component and one that is currently 
benefiting from an activity mandated by Congress on the next 
generation air transport system. As that planning for that 
program matures and develops its own roadmaps and strategic 
plans for the path forward, I have every confidence that the 
President will propose and the Congress will appropriate funds 
that are appropriate for that sector of our activities.
    Mr. Calvert. I have a number of questions specifically that 
I might send to you because of the limited time.
    Dr. Marburger. I'd be glad to respond.
    Mr. Calvert. I also have a question that I won't ask for an 
answer, that as a nation we should be concerned about is the 
next generation air traffic system, which, seems to me, we're 
falling behind on and we just don't seem to have any closure on 
that, and the Europeans, as you know, with their own concept, 
that I would hate for us to see us lose that, which is 
extremely important to maintain, I think, an industry that's 
very important to this country. I would like to get a written 
response on that.
    Dr. Bodman, you know, on the issue of energy independence--
and I understand, with the price of oil being what it is, that 
oil companies probably--it isn't necessary for them to possibly 
get R&D money for oil sand research or oil shale research, but 
it seems to me that we need to do something that's immediate in 
order to get our supply up and in order for us to be 
competitive and to have better prices at the pump, quite 
frankly. And I know your ethanol initiatives and what's going 
on with finding better technologies and to use cheaper fuel 
stocks and the rest. Any comment about how we can help get more 
oil in the pipeline and have more immediacy in some of these 
solutions that we can go back home and talk to folks about? 
Because I'll tell you, in southern California, and I'm sure 
Dana's the same way, we hear a lot about that back home.
    Secretary Bodman. The efforts on drilling continue 
unabated. There is plenty of incentive to drill oil wells at 
$60 oil prices. And so we have seen a response. Part of the 
problem in looking at energy, at the energy system, the country 
has, the world is getting your constituents to appreciate the 
scale. We had a situation where starting a year ago, we had, 
right after I took this job, by the way, we had, for the first 
time in my memory, demonstrated the inability of the world 
producers to keep up with the demand and so we saw an 
escalating oil price. It started there; it was exacerbated by 
the hurricanes that occurred last fall. And I'm of the belief 
that we will see a response from the industry as they are 
getting geared up and working on the appropriate expansion of 
their activities. Certainly, that's happening abroad and I 
believe that it's also happening domestically.
    We also have, you know, other things that have been real 
problems getting the natural gas pipeline from Alaska 
constructed. Part of the responsibility, at least at this 
point, of the Energy Department getting that going and it's 
been a real issue trying to get the oil and gas companies to 
agree to the demands of the State government in Alaska, or vice 
versa. I'm not sure who's at fault, but we've got real issues 
there in trying to get that done, and then you are well aware 
of ANWR and the situation that emanates from there. So there 
are lots of ways. The Interior Department has proposals on 
increasing access to parts of the outer continental shelf in 
the Gulf of Mexico; that will help. And I know that Secretary 
Norton is working hard on expanding or accelerating the 
processing of applications for drilling federal land, so there 
are a lot of things that we can do and we are doing our best to 
try to deal with it and at the same time implementing the 
Energy Bill, which is basically looking for alternative 
sources.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired. Chair recognizes, for brief intervention, 
Chairman Biggert because she has a compelling need to be 
someplace else. She just gave me a little note, she said this 
is the most important hearing so far this year and I agree with 
her, but she's got another commitment that's equally important 
to her personal schedule, not to the Nation. Chairman Biggert.
    Ms. Biggert. Thank you. I think not only the most important 
this year, so far, because I don't think we've had very many or 
any, but I think it is the most important hearing that we're 
going to have this year. I am just so excited about what's 
happened here and how the President's American Competitiveness 
Initiative and the prominent role that DOE's Office of Science 
will play in this visionary initiative and I really think that 
much of this credit for the high priority that this budget 
places on science is due to you, Dr. Bodman.
    It balances researchers and facilities, it capitalizes on 
our investment in user facilities by maximizing their 
operations and it makes strategic investments to maintain U.S. 
dominance in material sciences, nanotechnology, biotechnology 
and high-speed computing and I haven't even mentioned the 
Global Nuclear Energy Partnership, which I strongly support. I 
had to be at another hearing earlier and I asked the questions 
of the new Federal Reserve Chairman Bernanke, who is testifying 
before Congress, it's the first time, and he reiterated the 
importance of R&D to this U.S. economy and U.S. competitiveness 
and he also endorsed one of the key components of the 
President's competitiveness initiatives, namely to make 
permanent the R&D tax credits, so the importance of research--
but all of you have been working so hard on this that I--you 
know, I wish that I had had more time to be here, but I--but 
you know how much I appreciate what all of you have done, and 
Dr. Marburger, with working on this tirelessly, too, but 
Secretary Bodman, you've just, you know, been outstanding, I 
think, where we are really in a new revolution.
    We have moved, you know, agriculture, industrial, 
manufacturing--we are in the high-tech era right now and I 
think--I don't know that we realize the place in history that 
this is going to be and I think we need to continue, you know, 
to develop this initiative and we're, all of us, I think, as 
the Congress, as the Administration, to really fulfill this and 
bring forward a really new economic era that we're going to 
see, so I thank you all for being here.
    Chairman Boehlert. Thank you very much, and I can't help 
but be reminded it was technology and our wise investments that 
drove the dynamic 1990s and we soared to new heights and it's 
going to be technology that guarantees an even more promising 
future. And when I think of a more promising future, I think of 
Mr. Honda. The Chair recognizes you for five minutes, sir.
    Mr. Honda. Thank you, Mr. Chairman, and you're a silver-
tongued devil. You're not a devil. But I'm pleased to be here 
and I also have a couple of questions and quite frankly, I'm 
not as enamored with what I heard from the State of the Union 
because I've been here six years and there's a difference 
between saying something and then following through with 
substantive kinds of programs that they're putting the money 
behind it. I'm reminded of the movie Jerry Maguire, where the 
football player said show me the money and I'm not quite sure 
that the money's going to be coming here. I have a question for 
Dr. Sampson, but a comment to the Secretary--to Secretary 
Bodman, and that's a comment about our inaction between the DOE 
and this committee.
    Ranking Member Gordon submitted a series of questions to 
you in advance of this hearing so that you could be prepared to 
submit answers to those questions at this hearing, but from 
what I've been told, those answers were not available today 
because they're awaiting OMB approval. The problem I have with 
this is that I think I am still waiting for answers to 
questions I submitted at a hearing back in June on 
reprocessing. We only have a little bit of time to ask 
questions verbally, so I'd like a response offline afterwards, 
but it just seems that you won't be answering questions when we 
submit after the hearings and not responding to questions when 
they're submitted before our hearings and so if there's a 
problem with the OMB clearance, how long before the hearing do 
we need to give you questions so that answers can be cleared? 
I'll come back later for that response after this hearing, 
perhaps later.
    Dr. Sampson, it's time for my annual question about 
Advanced Technology Program, ATP. The documents that came with 
the budget say that the program isn't needed ``due to the 
growth of venture capital and other financing sources.'' Red 
Herring magazine published this recently based on data from 
their national venture capital association which has an 
interest in making VCs look good. According to the story, while 
VCs raised a lot more money in 2005, total VC investments only 
went up about two percent in 2005, from 2004. The biggest gains 
went to retailers and consumer services, meanwhile the 
semiconductor, pharmaceuticals, electronics and software all 
secured less funding in 2005 than in 2004, and during 2005, VCs 
cut their seed funding by 54 percent from the 2004 level, from 
$118.3 million down to $54.3 million. Based on the data, how 
can you possibly say that ATP isn't needed because ample VC 
funding is available? It appears that MEP is following the same 
route as ATP as far as our process is concerned and we're all 
concerned about MEP, as we were with ATP, and some comments 
were made about earmarks. It appears to me that ATP's only 
being funded through our good efforts, through our earmark 
process and that's the only way ATP seems to be surviving. So 
I'd like some sort of response to that comment.
    Dr. Sampson. Well, let me respond to the ATP issue, first 
of all, in several ways. First of all, the budget that we 
submitted reflect what we believe are the highest priorities. 
Secondly----
    Mr. Honda. Well, it's been submitted as zero, I believe, if 
I'm not mistaken.
    Dr. Sampson. That's what I'm getting to.
    Mr. Honda. Okay, so it's a high priority and it's--I'm 
sorry, go ahead.
    Dr. Sampson. No. We have redirected that money in what we 
believe to be higher priority areas, which is the core mission 
of National Institute of Standards and Technology, which is 
basic research in the physical sciences and secondly, I think 
that without question, the United States has the most robust 
venture capital market anywhere in the world. The evidence of 
that is clearly demonstrated around the country, whether you're 
going to the 128 Corridor in Boston or Silicon Valley or other 
emerging innovation hotspots around the country and so----
    Mr. Honda. Perhaps you can share your stats with our office 
to substantiate your position because the article that I read 
in the Red Herring magazine has done some research in terms of 
funding, so go ahead. Thank you. If you could produce that.
    Dr. Sampson. We'll be happy to get back with you.
    Mr. Honda. Yes, do you have a timeline for that?
    Dr. Sampson. As soon as our staff can work on it, we'll be 
happy to get back to you.
    Mr. Honda. I've been waiting since June for the questions 
on reprocessing. It's about responsiveness.
    Dr. Sampson. I can't answer that.
    Secretary Bodman. I am very puzzled by that and it will 
have my immediate attention when I get back to the extent that 
you sent a letter several months ago and have not been 
responded to, sir, I am unaware of it and----
    Mr. Honda. Well, the Ranking Member also has done that, 
too, so----
    Secretary Bodman. I know the Ranking Member sent material, 
sent that list of questions in, answers have been prepared, 
they are being processed through OMB and they will be 
forthcoming promptly. I was prepared to deal with his questions 
at this meeting if he wanted to ask questions at this meeting.
    Mr. Honda. I asked because----
    Secretary Bodman. But in terms of your situation, sir, I am 
completely unaware of it and it is exactly the sort of thing 
that I have been working hard to bring a halt to, to the extent 
that these issues existed and I will see to it promptly.
    Mr. Honda. I'd appreciate it.
    Secretary Bodman. You will have an answer, sir.
    Mr. Honda. Thank you very much and please forgive my 
adamancy.
    Secretary Bodman. Perfectly reasonable question.
    Mr. Hall. [Presiding] Thanks, Gentleman. The Chair 
recognizes the gentleman from Minnesota, Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman, and I hope I don't 
take the whole five minutes, but I probably, unfortunately, 
will. First of all, let me apologize on behalf of a lot of my 
colleagues for these earmarks because I do believe that 
frankly, I think they're inappropriate in terms of science and 
research and I am a proud original cosponsor of Representative 
Jeff Flake's bill and hopefully, now more Members will join us 
in that. Let me say, though, on behalf, I think, of the 
overwhelming majority of Members of this committee, for the 
most part, we have avoided the temptations that other 
committees have fallen into in terms of those earmarks.
    What I really want to talk about, though, just briefly with 
you, and I'm delighted, Secretary Bodman, we're delighted to 
have you here to talk a little bit about renewable energy, 
because I think you made a very important point. At $60 a 
barrel, I'm not sure how much we really need to subsidize a lot 
of that. But I want to come back to--one of my favorite 
expressions is that success leaves clues, and I think if 
there's one successful program in terms of advancing research 
that we have seen, at least on this committee and that we've 
worked with, it's one that's run by the Defense Department, 
it's called DARPA, and I'm wondering if any of you and 
particularly, Secretary Bodman, if you want to talk briefly 
about that, how much you know about DARPA and whether or not 
you have considered a similar type program in any of the other 
agencies.
    And the reason I say that is in our work, both on this 
committee and in my work representing the people of southern 
Minnesota, I get to encounter a number of incredibly 
interesting ideas and entrepreneurs, and one of them I actually 
took out to the National Renewable Energy Labs out in Colorado, 
which is a very impressive facility. But on the way back he 
said something rather interesting; he said, you know, actually 
what we're doing right now is probably more advanced than what 
they're doing out in Colorado and I said why is it that it 
seems that private individuals, entrepreneurs and inventors 
seem to be able to move at a faster rate sometimes than the 
federal agencies and he gave a very interesting answer.
    He said because we only eat what we kill, and if you think 
about it, that's why I really want to encourage you all to 
consider looking at that DARPA model because, you know, a few 
dollars invested, relatively small amounts of money invested in 
specialty projects have yielded enormous returns in terms of 
new ideas, new innovations. When you look at the success rate 
of DARPA, I think it's one that deserves to be studied and 
wherever possible, modeled. And Secretary Bodman, if you want 
to respond to that, or anybody else, I'd appreciate it.
    Secretary Bodman. I am very aware of DARPA and its 
predecessor, which was the Office of Naval Research, and that 
goes back to my days as a student, sir, so I am quite aware of 
what they've accomplished. The budget that is before you shows 
sizeable increases in funding for research in the Energy 
Department. I commented earlier, I believe before you arrived, 
that we are thrilled with the proposal that's there and we are 
very hopeful. There are a number of proposals in Congress, some 
of them involving a DARPA-like structure, and my answer on that 
is I am aware of it. We have a lot to do and we have a 14 
percent increase. We have a half billion dollars to put to work 
in the science area. We have a quarter billion dollars to put 
to work in additional funds in the energy area and they had 
been prioritized and we worked on that, and so I'm sure there 
are things that, in the DARPA model that make sense and we 
would be happy to explore that and work with you if that's 
something you're interested in. I just would observe, we have a 
lot to do to take the money that hopefully, will be granted by 
Congress and put it to work effectively. We have a big job and 
I would rather not distract this Department with additional 
priorities, at least right now. Hopefully, after we get this 
started and are more effective in operating in this sort of 
environment, we will be able to be more responsive to your 
suggestions and other suggestions about a DARPA program.
    Mr. Hall. Gentleman's time is expired. The Chair recognizes 
the gentleman from Missouri, Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and I'm glad to see 
us having this discussion here today. This is a big idea and I 
think it's a big deal for our country. We've had great 
bipartisan support with a lot of these initiatives and as they 
say, the old saying, politics makes strange bedfellows, and I'm 
going to talk about Bono and JFK in the same paragraph here, 
now. Bono was here in Washington a few weeks ago and talked 
about the dangers of incrementalism when you have big ideas. I 
think that's important to keep in mind. And you look at the 
example of JFK, and Secretary Bodman, you talked about those 
times when you really created this national challenge for us 
and I think we need to have that same great level of national 
challenge with where we are today.
    But I think this big idea deserves a lot more than fuzzy 
math or counterproductive measures and I'm concerned about if 
we're just cutting science in some areas to fund science in 
other areas, we're really just reshuffling the chairs on the 
Titanic. We deserve better than that. And I want to make a 
point about Congressional earmarks; does anyone on the panel 
think that Congressionally earmarked dollars spends differently 
than an administration budgeted item?
    Dr. Marburger. Yes, I do.
    Mr. Carnahan. I'd be curious to know how.
    Dr. Marburger. Yes, sir. The fact is that the Presidential 
requests are built on proposals from agencies that are 
developed in consultation with external committees of 
scientists and educators and engineers and they are part of a 
coherent plan. In many cases, earmarks are spent on activities 
that lie completely outside coherent plans and not 
infrequently, are completely outside the area of R&D for which 
the agencies are supposed to be responsible.
    So I believe that the best possible way to spend taxpayer 
dollars in research is in consultation with the agencies that 
are responsible for providing oversight and their peer review 
merit based mechanisms. So we would be glad to work with 
Congress to determine mechanisms that would make it possible 
for Congressional concerns to be addressed in the areas of 
research that appear to be needed, but I think this practice of 
earmarking has grown out of control and we're very concerned 
about it.
    Dr. Sampson. With respect to the Commerce Department, the 
majority of our funds and our construction account for the NIST 
laboratories are earmarked funds for activities that are not a 
part of NIST's core mission. All of this, at the time, when our 
lab in Boulder, Colorado--we have Nobel Prize winning 
scientists doing work in labs where they have black plastic 
sheeting covering the roof and cardboard placed on ventilation 
systems to be able to try to control the temperature and the 
moisture in the room. I know Dr. Bodman has been there to see 
those facilities and so I think has Dr. Bement, who--former 
Director of NIST. And so the issue for us is there's money in 
the budget, but can it be spent on the priorities that we have 
to facilitate core basic research?
    Secretary Bodman. One of the big issues in the Energy 
Department is the production of ethanol using various 
biologically-based systems, goes out of the NREL out in 
Colorado and 57 percent of that budget has been earmarked, sir, 
and that has meant that we've had to lay off people at the NREL 
laboratory which we got criticized for and it was a direct 
result of Congressionally mandated programs that were not 
related to that which we wished to do.
    Mr. Carnahan. Well, I would acknowledge that we may have a 
difference in the vetting process, but I think the vast 
majority of earmarks that have come through the Congress have 
been thought out and have been part of an important part of 
what we do here. Finally, I want to close--I talked about some 
counter-productive policies. I'm concerned about the K through 
12 cuts. I'm concerned about the measures that have just passed 
through the Congress that have made historic cuts in the 
student loan programs. We've had several panels of 
distinguished business executives from around the country 
expressing concern about our education policy and I think we 
cannot succeed in this innovation initiative if we don't really 
take a hard look at our education policy in growing those young 
minds to meet the need, otherwise we're going to see the 
scientists and engineers from China and India and around the 
world being used to fill that gap, and I'd like to have some 
comment about that.
    Dr. Marburger. I couldn't agree more. I believe that 
education is absolutely a high priority investment for this 
nation. Quality of teaching, the quality of experience that 
young people have in classroom and the standards to which we 
hold their performance are all important and they are all 
features of the American Competitiveness Initiative that the 
President announced and I hope that in further hearings and as 
people have the opportunity to speak about them, we can learn 
about plans for those areas, but the President is very 
concerned about the quality of education in this country and is 
looking for handles on it and ways to bring about improvements 
that we know are needed for continued American leadership in 
high technology.
    Chairman Boehlert. Thank you. Gentleman's time----
    Mr. Carnahan. Thank you, Mr. Chairman.
    Chairman Boehlert. Gentleman's time has expired. I 
recognize, out of order for one minute, Dr. Ehlers because he 
has something pertinent to the discussion at hand.
    Mr. Ehlers. Thank you, Mr. Chairman. I'm surprised to hear 
earmarks defended twice by the minority party. I want to give 
another example where, in a budget some years ago, because of 
the sorry state of the NIST laboratories in Boulder, we put in 
$40 million to help them prevent rainwater from falling on the 
world's best time standard, for example. Out of that $40 
million, in the Senate, all $40 million was diverted to the 
cause--it's the one that comes to mind immediately, was $10 
million to build a law library in a college in the state from 
which that senator came. No correlation whatsoever with the 
original intent of that money and certainly not of general 
benefit to the Nation, as a whole. And that sort of behavior, 
that sort of process simply has to stop and I agree with the 
panel on that. Thank you very much.
    Mr. Sherman. Mr. Chairman, if I could speak for 30 seconds 
out of turn?
    Chairman Boehlert. All right, fair is fair. The gentleman 
is recognized for up to one minute, equal time.
    Mr. Sherman. Clearly, there have been stupid earmarks or 
earmarks that are outside of good scientific policy, but I 
trust you, gentlemen, there are stupid decisions made by the 
Administration and to hear, in this room, it said that all the 
Administration earmarks made to de-fund this or that policy are 
results of an open process, are part of a logical plan, are 
intelligent decisions make in the interest of the American 
people and that those decisions made by Congress as to how to 
spend money are inherently flawed, not part of an open process, 
is, I think, insulting to the Congress. We make decisions, the 
Administration makes decisions, both make wise decisions, both 
make stupid decisions and to say that when Congress decides 
that a certain amount of money should be spent on a certain 
project, that that is interference, is really a declaration 
that Congress is an annoying interference in the Federal 
Government. I yield back.
    Chairman Boehlert. Thank the gentleman for that 
intervention. Now the Chair is pleased to recognize the 
distinguished gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Well, I will remind my friend from--and 
colleague from Missouri that cutting one program that's already 
in place and transferring the money to another program could 
well be the sign of prioritizing money so that it's going into 
programs that tend to work and out of programs that do not 
work. So it's not necessarily a bad sign that the 
Administration is trying to prioritize the spending that we do 
and transferring some money from programs that may be less 
effective, so that may be a plus. That may be something that 
the Administration's doing that deserves to be applauded and I 
would just like to say that I don't know whose decision making 
is more flawed. I've worked in the Executive Branch and the 
Legislative Branch.
    I will just say that it is clear that there are certain 
political motivations that happen here in Congress that we 
should recognize before we throw rocks at the Administration. 
With that said, earlier on in the hearing we heard about how to 
get bright people, young people involved in science. I don't 
understand why the obvious is not ever mentioned and that is 
pay them more money. Why do people go into law? Because the 
lawyers have all of the fancy sports cars and live in the big 
homes, and if a kid who is very smart has to choose between 
driving in a jalopy and being a Ph.D. in physics versus going 
into law and living in a big mansion and having the good 
looking girlfriend, guess what he's going to choose?
    So with that, that goes all the way back down, by the way, 
to education where we pay physical education instructors the 
same amount of money that we pay people to teach our young 
people science and math and engineering and every study that 
I've seen shows it's between fourth grade and ninth grade where 
we're losing the battle with our young people, yet in those 
middle schools we are unable, due to some political 
considerations, I might add, by some very strong unions, not to 
differentiate in pay between those people who can teach our 
kids the basics of math and science at that level and versus 
paying the same amount of money as you do for history or social 
sciences or physical education or dance class or basket 
weaving. This is ridiculous. So we need some reform in that 
area and making money is also something that will encourage 
people to get into the math and sciences when they're older.
    I mean, we haven't heard anybody talk about royalties from 
patents or the protection of patents or the fact that people 
who are creative, how they get ripped off so often of their own 
creative instincts and their own in creating projects by big 
companies that are able to violate patent rights. Strengthening 
patent rights is a way to make sure America stays ahead and get 
people involved in the sciences. I, for example, believe that 
we should eliminate the taxes, if not, at least have some sort 
of tax advantage for people who are making their income on 
royalties from patents.
    With that said, I would like to make one last point and 
that is--well, first of all, I applaud the Administration for 
making it a scientific and engineering priority for America to 
become energy self-sufficient by 2025. That's a bold, bold 
stroke by the President and I will be anxious--in fact, Dr. 
Marburger, if you'd come in to my office to have a discussion 
on that with some viable technologies right after this hearing, 
but I look forward to working with each and every one of you to 
achieve that goal. But let's make sure, when we talk about 
research, money and research, that we're doing, that when we 
put money in one end of the system that what comes out of the 
other end of the system is something of benefit to the people 
of the United States of America and uplifts the condition of 
humanity.
    I am dismayed, and here again, I'm sorry, Mr. Chairman, 
that I'll have to be the skunk at the lawn party, so to speak, 
again, but I am dismayed to see that we are spending $1.7 
billion on global warming research after billions and billions 
and billions and billions of dollars have already been spent 
trying to promote this idea versus $1.3 billion on 
nanotechnology, which I understand has tremendous potential of 
changing the human condition for the better. Let me note, for 
the record, at this point, Mr. Chairman, I would like to submit 
the names of thousands of scientists and other experts within 
the scientific community who are skeptical of global warming 
and I'd like to place it in the record at this point, in the 
record.
    Chairman Boehlert. Without objection, so ordered.
    [The information follows:]

                        Global Warming Petition

(http://www.oism.org/pproject/s33p37.htm, February 24, 2006)

    We urge the United States Government to reject the global warming 
agreement that was written in Kyoto, Japan in December, 1997, and any 
other similar proposals. The proposed limits on greenhouse gases would 
harm the environment, hinder the advance of science and technology, and 
damage the health and welfare of mankind.
    There is no convincing scientific evidence that human release of 
carbon dioxide, methane, or other greenhouse gasses is causing or will, 
in the foreseeable future, cause catastrophic heating of the Earth's 
atmosphere and disruption of the Earth's climate. Moreover, there is 
substantial scientific evidence that increases in atmospheric carbon 
dioxide produce many beneficial effects upon the natural plant and 
animal environments of the Earth.

2660 Physicists, Geophysicists, Climatologists, Meteorologists, 
                    Oceanographers, and Environmental Scientists 
                    Signers

(http://www.oism.org/pproject/a<INF>-</INF>sci.htm, February 24, 2006)

Category: A
    Philip H Abelson, PhD, Gene Ackerman, Robert K Adair, PhD, John A 
Adam, PhD, Daniel B Adams Jr, Gail D Adams, PhD, Leonard C A Adams, 
PhD, Louis W Adams, PhD, Neil Adams, PhD, William M Adams, PhD, George 
Adcock, Lionel P Adda, PhD, Harry Adrounie, PhD, Stephen Affleck, PhD, 
Phillip Ahlberg, Mark Ahlert, Rafique Ahmed, PhD, S Aisenberg, PhD, 
Edward Albert, James C Albright, PhD, Allwyn Albuquerque, Ernest C 
Alcaraz, PhD, Ronald G Alderfer, PhD, Perry B Alers, PhD, John C 
Alexander, Moorad Alexanian, PhD, Roger C Alig, PhD, Clayton H Allen, 
PhD, David Allen, PhD, James Allen, PhD, Mike R Allen, PhD, Thomas H 
Allen, PhD, William Allen, John J Allport, PhD, Vincent O Altemose, 
Melvyn R Altman, PhD, Edward E Altshuler, PhD, Charles D Amata, PhD, 
Edward J Ames III, Pierre Saiut-Amond, PhD, Arthur G Anderson, PhD, 
Berard J Anderson, PhD, James R Anderson, James R Anderson, Ken 
Anderson, Orson L Anderson, PhD, P Jennings Anderson, Richard A 
Anderson, PhD, Richard C Anderson, Tom Anderson, Douglas Andress, James 
F Andrew, PhD, Bradley C Anthanaitis, PhD, Lee S Anthony, PhD, Lynn 
Apple, PhD, Alan Appleby, PhD, Herbert S Appleman, Morris H Aprison, 
PhD, Richard E Apuzzo Jr, Philip Archibald, Robert Archibald, John 
Archie, William Bryant Ard, PhD, Harold V Argo, PhD, Baxter H 
Armstrong, PhD, Robert Emile Arnal, PhD, Charles Arney, Casper J 
Aronson, Jose J D Arruda, PhD, James Arthur, PhD, Max Artusy, PhD, 
Edward V Ashburn, Randolph Ashby, PhD, Jerome P Ashman, Monroe 
Ashworth, Orv Askeland, Ronald Attig, Leonardo D Attorre, Luther Aull, 
PhD, John B Aultmann Jr, William Avera, Frank Averill, PhD, Kenneth 
Avicola, M Friedman Axler, William Aylor.

Category: B
    Lloyal O Bacon, Adrian D Baer, PhD, Lester Marchant Baggett, PhD, 
Dane E Bailey, Edward J Bair, PhD, Quincey L Baird, PhD, DK Baker, PhD, 
Gary Baker, Lara H Baker, PhD, Randal S Baker, W Loyd Balderson, PhD, W 
Lloyd Balderston, PhD, David Baldwin, Evart Baldwin, PhD, Sallie 
Baliunas, PhD, George Ball, David W Ballard, Glenn A Ballard, Harold N 
Ballard, Arthur Ballato, PhD, Robert Balling, PhD, Tom Ballou Jr, 
Robert C Balsam Jr, Daniel W Bancroft, George P Bancroft, Herman Wm 
Bandel, PhD, Tom Bane, Richard Banks, Peter R Bannister, John Paul 
Barach, PhD, Paul Barbieri, Andrew M Bardos, Steven Bardwell, PhD, 
Robert Barish, PhD, Francis J Barker, Douglas D Barman, Durton B 
Barnes, Christopher M Barrett, James Barrick, PhD, Cory W Barron, 
Lawrence J Barrows, PhD, John Bartel, PhD, Carol J Bartnick, PhD, 
Samuel Batdorf, PhD, James L Bateman, Charles C Bates, PhD, Charles C 
Bates, PhD, Earl Bates, Terry E Batlalino, Kevin Batt, Kirk Battleson, 
PhD, Michael H Bauer Jr, Norman P Baumann, PhD, Max Baumeister, A Z 
Baumgartner, Eric Baumgartner, John G Bayless, Jack W Beal, PhD, Edward 
W Beall, James M Beall, Terry W. Beall, Donald Beasley, PhD, William 
Beaton, Richard Becherer, PhD, Donald Beck, Gordon E Becker, PhD, 
Milton Becker, PhD, Kenneth L Bedford, PhD, Brian Beecken, PhD, Kenneth 
Beeney, Edward Lee Beeson, Jr, PhD, Herbert Ernest Behrens, James M 
Bell, John Bell, PhD, John C Bellamy, PhD, Thomas E Bellinger, Randy 
Belstad, Rettig Benedict, PhD, Ray Benge, James A Benjamin, PhD, 
Charles Bennett, Alvin K Benson, PhD, John A Berberet, PhD, Jay M 
Berger, PhD, Lev Berger, PhD, Ernest Bergman, Dick Bergren, PhD, Mike 
Bergsmg, Robt Beringer, PhD, Brian Berman, Marshall Berman, PhD, Andre 
Bernier, Warren W Berning, Edwin Berry, PhD, Edwin Berry, PhD, Herbert 
W Berry, PhD, John R Berryhill, PhD, Robert Bessette, Albert J Bevolo, 
PhD, John H Beyer, PhD, Swapan Bhattacharjee, PhD, Kenneth L Del 
Bianco, Conrad Biber, PhD, Hans Bichsel, PhD, William S Bickel, PhD, 
Karin Bickford, Jean M Bidlace, PhD, Charles Bieber, J Bierman, Doug N 
Biewitt, Rodney E Bigler, PhD, John D Shaylor-Billings, George E 
Billman, PhD, Billones, D G Bills, PhD, Edward G Bilpuch, PhD, Charles 
F Bird, E F Birdsall, PhD, Seymour Bristein, Burt J Bittner, Sammy M 
Black, Lloyd Blackburn, M L Blackwell, Bruce A Blake, George R Blake, 
PhD, Philip J Blank, PhD, Barbara Blass, PhD, Joel J Blatt, PhD, Henry 
H Blau, PhD, Stephen Blaylock, Carl Bleil, PhD, John Blethen, PhD, 
James W Blue, PhD, M D Blue, PhD, G Bluzas, G W Elvernum, Frank T 
Bodurtha, PhD, Hollis Boehme, PhD, Steven A Boggs, PhD, Kees Boi, PhD, 
Art F Boland, M S Boley, PhD, Mark S Boley, Gerald L Bolingbroke, PhD, 
Eugene Bollay, Bruce Bollermann, J R Bone, John Franklin Bonner, PhD, 
Jane M Booker, PhD, Bruce L Booth, PhD, Robt M Booth, John W Boring, 
PhD, Annette H Borkowski, Harold J Born, PhD, Paul N Bossart, John N 
Botkin, CJF Bottcher, PhD, Robert H Bourke, PhD, Mohamed Boutjdir, PhD, 
Joseph C Bowe, PhD, Robert C Bowers, Sidney A Bowhill, PhD, Robert M 
Bowie, PhD, Norman Bowne, Colin Bowness, PhD, David Boyce, Wilson E 
Boyce, Robert Boyd III, Robert A Boyer, PhD, David Brackney, Dorothy L 
Bradbury, Joseph U Braddock, PhD, Alan D Brailsford, PhD, Eric M Bram, 
Emanuel L Brancato, Ross E Brannian, James P Brazel, Theodore Breaux, 
Reginald Breeding, Bertram V Breemen, Sydney Breese, Martin Bregman, 
PhD, Brian O Brien, Corale L Brierley, PhD, Edwin C Brinker, Sue 
Broadston, George Brock, Ivor Brodie, PhD, David A Bromley, PhD, John 
Bronstein, PhD, Mark Bronston, PhD, Walter Brouillette, PhD, J Brower, 
Glenn Brown, PhD, Hal W Brown, J Paul Brown, Jerry W Brown, PhD, John 
Brown, John M Brown, PhD, Raymond E Brown, Walter R J Brown, Cornelius 
P Browne, PhD, D Brownell, Charles R Bruce, PhD, George H Bruce, Robert 
Brueck, Col Wm Bruenner, John Bruno, PhD, David A Bryan, PhD, Howard 
Bryan, Barry W Bryant, PhD, Charles Bryson, John Buckinger, Gary L 
Buckwalter, PhD, J Fred Bucy, PhD, Wallace D Budge, PhD, Brent J 
Buescher, PhD, Charles R Buffler, PhD, William Bullis, PhD, Stephen 
Bundy, Merle Bunker, PhD, James H Burbo, Donald F Burchfield, PhD, 
Brian Burges, John C Burgeson, Edward W Burke, PhD, Ned Burleson, PhD, 
Victor W Burns, PhD, Joe Burroughs, William Burrows, PhD, Philip B 
Burt, PhD, James Robert Burwell, PhD, Richard S Burwen, Gary D Buser, 
Robert Bushnell, PhD, Robert Busing, Duane J Buss, PhD, Stanley E Buss, 
Scott E Butler, PhD, P Edward Byerly, PhD, William M. Byrne, PhD.

Category: C
    Fernando Cadena, PhD, C Cadenhead, PhD, Anthony P Cadrioli, Dennis 
Cahill, Stephen R Cain, PhD, Richard E Cale, Dixon Callihan, PhD, 
Christopher P Cameron, PhD, John R Cameron, PhD, Nicholas A Campagna, 
Jr, John S Campbell, Robert E Campbell, Antonio M Campero, PhD, 
Frederick P Carlson, PhD, Garry Carlson, George Carlson, PhD, J David 
Carlson, PhD, Arthur Carpenito, Arthur Carpenito, Benjamin H Carpenter, 
PhD, Bruce N Carpenter, Jack W Carpenter, PhD, Jerome B Carr, PhD, 
Lester E Carr III, PhD, Edward Carriere, PhD, Marshall F Cartledge, 
Louis M Caruana, John G Carver, PhD, Charles Case, Phillip M Caserotti, 
Edward Cassidy, John G Castle, PhD, Dominic Anthony Cataldo, PhD, Frank 
P Catena, Jim Caton, David Cattell, PhD, Chaels Causey, Michael 
Cavanaugh, Carl N Cederstrand, PhD, Chris Cellucci, PhD, John F. 
Chadbourne, PhD, Charles Chamberlain, PhD, Samuel Z Chamberlain, Paul 
Chamberlin, Charles M Chambers, PhD, Kenneth Champion, PhD, Chun K 
Chan, PhD, Ronald R Chance, PhD, Charles H Chandler, Berken Chang, PhD, 
Stanley Changnon, Jr, Daniel W Chapman, Stanley Charap, PhD, Paul S 
Check, Kun Hua Chen, PhD, Genady Cherepanov, PhD, Jimmie L Cherry, PhD, 
Benjamin F Cheydleur, Hong Chin, PhD, Craig Chismarick, Edward 
Choulnard, PhD, Tai-Low Chow, PhD, Robt L Christensen, PhD, Ron V 
Christensen, Donald O Christy, PhD, Ryan A Chrysler, Eugene L Church, 
PhD, Steven R Church, PhD, Petr Chylek, PhD, Deborah M Ciombor, PhD, A 
Cisar, Richard Clapp, Bill P Clark, PhD, Donald L Clark, PhD, Grady 
Clark, PhD, John Clark, Kimball Clark, PhD, Richard A Clark, Richard T 
Clark, James R Clarke, John Clarke, Calvin Miller Class, PhD, John F 
Clauser, PhD, John W Clayton, PhD, Stan G Clayton, John C Clegg, PhD, 
Thomas L Cloer Jr, Todd Cloninger, David M Close, PhD, Ray William 
Clough, PhD, Michael R Clover, PhD, Howard Cobb, Fritz Coester, PhD, 
Michael Coffey, Allen Cogbill, PhD, Theodore Cogut, Allan H Cohen, PhD, 
Arnold Cohen, PhD, Howard J Cohen, PhD, Richard M Cohen, PhD, Charles 
Erwin Cohn, PhD, Stefan Colban, Lawrence E Coldren, Christopher J Cole, 
George R Cole, PhD, Henry B Cole, Lee A Cole, PhD, Stephen Cole, PhD, 
Forrest Donald Colegrove, PhD, Anthony J Colella, Roberto Colella, PhD, 
Paul Coleman, PhD, Jeffrey M Collar, Clifford B Collins, Dennis 
Collins, PhD, Edward Collins, PhD, Gary Collins, PhD, George Collins, 
Stephen L Collins, Don J Colton, Robert Comizzoli, PhD, George T Condo, 
PhD, John P Conigilo, Martin E Coniglio, Ralph D. Conlon, James R 
Connell, John J Connelly, PhD, T Donnelly, PhD, John I Connolly Jr, 
PhD, Douglas H Cook, James H Cook, Karl Cook, Mr Vernon O Cook, Thomas 
B Cook Jr, PhD, David Coolbaugh, PhD, Gordon Cooper, PhD, John C 
Cooper, Max E Cooper, Raymond Cooper, PhD, David F Cope, PhD, Wm S 
Corak, PhD, M Yavuz Corapcioglu, PhD, Eugene F Corcoran, PhD, Francis M 
Cordell, PhD, Patrick Core, John S Cornett, Robert L Corey, PhD, Henry 
E Corke, PhD, John Cornell, S D Cornell, PhD, John S Cornett, Charles E 
Corry, PhD, Michael Coryn, Nationwide Envro Svcs, Rebecca B Costello, 
PhD, John Costlow, PhD, William R Cotton, PhD, Marcus L Countiss, 
Arnold Court, PhD, Arnold Court, PhD, Francis E Courtney, Jr, Carl 
Cowan, John D Cowlishaw, PhD, Jack D Cox, Morgan Cox, Robert P Cox, 
Aaron S Coyan, Cecil I Craft, Kenneth B Craib, James Craig, PhD, John A 
Cramer, PhD, Walter Crandall, PhD, Robt S Craxton, PhD, Valerie Voss 
Crenshaw, Kenneth S Cressman, John Edwin Crew, PhD, Gregory A Crews, 
Robert W Cribbs, Peter A Crisi, Thomas B Criss, PhD, George T Croft, 
PhD, Donald C Cronemeyer, PhD, Kevin P Cross, Stephen Crouse, Michael 
Cruickshank, PhD, Duane Crum, PhD, Glenn H Crumb, PhD, Gabriel T 
Csanady, PhD, Alan L Csontos, Jerry F Cuderman, PhD, Donald Cudmore, 
Walter Cunningham, PhD, John T Curran, Bendit Cushman-Roisin, PhD, 
Leonard Cutler, PhD, Jerry Cuttler, PhD, George B Cvijanovich, PhD, 
Burt L St Cyr, Walter J Czagas, Rita Czek.

Category: D
    John Dabbs, PhD, George C Dacey, PhD, Calvin Daetwyler, PhD, W V 
Dailey, James T Dakin, PhD, Snezana Kili-Dalafave, PhD, Anthony A Dale, 
George F Dalrymple, Michael Daly, Richard Aasen Damerow, PhD, Dwight H 
Damon, PhD, Jerome Samuel Danburg, PhD, Richard M Dangelo, Charles D 
Daniel, PhD, Anders P Daniels, PhD, Fred Darady, Rodney C Darrah, 
Michael J Darre, PhD, Edward Daskam, Clarence T Daub, PhD, Don 
Davidson, James M Davidson, PhD, Chad Davies, PhD, Edward J Davies, 
PhD, Emlyn B Davies, PhD, Frank W Davies, Brian D Davis, D K Davis, 
Dana E Davis, Dick Davis, PhD, Francis Davis, PhD, Fred Davis, Jesse L 
Davis, M Davis, PhD, Wm R Davis, PhD, HR Dawson, PhD, Tom Dawson, Duke 
Dayton, David Deacon, PhD, Robert E Dean, William D Dean, Bobby C 
Deaton, PhD, B D Debaryshe, Peter Debrunner, PhD, Robert J Debs, PhD, 
Arthuir J Decker, PhD, Fred W Decker, PhD, Fred W Decker, PhD, William 
M Decker, W Edward Deeds, PhD, Erwin Delano, PhD, J M Delano, J W 
Delano, PhD, David C Demartini, PhD, Gerald Demers, Louis J Denes, PhD, 
David R Denley, PhD, Warren W Denner, PhD, William J Denney, Ronald W 
Dennison, Wm Davis Derbyshire, PhD, David Derenzo, Dimitris Dermatas, 
PhD, Larry Derscheid, Don Desborough, Armand Desmarais, Herbert C 
Dessaver, PhD, William Devereux, Roland Dewit, PhD, F D Dexter, 
Franklin D Dexter, Seshasayi Dharmavaram, PhD, Paul J Dial, Rudolph 
John Dichtl, Charles Edward Dickerman, PhD, Lee G Dickinson, John 
Dickmann, Howard Dickson, Robert B Dillaway, PhD, Malcolm Dillon, 
Michael Dion, Eugene Dirk, PhD, James Disiena, H Marshall Dixon, PhD, 
Richard W Dixon, PhD, Ross J Dixon, Marvin Dodge, PhD, Edward M 
Dokoozian, PhD, Richard Dolecek, Edward E O Donnell, PhD, Mark C 
Dooley, Robt F Doolittle, PhD, Billie Dopstauf, Jerome P Dorlac, Robert 
W Doty, PhD, Roark Doubt, Lawrence G Doucet, Rae Dougherty, Hugh 
Douglas, Haninia Dover, Edward J Dowdy, PhD, Thomas J Dowling, James A 
Downey III, Doxtader, PhD, Arthur E Drake, PhD, James F Drake, PhD, 
Frank E Driggers, PhD, Raymond L Driscoll, Richard Drisko, PhD, Earl G 
Droessler, Murray Dryer, PhD, James L Dubard, PhD, Roy Dudman, Roy 
Dudman, Michael S Duesbery, PhD, William T Duffy, PhD, Taylor Duke, 
Herbert M Dumas, Henry F Dunlap, PhD, George Dunnavan, John Ray 
Dunning, PhD, Kenneth L Dunning, PhD, Wm N Durand, James A Durr, 
Chizuko M Dutta, PhD, David L Dye, PhD, Steven Dyer.

Category: E
    Dr Joe R Eagleman, PhD, Joe R Eagleman, PhD, Michael T Eckert, Lee 
W Eddington, Lee W Eddington, George R Edlin, PhD, Ronald K Edquist, 
President, David F Edwards, PhD, Eugene H Edwards, PhD, Maurice Egan, 
PhD, Jason Egelston, Kenneth W Ehlers, PhD, Walter Eich, Val L 
Eichenlaub, PhD, Peter M Eick, Thomas Eliaren Jr, Luis R Elias, PhD, 
Rush E Elkins, PhD, M Edmund Ellion, PhD, Bruce Elliott, PhD, Robert D 
Elliott, Rodger L Elliott, David Ellis, Paul J Ellis, PhD, Hugh W 
Ellsaesser, PhD, George F Emch, George Emerle, Louis Emery, PhD, Amsrl-
Is-Ew, Charles E Engelke, PhD, Raymond Engelke, PhD, Robert W English, 
David Engwall, PhD, Gerard Enigk, John W Enz, PhD, Gilbert K Eppich, 
Jeffrey F Eppink, Seymour Epstein, PhD, Robert D Erhardt Jr, Harold P 
Erickson, PhD, Richard Erickson, PhD, Paul Erlandson, PhD, James L 
Erskine, PhD, Brenda Eskelson, Terry Ess, Edward R Estes, Albert Edwin 
Evans, PhD, James A Evans, Leonard Evans, PhD, Ralph A Evans, PhD, A 
Gordon Everett, PhD.

Category: F
    Gary A Fahl, Michael Fairbourne, John B Fallon, Anthony L Farinola, 
Bruce Farlwald, W Michael Farmer, PhD, David Farrell, PhD, Robert P 
Farrell, Thomas Farrior, Geo Farwell, PhD, Anthony J Favale, Felix 
Favorite, PhD, Sherwood Fawcett, PhD, Gene R Feaster, PhD, J D 
Feichtner, PhD, J Roberto Feige, David M Feit, Hank Feldstein, PhD, 
William J Felmlee, Charles M Ferrell, Craig Ferris, Terence M Filiplak, 
R D Finch, PhD, Martin Finerty Jr, James Fink, PhD, Joanne K Fink, PhD, 
Reinald G Finke, PhD, Melvin Wm First, PhD, David Fischel, PhD, Ferol F 
Fish, PhD, Ed Fisher, John Fisher, PhD, Philip C Fisher, PhD, William 
Gary Fisher, Richard A Fitch, Wade Fite, PhD, J Ed Fitzgerald, PhD, 
Donna Fitzpatrick, Hugh M Fitzpatrick, Robert F Flagg, PhD, Robert 
Flicker, James L Flocik, Lowell R Flud, Anthony H Foderaro, PhD, Gary R 
Foerster, Timothy Fohl, PhD, Martin M Fontenot, Robert Foote, Dale 
Force, James L Fordham, Samuel W Fordyce, Irving S Foster, PhD, J S 
Foster, Robt John Foster, PhD, Doyle F Fouquet, Louis H Fowler, Grant R 
Fowles, PhD, Corri Fox, David Wm Fox, PhD, Russell E Fox, PhD, David 
Fraley, PhD, Allan J Frank, Marchall E Frazer, PhD, James Frazier, 
Bernard A Free, Wallace L Freeman, PhD, Stephen M Fremgen, William S 
French, PhD, Frey, Edwin F Fricke, PhD, Gerald M Friedman, PhD, Herbert 
Friedman, PhD, Joel Friedman, Friess, Gerald E Fritts, Eugene Frowe, S 
W Fruehling, David H Fruhling, Charles Frye, Robert Fugrer, Norihiko 
Fukuta, PhD, Charles Fuller, Joe Fulton, Harold Fuquay, Joseph T Furey, 
Thomas C Furnas Jr, PhD, Nelson Fuson, PhD, Floyd Fusselman.

Category: G
    Steven A Gaal, PhD, F Gabbard, PhD, L H Gabro, Gaffney, Richard 
Gaggioli, PhD, George Gal, PhD, Eugene Galanter, PhD, Frank P Gallagher 
III, Jack Gallagher, PhD, Paul Galli Jr, Charles Gallina, PhD, Charles 
Gallina, PhD, William A Gallus, Jr, PhD, Perry S Ganas, PhD, A K 
Ganguly, PhD, Carl Ganseivity, Floyd Wayne Garber, PhD, S Paul Garber, 
Edward E Gardner, PhD, Hessle F Garner, PhD, Jay M Garner, Alfred J 
Garrett, PhD, John C Garth, PhD, Jerrie W Gasch, Robert S Gaston, G R 
Gathers, PhD, Thomas Gatliffe, William E Gee, D A Gedcke, PhD, Elton W 
Geist, Charles Gelwall, Gary Gerardi, PhD, George S Gerlach, Ulrich H 
Gerlach, PhD, Robert L Geyer, PhD, L H Giacoletto, PhD, Umberto 
Gianola, PhD, Gordon Gibb, Lee Gibson, PhD, Peter F Giddings, W Allen 
Gilchrist, PhD, Claude M Gillespie, PhD, Bruce B Gillies, George T 
Gillies, PhD, William Gilmore Jr, H Scott Gingrich, Helen Ginzburg, 
James Given, Peter Glanz, PhD, Peter K Glanz, PhD, Jerome E Glass, 
Thomas A Gleeson, PhD, Thomas A Gleeson, PhD, Dale P Glover, Robert 
Glover, Will E Godbey, Terry L Godsey, David J Goerz, Malcolm Goldberg, 
PhD, Malcom Golderberg, PhD, Ronald B Goldfarb, PhD, Bruce Goldman, 
John P Goldsborough, PhD, Norman E Goldstein, PhD, Walter J 
Goldsworthy, Mark J Golol, William R Gommel, PhD, John R Gonano, PhD, 
Michel Gondouin, PhD, John B Goodenou, PhD, David Goodenough, PhD, Kent 
J Goodloe, Clifford Gordon, James W Gordon, PhD, Robert Gordon, Wilbur 
H Goss, PhD, Henry Gotsch, Gordon Gould, PhD, Robt G Gould, PhD, Robert 
G Graf, Leroy D Graff, Howard E Graham, Lewis O Grant, Lawrence 
Grauvogel, Joe C Gray, Kevin J Gray, PhD, Robert C Gray, Thoams Gray, 
Michael Grecco, Joseph Matthew Green, PhD, David Greene, Donald M 
Greene, PhD, Miles Greenland, Reynold Greenstone, Anton Greenwald, PhD, 
Gregory Greer, Howard Greger, David T Gregorich, PhD, J R Greig, PhD, 
Paul Greiman, Daniel Grieser, Doreen Grieve, J Tyler Griffin, J Tyler 
Griffin, James Edward Griffin, PhD, M Griffin, PhD, Brandon Griffith, 
Richard T Grinstead, B F Grossling, PhD, D J Grove, PhD, John C Grover, 
Timothy R Groves, PhD, William Groves, Richard Grow, PhD, Johathan R 
Gruchala, Mike Gruntman, PhD, Richard A Gudmundsen, PhD, Gareth E 
Guest, PhD, Thomas F Guetzloff, PhD, Peter H Guldberg, Peter H 
Guldberg, Guldenzopf, PhD, Charles W Gullikson, PhD, Darryl E 
Gunderson, Richard Gundry, Raj K Gupta, PhD, Philip F Gustafson, PhD, 
William Gustin, Donald T Guthrie, Steven L Gutsche, Jeng Yih Guu, PhD, 
Frank Guy, PhD.

Category: H
    Gottfried Haacke, PhD, Benjamin C Hablutzel, George Hacken, PhD, 
Glenn A Hackwell, PhD, Lawrence Hadley, PhD, Frank A Hadsell, PhD, 
Jeffrey Haebrlin, Anton F Haffer, Erich Hafner, PhD, G Richard Hagee, 
PhD, Arno K Hagenlocher, PhD, Ismail B Haggag, PhD, Chuck R Haggett, 
Douglas C Hahn, John A Haiko, Mary Hakim, M H Halderson, Francis A 
Hale, R A Haley, R W Hall, Jr, PhD, Robert Halladay, Martin B Halpern, 
PhD, Matthew M Hammer, Scott E Hampel, Howard W Hanawalt, Lawrence 
Handley, PhD, Arthur L Handman, Sultan Haneed, PhD, N Bruce Hanes, PhD, 
David Haney, Sunil Hangal, PhD, William Hankins, Arthur D Hanna, PhD, 
Jeff Hanna, RW Hannemann, Martin Hanninen, Edward Hanrahan, PhD, E M 
Hansen, Robert C Hansen, PhD, Charles Hantzis, William Happer, PhD, 
Michael P Harasym, Allan W Harbaugh, PhD, John H Harble, Harry C 
Hardee, PhD, Harold C Harder, PhD, Clyde Hardin, James L Harding, PhD, 
Mary K Harding, Thomas Harding, Thomas W Harding, PhD, Wm Harding, PhD, 
Elwood Hardman, Henry R Hardy, PhD, Robert E Hardy, Mark Harjes, Eric A 
Harms, Lynn Harper, David Harriman, Franklin S Harris Jr, PhD, Richard 
A Harris, PhD, S P Harris, PhD, Marvin Harrison, James Hart, Robert D 
Hart, M Hartman, Peter Hartwick, Kenneth C Harvey, PhD, John A Hasdal, 
PhD, Neal Haskell, PhD, Jill Hasling, Floyd N Hasselrlis, Turner E 
Hasty, PhD, Ronald R Hatch, Larry Hatcher, Eric W Hatfield, Peter 
Hatgelakas, J Hauger, PhD, Henry Haughey, Ken Haught, PhD, Arthur 
Hausman, Peter Havanac, K Havenor, PhD, William Havens, PhD, Kerry M 
Hawkins, Robert Hawkins, PhD, William K Hawkins, Howard Hayden, PhD, 
Dennis Hayes, PhD, James L Hayes, Carl H Hayn, PhD, George L Hazelton, 
R N Hazelwood, PhD, William G Hazen, Harold E Headlee, G Herbert, David 
R Hedin, PhD, Todd Hedlund, Harold G Hedrick, PhD, John Hefti, Walter 
Heinrichs, William D Heinze, PhD, William D Heise, Thomas Helbing, 
Cecil Helfgott, PhD, Marvin W Heller, PhD, Carl Helmick, Ron Helms, 
Philip Hemmig, J Hemstreet, PhD, Dale Henderson, PhD, Gerald J 
Henderson, PhD, Richard G Hendl, PhD, John B Hendricks, PhD, Tom A 
Hendrickson, PhD, Raymond Henkel, PhD, Joseph Hennessey, Gregory W 
Henry, Malcolm Hepworth, PhD, John A Herb, PhD, Donlad Herlew Jr, PhD, 
Roger M Herman, PhD, Don Herriott, Tom R Herrmann, PhD, George 
Herzlinger, PhD, Cynthia Hess, PhD, George B Hess, PhD, Karl Hess, PhD, 
Ralph A Hewes, PhD, Frederick Hewitt, PhD, Paul G Hewitt, Walter 
Hickox, Joseph H Higginbotham, PhD, Archie C Hill, PhD, Harvey F Hill, 
J C Hill, PhD, Robert D Hill, PhD, Richard Hillger, PhD, Hilton F 
Hinderliter, PhD, Robert Hirsch, PhD, Sol Hirsch, Donald A Hirst, PhD, 
Mark Hladik, Wai Ching Ho, PhD, James L Hobart, PhD, George Hobbs, Lon 
Hocker, PhD, Sidney E Hodges, PhD, Gus L Hoehn, PhD, William B Hoeing, 
C S Hoff, Thomas E Hoffer, PhD, John R Hoffman, PhD, Marvin Morrison 
Hoffman, PhD, C Lester Hogan, PhD, David C Hogg, PhD, LE Hoisington, 
PhD, David A Holcomb, Richard Holcombe, J Keen Holland, Richard 
Holland, Kenneth Hollenbaugh, PhD, Charles L Hollenbeck, William A 
Hollerman, John T Holloway, PhD, Russell Holman, Johnny B Holmes, PhD, 
Edmond W Holroyd, PhD, Lowell H Holway, PhD, George Holzman, PhD, 
Philip E Hoover, Richard Hoover, Francis J Hopcroft, George William 
Hopkins, PhD, Terry Horn, John Horrenstine, Doc Horsley, PhD, William 
Horvath, PhD, James Hosgood, Charles R Hosler, Richard F Houde, House, 
Robert M House, Michael S Howard, PhD, Charles D Hoyle, PhD, Jam Hrabe, 
PhD, Bradford Hubbard, Harmon W Hubbard, PhD, Wilbert H Hubin, PhD, 
Colin Hudson, PhD, Brad Huffines, Woodie D Huffman, James W Hugg, PhD, 
John Hulm, PhD, John L Hult, PhD, Brian Humphrey, William E Humphrey, 
PhD, Robert D Hunsucker, PhD, Hubert B Hunt, J E Von Husen, John L 
Hubisz, PhD, Frank Hussey, Vivian K Hussey, Jerome G Hust, John F 
Hutzenlaub, PhD, Alan W Hyatt, PhD, Eric Hyatt, PhD, James M Hylko, 
Steven J Hynek.

Category: I
    Rodney D Ice, PhD, Sherwood B Idso, PhD, Alex Ignatiev, PhD, Walter 
L Imm, Anton L Inderbitzen, PhD, Karl Ingard, PhD, J Charles Ingraham, 
PhD, Mitio Indkuti, PhD, Ronald H Isaac, PhD, Donald G Iselin, A Z 
Ismail, PhD.

Category: J
    Bruce Jackson, Julius A Jackson Jr, K A Jackson, PhD, Warren 
Jackson, PhD, Bruce Jacobs, Jimmy J Jacobson, PhD, Holger M Jaenisch, 
PhD, Sherwin W Jamison, Kenneth S Jancaitis, PhD, Cole Janick, Norman 
Janke, PhD, Paul R Jann, John Jaquess, Fred Jarka, Robert Jastrow, PhD, 
John A Jaszczak, PhD, Seymour Jaye, Robert Jeanmaire, Keith Bartlett 
Jefferts, PhD, Thomas T Jeffries III, Jack D Jenkins, Vincent F 
Jennemann, PhD, Paul A Jennings, PhD, Clayton E Jensen, PhD, L Carl 
Jensen, Paul Edward T Jensen, Denzel Jenson, Robert Johannes, PhD, Emil 
S Johansen, Anthony Johnson, Anthony O Johnson, Arlo F Johnson, PhD, 
Charles M Johnson, PhD, Dale Johnson, Duane P Johnson, PhD, Gerald 
Johnson, PhD, Horace Johnson, PhD, James R Johnson, PhD, Jeffrey 
Johnson, L R Johnson, Laurence N Johnson, Leo F Johnson, PhD, Robert 
Johnson, PhD, Robt L Johnson, PhD, Ronald Gene Johnson, PhD, Walter E 
Johnson, Wendell Johnson, William P Johnson, David Johnston, Charles 
Jones, PhD, H M Jones, PhD, Kay H Jones, PhD, Merrell R Jones, PhD, 
Mitchell Jones, Ray P Jones, Larry Josbeno, Daniel Juliano, PhD.

Category: K
    Morton T Kagan, PhD, Jon P Kahler, David A Kallin, Kamal, PhD, W 
Kane, PhD, Arthur R Kantrowitz, PhD, Bennett Kapp, PhD, Gabor Karadi, 
PhD, Francis W Karasek, PhD, W Bradford Karcher, Munawar Karim, PhD, 
James Karom Jr, Thomas W Karras, PhD, Ira Katz, PhD, Yale H Katz, David 
Kay, PhD, Marvin D Kays, PhD, Michael Keables, PhD, Philip D Kearney, 
PhD, Horst H Kedesdy, PhD, Richard A Keen, PhD, Ralph O Kehle, PhD, 
John E Keim, PhD, Karl Keim, D Steven Keller, PhD, Charles T Kelley, 
PhD, Fenton Crosland Kelley, PhD, Patrick R Kelly, Paul Kelly, Ronald G 
Kelsey, Mike Kendall, Robert C Kendall, Peter H Kendrick, Dallas C 
Kennedy II, PhD, Howard V Kennedy, PhD, J M Kennel, PhD, A R Kenny, 
Josef Kercso, Clifford D Kern, PhD, Quentin A Kerns, John Charles 
Kershenstein, PhD, Clement J Kevane, PhD, Elbert R Key, Frank Key, 
Riley Kiminer, PhD, J S King, PhD, P I Kingsbury, PhD, Tommy C 
Kinnaird, John J R Kinney, Gerald Lee Kinnison, PhD, Timothy P Kinsley, 
Roy H Kinslow, PhD, Thyl E Kint, Peter Kirwin, Hugh Kissell, Thomas A 
Kitchens, PhD, Terence M Kite, PhD, Geo S Klaiber, PhD, L T Klauder Jr, 
PhD, Klaus, PhD, Williad Kleckner, PhD, Thomas Klein, Paul G Klemens, 
PhD, Kenneth F Klenk, PhD, Edwin Kiingman, D A Klip, PhD, Duane V 
Kniebes, John Knight, PhD, Knightes, PhD, Richard H Knipe, PhD, David 
Knoble, PhD, Mark Knoderer, Mark Knoderer, James S Koehler, PhD, Robert 
A Kohl, PhD, Joshua O Kolawole, PhD, William Koldwyn, PhD, Lee R 
Koller, PhD, Kenneth K Konrad, Christopher Konz, Robert P Koob, PhD, 
Kevin D Kooistra, Jack I Kornfield, PhD, Theresa M Koscny, Fleetwood 
Koutz, PhD, William P Kovacik, PhD, Robert W Koza, Gregory A Kozera, 
Geoffrey A Krafft, PhD, Paul Krail, PhD, Roman J Kramarsic, PhD, Gary 
Kramer, PhD, George G Krapfel, Howard R Kratz, PhD, Lawrence C Kravitz, 
PhD, Robert F Kraye, William Kreiss, PhD, Richard Kremer, PhD, Peter A 
Krenkel, PhD, Warren C Kreye, PhD, Robt E Kribal, PhD, Jacqueline Krim, 
PhD, James G Krist, Louis G Kristjanson, Paul H Kronfield, Peter G 
Krueger, PhD, Paul Kubicek, Moyses Kuchnir, PhD, Antonin Kudrna, Peter 
Kuhn, PhD, Carl Kuhnen Jr, Matthew H Kulawiec, Andrew Kulchar, Gordon 
Kuntz, PhD, Edward Kurdziel, Chris E Kuyatt, PhD, Tung-Sing Kwong.

Category: L
    Kenneth M Labas, Melvin Labitt, Paul Lacelle, MD, PhD, John J Lacey 
Jr, James Lafervers, PhD, John M Lafferty Jr, Eugene C Laford, PhD, 
Milton Laikin, William Laing, George W Lambroff, Robert G Lamontagne, 
PhD, Robert G Lamontagne, PhD, G D Lancaster, Paul Lancaster, H D 
Landahl, PhD, Richard L Lander, PhD, Arthur Lange, Robert C Langley, 
George Laperle, Gerald J Lapeyre, PhD, Vince Lara, James G Lareau, 
Ernest T Larson, Mark Larson, Reginald E Larson, Robert Larson, PhD, 
Stanley Laster, PhD, Mike Lauriente, PhD, Jerome Lavine, PhD, Albert G 
Iles Law, PhD, Joel S Lawson, PhD, Kent Lawson, PhD, John F Lawyer, 
Thomas W Layton, PhD, Paul D Lazay, MD, PhD, Susanne M Lea, PhD, 
Richard Leamer, PhD, Charles W Lear, Albert O Learned, Jozef Lebiedzik, 
PhD, Lynn L Leblanc, PhD, Jean-Pierre Leburton, PhD, Charles E Lee, J T 
Lee, Paul Lee, PhD, H William Leech, PhD, Gail Legate, Mark R Legg, 
PhD, Donald R Lehman, PhD, Troy Leingany, Eric E Lemke, Terry L Lemley, 
PhD, Leslie R Lemon, Andrew Lenard, PhD, Roger X Lenard, Roland E 
Lentz, Stephen K Lentz, John F Lescher, James D Lesikar, PhD, James 
Lessman, Nelson J Letourneau, PhD, Michael A Leuck, H A Leupold, PhD, 
Walter Frederick Leverton, PhD, Gilbert Levin, PhD, Stewart Levin, PhD, 
Arnold D Levine, PhD, Catherine Lewis, PhD, George R Lewis, Richard C 
Lewis, Huilin Li, PhD, James J Licari, PhD, T Lick, PhD, James A 
Liggett', PhD, Peter Liley, PhD, Jay Lilley, Jay Lindholm, Ralph 
Linsker, MD, PhD, Clarence D Lipscombe III, PhD, Chian Liu, PhD, W M 
Liu, PhD, Robert S Livingston, PhD, Thomas J Lockhart, Jaques Loes, H 
William Lollar, Julian H Lombard, PhD, G Lombardi, PhD, Leonard 
Lombardi, PhD, Bryan H Long, James A Long, James D Long, David 
Longinotti, H Jerry Longley, PhD, Wm Longley Jr, PhD, Ronald Lorenz, 
Monty Losee, Stuart Loucks, L Richard Louden, PhD, Robert I Louttit, 
PhD, Sadler Love, Robert Lovelace, Radon R Loveland, F Lowe, Thomas 
Lowinger, PhD, Brian Lubbert, Alan H Lubell, Martin S Lubell, Michael D 
Lubin, PhD, Brian Luckianow, Claus B Ludwig, PhD, Mark Ludwig, PhD, 
Mariann Lukan, Ronald Lukas, PhD, Robert A Luke, PhD, Robert Luke, PhD, 
Jack Marling, PhD, J Lund, Mark W Lund, PhD, Dennis L Lundberg, PhD, 
Theodore Lundquist, PhD, Jesse V Lunsford, Anthony Lupo, PhD, Mark J 
Lupo, PhD, William H Lupton, PhD, J W Luquire, PhD, Glenn R Lussky, 
John Lynch, PhD.

Category: M
    Monte D Mabry, Howard Maccabee, MD, PhD, A MacDonald, Alexander 
Dainel MacDonald, PhD, Brian MacDonald, Richard Macdougal, Char L Mack, 
Patrick Mackey, Jay Mackie, Robert A Macrae, Peter Madaffari, Franklin 
D Maddox, R Magno, PhD, John P Maher, Pat Mahon, Robert A Maier, 
Jeffrey E Malan, Robert Malouf, Gary M Malvin, PhD, James M Mandera, 
David J Maness, Kent M Mangold, T A Manhart, Robt C Mania, PhD, Harold 
Manley, Joseph Bird Mann, PhD, J Mannion, Charles Mansfield, PhD, John 
Mansfield, PhD, Samuel P March, Jack J Marcinek, Richard M Marino, PhD, 
William D Marino, George Marklin, PhD, Morris J Markovitz, Morris J 
Markovitz, William E Marlatt, PhD, Marsh, PhD, C T Martin, Daniel W 
Martin, PhD, Edward Martin, Jerry Martin, L A Martin, Lockhead Martin, 
PhD, Ronald L Martin, PhD, Ernest A Martinelli, PhD, Mario Martini, 
PhD, Philip X Masciantonio, PhD, James V Masi, PhD, Conrad J Mason, 
PhD, Conrad Mason, PhD, Wulf F Massell, PhD, Wulf F Massell, PhD, David 
S Masterman, Ronald F Mathis, PhD, Dilip Mathur, PhD, Ron J Matlock, J 
Matolyak, PhD, Harrison Matson, Paul R Matthews, Timothy V Mattson, 
Thomas E Mattus, Richard Matula, PhD, David C Matzke, Paul Mauer, J G 
Mavroides, PhD, John E May, PhD, John May, A Frank Mayadas, PhD, James 
Mayo, Robert McAdams, Robt E McAdams, PhD, John Hart Mcadoo, PhD, 
William Bruce McAlister, PhD, McAneny, PhD, Terry McArthur, Bruce R 
McAvoy, Michael F McCardle, William Mccarter, Robert P McCarthy, Shaun 
L McCarthy, PhD, John Mccauley, Thomas A McClelland, PhD, James O 
McClimans, R J McClure, M McCorcle, PhD, Billy M McCormac, PhD, Philip 
Thomas McCormick, PhD, John G McCue, PhD, Robert G McCuistion, Tim 
McDaniel, Dirk McDermott, James M Macdonald Jr, Malcolm W McDonald, 
PhD, Ralph R McDonough, Edward McDowell, Jr, William Nordell McElroy, 
PhD, Gerald N McEwen, PhD, Michael McGinn, Randall K McGivney, Stuart 
Mcgregor, John P McGuire, David F McIntosh, Robert J Mckay, John P 
McKelvey, PhD, Wm B McKnight, PhD, James A McLennan, PhD, Gregory R 
McNeill, Edward J McNiff, D Sean McPherson, Daniel E Mcpherson Jr, Reg 
Meaker, Walter Medding, Sidney S Medley, PhD, James Medlin, William L 
Medlin, PhD, Ralph D Meeker, PhD, Louis D Megehee, Karin Megerle, 
Leathem Mehaffey, PhD, John L Meisenheimer, PhD, Ivars Melingailis, 
PhD, Kenneth E Mellendorf, PhD, Gary Melvin, Arthur Mendonsa, Wm 
Menger, Samuel H Mentemeier, Micheal D Mentzel, Leo Menz, PhD, Erhard R 
Menzel, PhD, Charles R Merigold, James B Merkel, Marshal F Merriam, 
PhD, Dwight F Metzler, PhD, Donald I Meyer, PhD, Frank H Meyer, Harold 
Meyer, Howard Meyer, Stuart L Meyer, PhD, Walter D Meyer, PhD, Maurice 
A Meylan, PhD, Alesandru Mezincescu, PhD, Gerald J Miatech, PhD, 
Patrick Michael, PhD, Paul C Michaelis, Andre F Michaudon, PhD, C 
Michel, PhD, F Curtis Michel, PhD, John Medavaine, Marcus Middleton, 
John A Mikus, PhD, John G Miles, Kelley F Miles, Ralph F Miles, PhD, 
Frederick H Milford, PhD, William G Millan, PhD, James P Millard, A S 
Miller, PhD, Donadl B Miller, PhD, Donald P Miller, PhD, George R 
Miller, Herman L Miller, Howard Miller, PhD, James A Miller, Larry 
Miller, Lewis E Miller, Philip D Miller, PhD, Raymond E Miller, PhD, 
Robert Charles Miller, PhD, Robert J Miller, PhD, Roger Miller, L E 
Millet, PhD, Dan Millison, John J Mills, PhD, Paul Mills, Greg 
Millspaugh, George H Milly, PhD, Wm B Mims, PhD, Minkin, PhD, David 
Mintzer, PhD, Raymod Mires, PhD, Dale Mitchel, Robert H Mitchell, John 
B Mix, PhD, Jack Pitts Mize, PhD, James J Mizera, Raymond C Mjolsness, 
PhD, K L Moazed, PhD, Paul Mockett, PhD, Charles J Mode, PhD, Fersheed 
K Mody, PhD, Mary V Moggio, Philip Mohan, Gary A Molchan, D Mommsen, 
Ralph Monaghan, W Bryan Monosmith, PhD, Christopher Monroe, PhD, 
Charles J Montrose, PhD, Donald W Moon, Rickie D Moon, Young Moon, PhD, 
Richard T Mooney, Craig Moore, Michael S Moore, PhD, Robert D Moore, 
Jr, John W Moran, Kou-Yiong Y Moravan, PhD, Allan J Mord, PhD, William 
Moreland, Dena R Morford, Relbue M Morgan, PhD, Robert Morgan, PhD, W 
Lowell Morgan, PhD, Carl H Morley, Lawrence Morley, PhD, Edward G 
Morris, Dan Morrow, Thomas M Morse, Kenneth E Mortenson, PhD, Ray S 
Morton, Gary E Mosher, Malcolm Mossman, Jack Mott, PhD, Henry T Motz, 
PhD, Lloyd Motz, PhD, Eugene A Mueller, PhD, George E Mueller, PhD, 
George Mueller, PhD, William B Mueller, Barry B Muhoberac, PhD, J 
Mishtu A Mukerjee, Richard L Mullen, John Muller, PhD, Justus Muller, 
Edward S Murduck, PhD, George Murgel, PhD, Wayne K Murphey, PhD, 
Charles Murphy, PhD, John C Murphy, PhD, Murphy, PhD, Lawrence E Murr, 
PhD, Frank Murray, PhD, Raymond L Murray, PhD, X J Musacchia, PhD, John 
D Myers, Mark T Myers, Glen Myska.

Category: N
    Misac Nabighian, PhD, Edward Nadgorny, PhD, James Nagode, Dennis B 
Nakamoto, Samuel J Nalley, PhD, Michael L Nance, Franklin Richard Nash, 
PhD, Harry C Nash, PhD, Ronald O Neaffer, PhD, Victor Thomas Neal, PhD, 
Hugh Neeson, Robert Neff, Robert Neff, John P Neglia, Leland K Neher, 
PhD, Charles A Nelson, PhD, David L Nelson, David Nelson, PhD, Genne 
Nelson, Loren D Nelson, PhD, Nelson A Perry, Robert Nerbun, PhD, Arthur 
H Nethercot, PhD, Charles H Neuman, PhD, Paul Nevins, Jerry S Newcomb, 
John T Newell, PhD, Richard E Newell, Sam Newner, Richard S Newrock, 
PhD, Kerwin Ng, Liz Niccum, Chester E Nichols, PhD, Davis Betz Nichols, 
PhD, Mark E Nichols, PhD, Roberta Nichols, PhD, Eugene H Nicholson, 
PhD, George Nickas, PhD, Barry C Nielsen, Kurt Nielsen, Henry Nikkel, 
Thomas G Nilan, PhD, Harmon Nine, PhD, James Nitzschke, John D Noble, 
PhD, Michael L Noel, Raymond L Noel, Lasalle L Nolin, Jack Noll, 
Bertram Nolte, PhD, Eugene Nooker, Philip A Norby, Sherman B Nornes, 
PhD, William G Norrie, Clyde Northrup, PhD, Hallan C Notimier, PhD, 
Julian R P Nott, Edward F Novak, J D Novotny, Jerzy Nowakowski, PhD, 
Gary P Noyes, PhD, Hugh Nutley, PhD, Richard A Nyquist, PhD.

Category: O
    Michael Oard, Deborah Jean O'Bannon, PhD, Richard L O'Connell, 
Frederick Kirk Odencrantz, PhD, Frederic C E Oder, PhD, Randy Oehling, 
Ordean S Oen, PhD, Robert A Oetjen, PhD, Calvin Ogburn, Norbert W 
Ohara, PhD, William Ohmstede, Steven E Olbrich, PhD, Fred Oliver, 
Kenneth Leo Oliver, PhD, Wm P Oliver, PhD, Merrill M Olson, Ted Olson, 
James Oltmans II, Joe R O'Neal, Russell O'Neal, PhD, George F Oneill, 
PhD, Robert E O'Neill, Marchall F Onellion, PhD, Gary L Oppliger, PhD, 
Drew R Van Orden, Johathan Orloff, PhD, Cornel G Ormsby, Harold Osborn, 
Oskoorouichi, PhD, Charles Osterberg, PhD, Wayne Ott, PhD, Wm J Otting, 
PhD, William Otto, Jacques Ovadia, PhD, Robert Ovellette, Albert W 
Overhauser, PhD, Robert F Overmyer, Mark Owens, William C Owens.
Category: P
    Karle Packard, Jack Paden, Robert R Palik, Richard W Palladino, 
Thomas Y Palmer, John M Palms, PhD, Michael V Palvov, John A Pantelis, 
Francis Paolini, PhD, Carles Herach Papas, PhD, Sastry U Pappu, PhD, 
James L Park, PhD, Eugene Parker, PhD, Raymond G Parker, Edward M 
Parma, Albert Parr, PhD, Christopher Parry, PhD, H D Parry, Zohreh 
Parsa, PhD, David H Parsons, W H Parsons, PhD, David F Paskausky, PhD, 
David F Paskausky, PhD, James M Paterson, PhD, Sandra Patrick, Randy 
Patterson, Robert W Patterson, Gary M Patton, Robert Paul, PhD, Kermit 
Paulson, Arthur S Pavlovic, PhD, Charles H Paxton, Cyril J Payne, 
Daniel Payne, F R Payne, PhD, Michael A Payne, PhD, Daniel N Payton, 
Zoran Pazameta, PhD, Herry Peace, David Peacock, PhD, Durk Pearson, 
George J Pearson, PhD, David C Peaslee, PhD, Justin B Peatross, PhD, 
Michael J Pechan, PhD, E L Peck, PhD, Edson R Peck, PhD, Christopher 
Peek, Gary Pekarek, David G Pelka, PhD, Erik M Pell, PhD, M J Pellillo, 
Richard R Pemper, PhD, John Penn, Samuel Penner, PhD, Linda Pequegnat, 
PhD, Darlene A Periconi-Balling, Charles Perry, Nelson Perry, Kenneth F 
Persin, Persky, PhD, Heide Petermann, Calvin Peters, Jeffrey L Peters, 
Edward C Peterson, Jack E Peterson, PhD, Arthur Petraske, Andrey 
Petukhov, PhD, Raymond J Pfeiffer, PhD, Bill Phebe, Frederick Phelps, 
PhD, Herbert R Philipp, PhD, Richard A Phillips, PhD, James A Phillips, 
PhD, Jay W Phippen, PhD, William Pickett, George Piers, Alan Pike, PhD, 
David M Pike, Gordon E Pike, PhD, Arturs Piksis, PhD, Lester Pilcher, 
Valter E Pilcher, PhD, Robert A Piloquin, Pine, PhD, Ervin L Piper, 
Daniel J Pisano, PhD, Jack Piskura, Fred Pitman, James D Plimpton, PhD, 
David Pocengul, Steve C Poe, William Poley, Polinger, PhD, William J 
Polson, PhD, Walter L Pondrom, PhD, Kurt W Pontasch, PhD, G Albert 
Popson, PhD, Bonne Posma, Richard W Postma, PhD, James E Potzick, 
Edward T Powell, PhD, Mark L Powell, Michael Robert Powell, PhD, Daren 
Powers, PhD, Robert W Powitz, PhD, C Dan Preston, Kenneth Price, PhD, 
Donald W Pritchard, PhD, David G Proctor, PhD, Tso-Ping Ma, PhD, Jesus 
R Provencio, PhD, Frederick D Provenza, PhD, Anthony J Provenzano, PhD, 
L L Pruitt, Bruce Purcell, Cary C Purdy, James K Purpura, George 
Putman, PhD, Thomas H Putman, PhD, Abbott A Putnam, Erling Pytte, PhD.

Category: Q
    Kathy Qin, James Qualey, PhD, Russell Qualls, PhD, John J Quinn, 
PhD, Shirley J Quinn, Phil Quire, Karl S Quisenberry, PhD, Patrick W 
Quist.

Category: R
    Bernard Raab, PhD, Steven Rabe, Harold Raemer, PhD, Dejan Rajcic, 
James A Ralph, Frederick Rambow, PhD, Rafael G Ramirez, PhD, Simon 
Ramo, PhD, Benjamin F Ramsey, Madeline Ramsey, Charles A Randall, PhD, 
Joseph L Randall, PhD, William P Raney, PhD, C J Ransom, PhD, W R 
Ransone, James Rasor, Ned S Rasor, PhD, Howard Rast, PhD, Dennis 
Rathman, PhD, Hukum S Rathor, PhD, Andrew A Rathsack, Steven Ratliff, 
PhD, Alfred Ratz, PhD, Richard Rauch, PhD, Kyle Rawlings, PhD, David 
Thomas Read, PhD, Robert G Read, Andreas B Rechnitzer, PhD, Charles W 
Rector, PhD, Larry K Reddig, Noeman Redford, Robert H Rediker, PhD, C 
Reed, PhD, Emmett Van Reed, Max E Reed, PhD, WR Reeves, Carl J Regone, 
John Reichenbach, James Reid, PhD, Leonard Reiffel, PhD, William 
Reifsnyder, PhD, Hugh Reilly, Thomas L Reinecke, PhD, John W Reinert, 
David Relihan, Marlin E Remley, PhD, Mack Remlinger, Nicholas A 
Renzetti, PhD, R H Reuter, PhD, Robert Walter Rex, PhD, Bruce Reynolds, 
PhD, Robert Ware Reynolds, PhD, John E Rhoads, PhD, John R Rhodes, J J 
Richard, Benjamin Richards, PhD, Bernard L Richards, PhD, Ralph J 
Richardson, PhD, Douglas W Ricks, PhD, R J Riddell, PhD, Robt W Riedel, 
Elliott A Riggs, PhD, James W Riggs, PhD, Robert Righter, Jim Riker, 
PhD, Gary T Riley, William Riley, Dan H Rimmer, Charles E Rinehart Jr, 
PhD, Roy Ringo, PhD, Winthrop Risk, MD, PhD, Allan Roberts, Kenneth 
Roberts, Norman Hailstone Roberts, PhD, Donald K Robertson, George H 
Robertson, PhD, Stanley L Robertson, PhD, Clark S Robinson, Michael J 
Robrecht, David A Roddy, Jonathan P Rode, PhD, Rocky Roden, Brian D 
Rodriguez, Robt C Roeder, PhD, Raylan Roetman, Robert C Rohr, PhD, John 
H Rohrbaugh, PhD, Neal Rohrbaugh, Oscar A Rondon, PhD, John Roscoe, 
PhD, Benny H Rose, PhD, David Rose, PhD, Kenneth L Rose, PhD, Frederick 
A Rosell, Alan Rosen, PhD, Richard Rosencrans, Robert Rosene, Allan 
Ross, Arthur Ross, Elliot Rothkopf, PhD, Wm S Rothwell, PhD, Lawrence J 
Rouse, PhD, W Jeffrey Row, James M Rowe, PhD, Stephen Rowley, G 
Roysdon, John Rozenbergs, PhD, Balaz F Rozsnyai, PhD, Arthur Rubin, 
Daniel Rubinstein, PhD, Douglas Rudenko, Raymond L Ruehle, Robert 
Reuss, Donald E Ruminer, George Rumney, PhD, Kim J Runk, Gerald Rupert, 
PhD, Louis J Rusconi, PhD, B Rush, PhD, Cynthia B Russell, Kenneth 
Russell, Mark Russell, PhD, Robert Rutherford, Patrick Rutty, Mary 
Ruwart, PhD, Bill C Ryan, PhD, Frederick M Ryan, PhD, Jean Ryan, PhD, 
John W Ryon, PhD.

Category: S
    Patrick Saatzer, PhD, Edward S Sabisky, PhD, Julius Jay Sabo, Frank 
Sacco, Frederick Sachs, PhD, Thomas Dudley Sachs, PhD, James C Sadler, 
James C Sadler, Jerry F Sagendorf, Eugene Salamin, James A Salsgiver, 
George Albert Samara, PhD, Douglas Sampson, PhD, Douglas Sampson, PhD, 
John F Sandell, PhD, Wm Marion Sandefur, PhD, Eric Sanden, PhD, Jerrell 
L Sanders, Richard M Sanders, PhD, Andrew Sandorfi, PhD, Wayne M 
Sandstrom, PhD, G S Santi, Mykola Saporoschenko, PhD, Dalip K Sarin, 
Lynn Redmon Sarles, PhD, Ronald G Sarrat, Raymond Edmund Sarwinski, 
PhD, Richard Sasiela, PhD, Edward A Saunders, PhD, Jason Saunderson, 
PhD, David P Sauter, S C Saxena, PhD, Vinod K Saxena, PhD, Vinod K 
Saxena, PhD, George P Saxon, PhD, Razi Saydjari, MD, Thomas S Scanlon 
Jr, Marc A Scarchilli, James R Scarlett, Lawrence A Schaal, Thomas S 
Schalk, Hans Schantz, PhD, Darrell R Scharf, Richard Scharf, John F 
Schatz, PhD, Harvey Schau, PhD, Larry Schecter, PhD, Frank Schell, MD, 
Keith J Schiager, PhD, Walter Schimmerling, PhD, Guenter Martin 
Schindler, PhD, Hassel Charles Schjelderup, PhD, Jeffrey Schleher, 
Robert A Schluter, PhD, Frederick Schmidlin, PhD, Philip L Schmitz, 
Marcel R Schmorak, PhD, Douglas G Schneider, John Schneider, PhD, 
Michael Schneider, PhD, George L Schofield Jr, PhD, James G Schofield, 
Paul Schrade, Robert Schrader, John L Schrag, PhD, Martin Wm Schramm, 
PhD, Ethan J Schreier, PhD, Donald Schuder, Steve Schulte, PE, James J 
Schultheis, Frederick Schultz, PhD, Thomas A Schultz, Michael Schulz, 
Scofield, PhD, James F Scoggin, PhD, Theodore T Scolman, PhD, Stylianos 
P Scordilis, PhD, Clive R Scorey, PhD, Charles N Scott, Scott Scrupski, 
James B Seaborn, PhD, John D Seagrave, PhD, Chris L Seaman, PhD, Robert 
D Sears, Paul A Sease, George A Seaver, PhD, Sederholm, Fred Seeber, 
PhD, Warren G Segelken, PhD, Fritz A Seiler, PhD, Jerold A Seitchik, 
PhD, James A Selasky, Harner Selvidge, PhD, Mark Semon, PhD, Richard G 
Semonin, William Sens, Karl A Sense, Nicholas S Sereno, PhD, Byron R 
Sever, PhD, Harry Sewell, PhD, James Sewell, Richard U Shafer, Wayne 
Shaffer, Michael L Shand, PhD, Anatole Shapiro, PhD, Edward K Shapiro, 
PhD, Ralph Shapiro, PhD, James Sharp, Francis Sharpton, PhD, Glenn E 
Shaw, PhD, Lawrence H Shaw, Steven Shaw, Roy W Shawcroft, PhD, Thomas 
Sheahen, PhD, James Shelton, PhD, Hao Ming Shen, PhD, Shen, Moses M 
Sheppard, PhD, B Sherrill, Frank Shinneman, Calvin Shipbaugh, PhD, 
Scott T Shipley, PhD, George A Shirn, PhD, Kandiah Shivanandan, PhD, 
Andrew Shkolnik, William Shockley, M A Short, PhD, Martin Shotzberger, 
Curtis A Shuman, PhD, Edwin Shykind, PhD, Kurt Sickles, Richard W 
Siegel, PhD, Richard Ernest Siemens, Arnold J Sierk, PhD, Wayne 
Sievers, PhD, Henno Siismets, Lt Col Henry W Silk, Joseph D 
Silverstein, PhD, E Lee Simmons, MD, Ralph O Simmons, PhD, Wm W 
Simmons, PhD, Albert Simon, PhD, Jack Simonton, Chirstopher Simpson, 
Robert S Simpson, S Fred Singer, PhD, Lal P S Singh, PhD, Raj N Singh, 
Norman Sissenwine, Michael Sitko, PhD, Andrew Sivak, PhD, Michael 
Sivertsen, Gary W Sjolander, PhD, Riley Skeen, Damir S Skerl, 
Skluzacek, PhD, Frederick W Slee, PhD, Faye Slift, Michele E Slinkard, 
Anthony R Slotwinski, Harold S Slusher, PhD, Peter J Van Slyke, 
Alexander G Smith, PhD, Bruce W Smith P E, Donald R Smith, PhD, Earl W 
Smith, PhD, Frederick W Smith, PhD, James R Smith, John R Smith, PhD, 
Michael Smith, Neil M Smith, Richard Lloyd Smith, PhD, Rick Smith, 
Thane Smith, PhD, William Smith, Gilbert Snell, Walter L Snell, Leonard 
W Snellman, PhD, C R Snider, James J Snodgrass, William R Snow, PhD, 
Donald P Snowden, PhD, Fred F C Snyder, Robert Soberman, PhD, Jon 
Sollid, PhD, Wanda C Soo Young, Brent A Sorensen, James A Sorenson, 
PhD, Norman Sossong, PhD, Wallace W Souder, PhD, Frank E South, PhD, 
Robert R Speers, PhD, Edward L Spence, PhD, Charles Spencer, Daniel 
Spencer, Charles L Spiegel, Andrew Spiessbach, PhD, Joel S Spira, John 
G Spitzley, Robert H Springer, PhD, James Kent Sprinkle, Julien C 
Sprott, PhD, D Sprowl, PhD, Eve S Sprunt, PhD, Charles F Squire, PhD, 
Robert M St John, PhD, Kim W Stahnke, Drago Stankovic, Glenn Stanwick, 
Harvey J Stapleton, PhD, Fred Starheim, PhD, Chauncey Starr, PhD, Gene 
Start, Jennifer Staszel, Herman Statz, PhD, Harold F Staunton, PhD, 
John Staunton, Michael A Steinberg, Kenneth B Steinbruegge, Ray L 
Steinmetz, Frank R Steldt, PhD, Jesse J Stephens, PhD, Lou Stephens, 
Robert D Stephens, Stephen M Sterbenz, PhD, Howard O Stevens, Lewis A 
Stevens, Robert Stevenson, PhD, William Stewart, PhD, Carleton C 
Stewart, Glenn A Stewart, PhD, Harris B Stewart, PhD, Homer J Stewart, 
PhD, William A Stewart, William L Stewart, Bernard Stiff, Regan 
Stinnett, PhD, Norman D Stockwell, PhD, W Ross Stone, PhD, James R 
Storey, William T Storey, Charles L Storrs, PhD, Gregory J Story, Glenn 
E Stout, PhD, David Stowell, David Strand, Thomas F Stratton, PhD, W R 
Stratton, PhD, Joe M Straus, PhD, Edward A Streed, Sharon R Streight, 
PhD, George Strella, James S Strickland, PhD, Geo L Strobel, PhD, David 
H Strome, PhD, Forrest C Strome, PhD, Alan E Strong, PhD, Alan Strong, 
PhD, William J Strong, PhD, Mark W Strovink, PhD, Roger D Stuck, Robert 
Stupp, G Sturges, Victor F Sturm, Eric Stusnick, PhD, Bill Styer, 
Daniel Subach, PhD, Subraman, John T Suggs Jr, Richrad Sullivan, Thomas 
J Sullivan, PhD, Donald L Summers, Donald Supkow, PhD, Earl C 
Sutherland, PhD, Jordan L Sutton, Todd W Sutton, Jon R Swanson, PhD, 
Robert N Swanson, Hilmar Swenson, PhD, Don E Swets, Donald M Swingle, 
PhD, Burton L Sylvern, Ronald J Szaider, Edwin Szymanski, PhD.

Category: T
    Keith A Taggart, PhD, Saeed Taherian, PhD, Samuel Taimuty, PhD, 
Gerald Tait, Willard L Talbert, PhD, Jim Tallon, Daniel J Tambasco, 
PhD, Louis A Tamburino, PhD, Lukas Tamm, PhD, Peter E Tannenwald, PhD, 
Daniel Tao, PhD, Frederick D Tappert, PhD, Suren A Tatulian, PhD, Byron 
Taylor, Eugene W Taylor, James Taylor, PhD, Michael K Taylor, Edward 
Teller, PhD, Lee C Teng, PhD, Jeffrey Tennant, PhD, Steven Terwilliger, 
Eugene Theios, James Thissell, Gordon A Thomas, PhD, Martin J Thomas, 
PhD, Richard Thomas, PhD, William H Thomason, PhD, Richard Thompson, 
Richard Thompson, Warren Thompson, PhD, Wm B Thompson, PhD, Walter W 
Thomsen, Ker C Thomson, Craige Thorn, PhD, James A Thornhill, T 
Thornton, Arnold W Thorton, PhD, Eugene D Tidwell, Calvin O Tiller, 
Jennifer L Tillman, Clarence N Tinker, Merlin Tipton, Robert W Titus, 
Arthur R Tobey, PhD, Joseph J Tobias, Joseph D Tobiason, PhD, Norman 
Tolk, PhD, John Toman, Kurt Toman, PhD, James Tomberlin, Randy Tomkins, 
Daniel Tonn, PhD, Brian P Tonner, PhD, Steven A Tonsfeldt, PhD, George 
Tope, Carlos Toroes, Charles J Touhill, PhD, Roger Townsend, Joseph C 
Tracy, PhD, George T Trammell, PhD, Rex Trammell, Felix Rodriguez 
Trelles, PhD, D H Trenscell, J Trevino, Roy A Tucker, Daniel Tudor, 
PhD, J Paul Tullis, PhD, Richard Turiczek, Alvis G Turner, PhD, Robert 
E Turner, PhD, Thomas Turner, William Turner, PhD, Joseph Tutak, 
Kenneth L Tuttle, PhD, Ben Tuval, David Tweedy, Arthur G Tweet, PhD, 
Somdev Tyagi, PhD.

Category: U
    Herbert M S Uberall, PhD, David J Ulsh, Glenn Underhill, PhD, John 
D Underwood, Kot Unrug, PhD, Donna Utley, PhD.

Category: V
    J Peter Vajk, PhD, William P Vale, Oriol T Valls, PhD, Van Domelen, 
Bruce Harold, PhD, Ruth Van Knapp, Dominique Van Nostrand, Donald O Van 
Ostenburg, PhD, Earl Van Reenan, Willliam Vanarsdale, PhD, Vandemerwe, 
PhD, David H Vanhise, Walker S Vaning, Larry Vardiman, PhD, Nancy 
Vardiman-Hall, Michael O Varner, Lawrence J Varnerin, PhD, Stanley S 
Vasa, William W Vaughan, PhD, Wm Walton Vaughan, PhD, Sidney E Veazey, 
PhD, Karl F Veith, PhD, Theodore E Veltfort, David Vermilyea, James Ira 
Vette, PhD, Roy E Vincik, Kalman N Vizy, PhD, Henry Vogel, PhD, Karl 
Vogler, PhD, James Vogler, PhD, Philip A Volker, Philip A Volker, James 
Vollmer, PhD, Mike Vossen, George Vourvopoulos, PhD.

Category: W
    Alfred Wagner, Edward Wagner, Orvin Edson Wagner, PhD, Marvin L 
Wagoner, Richard I Waite Jr, Richard Wales, Robert A Walish, Joe A 
Walker, P David Walker, William Delany Walker, PhD, William W Walker, 
PhD, James P Wallace, Joel D Walls, PhD, Kevin Walsh, Walter M Walsh 
Jr, PhD, John F Walter, PhD, Robert F Walter, PhD, Michael D Walters, 
PhD, R B Walton, PhD, Maynard C Waltz, James E Wanamaker, David Y Wang, 
PhD, Zhijing Wang, PhD, Roscoe F Ward, PhD, Ward, John F Wardle, PhD, 
John F Ware, Richard C Waring, Ross Warner, H Waslik, PhD, George A 
Waters, Dean A Watkins, PhD, Gary W Watson, William Watson, PhD, 
Charles Wax, PhD, John Waymouth, PhD, Ronald Weaver, George Webb Jr, 
Theodore S Webb, PhD, Alfred C Webber, Allen H Weber, PhD, Anthony J 
Weber, Michael Weber, D J Wechsler, Brent M Wedding, PhD, Lloyd Weese, 
William Weese, Walter F Wegst, PhD, Steven Weise, Max T Weiss, PhD, Ima 
Wells, Wells, PhD, William Wells, Patrick T Welsh, PhD, Theodore A 
Welton, PhD, Michael Wendorf, R C Wentworth, PhD, Mike Wentzell, MD, 
Hans-Helmut Werner, PhD, Smiuel Werner, PhD, Robert H Wertheim, Richard 
P Wesenberg, Laurence N Wesson, Mark E Westcott, Burt O Westerman, Eric 
R Westphal, PhD, Norris C Wetters, Jack Weyland, PhD, C Wheeler, David 
Wheeler, John F Wheeler, Kenneth T Wheeler, PhD, William L Wheller, 
Larry Wheelock, R S Wherler, David J White, Donald R White, PhD, 
Douglas White, PhD, John L White, PhD, Lowell White, PhD, Robt Lee 
White, PhD, Thomas W Whitehead, Jr, PhD, R Whiting, Robert Whitten, 
PhD, E H Wichmann, PhD, Raymond V Wick, PhD, Donald J Wickwire, Gordon 
Wieduwilt, W Gordon Wieduwilt, King W Wieman, Chuck Wiese, John 
Wiggins, PhD, Kenneth A Wigner, John Wilburn, Richard B Wilkens III, 
Eugene M Wilkins, PhD, S Curtis Wilkins, Harvey B Willard, PhD, 
Willett, PhD, Paul T Willhite, Louis E Willhoit Jr, PhD, Clark William, 
Van William, PhD, Dansy Williams, Forrest R Williams, Neal Thomas 
Williams, Talmage Williams, Thomas Williams, PhD, Vernon Williams, Alan 
J Willoughby, Keith P Willson, Clyde L Wilson, PhD, David A Wilson, 
David W Wilson, PhD, Donald Wilson, Owen Wilson, Theron Wilson, Timothy 
M Wilson, PhD, Wm E Wilson, Donn B Wimmer, PhD, Kenelm C Winslow, 
William K Winter, PhD, John B Winters, P Winters, Donald F Winterstein, 
PhD, Floyd A Wise, Frank W Wise, PhD, Chester E Wisner, Abund O Wist, 
PhD, James M Witting, PhD, Warren F Witzig, PhD, William Wohler, Gene 
Wolfe, John C Wolfe, PhD, Milo M Wolff, PhD, Paul M Wolff, PhD, Eligius 
Wolicki, PhD, Cyrus Wood, James M Wood, John K Wood, PhD, Keith 
Woodard, Richard Woodard, PhD, Patrick J Wooding, John P Woods, PhD, 
Robert F Woods, Gary K Woodward, Alice Woosley, Rodney Wooster, J 
Workley, D E Wortman, PhD, J Lamar Worzel, PhD, Peter Wrenshall, Royce 
E Wrick, Harlow Wright, Keith H Wrolstad, PhD, Peter T Wu, PhD, Wemin 
Wu, PhD, John M Wuerth, Philip Wyatt, PhD, Bruce C Wyman, PhD, Peter 
Wyzinski, MD.

Category: Y
    Dmeter Yablonsky, PhD, Harold L Yarger, PhD, John Yarnell, PhD, 
John L Yates, Scott Yates, PhD, Hubert P Yockey, PhD, Marvel Yoder, 
PhD, Thomas Lester Yohe, PhD, Nicholas J Yonker, Edwin York, George W 
York Jr, PhD, A Young, PhD, Donald E Young, PhD, Lloyd M Young, PhD, 
Robert A Young, PhD, Wei Young, PhD, Phillip L Youngblood, Luke Dhia 
Liu Yuan, PhD, Mark Yuly, PhD, Sulhi H Yungul, PhD.
Category: Z
    Daniel J Zaffarano, PhD, Marco Zaider, PhD, Joseph A Zak, PhD, 
James G Zapert, Josephh Zappia, Lawrence E Zeeb, Fred Zeile, Bruce 
Zeitlin, Claude Zeller, PhD, Hua-Wei Zhou, PhD, Jehuda Ziegler, PhD, 
Paul Ziemer, PhD, Carl Zietlow, Aaron L Zimmerman, E Leroy Zimmerman, 
PhD, Elmer Leroy Zimmerman, PhD, John E Zimmerman, John R Zimmerman, 
PhD, Roger Zimmerman, Sally Zinke, Werner Zinn, Richard J Zinno, Harold 
Zirin, PhD, Martin V Zombeck, PhD.

5017 Chemistry, Biochemistry, Biology, and other Life Sciences Signers

(http://www.oism.org/pproject/b<INF>-</INF>sci.htm, February 24, 2006)

Category: A
    Earl Aagaard, PhD, Roger L Aamodt, PhD, Hamed Abbas, PhD, Ursula K 
Abbott, PhD, Riaz F Abdulla, PhD, Wayne Aben, Earl A Abrahamson, PhD, J 
Wayne Achee, D T Achord, PhD, William Ackerman, Brian Adam, PhD, Daniel 
Adams, PhD, George B Adams, PhD, James W Adams, Jim Adadms, John E 
Adams, PhD, Phillip Adams, PhD, Richard E Adams, Richard L Adams, Roy M 
Adams, PhD, Wilton Adams, PhD, Wilton T Adams, PhD, John K Addy, PhD, C 
William Ade, Albert H Adelman, PhD, Barnet R Adelman, Ronald A Adkins, 
PhD, Norman Adler, PhD, Siegfried Aftergut, PhD, Kenneth Agnes, Jorge T 
Aguinadlo, Mumtaz Ahmed, PhD, Robert Ahokas, PhD, Edward Ahrens, 
Rolland W Ahrens, PhD, Robert M Ahring, PhD, Brian R Ainley, David J 
Akers, Robert J Alaimo, PhD, Vincent M Albanese, Timothy A Albers, MD, 
Rudolph C Albrecht, Fred R Albright, PhD, Robert Lee Albright, PhD, 
Garrett D Alcorn, MD, Thomas Alderson, PhD, Franklin D Aldrich, PhD, 
Richard J Aldrich, PhD, Samuel Aldrich, PhD, Samuel Aldrich, PhD, 
Steven J Alessandro, Alex F Alessandrini, Joe Alex, Ira Alexander, 
Robert Alford, R Allahyari, PhD, Emma G Allen, PhD, Eric R Allen, PhD, 
Kenneth Allen, Pampselo Allen, Roger B Allen, PhD, Robert T Van Aller, 
PhD, Carl Allesandro, Craig Allison, Albert L Allred, PhD, Patrick 
Aloutto, PhD, James Aloye, John Alsop, PhD, Sally Alston, Charles Alt, 
David Altman, PhD, Burton M Altura, PhD, Leo E Amborski, PhD, Donald F 
Amend, PhD, Marvin E Ament, Robert C Amero, Moris Amon, PhD, Bonnie 
Amos, PhD, Terrell Andersen, PhD, Wilford H Andersen, PhD, A E 
Anderson, Anderson, Bruce M Anderson, C M Anderson Jr, Cristopher 
Anderson, David Anderson, MD, David R Anderson, PhD, Donald Hervin 
Anderson, PhD, Donald N Anderson, PhD, Elmer Anderson, PhD, Gerald L 
Anderson, Ingrid Anderson, PhD, Janis W Anderson, John O Anderson, 
Julia W Anderson, PhD, Mary Anderson, Nathan Anderson, R L Anderson, 
Thomas Anderson, PhD, John R Andrade, PhD, Manuel Andrade, Ivan 
Andrasik, James Andrew, John S Andrews, PhD, Mel Andrews, Russell S 
Andrews, PhD, Mb Andrus, PhD, Francis M Angeloni, PhD, Claude B Anger, 
Ernest Angino, PhD, Kevin P Ankenbrand, David Arnold, John Anthes, PhD, 
Robt D Anthony, David R Appel, John Applegath, Charles Apter, PhD, 
Howard Arbaugh, John Arcadi, MD, Ed Arce, John Arch, Christopher Arend, 
William Arion, PhD, Z S Ariyan, PhD, Richard Armentrout, PhD, Walt 
Armer, Clifford Armstrong, Joseph C Armstrong, PhD, Marvin D Armstrong, 
PhD, Robert L Armstrong, PhD, Philip J Arnholt, PhD, Charles Arnold, 
PhD, Seymour Aronson, PhD, Adrian L Arp, PhD, Charles H Arrington, PhD, 
Dale E Arrington, PhD, A G Ash, A Ashley, PhD, Warren C Ashley, PhD, 
Bob Ashworth, Tom W Asmus, PhD, Robert D Athey Jr, PhD, Robert Douglas 
Athey, PhD, Mark Atwood, PhD, Walter Auclair, PhD, Louis A Auerbach, 
Keith H Aufderheide, PhD, J Augspurger, PhD, Frederick N Aukeman, Bruce 
S Ault, PhD, Alfred E Austin, PhD, Carl Fulton Austin, PhD, Robert L 
Austin, Victor H Averbach, PhD, Alex Avery, Philip Avery, Arthur J 
Avila, Joseph Avruch, MD, Robert C Ayers, PhD, T G Ayres, Dany Ayseur, 
Alison M Azar, Max Azevedo.

Category: B
    Bryan Baab, Ronald R Bach, PhD, Frederick A Bacher, Drury L Bacon, 
Frank R Bacon, Robert Baczuk, J Badenhoop, PhD, Carl Baer, PhD, Edward 
A Baetke, Joseph A Baglio, PhD, J Brent Bagshaw, Andrejs Baidins, PhD, 
Carl Wm Bailey, PhD, David G Bailey, PhD, James Bailey, Robert L 
Bailey, PhD, Ronald M Bailey, John Bakane, Barton S Baker, PhD, Daniel 
M Baker, PhD, Don Robert Baker, PhD, Harold N Baker, PhD, Howard T 
Baker, J Baker, PhD, Louis Baker, PhD, Robert D Baker, PhD, Robert J 
Baker, W O Baker, PhD, Brent P Balcer, Andrew A Baldoni, PhD, Ransom 
Baldwin, PhD, A Richard Baldwin, PhD, Cliff Bale, P Balis, Greg 
Ballengee, Walter E Ballinger, PhD, Martin Balow, Arden A 
Baltensperger, PhD, Debendranath Banerjee, PhD, Kernan M Banker, Kernen 
Banker, Willard Banman, William Bannister, PhD, Ronald Barany, PhD, Ted 
R Barben II, Charleton C Bard, PhD, Charles E Bardsley, PhD, Mark J 
Bareta, Thomas Barfnecht, PhD, Franklin B Barker, PhD, Horace A Barker, 
PhD, Leroy N Barker, PhD, Dwight G Barkley, PhD, John E Barkley, PhD, 
Neal Barkley, B Barks, PhD, Anthony Barlow, PhD, Alex Barlowen, Richard 
Barnes, Robert F Barnes, PhD, L Bruce Barnett, PhD, Debra Barngrover, 
PhD, Louis J Barone, Kenneth Barr, Kenneth H Barratt, Clem A Barrere, 
PhD, Helen Barrett, Kenneth A Barrett, Oscar N Barron, B Bartley, PhD, 
Gary Bartley, Bratzatt, PhD, John Basinski, PhD, George Baskin, 
Jonathan Langer Bass, PhD, Alton Herman Bassett, Mark J Bassett, PhD, 
David Batchelder, Robert L Batdorf, PhD, Lynn S Bates, PhD, Robert W 
Batey, George Batten, PhD, Jack Battle, Armand Bauer, PhD, Larry G 
Bauer, PhD, Thomas Bauer, T Mack Baugh, Kurt Baum, PhD, Linda L Baum, 
PhD, Arthur N Baumann, Wolfgang Baumann, PhD, Lisa L Baumbach, PhD, Jim 
Baumer, PhD, A W Baumgartner, Monte Paul Bawden, PhD, Steve Bayless, 
Gary Beall, PhD, Herbert Beall, PhD, Paula T Beall, PhD, Samuel E 
Beall, Thomas Beard, Scott Beardemphl, Henry J Bearden, PhD, Wm 
Beardmore, PhD, James Beattie, PhD, Robert A Beaudet, PhD, Paul Becher, 
PhD, Bill Beck, Curt B Beck, Lloyd Beck, Clarence Becker, PhD, Ernest I 
Becker, Harry C Becker, PhD, John C Becker, Ralph Sherman Becker, PhD, 
Robert P Becker, PhD, Robert S Becker, PhD, Wilbur Becker, Arnold 
Beckman, PhD, Joseph A Beckman, PhD, Merrill Beckstead, PhD, Glenn 
Bedell, PhD, Thomas E Bedell, PhD, William C Bedoit, PhD, Curtis M 
Beechan, PhD, Scott K Beegle, Giselle Beeker, Francis J Behal, PhD, Pat 
Behm, Greg P Behrens, Richard Behrens, PhD, John Behun, PhD, Rudi 
Beichel, Arthur B Reindorff, PhD, Walter F Beineke, PhD, Ihor Bekersky, 
PhD, Gregory Bell, Robert Bell, Daniel T Belmont, PhD, Stephen Belmont, 
PhD, James Noble Bemiller, PhD, John Ben, Raymond L Bendure, PhD, James 
H Benedict, PhD, David Benforado, Ashley Bengali, PhD, Ford Benham, 
John Benjamin, PhD, William Benne, PhD, Donald W Bennett, G Bennett, 
PhD, RS Bennett, Sharon Beniot, Andrew A Benson, PhD, Sidney W Benson, 
PhD, William Benson, Ray Bentall, Kenton E Bentley, PhD, Allen W 
Benton, PhD, Wesley G Bentrude, PhD, Ray A Berard, PhD, Hugh 
Berckmueller, MD, J Berg, PhD, Ronald Berg, Alan Berger, MD, T F 
Berger, Arne Bergh, PhD, C B Bergin, Oswald R Bergmann, PhD, John J 
Berky, PhD, Elliot Berman, PhD, Louis Bernath, PhD, Julius R Berreth, 
Lester P Berriman, Dan Berry, James W Berry, PhD, Robert W Berry, PhD, 
Roy A Berry, PhD, William Berry, Charles F Bersch, Robert L Bertram, B 
Rodney Bertramson, PhD, Nedavia Bethlahmy, PhD, George W Bettge, 
Rowland S Bevans, PhD, Robert Beverly, Vicky L Bevilacqua, PhD, William 
R Bibb, PhD, Peter B Eichelberger, Michael D Bick, PhD, Arden Bicker, 
Ervin F Bickley Jr, Kenneth Bielat, PhD, Yan Bielek, Gregg Bierei, Theo 
Karl Bierlein, PhD, Joseph F Bieron, PhD, Donald Bigg, PhD, James 
Biggs, PhD, R Dale Biggs, PhD, Keith Bildstein, PhD, John M Bilhorn, 
PhD, John L Bills, PhD, Arthur Bing, PhD, Frank S Riordan, PhD, James L 
Bischoff, PhD, Guy W Bishop, PhD, John W Bishop, PhD, Marshall D 
Bishop, Benny Bixenman, Charles Black, PhD, Darvil Black, PhD, Tom 
Black, William Black, Larry G Blackburn, Eli W Blaha, PhD, Blair, PhD, 
Charles M Blair, Luther Blair, Paul V Blair, PhD, J Warren Blaker, PhD, 
Dav Blankenhagen, Nik Blaser, Clyde Blauer, George A Blay, PhD, Wm 
Blew, Charles William Blewett, PhD, David Blewett, Claire Bluestein, 
PhD, Aaron L Bluhm, PhD, Harold F Bluhm, M Blumenberg, PhD, Jack E 
Bobek, Thomas C Boberg, PhD, Sergey Boblcov, Terry Bobo, Jane Bock, 
PhD, Gary Bockus, Stephen J Bodar, PhD, Loren E Bode, PhD, George 
Boder, Robert J Boehle, Eldron Boehmer, J Neil Boger, MD, Colleen 
Boggs, Johnny Boggs, Leslie K Bogle, Joseph Terril Bohanon, PhD, 
Charles E Boklage, PhD, Nicholas C Bolgiano, PhD, Edward H Bollinger, 
PhD, A Bollmeier, James Boltz, Jerry C Bommer, PhD, Stephon T Bond, 
PhD, Walter D Bond, PhD, James M Bondi, Susan Boner, Patrick V 
Bonsignore, PhD, Lewis Book, Raymond Book, Jerry L Boom, PhD, James 
Boone, PhD, Lawrence E Boos, PhD, David Booth, PhD, Hamid Borazjani, 
PhD, Bordeaux, PhD, Robert Borg, Dan Borgnaes, PhD, Alex B Borkovec, 
PhD, William Bornhorst, David Borrownam, Borsari, William E Bosken, 
Kenneth J Boss, PhD, Robert Bosshart, PhD, Thomas Bossler, Howard Bost, 
PhD, Keith A Bostian, PhD, Steve Boswell, Steven T Boswell, Askel A 
Bothner By, PhD, Margurette E Bottje, PhD, William G Bottjer, Edmond M 
Bottorff, PhD, Michel Boudart, PhD, John H Boughton, PhD, R K Boutwell, 
PhD, Charles A Bower, PhD, John Roy Bower, PhD, John Bowers, Jean A 
Bowles, PhD, Lamar D Bowles, Robert E Bowling, PhD, John K Bowman, 
Lewis W Bowman, PhD, Robert S Bowman, PhD, Samuel Bowser, PhD, James E 
Box, PhD, Kevin Boyack, PhD, James Boyd, Jimmy W Boyd, Philip A Boyd, 
PhD, Ralph L Boyes, Bozlee, PhD, Robert G Brackett, PhD, Lawrence G 
Bradford, PhD, Bruce Bradley, Michael Bradley, Robert F Bradley, PhD, 
Robert S Bradley, George Bradshaw, W Newman Bradshaw, PhD, R Bradt, 
PhD, Robert Brady, J C Brakensieck, Cynthia R Branch, William Brandt, 
PhD, Stanton Braude, PhD, Richard H Braumlich, David Braun, Jennifer 
Braun, Kenneth Martin Brauner, PhD, Allan Brause, PhD, Ben Bray, PhD, 
Bruce G Bray, PhD, William Breach, Lee Brecher, PhD, Claude E Breed, 
Ted Breitmayer, A C Breller, Bart J Bremmer, William Breneman, Harold 
Brennan, John P Brennan, Abner Brenner, PhD, J Allen Brent, PhD, John H 
Bress, Joseph Breston, PhD, William A Brett, Randolph H Bretton, PhD, 
Harold W Bretz, PhD, Charles B Breuer, PhD, James Brewbaker, PhD, Doug 
Brewer, Gregory J Brewer, PhD, J R Brewer, Ken N Brewer, Robert N Brey, 
Robt N Brey, PhD, Edward Breyere, PhD, Darlene R Brezinski, PhD, P L 
Thibaut Brian, PhD, Alan G Bridge, PhD, P M Bridges, Andrew 
Briedenbach, Claudia Briell, James A Brierley, PhD, Edward M Briggs, 
James E Briggs, PhD, Robert B Brigham, Mont J Bright Jr, Karen Brignac, 
Tom Brignac, Frank Brimelow, Robert Bringer, PhD, Raymond S Brinkmey, 
PhD, James Brinks, PhD, Anne M Briscoe, PhD, Mike Briscoe, Paul 
Brittain, Michael Brittan, PhD, Michael W Britton, Alfred C Broad, PhD, 
Hyrum S Broadbent, PhD, Rainer Brocke, PhD, F S Broerman, Robert W 
Broge, PhD, Richard K Bronder, Fred A Brooks, Gordon Brooks, ND Brooks, 
Robert R Brooks, PhD, Charles O Brostrom, PhD, Robert J Brotherton, 
PhD, Rick A Brower, Albert L Brown, PhD, Billings Brown, PhD, Bruce L 
Brown, Charles Brown, PhD, Christopher J Brown, MD, David Brown, Gerald 
R Brown, PhD, Henry BR Brown, Henry S Brown, PhD, Herbert Brown, PhD, 
James Brown, James M Brown, PhD, Jeremy J Brown, Larry Brown, Lloyd L 
Brown, Melvin H Brown, PhD, Murray A Brown, PhD, Olen Brown, PhD, P T 
Brown, Richard Brown, Robert B Brown, Robert Brown, PhD, Robert E 
Brown, PhD, Roderick B Brown, MD, Ronald Brown, PhD, Roy W Brown, 
William M Brown, PhD, Don Brownfield, Paul Eugene Brubaker, PhD, Paul L 
Bruce, Carl W Bruch, PhD, Thomas Bruno, PhD, Kelly W Bruns, Lester G 
Bruns, PhD, Robert F Burns, PhD, Merlyn A Brusven, PhD, Frederick V 
Brutcher, Jr, PhD, Samuel R M Burton, Gary G Bryan, John D Bryan, Tom 
Bryan, John M Bryant, Ken Brzozowski, PhD, Russell A Buchanan, Carl 
Buck, PhD, Edward H Buckley, PhD, Stuart Buckmaster, Donald Buckner, 
Edsel T Bucovaz, PhD, Victor Buhrke, PhD, Daniel Bullard, PhD, Ervin T 
Bullard, PhD, David Bullock, Walter T Bulson, David Wm Bunch, PhD, 
Harry D Bunch, PhD, Hallie Flowers Bundy, PhD, Martin Bunton, James J 
Burchall, PhD, Daivd Burdeaux, Robert Burger, Roger C Burggraf, Leonard 
F Burkart, PhD, E A Burke, Marty Burke, Richard L Burke, PhD, Harold E 
Burkhart, PhD, David R Burley, PhD, Bryan Burnett, John N Burnett, PhD, 
Robert W Burnop, Frank B Burns, PhD, Robt D Burns, PhD, Mike Burnson, 
Michael Burrell, Richard S Burrows, PhD, Eddie Burt, PhD, Calvin C 
Burwell, John Burwell, Neal Busch, PhD, Rick Buschini, Robert Bush, T 
Bush, Edwin F Bushman, David Butler, George B Butler, PhD, James 
Butler, James L Butler, PhD, Philip Alan Butler, PhD, Rhendal C Butler, 
Stan Butt, Thomas A Butterworth, PhD, Sidney E Buttrill, PhD, Rodney G 
Butts, P D Bybee, Jr.

Category: C
    Wm P Cadogan, PhD, Howard H Cady, PhD, Edward George Caflisch, PhD, 
Charles E Cain, PhD, David W Caird, Daniel L Calahan, PhD, Leonard J 
Calbo, PhD, A G Caldwell, PhD, Robert E Calhoo, PhD, John Calhoun, Mike 
Callahan, Chris Calvert, PhD, William Camerer, Mike Cameron, Frederick 
W Camp, PhD, Ernest Campaigne, PhD, John D Campanella, Douglas J 
Campbell, George Campbell, PhD, Larry Campbell, Milton Hugh Campbell, 
Warren E Campbell, PhD, Robt D Campo, PhD, Daniel T Canavan, Zoe 
Canellakis, PhD, Paul Canevaro, Peter Cannon, PhD, Peter J Canterino, 
PhD, Manfred Cantow, PhD, Walter Canzonier, Michael E Caplis, PhD, 
Thomas D Carder, William Thomas Cardwell, Darrel E Cardy, Harold E 
Carley, PhD, Dave Carlson, Edward C Carlson, PhD, Lawrence O Carlson, 
David W Carnell, E Louis Caron, PhD, Lyle L Carpenter, Robert 
Carpenter, Thomas Carpenter, Will D Carpenter, PhD, Brenda L Carr, 
Edward M Carr, Laura H Carreira, PhD, Marion M Carrion, PhD, Gilbert C 
Carroll, MD, J Randall Carroll, James A Carroll, PhD, John Carroll, 
PhD, Keith T Carron, PhD, Charles Carson, PhD, Richard M Carson, Mary E 
Carsten, PhD, Lynn K Carta, PhD, David L Carter, PhD, John P Carter, 
Louise Carter, Mason C Carter, PhD, William Carter, Louis B Caruana, 
PhD, Hugh W Carver, James Clark Carver, PhD, Chris Cash, Armano Casola, 
PhD, Patrick E Cassidy, PhD, J K Cassil, Stan J Casswell, Neal 
Castagoli, PhD, Billy R Catherwood, Renata E Cathou, PhD, Thomas E 
Catlett, Robert Lee Caudill, MD, John A Caughlan, Jerry Caulder, PhD, 
Steven L Cazad, Rosemary L Centner, Arthur V Chadwick, PhD, Pamela 
Chaffee, Rowand Chaffee, PhD, Charles T Chaffin, PhD, Paritosh M 
Chakrabarti, PhD, Bruce Chamberlain, David L Chamberlain, PhD, Dilworth 
W Chamberlain, PhD, Roger S Chamberlin, RS Chamberlin, Doyle Chambers, 
PhD, Glen D Chambers, Carroll W Chambiss, PhD, Sham-Yuen Chan, PhD, Shu 
F Chan, PhD, Sunney L Chan, PhD, Leonard B Chandler, PhD, Chung Jam 
Chang, PhD, Yung Feng Chang, PhD, Bruce R Charlton, Edward Charney, 
Andrew J Chase, Thomas J Chastant, Norman Chatterton, PhD, Brad N 
Chazotte, PhD, Lynn Chcoran, E Cheatham, Zafarullah K Cheema, PhD, John 
Chehaske, Craig F Cheng, K L Cheng, PhD, Thomas C Cheng, PhD, Wade 
Cheng, PhD, Kenneth P Chepenick, PhD, Roy Cherris, Arthur Chester, PhD, 
Alfred P Chestnut, PhD, Dhan Chevli, PhD, William Chewning, Long Chi 
Lee, PhD, Yuen S Chiang, PhD, R Chiarenzelli, David Chilcote, PhD, 
Ronald B Child, David T Chin, PhD, Shyamala Chitaley, PhD, John G 
Chittick, David Chleck, Ye C Choi, PhD, Frank W Chorpenning, PhD, 
Robert J Chorvat, PhD, Peter S Chrapliwy, PhD, Geo A Christenberry, 
PhD, Alan Christensen, Charles R Christensen, PhD, Duane Christensen, 
Kent Christensen, Richard Christensen, James B Christiansen, PhD, 
Richard Christiansen, PhD, Robert M Christiansen, PhD, Warner Howard 
Christie, PhD, Dennis Christopherson, Alfred L Christy, PhD, Kenneth G 
Christy, Jack C Chroy, Donald J Ciappenelli, PhD, Ja Cifonelli, PhD, 
Marc Cimolino, PhD, Joseph R Cissell, Edwin Claassen, PhD, Gregory S 
Claine, Leroy Clardy, Howard G Clark, PhD, Hugh Clark, PhD, Ian Clark, 
James Clark, PhD, Kent Clark, Paul B Clark, Thomas Clark, Duane G 
Clarke, PhD, John F Gates Clarke, PhD, Joseph W Clarke, Larry Clarke, 
Richard H Clarke, PhD, Richard P Clarke, PhD, Karen Clausen, Don 
Clauson, Harris Clay, CK Claycomb, PhD, David Clayton, PhD, Fred 
Clayton, PhD, Wallace Cleland, PhD, Wm L Cleland, William M Clement, 
PhD, W Clift, David Cline, Dennis Cline, Warren K Cline, PhD, David N 
Clum, Mike Clumper, Mary Coakley, PhD, Keith H Coats, PhD, W Frank Cobb 
Jr, Elmer Lendell Cockrum, PhD, James Codding, Charles W Coe Ii, 
William D Coe, Michael Coffman, PhD, Anthony Cofrancesco, PhD, David B 
Coghlan, Lawrence Cohen, Ernst M Cohn, C E Coke, PhD, Gene Louis 
Colborn, PhD, Edward E Colby, Avean W Cole, PhD, Clarence R Cole, PhD, 
Randall K Cole, PhD, Philip J Colella, Robert Coleman, PhD, William E 
Coleman, Robt Coley, J R Colgan, MD, Summer Colgan, Hans Coll, PhD, 
Donald W Collier, James Collier, PhD, Thomas F Collier, MD, PhD, Wm B 
Collier, PhD, Alan Collins, PhD, Frederick C Collins, PhD, Jane E 
Collins, William Henry Collins, Wm F Collins, PhD, Carlos A Colmenares, 
PhD, Andre Coltrin, Clair R Colvin, PhD, Robert Neil Colwell, PhD, 
William T Colwell, PhD, E Keith Colyer, Leon Combs, PhD, John Comeaux, 
Jack Comeford, PhD, John Commerford, PhD, Wayne M Compton, John 
Conconnan, Norman I Condit, F Dee Conerly Jr, John Conlan, Carter B 
Conlin, Paul K Conn, PhD, James Connell, John J Connelly, Wm J Connick, 
Jr, Roddy Conrad, PhD, Walter E Conrad, PhD, David L Constans, Thomas W 
Conway, PhD, Mark Cook, PhD, Addison G Cook, PhD, Charels Cook, Donald 
J Cook, PhD, Glenn C Cook, MD, Maurice G Cook, PhD, Melvin A Cook, PhD, 
Anson R Cooke, PhD, Bingham Cool, PhD, William E Cooley, PhD, 
Marguerite W Coomes, PhD, Anne M Cooney, Edward Cooney, George P 
Cooper, Harry C Cooper, Robert C Cooper, PhD, Thomas Cooper, PhD, A D 
Copeland, Harry B Copelin, Frederick A Copes, PhD, Carl Corbit, Stephen 
Corcoran, Christopher Cordle, PhD, Walter H Corkern, PhD, Kenneth C 
Corkum, PhD, William E Cormier, Creighton N Cornell, Stephen W Cornell, 
PhD, Arlen C Cornett, Holley Cornette, David G Cornwell, PhD, Deborah A 
Corridon, Allen Costoff, PhD, Kevin Cotchen, Wilfred A Cote, PhD, Grant 
Cottam, Ronald A Coulson, PhD, William H Courtney III, PhD, Raymond C 
Cousins, PhD, Fred Covelli, Wm A Cowan, PhD, John B Cowden, Ronald R 
Cowden, PhD, Brian Cox, Clifford H Cox, PhD, Donald J Cox, PhD, Edwin 
Cox, Frederick Cox, Neil D Cox, PhD, Alan Coykendall, Kenneth R Coyne, 
C H Cracauer, John Merrill Craig, R E Craigie Jr, Donald Lee Crain, 
PhD, Donald J Cram, PhD, John R Crandall, PhD, Frederick L Crane, PhD, 
Chris L Craney, PhD, Richard A Craven, Clara D Craver, PhD, Jonathan 
Crawford, David Craymes, Ron Creamer, Buford Creech, Anne E Cress, PhD, 
Phillip O Crews, PhD, Diana Creyes, Donald F Crie, Harry N Cripps, PhD, 
Joseph P Crisler, PhD, Robert Crist, J L Crittenden, Thomas Bernard 
Croat, PhD, Charlie Crocker, Luanne S Crockett, Michael Croft, Robert K 
Crookston, PhD, Edward Crosby, David Crosley, Tom Crossman, Kenneth A 
Crossner, PhD, Gene Autrey Crowder, PhD, Curtis Crowe, Edwin P Crowell, 
C Richard Crowther, PhD, Robert H Crowther, Frank C Croxton, PhD, 
Richard Cruce, William J Cruice, Edward H Crum, PhD, Cris Cruz, Richard 
L Cryberg, PhD, Billy Crynes, Donald F Cue, John R Culbert, Chris Cull, 
John S Cullen, Floyd Culler, A S Cullick, PhD, Richard W Cummins, PhD, 
Lawrence E Cunnick, Howard Cunningham, PhD, Thomas J Curphey, PhD, Ira 
B Current, William W Currier, PhD, Janet C Curry, John Curry, Maria A 
Curtin, PhD, Fred W Curtis, Jr, Chopin Cusachs, PhD, Herman C Custard, 
PhD, Thomas P Czepiel, PhD, James Oziomek, PhD, Shannon Czysz.

Category: D
    Charles H Daggs, Robert S Dahlin, PhD, Donald Dahlstrom, PhD, 
Alfred Dakrig, Glenn I Dale, Harry Dalton, PhD, Michael Daly, George 
Damon, PhD, Jess Donald Daniels, PhD, Wayne Daniels, Jerry Danni, S 
Dantiki, PhD, Morris J Danzig, PhD, Josephe E Darsey, MD, PhD, Dean 
Daryani, Hriday Das, PhD, Theodore Dashman, PhD, Gregory W Daues, T C 
Dauphine, PhD, Dennis Dautreuil, Moses M David, PhD, Clayton L 
Davidson, James Davidson, Thomas Davidson, Harold W Davies, PhD, Julian 
A Davies, PhD, Bruce W Davis, PhD, Frances M Davis, PhD, H Turia Davis, 
Harriett Davis, Harry Davis, PhD, Kent R Davis, Paul Davis, Ralph 
Davis, Raymond Davis, PhD, S Davis, Thomas Davis, PhD, W Kenneth Davis, 
Wallace Davis, PhD, John A Davis Jr, PhD, Arthur D Dawson, PhD, David 
Dawson, Donald F Day, PhD, Harry G Day, PhD, Michael Day, PhD, R A Day, 
PhD, William Day, PhD, Donald W De Jong, PhD, Eugene De Rose, PhD, John 
Deacon, David L Dean, PhD, Sheldon W Dean, PhD, Warren E Dean, PhD, 
Donald Deardorff, PhD, David W Deberry, PhD, Edward Dale Deboer, 
Charles Deboisblanc, Francis Debons, PhD, Wayne Deckert, PhD, Paul 
Decusati, PhD, Gary Defoti, PhD, Rosalie F Degiovanni-Donnelly, PhD, 
John Dehn, PhD, Eugene Wm Dehner, PhD, Susan Deines, Phillip Delassus, 
PhD, William M Delaware, Joe D Delay, PhD, Robert M Delcamp, PhD, E F 
Delitala, Jon Delong, Anthony J Delucca, Winston R Demonsabert, PhD, 
David Denhardt, PhD, Frank W Denison, PhD, Robert Dennett, Richard 
Denney, Richard S Dennis, William E Dennis, PhD, Norman C Deno, PhD, 
Edmond J Derderian, PhD, Charles Desbordes, Wm Deskin, PhD, Raymond E 
Dessy, PhD, R P Destefano, PhD, William D Detlefsen, PhD, R Deufel, 
PhD, Marshall E Deutsch, PhD, Robert M Devlin, PhD, Frederick W 
Devries, Mel Dewsnup, Jerry J Dewulf, Alan Dexter, PhD, Cecil M 
Dinunno, Arthur S Diamond, Marian C Diamond, PhD, John K Dibitz, 
Phillip Dick, Richard J Dick, Charlesworth L Dickerson, PhD, Winifred 
Dickinson, PhD, Wm B Dickinson, PhD, Dave Dicksor, Henry A Diederichs, 
MD, Kenneth Diesburg, PhD, Jerry A Dieter, PhD, John Dieterman, Alm 
Dietz, Armand Digiacomo, PhD, Joseph B Digiorgio, PhD, Ken Dillard, 
Robert G Dillard, Daniel Dillon, Ray Dillon, Raymond Dillon, PhD, 
Raymond Dimartini, PhD, Robert Hudson Dinegar, PhD, Howard L Dinsmore, 
PhD, Ronald J Dinus, PhD, William Dinusson, PhD, R W Dirks, James D 
Dixon, PhD, Marvin P Dixon, PhD, Elliott Doane, PhD, Harry D Dobbs, 
PhD, Carroll Dobratz, PhD, Donald C Dobson, PhD, Gerard Dobson, PhD, 
Martin L Dobson, Nama Doddi, PhD, George C Doderer, Richard A Dodge, 
PhD, Gerald E Doeden, PhD, Eugene Doering, William A Doerner, PhD, J W 
Dohr, Michael F Dolan, Geoffrey E Dolbear, PhD, Wm Read Dolbier, PhD, 
Bruce J Dolnick, PhD, John M Domagala, PhD, John M Domagala, PhD, 
William Donald, PhD, Gary B Donart, PhD, Henry Donato, PhD, Wenju Dong, 
PhD, James E Donham, Susanne Donovan, David Dooley, Thomas P Dooley, 
PhD, Barbara Doonan, PhD, Harold E Doorenbos, PhD, Guy H Dority, PhD, 
Kenneth J Dormer, PhD, Joe Dotzlaf, Jocelyn Douglas, PhD, Kathleen 
Douglas, Michael G Douglas, PhD, Westmoreland J Douglas, PhD, Robert W 
Douglass, PhD, Spencer Douglass, John Doull, PhD, Arthur Ostantinos 
Doumas, PhD, Sandra Dowdell, Roland Downing, PhD, Tom Downs, PhD, 
William F Downs, PhD, David J Drahos, PhD, Bruce D Drake, PhD, Michael 
C Drake, PhD, Jean Draper, Edward A Dratz, PhD, James Drew, PhD, Larry 
A Drew, PhD, Harry J Driedger, MD, Albert John Driesch, Gary L 
Driscoll, PhD, Margaret Driscoll, Don A Sibley, PhD, James E Drummond, 
PhD, Harry V Drushel, PhD, G L Dryden, PhD, Gil Dryden, PhD, C F Duane, 
Del R M Dubbs, PhD, E H Dubois, S C Dubios, Leonard Duda, PhD, Patricia 
M Duda, Thomas J Dudek, PhD, Howard Dudley, Thomas Dudley, Dudt, PhD, 
Donald J Dudziak, PhD, C J Duet, Leroy Dugan, PhD, Harold R Duke, PhD, 
Gary R Dukes, PhD, Peter P Dukes, PhD, Philip Gordon Dunbar, PhD, 
Charles L Duncan, PhD, Warren Dunkel, Larry Dunn, Frederick C Durant 
III, Mary Durick, James Durig, PhD, John Durig, Gordon B Durnbaugh, 
Sophie Dutch, James Duvall, Paul B Duvall, MD, Ernest J Duwell, PhD, 
James P Dux, PhD, Roger L Van Duyne, PhD, Isaac Dvoretzky, PhD, Dushan 
Dvornik, PhD, Francis G Dwyer, PhD, Michael Dwyer, Alan C Dyar, 
Clifford Dykstra, PhD, J Robert Dynes, PhD, Philip J Dziuk, PhD.

Category: E
    Bertram E Eakin, PhD, James Earle, Thomas Earles, D B Easty, PhD, 
Philip E Eaton, PhD, Kenneth Ebel, PhD, Gary Eberly, Floyd Eberts, PhD, 
DP Ebright, Lawrence T Eby, PhD, Bernard Ecanow, PhD, Carrie Eddy, 
Charles K Edge, PhD, Janes M Edgecombe, Robt Edgerton, PhD, John 
Edgington, Paul Edmiston, PhD, Charlie Edwards, J Gordon Edwards, PhD, 
Wm F Egelhoff, PhD, Donald A Eggert, PhD, Peter Egli, Richard Egly, 
PhD, William Ehringer, PhD, Dion R Ehrlich, MD, H P Ehrlich, PhD, 
Robert Eichelberger, PhD, Paul Eichenberger, Jacob Eichhorn, PhD, 
Kendrick R Eliar, PhD, Gary L Eilrich, PhD, Dean W Einspahr, PhD, Kurt 
F Eise, J David Ekstrum, Guindy Mahmoud Ismail El, PhD, Dennis Eland, 
Richard E Elden, Jack R Elenbaas, James Eley, PhD, Gabriel Elgavish, 
PhD, Hans Elias, PhD, Michael J Elkind, Arthur Eller, PhD, Douglas G 
Elliot, PhD, Alice E Elliott, PhD, Alice Elliott, PhD, Gary Elliott, 
Howard C Elliott, PhD, W S Elliott, David A Ellis, PhD, Everett L 
Ellis, PhD, Richard J Ellis, PhD, K Donald Ellsworth, Andy Elms, Sandy 
Elms, Howard G Elrlich, PhD, Shaker El-Sherbini, PhD, Donald W Emerich, 
PhD, Edward Emery, PhD, Philip H Emery Jr, PhD, Matt Emison, John L 
Emmerson, PhD, Alvin Engelke, Franz Engelmann, PhD, Charles F Engles, 
John Joseph Ennever, DDS, Leonard E Ensminger, PhD, Bruce Enyeart, 
Richard A Eppler, PhD, J Michael Epps, MD, Robert Allan Erb, PhD, John 
K Erbacher, PhD, William Erby, PhD, John Erdmann, John G Erickson, PhD, 
Joshua A Erickson, Klaas Eriks, PhD, Jack Eriksen, Jan Erikson, PhD, 
Jay A Erikson, PhD, R W Erwin, Theodore W Esders, PhD, Ramon Espino, 
PhD, Robert H Essenhigh, PhD, Daniel Esterline, PhD, John H Estes, PhD, 
Frances C Esteve, S Etter, Wm Henry Eustis, PhD, Charles A Evans, PhD, 
Claudia T Evans, PhD, Howard E Evans, PhD, Marjorie W Evans, PhD, R 
Evans, Thomas Walter Evans, PhD, Wm Evans, F Monte Evens, PhD, Martin E 
Everhard, MD, PhD, Eugene Eyster, PhD.

Category: F
    David R Fagerburg, PhD, Stephen R Fahnestock, PhD, Richard B Lai 
Fatt, PhD, James R Fair, Jr, PhD, Dennis A Falgout, PhD, Donald 
Fancher, PhD, Don Fanslow, PhD, Farber, Earl Faria, Robert H Fariss, 
PhD, Charles Farley, Ollie Farnam, Wells Fransworth, PhD, Michael 
Farona, PhD, Charles Farrell, PhD, Eugene P Farrell, David Fashimpaur, 
Gerald Fassell, Arlo W Fast, PhD, Homer D Fausch, PhD, John R Favorite, 
Henry A Feddern, PhD, James Fedrich, PhD, Abraham S Feigenbaum, PhD, 
Harvey L Fein, PhD, Louis Feinstein, PhD, Robert Feisel, D Feller, PhD, 
Ronald L Felsted, PhD, Lorie M Felton, Steve Fenderson, Robert W Fenn, 
PhD, Donald Fenton, PhD, John Fenton, PhD, WJ Fergerson, Dave D 
Ferguson, David Ferguson, PhD, John Ferguson, Robert Ferguson, Richard 
L Ferm, PhD, William James Ferrell, PhD, Jorge Ferrer, Wm A Fessler, 
PhD, Dale A Fester, Edward M Fettes, PhD, H Richard Fevold, PhD, John A 
Feyk, Herbert J Fick, Byron D Field, Jack Field, PhD, Ray Field, PhD, 
Thomas Field, PhD, Tim Figgie, Prof Roy H Filby, PhD, Theodore H Filer, 
PhD, Tom Filesi, Warren FilleyFilley, MD, Charles Richard Finch, PhD, 
Paul Finkelstein, PhD, Charles Finkl, PhD, Peter S Finlay, PhD, Frances 
M Finn, PhD, John M Finn, PhD, James Fiordalisi, PhD, Bryant C 
Fischback, Dwayne Fischer, PhD, John Fischley, GL Fish, Wayne W Fish, 
PhD, J W Fishback II, Geo H Fisher, PhD, William H Fishman, PhD, Klaus 
Flach, PhD, John F Flagg, PhD, Eugene Flaumenhaft, PhD, Charles W 
Fleischmann, PhD, Alison Fleming, PhD, Bruce Ingram Fleming, PhD, 
Julius Fleming, Thomas H Fletcher, PhD, William Flis, Harold W Flood, 
David Flowers, G Flowers, PhD, Edward Gotthard Foehr, PhD, Robert R 
Foil, PhD, John E Folk, PhD, Paul V Fonnesbeck, PhD, Marc E Fontaine, 
PhD, Herman Fonteyne, John T Foorley, PhD, Wilford Foote, PhD, Michael 
S Forbes, PhD, George E Ford, PhD, J Ford, PhD, Thoams Ford, PhD, 
Edmund H Fording, Jr, President, Edward Forest, PhD, Eugene J 
Fornefeld, PhD, Albert J Forney, R C Forrester III, PhD, Denis Forster, 
PhD, Michael Forster, PhD, John Forsyth, PhD, Dennis Fost, PhD, Cy E 
Foster, D R E M Foster, PhD, Donald M Foster, PhD, Gerald Foster, PhD, 
John A Foster, Mac Foster, PhD, Norman C Foster, PhD, Walter E Foster, 
PhD, Chris Fountain, PhD, Eric B Fowler, PhD, Frank C Fowler, PhD, Gary 
D Fowler Jr, Dwaine Fowlkes, Gerald Fox, J Fox, Michael R Fox, PhD, 
Neil S Fox, PhD, James J Foy, PhD, Walter J Frajola, PhD, Roger 
Frampton, PhD, Guy J Del Franco, Charles E Frank, PhD, Clifford Frank, 
R S Frank, Gordon Franke, PhD, Julian Frankenberg, PhD, Neal E Franks, 
PhD, Martin S Frant, PhD, Bruce Frantz, Warren L Franz, PhD, Daniel W 
Frascella, PhD, Margaret S Fraser, PhD, Nile N Frawley, PhD, R Thomas 
Frazee, Randy Frazier, Roger Frazier, Stephen E Frazier, PhD, William R 
Frazier, Raymond Frederici, Lloyd R Frederick, PhD, Max Freeland, PhD, 
James F Freeman, PhD, Reola L Freeman, Kenneth French, PhD, Scott 
French, Melvin Frenzel, Arthur L Fricke, PhD, Joe Fiedlander, Raymond 
Friedman, PhD, H Friedmann, Herbert C Friedmann, PhD, Dwayne T Friesen, 
PhD, Charles R Frink, PhD, Fripiat, PhD, Harry K Fritchman, PhD, Alfred 
K Fritzche, PhD, Herbert Farley Frolander, PhD, David Fromson, PhD, U 
George Frondorf, H R Froning, PhD, Arthur A Frost, PhD, John Frost, 
PhD, Si Frumkin, Alfred E Fuehs, Robert S Fulghum, PhD, Forst D Fuller, 
PhD, Ron Fuller, Robert Fulton, PhD, Dennis L Funck, PhD, B L Funt, 
PhD, Francis S Furbish, PhD, R W Furner, Gabriel Fusco, PhD, John 
Fuzek, PhD.

Category: G
    Sabit Gabay, PhD, Morris Gabel, Richard A Gabel, PhD, Jim Gadwood, 
Lanelle G Gafford, PhD, Frederick W Gage, A Gahr, PhD, Tinsley P 
Gaines, Robt G Galazin, Louis Galie, James Gallagher, PhD, Joan S 
Gallagher, PhD, Donald L Gallaher, Ethan C Galloway, PhD, Darrell 
Gallup, PhD, Yakob Galperin, PhD, David Gambal, PhD, James J Gambino, 
Bernard Wm Gamson, PhD, Harendra S Gandhi, PhD, Mary C Gannon, PhD, 
Richard H Garber, PhD, George F Garcelon, C M Garcia, Wayne Scott 
Gardner, PhD, Jerry Gargulak, PhD, Clyde H Garman, Ronald G Garmon, 
PhD, H Richard Garner, Robt J Garner, Jeanette Garr, PhD, Thomas M 
Garrett, PhD, Robert G Garrison, PhD, John E Garst, PhD, Daniel L 
Graver, Justine S Garvey, PhD, Todd Garvin, MD, Douglas L Garwood, PhD, 
Gary J Gascho, PhD, Jerry Gass, Jay B Gassel, Edward Wm Gassie, PhD, R 
H Gassner, A D Gate, George L Gates, Gerald O Gates, PhD, Anthony R 
Gatti, PhD, Eugene R Gaughran, PhD, Donald W Gauntlett, Henry T 
Gawrylowicz, David Gay, Richard L Gay, PhD, Joseph Gaynor, PhD, Rick D 
Gdanski, PhD, Roy L Gealer, PhD, Richard Geesey, PhD, Colin V Gegg, 
PhD, D C Gehri, PhD, Robert F Gehrig, PhD, Perry J Gehring, PhD, James 
E Geiger, Paul J Geiger, PhD, Philip Geis, PhD, Celine Gelinas, PhD, 
Gennaro, PhD, Joseph C Gentry, Boyd A George, PhD, Raymond George, PhD, 
W H Dreme George, Gerard Allen Geppert, Robert Gerger, Earl Robert 
Gerhard, PhD, George W Gerhardt, PhD, Henry D Gerhold, PhD, TC Gerhold, 
Michael Gerkin, Richard P Germann, PhD, Peter J Gerone, PhD, Mark 
Gerstein, PhD, Eric Gerstenberger, Joseph E Gervay, PhD, Forrest E 
Getzen, PhD, Alex Gezzy, Camillo Ghiron, PhD, Louis Charles Gibbons, 
PhD, Thomas G Gibian, PhD, Ken Giebe, Leo Giegzelmann, Frederic A 
Giere, PhD, Dewayne E Gilbert, PhD, Garrell Gilbert, Joel Gilbert, 
Peter Gilbert, William Gilbert, PhD, William Gill, PhD, Wm R Gillen, 
Bob Gillespie, Jeff Gillespie, William H Gillespie, Nicholas W Gillham, 
PhD, Travis H Gillham, George A Gillies, PhD, T Ja Gilligan, PhD, 
Jacques Gilloteaux, PhD, James R Gilman, Ernest R Gilmont, PhD, John 
Gilmore, PhD, John H Gilmore, Mark Gindling, Thomas H Giordano, PhD, 
Georgina Gipson, Johanna Glacy-Araos, Marvin Glass, Werner Glass, PhD, 
Clifford Glenn, Donald Glenn, John Glissmeyer, John W Glomb, PhD, 
Richard H Gnaedinger, PhD, Matthew Gnezda, PhD, William Godaif, Ludwig 
E Godycki, PhD, Frederick A Goellner, Grayce Goertz, PhD, Thomas 
Goettge, Eugene Goldberg, PhD, Randy Golding, PhD, William T Golding, 
Lionel S Goldring, PhD, Theodore P Goldstein, PhD, Patrick Goldsworthy, 
PhD, William Gong, PhD, Ely Gonick, PhD, Tim Good, William Good, Robert 
Goodman, Byron Goodrich, John Goodrich, Louie A Goodson, Korwin J 
Goodwin, John C Goon, V L Goppelt, Martin L Gorbaty, PhD, Milton 
Gorham, Joseph Gorsic, PhD, Timothy N Gorski, MD, PhD, Waldemar Gorski, 
PhD, Howard Gorsuch, Christopher Gosling, George R Goss, PhD, John R 
Goss, Albert Gotch, PhD, George Gott, John Gottschling, Thomas L Gould, 
PhD, Alan Goulet, John Graf, Bob Graham, Dee McDonald Graham, PhD, Gary 
G Graham, PhD, Joseph W Grahame, Robert E Gramera, PhD, Robert Gramera, 
PhD, Alphonse P Granatek, Clark A Granger, PhD, Donald J Grantham, 
Jurgen M Grasshoff, PhD, Kenneth Graues, Robert J Graves, Lewis Gray, 
Michael Gray, PhD, Steven Gray, Frank Graziano, PhD, Randolph K 
Greaves, Marvin L Green, Saul Green, PhD, George M Greene II, PhD, 
Harold Greenfield, PhD, Gerald A Greenhouse, PhD, Howard E Greenwell, 
Robert Griffith, Mike Greger, Charles T Gregg, PhD, David Gregg, David 
H Gregg, PhD, Everett D Greinke, David R Gress, Edward L Griffin, 
Gordon W Gribble, PhD, Ray H Griesbach, Edward Griest, PhD, Harold L 
Griffin, Leland Griffin, Durward R Griffith, Roy Griffiths, PhD, Tom 
Griffiths, Mark Grigsby, PhD, Paul E Grindrod, PhD, Teddy H Grindstaff, 
PhD, Ernest E Grisdale, Robert Dwight Grisso, PhD, Alfred W Grohe, Alan 
B Grosbach, MD, Joseph F Gross, PhD, Fred Grosz, PhD, Morris P 
Grotheer, PhD, Henry M Grotta, PhD, Leonard C Grotz, PhD, James Robb 
Grover, PhD, Frank Groves, PhD, Alfred Gruber, David P Gruber, Gerald 
Wm Gruber, PhD, Gerry Gruber, PhD, Geza Gruenwald, PhD, Paul M 
Gruzensky, PhD, Harold J Gryting, PhD, Robert F Guardino, PhD, Terry 
Guckes, PhD, Elaine Guenther, Charles G Guffey, PhD, Arnold J Gully, 
Kenneth H Gum, Robert C Gunness, PhD, Wolfgang H H Gunther, PhD, Earl S 
Gurley, Robert J Gussman, Lyle Gust, Dwight F Gustafson, David L 
Gustine, PhD, Gerald Gutowski, PhD, Alvin Guttag, Kelleen Gutzmann, 
John V Guy-Bray, PhD, Allan Guymon, PhD.

Category: H
    Frederick C Haas, PhD, David S Olomon Hacker, PhD, Elard Haden, 
Rodney N Hader, Mark Hagadone, PhD, James Hagan, PhD, C Troy Haggard, 
Gerow R Hagstrom, PhD, Anthony Haines, Thomas Haines, PhD, Ben Hajek, 
PhD, Reino Hakala, PhD, Arnold Hakkila, PhD, Martha Hale, PhD, Charles 
Hall, PhD, Ken Hall, Kenneth L Hall, PhD, Nathan A Hall, PhD, Norm 
Hall, Phillip Hall, Rebecca Hall, Sieglinde Haller, John H Hallman, 
PhD, Donal W Halloran, Kevin Halstead, Edward E Hamel, PhD, William A 
Hamill, Gordon A Hamilton, PhD, James W Hamilton, PhD, Priscilla O 
Hamilton, PhD, John Hamaker, PhD, Robert M Hammaker, PhD, Jack A 
Hammond, Raymond E Hammond, Charles E Hamner, PhD, Linda C Hamphill, 
MD, Adrian J Hampshire, Richard O Hampton, PhD, Suleiman M Hamway, PhD, 
Diane K Hancock, PhD, Cadet Hand, PhD, John W Hand, John B Haney, MD, 
Dallas Hanks, Bill M Hann, George C Hann, Robert B Hanna, Samuel L 
Hansard, PhD, Joann B Hansen, PhD, Joann B Hansen, PhD, R Thomas 
Hansen, PhD, Steve Hansen, PhD, Rowland Hansford, Harry R Hanson, E W 
Hanszen, Michael L Haraczy, James E Hardcastle, PhD, Bryant Hardy, 
Edgar Erwin Hardy, PhD, P L Hardy Jr, Sandra Hardy, William Hardy, 
George B Hares, PhD, O W Hargrove, Wendell Harkey, Thomas Harkins, Mary 
L Harmon, Grant H Harnest, PhD, Paul M Harnsberger, Dean O Harper, PhD, 
Helen Harper, John D Harper, John E Harper, Todd Harper, B L Harris, 
PhD, Ben G Harris, PhD, Joseph B Harris, PhD, Burton Harrison, Ernest A 
Harrison, PhD, Francis L Harrison, Elbert N Harshman, PhD, Melissa 
Hart, Paul Hart, Randall E Hart, Robt D Harter, PhD, Robert R 
Hartsough, Nathan L Hartwig, PhD, Nicholas Hartwig, PhD, Charles R 
Hartzell, PhD, Clarence C Harvey, Kim L Harvey, John Harville, PhD, 
Eldert C Hartwig, PhD, Wm H Harwood, PhD, William L Hase, PhD, Caryl 
Haskins, PhD, William J Haslem, James R Hass, PhD, Kirk Hastings, Roger 
C Hatch, Herbert J Hatcher, PhD, Robert Haubrich, PhD, James Hauff, 
Arthur Haug, PhD, Victor Hauser, PhD, Rudolf M Hausler, PhD, Warren M 
Haussler, Helga F Havas, PhD, Robert Havens, Gerald B Havenstein, PhD, 
Anton J Havlik, PhD, Robert Hawthorne, Fred Hayduk, W P Hayduk, Douglas 
Hayes, PhD, Michael Hayes, PhD, Robertm Hayes, PhD, Frank L Haynes, 
PhD, Kenneth Heacock, Ronald A Head, PhD, Harold Franklin Heady, PhD, 
Robert S Hearon, Phillip C Hebert, John Heckman, PhD, Gregory Hedden, 
PhD, James H Hedges, PhD, Ross M Hedrick, PhD, Carl J Heffelfinger, 
PhD, Roger Heiland, J Heilman, PhD, Ron Heisner, Roger Heitland, James 
R Helbert, PhD, Stephen Helbing, Duane Helderlein, David Helfand, Henry 
Hellmers, PhD, John Helwig, Bruce C Hemming, PhD, Klaus H Hemsath, PhD, 
Charles A Hen, David E Henderson, PhD, James Henderson, PhD, Jeannine L 
Henderson, Jerry Henderson, Kenneth P Henderson, Lavell M Henderson, 
PhD, Charles Hendricks, Deloy G Hendricks, PhD, John P Hendrickson, 
Malcolm Hendry, PhD, Shawn Heneghan, PhD, Ernest J Henley, PhD, Jim 
Hennessy, Henry W Hennigan, William A Hannigan, Lester A Henning, 
Gustav Henrich, Jonathan F Henry, PhD, William Henry Jr, Wiley H 
Henson, Jr, PhD, James Hentges, PhD, John Frederick Herber, PhD, Lloyd 
E Herdle, PhD, William L Hergenrother, PhD, Ronald C Herman, PhD, 
Robert W Hermsen, PhD, Robert Hern, Sandy Herndon, Ernest C Herrmann, 
MD, PhD, Zvi Herschman, MD, J Wilson Hershey, PhD, John William Baker 
Hershey, PhD, Irwin Herskowitz, PhD, Fred Hertlein III, Charles H Herty 
III, PhD, John Herweh, Robert A Herzog, Robert P Heslop, MD, Eugene 
Hess, PhD, David A Hessinger, PhD, Norman E Hester, PhD, James V 
Hewett, PhD, Robert E Heyden, Heyen, PhD, Ken Hucke, Jack Hickey, 
Kenneth Hickey, PhD, David K Hickle, Howard M Hickman, James L Hickman, 
Karen Hickman, PhD, Donald Hicks, PhD, Harold E Hicks, Michael Hicks, 
Clarence E Hieserman, Margaret A Hight, Thomas M Hilderbrand, Robt E 
Hileman, PhD, Hilgenberg, Bob Hill, Jack F Hill, PhD, Robert F Hill, 
Robt M Hill, PhD, W B Hill, PhD, Carol C Hilton, Larry Hinderager, 
Barton L Hinkle, PhD, Jack Hinman, PhD, Roger R Hinshaw, B Hinton, PhD, 
Tod Hinton, Todd O Hinton, Wiillie L Hinze, PhD, Arthur Hirsch, PhD, 
Robt W Hisey, PhD, Donald O Hitzman, Jonathan Hoadley, Brian G Hoal, 
PhD, Farrell D Hobbs, Melvin C Hobson, PhD, Robert C Hochel, PhD, 
Frederick A Hodge, PhD, Lawrence H Hodges, Albert B Hoefelmeyer, PhD, 
Arthur Hoeft, Roger A Hoffman, PhD, Theodore P Hoffman, PhD, Thomas 
Hoffman, Edward Hoffmann, Christopher J Hogan, PhD, D Hoiness, PhD, 
David L Holcomb, Palmer J Holden, PhD, James Holder, MD, Tammy Holder, 
Glenn Springs Holdings Inc, Russell Holland, PhD, David Henry 
Hollenberg, PhD, David V Holli, John C Holliman, John H Hollis, Harry L 
Holloway, PhD, Frank Joseph Holly, PhD, R W Holman, PhD, Eric Holmes, 
PhD, Howard Holmes, PhD, William Holmes, H Duane Holsapple, Don H 
Holzhei, PhD, Otto A Homberg, PhD, Franklin I Honea, PhD, John 
Honeycutt, PhD, Arie L Hoogendoorn, PhD, Kenneth E Hoogs, MD, James P 
Van Hook, PhD, Harold H Hopfe, Mike Horan, Sylvester P Horkowitz, Edwin 
Hornbaker, PhD, Ewin W Hornung, PhD, Myer G Horowitz, PhD, Lloyd A 
Horrocks, PhD, M Duane Horton, PhD, Steve Horton, Donald P Hoster, PhD, 
Allan Houanson, Joel Oliver Hougen, PhD, Ralph L Hough, Walter A Hough, 
PhD, Rodney T Houlihan, PhD, Wm B House, PhD, James O Houseweart, Riley 
Housewright, PhD, Eric Houze, Dwight D Howard, K B Howard, Stephen K 
Howard, Walter Egner Howard, PhD, Wm L Howard, Sr, PhD, John Howatson, 
PhD, George Howe, PhD, John Howe, PhD, Terry A Howell, PhD, Wesley R 
Howell, PhD, Fritz Howes, Ward Howland, David R Howton, PhD, William 
Hoychuk, Paul J Hoyer, PhD, C Hoyt, Roger Hrudy, Sung L Hsia, PhD, 
Hsien-Gieh Sie, PhD, T E Hsiu, PhD, Kuo Hom Lee Hsu, PhD, Robert Y Hsu, 
PhD, Calvin Huber, PhD, Don M Huber, PhD, Arthur E Hubscher, Charlie 
Huddleston, P M Hudnall, PhD, Larry Hudson, Robt B Hudson, Fred R 
Huege, PhD, B Jerry L Huff, PhD, Norman T Huff, PhD, Dennis Huffaker, 
James Hufham, PhD, Barry Hugghins, Donald Hughes, PhD, Kenneth H 
Hughes, Kenneth J Hughes, Michael Hughes, PhD, Travis Hughes, PhD, 
Robert Hughey, Augustine Hull, Philip W Humer, PhD, Allan Humpherys, 
Ray Eicken Humphrey, PhD, John G Hundley, PhD, Joseph W Hundley Jr, 
Douglas Hunt, George C Hunt, Mack Hunt, Arvel H Hunter, PhD, May Anne 
Hunter, Dave Hurt, Samir Hussamy, PhD, Robert Huston, David Hutcheson, 
PhD, William Hutchins, James H Hutchinson, PhD, F B Hutto, PhD, Monte L 
Hyder, PhD, Caryl H Hyland, PhD, J Walter Hylin, PhD, Wm E Hymans, PhD, 
Arnold G Hyndman, PhD.

Category: I
    Mike Ibarguen, Andrew Iezzi, Donald J Ifshin, Harold Igdaloff, Jon 
M Igleman, MD, D Igou, PhD, Donald K Igou, PhD, Charles A Ihrke, PhD, 
Robert M Ikeda, PhD, Phillip M Iloff, PhD, Samuel J Ing, MD, Criton S 
Inglessis, PhD, Criton C S Inglessis, PhD, Alvin R Ingram, PhD, Alfred 
Ingulli, Charles G Inman, Ronald S Inman, William B Innes, PhD, Kaoru 
Inouye, Lucy Ionas, Roar L Irgens, PhD, David Irvin, James B Irvine, 
Philip George Irwin, PhD, Sheldon E Isakoff, PhD, Martin Isaks, PhD, 
Teri Isakson, Don L Isenberg, PhD, Robt W Isensee, PhD, E W Itell, Olga 
Ivanilova, PhD, James A Ives II, Edwin H Ivey, Kenneth M Izumi, PhD, 
Robert A Izydore, PhD, Patrick T Izzo, PhD, Theodore Izzo.

Category: J
    Mitchell J Jablons, MD, Bill G Jackson, PhD, Harold L Jackson, PhD, 
Kingbury Jackson, Rick L Jackson, MD, Wm John Jacober, PhD, William 
Jacobi, PhD, Francis A Jacobs, PhD, Francis A Jacobs, PhD, John C 
Jacobs, PhD, M L Jacobs, PhD, Richard G Jacobs, Elaine L Jacobson, PhD, 
Irven Allan Jacobson, Donald F Jacques, PhD, Jonah Jaffe, PhD, Mordecai 
Jaffe, PhD, Kenneth I Rwin Jagel, PhD, Ray Jaglowski, Albert A Jagnow, 
Kenneth S Jago, MD, Richard J Jambor, David E James, PhD, Douglas E 
James, HS James, Virgil E James, PhD, 154 Johnson Hall, PhD, Everett 
Williams Jameso, PhD, Leon Jameton, Jiri Janata, PhD, Donald Janes, 
Borek Janik, PhD, Maximo Jante, Frank H Jarke, Kenneth Jarrell, Neldon 
Lynn Jarvis, PhD, John P Jastrzembski, Augus W Jaussi, PhD, Lynn 
Jaussi, Max Jellinek, PhD, Carol Jenkins, Sean Jenkins, Vernon K 
Jenkins, PhD, Alfred S Jennings, PhD, Creighton Jensen, PhD, Leeann 
Jensen, PhD, Marcus M Jensen, PhD, Randolph A Jensen, Randolph Jensen, 
Randolph Jensen, Robert Jensen, Thomas Jensen, PhD, Timothy B Jensen, 
PhD, Stewart C Jepson, Anthony E Jernigan, Michael W Jezercak, PhD, 
Charles Joanedis, Joerz, Eileen D Johann, PhD, Timothy Johans, MD, H 
William Johansen, PhD, Karl Richard Johansson, PhD, Sune Johansson, 
Charles W Johnson, Delmar R Johnson, Donald C Johnson, PhD, Donald D 
Johnson, PhD, Donald Johnson, PhD, Frank J Johnson, Fred Johnson, PhD, 
Frederic A Johnson, PhD, Glenn R Johnson, PhD, I Johnson, PhD, James W 
Johnson, PhD, M W Johnson, PhD, Mark A Johnson, Mark Johsnon, Melvin 
Johnson, PhD, Ray E Johnson, PhD, Richard D Johnson, PhD, Robert V 
Johnson, PhD, Rodney B Johnson, Ronald Johnson, Terrance Johnson, PhD, 
Terrell K Johnson, Todd Johnson, PhD, William Johnson, Bonnie Johnston, 
H D Johnston, PhD, Johnston, MD, PhD, Marshall Johnston, PhD, Matt 
Johnston, Stephan E Johnston, Stephen A Johnston, PhD, William D 
Johnston, PhD, John E Jolley, PhD, Von D Jolley, PhD, AD Jones, Alan R 
Jones, PhD, Bill Jones, PhD, Chrisopher Jones, Christopher H Jones, 
Frank N Jones, PhD, Jack Jones, PhD, John D Jones, MD, Richard H Jones, 
PhD, Taylor B Jones, PhD, Wesley M Jones, PhD, Wilbur C Jones, PhD, 
Peter E Jonker, Richard Joos, PhD, Gary Jordan, Robt K Jordan, Richard 
D Jorgenson, PhD, Raymond P Joseph, Edward S Josephson, PhD, David 
Jowett, PhD, D Joye, PhD, R E Juday, PhD, Joseph M Judge, PhD, Hiram P 
Julien, PhD, Frederick J Julyan, PhD, John A Jung, PhD, Eric 
Jungermann, PhD, Wm A Junk, PhD, D E Junker, PhD, M L Junker, PhD, 
James Junkin, Richard Jurgensen, MD, Richard S Juvet, PhD.

Category: K
    Matti Kaaranakari, Joe Kahn, John Kalafut, Norman W Kalenda, PhD, 
Robert J Kallal, PhD, Lisa Kalman, PhD, Beth Kalmes, Moses Kaloustain, 
PhD, Brian D Kaluzny, Margaret A Kaluzny, Victor V Kaminski, PhD, James 
M Kampfer, Ronald R Kamyniski, Antony Kanakkanatt, PhD, Joseph M 
Kanamueller, PhD, Stanley M Kanarowski, Bernard J Kane, Noel Andrew 
Patrick Kane, PhD, William Kane, PhD, Paul Thomas Kantz, PhD, James H 
Kanzelmeyer, PhD, Hillel R Kaplan, George Kapusta, PhD, Larry Kapustka, 
PhD, Richard D Karkkainen, Paul Karr, PhD, Kenneth S Karsten, PhD, Mark 
Kaschmitter, John D Kaser, PhD, Charles B Kasper, PhD, Robert J Kassal, 
Fellow, PhD, Raymond Kastendiek, Rosalind Kasunick, Williams S Kather, 
Herbert Katz, Joseph J Katz, PhD, Marvin L Katz, PhD, George B 
Kauffman, PhD, Jeffrey M Kauffman, Joel Kauffman, PhD, Thomas Kauffman, 
R G Kaufman, PhD, Robert Eugene Kay, PhD, Robert L Kay, PhD, 
Kazakevich, PhD, Armen R Kazanjian, PhD, Robt A Keeler, Iris Keeling, 
Harold M Keener, PhD, Robert D Keenum, Gerson Kegeles, PhD, Hubert 
Keily, PhD, Carroll Keim, Jerome B Keister, PhD, Morris Keith, Ed 
Kekec, Frederick Keller, PhD, Kenneth F Keller, PhD, Wm E Keller, PhD, 
Glen E Kellerhals, PhD, Craig T Kelley, Joseph Kelley, PhD, John 
Kellgren, PhD, Craig Kellogg, PhD, Colin M Kelly, PhD, Patrick Kelly, 
Raymond Kelly, PhD, W J Kelly, PhD, Frank N Kemmer, George Kemp, John D 
Kemp, PhD, Thomas Kenat, PhD, Shawn Kendall, L N Kendrick, Albert J 
Kennedy, PhD, John E Kennedy, PhD, William Kennedy, James Kennelley, 
PhD, Harris Kenner, Francis T Kenney, PhD, Geo C Kent, PhD, Jim Kent, 
Michael J Keogh, PhD, Joyce E Kephart, Donald L Kerr, PhD, Anna M 
Kerrins, Jesse Keville, Mel Keyes, PhD, Naaman H Keyser, Donald A 
Keyworth, PhD, Gregory B Kharas, PhD, Harold Kidd, PhD, Vincent J Kidd, 
PhD, Rodney Kiel, Terry Kienitz, Charles Kilgore, Dennis D Kilkenny, 
Theo D Kimbrough, PhD, Charles O King, PhD, F King, H H King, PhD, John 
W King, PhD, Joseph E King, Sanford King, PhD, Charles Kingrea, PhD, C 
Louis Kingsbaker, Jerome W Kinnison, Norma A Kinsel, PhD, Stephen C 
Kinsky, PhD, Ralph C Kirby, Earl Kirk, Clyde A Kirkbride, PhD, Hugh R 
Kirkpatrick, Ravi Kiron, PhD, Janet M Kirsch, Paul R Kirsch, Edgar W 
Kivela, PhD, Lassi Kivioja, PhD, Bruce H Klanderman, PhD, Amy G Klann, 
PhD, Miro Klecka, PhD, Vasilios Kleftis, RR Klein, PhD, W S Klein, 
Walter B Kleiner, PhD, Robert E Klenck, MD, Ronald W Klenk, PhD, John 
Kleyn, PhD, Gary Kline, Robert Kline, PhD, Roger C Klockziem, PhD, 
Melvin Klotzman, Anatole A Klyosov, PhD, Kent Knaebel, PhD, Edward A 
Knaggs, Stephen Knapp, Terence E C Knee, PhD, Wiliam Kneebone, PhD, B 
Kneeland, Tom Knetsley, Maurice Kniceley, James Knight, Jere D Knight, 
PhD, James Otis Knobloch, PhD, Charles P Knop, PhD, Charles P Knop, 
PhD, Floyd Marion Knowlton, Gregory D Knowlton, PhD, Christian W 
Knudsen Dr, PhD, Chung-Yu Ko, Ian Koblick, Henry Kobsa, PhD, Henry 
Kobsa, PhD, Arthur T Koch, PhD, D Koch, PhD, Robert Koch, Tyson Koch, 
William Koehl, PhD, Carol R Koehler, F Theodore Koehler, Janice 
Koehler, Gina L Koenig, Lee E Koepke, George O Kohler, PhD, James P 
Kohn, PhD, Frederick C Kohout, PhD, Randall Kok, PhD, Juha P Kokko, MD, 
PhD, Kurtis Koll, PhD, Bernard J Kolp, PhD, Stanley P Koltun, Roger W 
Kolvoord, PhD, Sam Kongpricha, PhD, Virgil Konopinski, Anthony Konopka, 
Dusan Konrad, PhD, David Kooyman, PhD, Charles B Koons, PhD, Frank 
Koontz, PhD, John T Kopfle, Bruce D Korant, PhD, Joseph Korch, Howard 
Kordes, John Kordosh, N Korens, Edmund C Kornfeld, PhD, Charles H 
Korns, PhD, Mary B Korpi, Mary Korpi, Daniel R Kory, PhD, Mark J 
Koslicki, Aaron D Kossoy, PhD, Robert Kostelniki, PhD, Robt A Koster, 
PhD, Eugene George Kovach, PhD, J L Kovach, PhD, Joseph E Kovacic, Nagy 
H Kovacs, PhD, Thomas F Kowalczyk Jr, Paul C Kowallis, Richard A 
Kowalsky, John N Kraeuter, PhD, E H Krafft, Richard Kraft, Jerry Kraim, 
PhD, John J Krajewski, PhD, Deborah J Krajicek, Karl J Kramer, PhD, 
Karl W Krantz, PhD, Jan Krason, PhD, Clyde H Kratochvil, MD, PhD, 
Robert Krauss, PhD, Arthur A Krawetz, PhD, Arthur Krawetz, PhD, Herman 
F Kraybill, PhD, John Krc Jr, Lawrence Krebaum, PhD, Ron Kreis, PhD, 
Carl Krespan, PhD, Joseph Z Krezandski, PhD, Roy Krill, Kevin Krist, 
PhD, Steve Kristoff, PhD, Mark S Kristy, MD, William G Krochta, PhD, 
Lillian A Kroenke, William J Kroenke, PhD, Rober Lee Kroodsma, PhD, 
John L Kropp, PhD, Julius R Kroschewsky, PhD, Philip M Krueger, PhD, 
Paul H Krumrine, PhD, Lorin R Krusberg, PhD, David J Kubicek, Donald 
Gene Kubler, PhD, Mitsuru Kubota, PhD, S Kubow, PhD, John F Read Kuc, 
PhD, James E Kuder, PhD, Marc Kudla, Donald Kuehl, Adelheid Kuehnle, 
PhD, George Kugler, PhD, Eugene J Kuhajek, PhD, Moira Kuhl, Michael 
Kuhlmann, Raymond E Kuhn, PhD, Kenneth Kuiken, PhD, Eugene Kulesza, 
Rudolph K Kulling, PhD, Samar Kundu, PhD, George W Kunze, PhD, Jing-Wen 
Kuo, PhD, James R Kuppers, PhD, David W Kurtz, PhD, Henry Kurusz, Peter 
Kusel, PhD, Andrew Kuzmission, Lydiane Kyte.

Category: L
    Peter Labosky, PhD, R G Lacallade, Rosemary Lacher, Sanford Lacks, 
PhD, Joseph T Laemmle, PhD, Franklin Laemmlen, PhD, Robert J Laffin, 
PhD, Evan D Laganis, PhD, Thomas W Lagrelius, MD, B D Lagrone, Michael 
L Laird, Jerry Laman, Allen B Lamb, Allen Lamb, Donald J Lamb, PhD, 
Roger Lamb, John P Lambert, Andrew Lambie, John P Lambooy, PhD, Trevor 
G Lamond, PhD, David L Lamp, Richard J Landborg, PhD, Wm C Landgraf, 
PhD, Jerome Lando, PhD, L Landry, William G Landry, Carl L Lane, PhD, 
Charles J Lane, George Lane, Robert Lane, PhD, Robt Lane, PhD, Scott 
Lane, Conrad M Lang, PhD, Robert Carl Lange, PhD, Paul B Langford, PhD, 
Philip G Langley, PhD, H Norbert Lanners, PhD, Edward Lanser, Frank M 
Lanzafame, PhD, Lanzafame, PhD, Evelyn P Lapin, PhD, Daivd Larsen, 
Elisabeth Larsen, Eric B Larsen, PhD, Eric Russell Larsen, PhD, Howland 
A Larsen, PhD, Lloyd Larsen, PhD, Robert P Larsen, PhD, Ashley Larson, 
Bruce L Larson, PhD, Charles Conrad Larson, PhD, Dana E Larson, Kenneth 
Larson, Philip Larson, PhD, Reginald M Lasater, Jack S Lasky, PhD, 
Andrew Lasslo, PhD, Alan R Latham, PhD, P R Latour, PhD, Robert P 
Lattimer, PhD, Duane E Lau, Lloyd H Lauerman, PhD, Robert J Laufer, 
PhD, Wm E Laupus, MD, Robert Laurence, PhD, Jim Lauria, Thomas 
Lauterio, PhD, Marcel E Lavoie, PhD, Layle Lawrence, PhD, Eugene J 
Lawrie, Richard Lawson, Jeffrey C Lawyer, William A Laycock, PhD, 
Norman Lazaroff, PhD, Gerald R Leather, PhD, Bill Lech, Richard V 
Lechowich, PhD, Harvey D Ledbetter, PhD, Joseph Ledbetter, PhD, Brian W 
Lee, PhD, D M Lee, David J Lee, Donald Lee, PhD, William Lee, PhD, 
Clark Leedy, PhD, James L Leef, PhD, Keith Leese, Bob Lefelar, Robert A 
Lefever, PhD, Harold Legate, Jim Lehmann, David Leibman, Richard 
Leicht, Algird G Leiga, PhD, Joshua M Leise, PhD, Paul Leithart, MD, 
Vicoria M Leitz, PhD, W L Lemon, MD, Ronald C Lenox, PhD, Ronald S 
Lenox, PhD, Joseph W Leone, Bruno Leonelli, Joseph Leonelli, PhD, 
Gregory S Leppert, PhD, Dennis Leppin, David M Lesak, Jim Leslie, 
Howard Lessoff, Gregory S Lester, Elma Laterman, PhD, Benjamin S Leung, 
PhD, Allan L Levey, Karen N Levin, S Benedict Levin, PhD, Bernard 
Levine, PhD, Sidney B Levinson, Louis Leviticus, PhD, Seymour Levy, 
Stanley S Levy, PhD, Robert M Lewert, PhD, Gordon D Lewis, PhD, Milton 
Lewis, PhD, Peter A Lewis, PhD, Robert Lewis, Russell J Lewis, PhD, 
William Lewis, PhD, Chia-Yu Li, PhD, Wei Li, David Licht, Irwin A 
Lichtman, PhD, Charles G Liddle, DVM, William Liddle, Timothy E Lien, 
Steven C Limke, James C Lin, PhD, Merlin Lindemann, PhD, Henry R 
Linden, PhD, Wm T Lindsay, PhD, Lindeman, Milton J Linevsky, PhD, 
Bernard A Link, PhD, Donald Linn, PhD, Glenn Liolios, William G Lipke, 
PhD, Michael Lipton, PhD, Emil P Lira, PhD, Adam Lis, PhD, Wm E Liss, 
Ellen K Lissant, PhD, Kenneth J Lissant, PhD, Bruce A Lister, Mark 
Lister, PhD, Jim Litchfield, Arthur Litheredge, Frank Little, Frank 
Little, Fred Liu, PhD, John Liutkus, PhD, Harold Lloyd, Vern Lloyd, 
Fred P Lobban, Gene M Lobrecht, Charles Lochmuller, PhD, Royce Z 
Lockart, PhD, Krystyna Locke, PhD, Raymond K Locke, William Lockett, 
Eric Lodewijk, Eric Lodewyk, Alfred R Loeblich III, PhD, Robert 
Loffredo, PhD, R Loftfield, John T Loftus, Charles B Loggie, Thomas J 
Loginess, Francis M Logullo, PhD, H Y Loken, PhD, Stanley J Lokken, 
PhD, Earl E Long, John Long, PhD, Joyce M Long, Justin T Long, PhD, 
William H Long, PhD, John B Longenecker, PhD, Martin S Longmire, PhD, 
Ian S Longmuir, Paul A Lan Longwell, PhD, Ruskin Longworth, PhD, Jerome 
J Looker, PhD, Herb Lopatka, W F Loranger, PhD, Thomas A Loredo, Jerry 
A Lorenzen, PhD, Larry Lortscher, Robert A Loscher, Edward T Losin, 
PhD, Mark J Losset, Peter F Lott, PhD, Doug Loudin, Gerard A Loughran, 
L Hh Louis, PhD, Jerry Loupee, Ben Lovell, Harold L Lovell, PhD, John R 
Lovett, PhD, Jan Lovy, PhD, Mark Lowell, PhD, Umass Lowell, PhD, 
Douglas Lowenhaupt, JM Lowenstein, PhD, G A Lowerts, PhD, Charles B 
Lowrey, PhD, Justin Lowry, Kenneth J Little, Kathleen M Lucas, Wm R 
Lucas, PhD, Donald H Lucast, PhD, Peter J Lucchesi, PhD, William Luce, 
PhD, George W Luckey, PhD, TD Luckey, PhD, Richard R Ludlam, C T 
Ludwig, H Ludwig, Oliver G Ludwig, PhD, Ralph E Luebs, PhD, C Luger, 
Scott Lugibihl, Caroline N Luhta, Carl A Lukach, PhD, Thomas J Lukas, 
PhD, Forrest Luke, Robert M Lukes, PhD, Rufus Lumry, PhD, Douglas E 
Lund, PhD, R Dwayne Lunsford, PhD, Owen R Lunt, PhD, John H Lupinski, 
PhD, Channing Lushbough, PhD, Carol J Lusty, PhD, Walter Wilhelm G 
Lwowsk, PhD, Arthur Lyall, A Lvin H Lybeck, John Lydic, Thomas L Lye, 
Sidney Lyford Jr, PhD, W R Lyman, Rodney G Lyn, PhD, Keith D Lynch, 
PhD, William S Lyon, Harold Lyons, PhD.

Category: M
    E Jerome Maas, PhD, Brian W Macarthur, PhD, Howard Maccabee, PhD, 
Bruce Macdonald, Digby D Macdonald, PhD, Michael J MacDonald, MD, PhD, 
P MacDougall, PhD, Robert M MacFarlane, Robert J Macher, Roy P Mackal, 
PhD, Bruce Macke, Joseph E MacMillan, PhD, Patrick K Macy, David A 
Madden, Scott E Maddox, Steve Maddox, Kenneth O Madsen, PhD, Raymond A 
Madson, Robert E Mady, John M Maerker, PhD, Charles A Magarian, Jules J 
Magda, PhD, John L Magee, Thomas Magee, Wm T Magee, PhD, Jerry 
Magloughlin, PhD, Om Prakash Mahajan, PhD, Kent Ira Mahan, PhD, Hugh D 
Maillie, PhD, Robert D Mair, PhD, J Malcom, Robert T Maleeny, Hans 
Weil-Malherbe, PhD, Jim Gorden Malik, PhD, Irving Malkin, James L 
Maller, PhD, D James J O Malley, PhD, Frank B Mallory, PhD, Joseph D 
Mallory, MD, Norman Malm, PhD, Tom Maloney, Joseph T Maloy, PhD, Robert 
Malstrom, PhD, Eugene Maltzeff, Edward Mancilla, Dorinda Mancini, Naga 
B Mandava, PhD, Baldev S Mangat, PhD, Frank D Mango, PhD, J David 
Manley, John D Manley IV, Warren O Manley, Kenneth G Mann, PhD, Francis 
Manning, PhD, Terry Manning, Sven Peter Mannsfield, PhD, Robt Mansell, 
PhD, Lee A Mansfield, Richard Mansfield, Greayer Mansfield-Jones, PhD, 
John R Manspeaker, John Manthey, Ronald Manus, PhD, Karl Maramorosch, 
PhD, L Frank Maranville, PhD, Gladys M Marcelli, PhD, Robert P 
Marchant, R Marcotte, PhD, Herman L Marder, PhD, Anthony Maresca, PhD, 
Brian Maridon, Michael J Marinak, Dan Marinello, Andrew C Marinucci, 
PhD, Michael Markels Jr, PhD, Jay G Marks, PhD, Paul Marnell, PhD, 
Dennis N Marple, PhD, Anthony D Marques, David Marquis, PhD, Marilyn 
Marquis, PhD, Thomas Marrero, PhD, Henry L Marschall, Sullivan Marsden, 
PhD, Wm Michael Marsh, A E Marshall Jr, Christopher R Marshall, PhD, 
Eugene Marshall, Harold G Marshall, PhD, Thomas E Marshall, PhD, David 
E Marshburn, MD, Roger W Marsters, PhD, Richard G Martella, Edward S 
Martin, PhD, Jack Martin, PhD, James W Martin, Michael Martin, PhD, 
Neils Martin, PhD, Peter M Martin, Ralph Martin, Richard Martin, PhD, 
Robert Martin, PhD, Scott Martin, Stanley Martin, T Scott Martin, 
Willard Martin, PhD, Francisco J Martinez, Robert A Martinez, Eric 
Martz, PhD, Carmine Mascoli, PhD, Jerzy Maselko, PhD, Louis T Mashburn, 
PhD, Thompson A Mashburn, PhD, Charles E Mason, PhD, Donald F Mason, 
PhD, Perry S Mason, PhD, Richard R Mason, PhD, Williams Mason, Lenita C 
Massey, MD, John L Massingill Jr, PhD, M Masthay, PhD, R Mastracchio, 
Joseph J Matarelli, William H Matchett, PhD, Robert Matejka, Walter K 
Mathews, PhD, Thomas W Mathewson, Robert J Mathieu, Mike Matis, David 
Mattthew, Charles Sedwick Matthews, PhD, Donald Matthews, Kenneth D 
Matthews, Charles Mattina, PhD, Guy C Mattson, PhD, Samuel A Matz, PhD, 
George T Matzko, PhD, Augustin D Matzo, Ralph W Maughan, Margaret N 
Maxey, MD, PhD, M J Maximovich, PhD, Arthur R Maxwell, PhD, Marion S 
Mayer, PhD, Theodor Mayer, PhD, Greg Mayes, Roger Mayhew, David F 
Maynard, PhD, Donald R Mayo, PhD, Ernst Mayr, PhD, Siegfried T Mayr, 
PhD, James Mayrath, PhD, David Mays, PhD, Larry Mayton, Robert R Mazer, 
S Mazil, PhD, G Mazis, John R McBride, PhD, Joseph J McBride, PhD, Ed 
Mccabbe, William D McCain Jr, PhD, Russell F McCann, Wm M McCardell, 
Danny W McCarthy, PhD, Glenn J McCarthy, Joseph F McCarthy, Niel 
McCarthy, PhD, Richard McCarthy, Richard McCarthy, Morley G McCartney, 
PhD, Clark W McCarty, PhD, Daniel G McChesney, PhD, James K McClanahan, 
Neil McClellan, Thomas McClelland, Chester M McCloskey, PhD, Marvin 
McClung, PhD, Jack L McClure, William Owen McClure, PhD, J R McCord, 
PhD, Joe M McCord, PhD, Rayford L McCoy, Philip G McCracken, PhD, K E 
McCready, Terry W McCreary, PhD, Donald A McCrimmon, PhD, Kevin 
Mccrory, George McCullars, MD, PhD, John Price McCullough, PhD, Kilmer 
S McCully, MD, PhD, John Dennis McCurdy, PhD, Harry C McDaniel, Ivan N 
McDaniel, PhD, Max Paul McDaniel, PhD, William D McDaniel, C McDaniels, 
David A McDevitt, Floyd McDonald, John McDonald, PhD, Lynn D Mcdonald, 
PhD, Mickey McDonald, Ted McDonald, PhD, Leslie M McDonough, PhD, 
Robert I McDougall, PhD, Edward McDowell, PhD, Thomas D Mcdowell, PhD, 
Wilbur B McDowell, PhD, Jennifer McDuffie, PhD, Paul McElfresh, PhD, 
Paul McElligott, PhD, Robert McElroy, J W Mcfarland, PhD, Omer H McGee 
Jr, Bill Mcgowan, PhD, Daniel McGuire, Mark McGuire, PhD, Stephen E 
McGuire, PhD, Lawrence Mchargue, PhD, Kenneth L McHugh, PhD, Charles G 
McKay, Roy McKay, William D McKee, PhD, Curus Milo McKell, PhD, William 
J McKenna, John J Mcketta Jr, PhD, Floyd McKinnerney, Michael Mckinney, 
PhD, Jerry McKnight, Stephen McKown, D McLain, PhD, Jerry D Mcmahon, 
Curtis J McMinn, Bryce H McMullen, PhD, Wilfred Mcmurphy, PhD, Ruth D 
McNair, PhD, Steve McNeely, PhD, William McNeill, PhD, Jasper L 
McPhail, MD, Clinton M McPherson, PhD, Richard McPherson, Robert 
Mcpherson, L D Mcqueen, PhD, Larry G McRae, PhD, Fred McSavis, PhD, C L 
McSpadden, Harry A McVeigh, PhD, David McVey, PhD, George W Mead, 
Robert C Meaders, Dean Meadows, Susan L Mearns, PhD, Alan J 
Mechtenberg, Richard Y Meelheim, PhD, E K Megerle, George H Megerle, 
Lester Meidenbauer, Dale J Meier, PhD, Jimmy Meier, Walter T Meinert, 
Norman A Meinhardt, PhD, Clifford L Meints, PhD, Merlin Meisner, Peter 
D Meister, PhD, George W Melchior, PhD, Robert F Rederick Meldau, 
Rodney Melgard, James R Mellberg, Bohdan Melnyk, Henry P Meloche, PhD, 
Daniel T Meloon, PhD, James R Melton, PhD, Jerry Melton, Robert S 
Melville, PhD, Ken Melybe, George D Mendenhall, PhD, Steven Menkus, 
Robert B Meny, Carl S Menzies, PhD, Alan C Merchant, MD, Paul B Merkel, 
PhD, Robert Mermelstein, PhD, John Lafayette Merriam, Ronald Merrill, 
PhD, Charles P Merrimen, PhD, Seymour Merrin, PhD, Allen Merritt, PhD, 
Henry N Merritt, PhD, Mark B Merritt, Robt E Merritt, Ross A Merritt, F 
P Mertens, PhD, Karen Mertins, Paul Louis Merz, PhD, Calvin D 
Messesmith, PhD, James Metcalf, Dean Metter, PhD, T Metzgar, PhD, 
Edmond G Meyer, PhD, Frederick G Meyer, PhD, Richard C Meyer, PhD, 
Robert Meyer, PhD, Earl L Meyers, PhD, Joseph N Miale, Edwin Michael, 
PhD, Wm E Michael, Wayne Michaelchuck, Nicholas Michaels, PhD, Lawrence 
A Michel, Lloyd R Michels, PhD, Therese Michels, PhD, David Michelson, 
M B Mick, Tim K Mickey, Duane S Mikkelsen, PhD, Douglas G Mikolasek, 
PhD, Daniel W Miles, PhD, William Miles, PhD, Otto Mileti, Richard 
James Millard, Alan Millen, Alan D Miller, PhD, Daniel Newton Miller, 
PhD, David R Miller, PhD, David W Miller, Dennis Miller, Dick Miller, 
PhD, Foil A Miller, PhD, Gail Miller, Gene Miller, PhD, Harold W 
Miller, James L Miller, PhD, Joseph H Miller, PhD, Larry Miller, Laura 
S Miller, Lawrence Miller, Lee Miller, Leslie T Miller, R Miller, PhD, 
Richard Miller, Robert C Miller, PhD, W Jack Miller, PhD, William 
Knight Miller, PhD, Spencer R Milliken, PhD, Ira K Mills, PhD, Jack 
Mills, PhD, Norman T Mills, Robert M Milton, PhD, Bryant A Miner, PhD, 
Robert S Miner, Jr, PhD, Thomas Miranda, PhD, Nawin Mishra, PhD, A 
Mishulovich, PhD, Ben G Mitchell, G C Mitchell, Patricia Mitchell, 
William W Mitchell, PhD, Arup P Mitra, Perry J Mixon, Gerald J 
Mizejewski, PhD, Julie A Mobley, John E Mock, PhD, Gabor Mocz, PhD, H 
Walter Moeller, Henry Moeller, PhD, James Moeller, William R Moeller, 
Marvin J Mohlenkamp, PhD, Jesse Mohrbacher, Javid Mohtasham, PhD, 
Albert J Moll, PhD, Jacob T Moll, MD, Kenneth Molly, Leo Monaghan, 
Mahmoud Abdel Monem, PhD, D Manos, Larry S Monroe, PhD, Harold Gene 
Monsimer, PhD, Al Montgomery, Gerald Montgomery, Monty Montgomery, 
David C Moody, PhD, Marcia Moody, PhD, Scott M Moody, PhD, Joan M 
Moore, Larry W Moore, PhD, Leonard O Moore, PhD, Richard Moore, PhD, 
Richard N Moore, Roger Moore, Tom D Moore, Walter C Moore, Peter T 
Mora, PhD, Ralph Moradiellos, Alice Moran, PhD, Moran, PhD, Ramon 
Morano, Timothy A Morck, PhD, George S Morefield, Dave Morgan, Lucian L 
Morgan, Paul Morgan, Stanley L Morgan, Thomas K Morgan, PhD, William T 
Morgan, PhD, David L Mork, PhD, Robert Morley, PhD, P H Mormile, 
Antonio Moroni, PhD, Paul H Morphy, Howard A Morris, PhD, John Morris, 
PhD, M C Morris, PhD, Paul Morris, PhD, Perry Morris, Robert Morris, 
Robert Morris, William E Morris, M E Morrison, PhD, Morrison, PhD, O 
Charles Morrison, Morrow, PhD, Wm S Morrow, PhD, George Morse, Jerome G 
Morse, PhD, Joe Mortensen, Richard F Mortensen, PhD, Raymond L Morter, 
DVM, PhD, Perry Morton, PhD, Susan Morton, T R Morton, Wayne Morton, 
Jacob Mortvedt, PhD, Thomas Moseley, Melvyn W Mosher, PhD, John R 
Mosley, PhD, Ronald J Mosso, Eldridge M Mount, PhD, Eldridge M Mount 
III, PhD, Charles F Mowry, Lee W Mozes, PhD, Walter J Mozgala, Barbara 
Mroczkowski, PhD, Richard C Much, Rosa M C Muchovej, PhD, Gordon M 
Muchow, PhD, Wim L Mueller, Robert Z Muggli, PhD, Francis Mulcahy, PhD, 
Jim Mullen, L Muller, Dennis M Mulvey, PhD, Dennis Mulvey, PhD, Karen E 
Mumm, T Munasinghe, PhD, David Munn, PhD, Dan Muno, Emil Moise Murad, 
Craig B Murchinson, PhD, Pamela W Murchinson, PhD, Fenoi Murdock, PhD, 
Stephen K Murdock, Richard C Murgittroyd, Robert S Murphey, PhD, 
Alexander J Murphy, PhD, Daniel B Murphy, PhD, John Murphy, PhD, 
Francis J Murray, PhD, James T Murrell, PhD, J Muse, PhD, James R 
Musick, PhD, R Musselman, PhD, Walter F Muzacz, Thomas J Muzik, PhD, 
John Mycroft, PhD, Clifford A Myers, Earl E Myers, PhD, Gerald B Myers, 
MD, Lyle L Myers, PhD, Ronald F Myers, PhD, Victor Mylroie, Thomas L 
Myron, Norbert R Myslins, PhD, Charles H Myslinsky.

Category: N
    Robert Naegele, PhD, Danny Naegle, Kenneth A Nagy, PhD, Yathi 
Naidu, PhD, Gangadharan V M Nair, PhD, John D Nalewaja, PhD, Eugene 
Malinowksi, PhD, Robert K Nance, Richard Narske, PhD, Ruth Naser, Roger 
D Nass, John Nasser, Roger Natzke, PhD, James K Neathery, PhD, Kenneth 
H Nebel, John E Nebergall, Daniel W Nebert, MD, Dana Neely, James W 
Nehls, PhD, Thomas Neil, PhD, Robert Overman Nellums, George Nelms, 
PhD, Charles A Nelson, PhD, Errol Nelson, George D Nelson, R T Nelson, 
Richard D Nelson, Ronald Nelson, Stephen Nelson, Melodee Nemeth, Jerry 
E Nendon, A David Nesbitt, Ray B Nesbitt, Stanley Nesheim, Lowell E 
Netherton, PhD, Arthur Nethery, PhD, Joseph Navin Neucere, Harry J 
Neumiller Jr, PhD, Edward F Neuzil, PhD, Martin Newcomb, PhD, Roger 
Newell, PhD, John M Newey, Marlyn Newhouse, PhD, H Newsom, PhD, Geo S 
Nichols, PhD, Marcella Nichols, Richard A Nichols, PhD, Robert Fletcher 
Nickerson, PhD, Michael Nicol, Paula W Nicola, Dennis A Nie, James 
Niebaum, Edmund L Niedzielski, PhD, R Nieffenegger, Donald R Nielsen, 
PhD, John Merle Nielsen, PhD, Ronald A Nielsen, DDS, Joseph A Nieroski, 
John Tse Tso Ning, PhD, George Niznik, PhD, Christopher P Nizzi, Ella 
Mae Noffsinger, Jim Noffsinger, PhD, Daniel Nogales, PhD, Edward J 
Nolan, PhD, Martin Nolan, Wayland Noland, PhD, Leo A Noll, PhD, James A 
Nollet, Henry F Nolting, Henry F Nolting, David B Norby, Peter J Nord, 
PhD, Carroll R Norden, PhD, Ivan Nordin, PhD, Randy Noriyuki, Edward D 
North, PhD, L D Northcott, Dexter B Northrop, PhD, Scott H Northrup, 
PhD, Lilburn L Norton, PhD, Robert Norton, S H Norton, PhD, Wm T 
Norton, PhD, Susan Norwood, Thomas E Noseworthy, James A Novitsky, PhD, 
Robert Novy, PhD, Leonard James Nugent, PhD, Wm R Nummy, PhD, Ann T 
Nunnemaker, Frank Q Nuttall, MD, PhD, William E Nutter, PhD.

Category: O
    Harold Oatfield, Gerald O'Bannon, PhD, Richard D Obarr, PhD, Donald 
Oberleas, PhD, Thomas W Obrien, PhD, John L Occolowitz, David Odde, 
PhD, George Odoherty, PhD, Vencil O' Donnell, John A Oeffner, Carl 
Oelze, Charles P Ofarrel, PhD, Marvin L Oftedahl, PhD, Naomi N 
Ogimachi, PhD, Pearl R Ogle, PhD, David J Ogren, Richard Oldack, Geo A 
Oldham, Bernie D Oliver, Kelly H Oliver, PhD, Lawrence Oliver, PhD, E 
Jerry Oliveras, Edwin A Olson, PhD, Mark Olson, Robert J Olson, Joanne 
M Ondrako, PhD, Wm D E Oneill, PhD, Anatoli Onopchenko, PhD, Joseph W 
Opie, PhD, Peg Opolski, Roger Orcutt, PhD, Stephen Orcutt, Fernando 
Ore, PhD, Errol Orebaugh, PhD, Gus G Orphanides, PhD, Demetrius G 
Orphanos, PhD, David A Orser, Ernest Orsi, PhD, Gary Orvis, Osborn, W E 
Osborne, Bert Osen, Maurice J Osman, Dave Osterhout, William Osterloh, 
PhD, Dan Ostlind, PhD, Prosper Ostrowski, Robert Otham, Edward O'Toole, 
PhD, Haruko Otoshi, Michael J Otto, PhD, Augustua C Ouano, PhD, G Out, 
PhD, Mack Overton, Dennis Owen, James R Owen, PhD, Terrence Owen, PhD, 
A D Owings, PhD, Oyelola, PhD, Jim L Ozbun, PhD.

Category: P
    Gilbert Pacey, PhD, C Subah Packer, PhD, Richard Milton Paddison, 
MD, Algred Pagano, PhD, David S Page, PhD, Joseph R Pagnozzi, Ruth 
Painter, Felice Charles Palermo, Jay Palmer, PhD, John D Palmer, PhD, 
Timothy T Palmer, PhD, Muriel S Palmgren, PhD, Gyan S Pande, PhD, V N 
Pandey, PhD, Jack S Panze, Andreas M Papas, PhD, Joseph Papenfuss, PhD, 
James Pappas, Hemant B Parikh, Edward James Parish, PhD, Richard L 
Parish, PhD, Gerald M Park, Robert Park, PhD, William Park, Cyril 
Parkanyi, PhD, David Parker, George Parker, Nina Parker, PhD, T Parker, 
Thomas Parker, R M Parkhurst, Robert Parkhurst, Arthur Parks Sr, H L 
Parks, Lloyd M Parks, PhD, James Floud Parr, PhD, Stephen L Parrott, 
PhD, Robert W Parry, PhD, Michael L Parsons, PhD, Alice B Parsons, 
Stuart Parsons, Ralph E Pasceri, PhD, Mark Pastore, Robert Patarcity, 
Charlie Patchett, H Richard Pate, Mitchell Pate, Kirit Patel, Mangal 
Patel, Natu C Patel, P V Patel, PhD, Richard Paterson-Jones, James H 
Patrick, Gaylord P Patten, PhD, James C Patterson, James H Patterson, 
PhD, Roe Patterson, Sharon Patterson, Timothy Patterson, Wilbur I 
Patterson, PhD, James W Patton, PhD, Rolf Paul, PhD, Craig L Paulsen, 
Patricia Paulson-Ehrhardt, Albert Pavlic, PhD, Paul Pawlisch, PhD, 
Barry Payne, Dewitt A Payne, PhD, James Payne, PhD, Raymond A Paynter, 
PhD, Andy Peabody, Val E Peacock, PhD, Albert M Pearson, PhD, Anthony 
Pearson, PhD, Earl Pearson, PhD, F G Pearson, PhD, Doug Pease, Richard 
S Peckham, PhD, Richard Pedersen, Floy Pelletier, PhD, Floy Pelletier, 
PhD, Hugo Gabriel Pena, PhD, David Pendery, Stanley J Penkala, PhD, 
Mary A Penland, Robert Pennak, PhD, Charles R Penquite, Jeffrey G 
Penta, Wendell Pepperdine, PhD, Armand B Pepperman, PhD, J Percha, 
Luzviminda K Peredo, MD, James M Perel, PhD, Arthur S Perkins, FM 
Perkins, Thomas Perkins, PhD, Bill Perry, George Perry, PhD, John E 
Perry, Mikhail I Petaev, PhD, Douglas Peters, Elroy Peters, PhD, 
Raymond Peters, Joseph C Petersen, PhD, Al Peterson, Arthur W Peterson, 
David Peterson, PhD, Raymond W Peterson, Peter P Petro, PhD, George 
Petrosky, Thomas G Petrulas, Heriberto Petschek, Lawrence M Pfeffer, 
PhD, Douglas R Pfeiffer, PhD, Glenn Pfendt, Donald Pfittsiher, Robert 
Phalen, PhD, Tuan Duc Pham, PhD, Raj Phansalkar, PhD, George C Phelps, 
B Phillips, PhD, C Eric Phillips, Calvin Phillips, Dwayne Phillips, 
Ernest Phillips, John Phillips, John Phillips, Keith Phillips, Mitchel 
Phillips, MD, Steven J Phillips, MD, Wendell F Phillips, Wallae C 
Philoon, PhD, Cu Phung, PhD, George J Piazza, PhD, Perry T Piccard, Max 
Pickerill, PhD, Sean Piecuch, Matthew Lee Pierce, PhD, Susan K Prierce, 
PhD, Edwin T Pieski, PhD, Charles E Pietri, William J Pietrusiak, 
Arthur J Pignocco, PhD, D Pigott, PhD, Charles Pike, Paul E Pilkington, 
Vincent J Pileggi, PhD, Laurence O Pilgeram, PhD, Hyman Ira Pilgrim, 
PhD, David Pimentel, PhD, Bob Pinner, Anton J Pintar, PhD, William R 
Pioli, Michael R Piotrowski, PhD, Bernard Wallace Pipkin, PhD, Anthony 
W Pircio, PhD, Ed Piszynski, William Pitt, PhD, John P Pittman, PhD, 
Peter Pityk, Michael Piznar, James C Plagge, PhD, Ronald Plakke, PhD, 
Alan Edward Platt, PhD, Larry Plonsker, PhD, Karl W Plumlee, PhD, 
William A Plummer, PhD, Joseph S Plunkett, Wendy K Pogozelski, PhD, B 
Poling, PhD, Jack J Polise, Charles B Pollock, Karl Hallman Pool, PhD, 
George Poole, H K Poole, David D Porter, MD, Edward S Porter, Frederic 
E Porter, PhD, William W Porterfield, PhD, Denzil Poston, PhD, Harvey W 
Posvic, PhD, Louis Potash, PhD, Dale Potter, PhD, George Potter, PhD, 
Kenneth Potter, Rainer Potthast, PhD, Daniel B Pourreau, PhD, Joseph J 
Poveromo, PhD, Susan Powell, Kendall G Powers, PhD, Ernest Ppospischil, 
David Pramer, PhD, Hullahalli Prasan, PhD, Eugene Praschan, Ronald 
Prebys, Frank M Precopio, PhD, Prendegast, PhD, Richard S Prentice, 
William Preston, Martin Preus, PhD, Casey Jo Price, George W Price, 
Harold Anthony Price, PhD, R E Price, Steven Price, PhD, J Prieditis, 
PhD, Char W Prince, PhD, David Prinzing, Ronald L Prior, PhD, James E 
Pritchard, PhD, Barry Profeta, B Prokai, PhD, William H Prokop, Gary 
Proksch, PhD, Leon Prosky, PhD, Alan L Prouty, Michael Pruchnicki, MD, 
Zenon C Prusas, Michael J Pryor, PhD, William Pryor, PhD, Andrezej 
Przyjazny, PhD, Ronald J Pugmire, PhD, T O Purcell, PhD, E Dale 
Purkhiser, PhD, Charles Putnam, J W Putt, David Puzan, Albert Pye, PhD, 
Orrea F Pye, PhD, Eugene Pyrcioch, Louis Pytlewski, PhD.

Category: Q
    Forrest Quackenbush, PhD, Earl R Quandt, PhD, James Quandt, James R 
Quinan, PhD, William Quisenberry.

Category: R
    Daryl Raabe, Mj Rabinonitz, PhD, Joseph Rachlin, PhD, Jeff Racho, 
Charles Raczowski, PhD, Frederick J Radd, PhD, Richard Radeka, David R 
Raden, Rodney W Radke, PhD, Michael T Radvan, Keen Rafferty, PhD, 
Ronald O Rahn, PhD, Elliott Raisen, PhD, Charles Raley, PhD, C L Rambo, 
Harmon H Ramey, PhD, Alvin O Ramsley, Paul Ramstad, PhD, Philip G Rand, 
PhD, Charles C Randall, MD, Wm J Randall, PhD, Ann Randolph, PhD, 
Margene G Ranieri, PhD, Tom Rank, PhD, Stephen C Raper, Henry Rapoport, 
PhD, James B Rasmussen, Lowell Rasmussen, PhD, Lee Ratcliff, Mike 
Ratcliff, Egan J Rattin, Donald O Rausch, PhD, Gerald W Rausch, PhD, 
Michael Rawley, Stanley R Rawn Jr, Richard L Raymond, PhD, Stuart 
Raynolds, PhD, Gary D Rayson, PhD, Fred Reader, D L Reasons, Theodore L 
Rebstock, PhD, K Redig, Erick L Redmon, Jory Redo, PhD, Redwine, PhD, 
Allan H Reed, PhD, Sherman Kennedy Reed, PhD, Thomas Reed, PhD, Norman 
V Rees, Homer E Reeves, PhD, Terry A Reeves, MD, John Reffner, PhD, 
Thomas R Rehm, PhD, Claude V Reich, PhD, Alfred D Reichle, PhD, George 
Reid, PhD, William Reid, PhD, Anthony A Reidlinger, PhD, Richard 
Reinhardt, David Reiser, PhD, Richard Reising, PhD, Harold B Reisman, 
PhD, Paul Reiter, PhD, Richard H Reitz, PhD, Joseph F Remar, PhD, 
George Remmenga, Susan Rempe, PhD, Harris B Renfroe, PhD, Edward G 
Rennels, PhD, Hans H Rennhard, PhD, Kermit Reppond, F E Resch, Robert 
Resnik, PhD, William B Retallick, PhD, Melvin Rettig, George H 
Reussner, William R Rex, Walter L Reyland, Charles A Reynolds, PhD, 
Gary Reynolds, Joe E Reynolds, Max J Reynolds, James Rhoades, PhD, 
Richard G Rhoades, PhD, James D Rhodes, Kevin Rhodes, Robert A Rhodes, 
PhD, Mary Rhyne, James K Rice, Richard Rice, PhD, Dennis Rich, Bill 
Richards, Charles D Richards, PhD, Joseph D Richards, Gerald Laverne 
Richardson, Stephen G Richardson, PhD, Verlin H Richardson, PhD, Nancy 
D Richert, PhD, Frank Richey, PhD, Ed Richman, PhD, Selma Richaman, 
James M Richmond, PhD, Timothy Richmond, Thomas Richter, Robert Ricker, 
PhD, Nr Ricks, Ralph E Ricksecker, David Riddle, PhD, Susan Riebe, 
Martin Max Rieger, PhD, Paul E Rieke, PhD, Bernard J Riley, Cody Riley, 
J Herbert Riley, John T Riley, PhD, Michael Riley, Jerry F Rimmer, 
Beverly Riordan, Harold C Ripley, David Ririe, PhD, David Rislove, PhD, 
Harold W Ritchey, PhD, William Ritchey, PhD, Gary Alan Ritchie, PhD, 
Harlan Ritchie, PhD, Martin Ritchie, PhD, James S Ritscher, PhD, Robert 
B Ritter, Steven J Titter, PhD, Paul Rivers, PhD, John V Roach, Kenneth 
Roane, Ernest A Robbins, PhD, George W Robbins, Samuel E Roberts, F H 
Robertson, James A Robertson, PhD, Jerry Lewis Robertson, PhD, John S 
Robertson, PhD, Wilbert J Robertson, PhD, Gordon W Robertstad, PhD, 
Albert Robinson, PhD, Arthur B Robinson, PhD, Geor H Robinson, M 
Robinson, PhD, R E Robinson, PhD, Robert Robinson, PhD, T F Robinson, 
PhD, Terence L Robinson, PhD, Zachary W Robinson, Ken Robirds, John M 
Roblin, PhD, J La Rochelle, PhD, Peter A Rock, PhD, Robert M Roecker, 
PhD, Morris Rockstein, PhD, David Rockstraw, PhD, Theodore Rockwell, 
PhD, James W Rodde, Billy R Rodgers, PhD, Michael Rodgers, PhD, Harold 
V Rodriguez, PhD, Arthur P Roeh, Bruce A Rogers, Gordon H Rogers, 
Gwenda Rogers, Randy Rogers, Robert W Rogers, PhD, Tom Rogers, PhD, 
Charles R Rohde, PhD, Oliver Roholt, PhD, Dwayne Rohweder, PhD, Robert 
G Rohwer, Louis D Rollmann, PhD, Louis Rombach, PhD, Thomas Ronay, PhD, 
Wendell Hofma Rooks, Robt L Rooney, Simpson Roper, Robert Rorschach, 
Christopher La Rosa, Eugene J Rosa, PhD, John S Roscoe, PhD, Allan B 
Rose, Milton J Rosen, PhD, Ward Rosen, Richard A Rosenberg, PhD, Steven 
L Rosenberg, PhD, William E Rosenberg, Lawrence Rosendale, Leonard 
Rosenfeld, Bruce D Rosenquist, PhD, Harold L Rosential, PhD, Joseph 
Rosi, Randy Rosiere, PhD, James Ross, John P Ross, PhD, John Ross, 
William F Ross, Charlie Rossman, George Rothrock, PhD, Gaylord E Rough, 
PhD, George E Rouse, PhD, Verald K Row, Dighton F Rowan, PhD, James 
Lincoln Rowe, PhD, Melinda Rowe, Rex Rowell, Neil W Rowland, PhD, Brian 
Rowles, Ibrahim Rubeiz, PhD, Mae K Rubin, PhD, David D Rubis, PhD, Jim 
R Rucker, Thomas A Ruddin, MD, Charles F Rudershausen, PhD, Thomas 
Rudy, PhD, Rolland Rue, PhD, Robert H Ruf, PhD, Sue Ruff, John Ruhl, T 
H Ruland, Melvin D Rumbaugh, PhD, J H Rumely, PhD, Rosmarie Von Rumker, 
PhD, Paul Runge, Kelli Runnels, PhD, Olaf Runquist, PhD, Charles V 
Runyon, A L Ruoff, PhD, Robert Rupert, John A Rupley, PhD, George 
Rushton, Louis Rusoff, PhD, David Russell, Robert R Russell, PhD, Ross 
F Russell, PhD, Daberath Ryan, James M Ryan, PhD, James Ryan, James W 
Ryan, PhD, Julian Gilbert Ryan, Michele M Ryan, Timothy M Ryan, Wayne 
Ryan, PhD, Charles J Ryant, Jr, PhD, John Rybicki, David F Ryder, 
Alicja M Kirkien Rzeszotarsk, PhD, Waclaw J Rzeszotarski, PhD.

Category: S
    Edward Sabo, John P Sachs, PhD, George D Sadler, PhD, J Evan 
Sadler, PhD, Leon Y Sadler III, PhD, W Alter Carl Saeman, Alfred 
Saffer, PhD, M M Said, PhD, George S Sajner, Alexander A Sakhnovsky, 
Mamdouh M Salama, PhD, Erdjan Salih, PhD, Wilmar L Salo, PhD, Robert H 
Salvesen, PhD, Paul Salzman, PhD, Dominick A Sama, PhD, Richard Sama, R 
E Sameth, B Samples, Edward Samsel, PhD, Frederick E Samson, PhD, 
Mohammad Samiullah, PhD, Jose Sanchez, PhD, Katherine Sanchez, John 
Paul Sanders, PhD, Burton B Sandiford, B Sandri, Robt Lee Sandridge, 
PhD, Gary L Sanford, PhD, Robt A Sanford, PhD, John T Sanner, John 
Sans, PhD, A Sam Sarem, PhD, Herbert P Sarett, PhD, Peter T Sarjeant, 
PhD, Somnath Sarkar, PhD, Daryl Sas, PhD, Joachim Sasse, PhD, Rudolph 
Sattler, Bryan B Sauer, PhD, Sally Saunders, Walt Saunders, David R 
Savello, PhD, Emilio A Savinelli, PhD, Kathleen Kido-Savino, Samuel 
Sawan, PhD, Frederick G Sawyer, PhD, Frederick Sawyer, PhD, James 
Scala, PhD, Frank Scalia, PhD, Barrett L Scallet, PhD, Charles J 
Scanio, PhD, Paul Scardaville, Henry F Schaefe, PhD, Frederic C 
Schaefer, PhD, Howard J Schaeffer, PhD, Robert R Schalles, PhD, James 
Schammerhorn, Carl Schauble, PhD, Gary Scheeser, Daniel Scheffel, Frank 
R Scheid Jr, Francis M Scheidt, PhD, Fred M Schell, PhD, Karl A 
Schellenberg, PhD, Jay Ruffner Schenck, PhD, Timothy Wm Schenz, PhD, 
Robert J Scheuplein, PhD, Alexander Schilling, PhD, F P Schilling, PhD, 
Keith Schimmel, PhD, Ray Schindler, Chester Schink, PhD, Schlichting, 
PhD, Clifford L Schmidt, PhD, Justin O Schmidt, PhD, Werner H Schmidt, 
Edward A Schmitt, Alvin Schmucker, Charles D Schmulbach, PhD, Robert C 
Schnabel, Charles F Schneider, Jr, Edward P Schneider, Howard A 
Schneider, PhD, J Schneller III, PhD, Arthur W Schnizer, PhD, Donald 
Schoenberg, Helem Schols, Melvin Schonhorst, PhD, Rex Schorzman, Robert 
Joseph Schramel, William Schrand, Mary G Schreckenberg, PhD, Robert A 
Schreiber, PhD, William Schreiber, PhD, Felix Schreiner, PhD, Alan D 
Schroeder, Alan Schroeder, Donald Schroeder, Hartmut Schroeder, PhD, 
James W Schroeder, Robert G Schroeder, Robert S Schroeder, PhD, Robert 
Schubring, Richard J Schuerger, PhD, Joseph Schufle, PhD, Charles M 
Schultz, Gerald Schultz, Roland Schultz, PhD, Robert Schumacher, Robert 
Schumacher, Garmond G Schurr, Mark Schusler, George W Schustek, Donald 
Frank Schutz, PhD, Peter T Schuyler, Karl A Schwape, Robert Schwartz, 
PhD, Henry G Schwartzberg, PhD, Jeffrey A Schwarz, Jeffry Schwarz, 
Florian Schwarzkopf, PhD, Florian Schwarzkopf, PhD, Otto R Schweitzer, 
PhD, Albert E Schweizer, PhD, Thomas R Schwerdt, George W Schwert, PhD, 
Howard Schwiebert, John J Sciarra, PhD, David F Scott, PhD, Deborah J 
Scott, PhD, J O Scott, James A Scott, John W Scott, PhD, Michael 
Screpetis, MD, Michael E Scribner, PhD, D G Scruggs, Walter T Scudder, 
PhD, Spencer L Seager, PhD, WH Seaman, George Sears, J Glenn Seay, Jack 
B Secor, PhD, Joseph Sedberry, PhD, Richard A See, David W Seegmiller, 
PhD, Ralph W Seelke, PhD, Charles F Seger III, Paul A Seib, PhD, Lewis 
S Seiden, PhD, Frank R Seidl, William Edgar Seifert, PhD, Harvey N 
Seiger, PhD, John H Seipel, PhD, Ronald Sekellick, Paul B Selby, PhD, 
Seleem, PhD, Maurie Semel, PhD, Robert Seng, Taze L Senn, PhD, James C 
Sentz, PhD, Alan J Senzel, PhD, Lisa Servais, William G Setser, Earl Wm 
Seugling, PhD, John Severns, Raymond F Sewell, PhD, Richard W Sewell, 
Frederick H Sexsmith, PhD, Frank David Seydel, PhD, Fritiof S 
Fjostrand, MD, PhD, James Shaeffer, PhD, James Shaffner, Donald G 
Shaheen, Terry Shannon, Kenneth N Sharitz, Sharkey, PhD, Dexter B 
Sharp, PhD, Kenneth Sharp, Sharp, Grant William Sharpe, PhD, M L 
Sharrah, PhD, Elwood R Shaw, Gordon Shaw, Richard Shaw, PhD, Sandy 
Shaw, Warren D Shaw, James J Shea, William Sheasley, PhD, Jennifer P 
Sheets, Ralph W Sheets, PhD, Paul Sheil, Bob Sheldon, Joseph Sheldon, 
Harvey D Shell, PhD, George C Shelton, PhD, David P Shepherd, PhD, 
Raymond L Shepherd, PhD, Peter Sheridan, Anthony Sherman, PhD, Joseph 
Sherrill, PhD, Frederick A Sherrin, Dennis Shevlin, PhD, Kevin J 
Shields, Robert M Shields Jr, PhD, Frederick F Shih, PhD, Avner 
Shilman, PhD, Vernon J Shiner, PhD, Lee Shiozawa, Charles Wm Shipman, 
PhD, Gene M Shirley, PhD, Frank Connard Shirley, PhD, Gilbert R 
Shockley, PhD, Steven E Shoelson, MD, PhD, Robert S Shoemaker, Merle D 
Shogren, Robert L Shone, PhD, John J Shore III, James Edward Shottafer, 
PhD, Adolph C Shotts, Loy William Shreve, PhD, Craig E Shuler, Patrick 
J Shuler, PhD, John B Shumaker, PhD, Cornwell Shuman, PhD, Eunice C 
Shuytema, PhD, Barbara Shykoff, PhD, Ronald E Siatkowski, PhD, Kent 
Sickmeyer, Dave Seibel, Merlin R Siefken, Steve Seifried, PhD, Arthur 
Siegel, John P Siegel, MD, Wm C Siegel, William Siegfried, James Ernest 
Siggins, PhD, Charles Signorino, PhD, John W Sij, PhD, Michael P 
Siklosi, PhD, Leonard S Silbert, PhD, Claude W Sill, Lucila Silva, 
Herbert Silverman, PhD, J Silverman, PhD, Walter Lawrence Silvernail, 
PhD, L Simerl, PhD, John Simion, Karl L Simkins, PhD, Joseph H Simmons, 
Carl Simms, Dorothy M Simon, PhD, Edward Simon, PhD, RJ Simon, Walter 
Simons, A Craig Simpson, John Simpson, Lynn Simpson, Michael B Simpson, 
Donald E Sims, Suman Priyadarshi Harain Sin, PhD, G Gail Singh, Vernon 
L Singleton, PhD, Kenneth Sinks, Lou Di Sioudi, Richard H Sioui, PhD, 
David M Sipe, PhD, Herbert H Sipe, PhD, Charles C Sisler, Mareu A 
Sitarsici, PhD, Sitarski, PhD, Richard L Sitton, Ron Sizemure, William 
Skagerberg, Mertonm Skaggs, Hugh B Skees, John R Skelley, Jerome P 
Skelly, PhD, Edward L Skidmore, PhD, Leslie D Skinner, Earl Skogley, 
PhD, Lawrence Skromme, Bolesh J Skutnik, PhD, Philip E Slade, PhD, 
Robert E Slater, W Roy Slaunwhite, PhD, Nelson Sigman Slavik, PhD, Jane 
A Slezak, PhD, Nathan H Sloane, PhD, A Slomowitz, DDS, Earl R Sluder, 
PhD, Thomas E Slusher, Gilbert Small, PhD, Glen Wm Smalley, PhD, James 
B Smart, PhD, William Donald Smart, Ronald Smedberg, PhD, Darryl E 
Smika, PhD, Robert Smiley, PhD, Alan Smith, PhD, Augustin Smith, 
Augustine N Smith, Bruce G Smith, MD, C Lavett Smith, PhD, Dale Smith, 
PhD, Dana L Smith, Danny Smith, David A Smith, PhD, Deboyd L Smith, 
Delmont K Smith, PhD, Elwin E Smith, Eric S Smith, Francis Marion 
Smith, Garmond S Smith, PhD, Garry A Smith, PhD, George Smith, Gilbert 
H Smith, PhD, Herbert L Smith, PhD, Ivan K Smith, James L Smith, PhD, 
James R Smith, Jay H Smith, PhD, John E Smith, PhD, Louis C Smith, PhD, 
Marian J Smith, PhD, Mark A Smith, PhD, Marvin F Smith Jr, Maurice 
Smith, Maynard E Smith, PhD, Nathan L Smith, PhD, Paul V Smith, PhD, 
Percy Lieghton Smith, Robert L Smith, PhD, Roger C Smith, Sam C Smith, 
PhD, Shofner Smith, T J Lee Smith, Thomas E Smith, PhD, Thomas Smith, 
PhD, Tim Smith, Wesley D Smith, PhD, Clara Smith Craver, Eileen 
Smithers, Smithrud, PhD, G Ray Smithson, Jr, Joseph Smock, Tom Smoot, 
PhD, Bronislaw B Smura, PhD, Snavely, Helen Snedberg, Richard L Snow, 
PhD, Thomas M Snow, David Snyder, PhD, Dudley C Snyder, PhD, George 
Snyder, PhD, Jack A Snyder, PhD, Joe Snyder, William H Snyer, Dave A 
Soerens, PhD, Lon Solomita, Xiaouhi M Song, PhD, P Sonnet, PhD, Quentin 
F Soper, PhD, Thomas M Sopko, David P Sorensen, PhD, Armand M Souby, 
Chris Soule, Everett Southam, PhD, Parks Souther, William Southern, 
PhD, Larry Southwick, Edmund Sowa, John R Sowa, PhD, Edward E Sowers, 
PhD, Darrel H Spackman, PhD, Sparks, PhD, Tom Sparks, Dean Spatz, 
Gerald E Speck, Robert L Speckman, Abraham Spector, PhD, Michael P 
Spector, PhD, Richard C Spectors, Jack M Speece, Steven Tremble Spees, 
PhD, John L Speier, PhD, Philip Speir, Aaron B Speirs, Kemet Spence, 
PhD, James P Serber, Richard J Sperley, PhD, Leroy Spilde, PhD, Leo H 
Spinar, PhD, Bill Spindler, Robert F Spink, Jan J Spitzer, PhD, Paul 
Spivey, Gary A Splitter, PhD, Marie T Spoerlein, PhD, Ralph J Spohn, 
PhD, Robert B Spokane, PhD, Lucian M Sprague, PhD, Robert C Springborn, 
PhD, Allan Springer, PhD, David T Springer, PhD, Timothy A Springer, 
PhD, J C Sprtsbergen, PhD, G J Sprokel, PhD, Michael Spurlock, PhD, 
Alexander Squire, James P Srebro, Charles St Jean, DVM, Thomas M 
Stabler, William Jacob Stadelman, PhD, Edward Stadelmann, PhD, Leon 
Stadtherr, PhD, Alice Stafford, Mark Stahmann, PhD, Joseph Staley, 
Gilbert Stallknecht, PhD, Charles H Stammer, PhD, Daniel Stamps, Norman 
W Standish, PhD, Edward A Stanley, PhD, E J Stanton, Gary M Stanwood, 
Mark A Staples, PhD, Stephen E Stapp, Don S Starcher, James C Stark, 
PhD, Kelly L Stark, Donn Starkey, Robt I Starr, PhD, Arnold E Steele, 
Kathleen P Steele, PhD, Sanford L Steelman, PhD, Stephen N Stehlik, 
Howard Steinberg, PhD, Wm Stekiel, PhD, Peter Stelos, PhD, Paul 
Stelzner, David G Stephan, PhD, Larry C Stephans, Frank Stephens, PhD, 
Stuart Stephens, PhD, Robt L Stern, PhD, Rune L Stjernholm, PhD, Alvin 
Rae Stetson, Frank Stevens, James I Stevens, M F Stevens, PhD, Robert 
Stevens, Frank J Stevenson, PhD, Robert L Stevenson, PhD, William C 
Stevenson, Charles Steward, PhD, Kerry K Steward, PhD, Darryl Stewart, 
Ivan Stewart, PhD, Mark Stewart, Robt B Stewart, Werner K Stiefel, 
Chris Stier, Fred B Stifel, PhD, Gerald Still, PhD, E N Stillings, 
Donald L Stinson, PhD, Richard Stinson, PhD, C Chester Stock, PhD, Geo 
J Stockburger, PhD, Bill Stoeppel, James O Stoffer, PhD, Robert L 
Stoffer, PhD, G Stohrer, PhD, Leonard Stoloff, Howard Stone, PhD, 
Robert M Stone, PhD, Wm H Stone, Robson Storey, PhD, John S Storges, 
PhD, Clara A Storvick, PhD, Dennis E Stover, PhD, Richard Strachan, 
PhD, P Stransky, Robert R Strauss, PhD, Roger W Strauss, PhD, E Whitman 
Strecker, Edward Strickling, PhD, Sarah T Strinden, PhD, Bruce C 
Strnad, PhD, Walter Strohecker, Charles Strohkirch, PhD, Allen 
Strother, PhD, Wilfred Stroud, Kirk Struce, Arthur Struempler, PhD, 
Jeffrey Sturm, Duane H Strunk, M Howard Strunk, Dick Strusz, Henry 
Stry, Ralph E Styring, Warren Stubblebine, PhD, T Elton Stubblefield, 
PhD, John Stubbles, PhD, Ben G Studebaker, Alan M Stueber, PhD, David O 
Stuebner, Doug Stueve, Mark Stuever, Dale Stukenholtz, PhD, Eugene C 
Stump, PhD, Felipe Suarez, Bala Subramaniam, PhD, John Sulkowski, 
Daniel T Sullivan, DDS, David Sultana, Wayne Summons, Sherman Archie 
Sundet, PhD, Bob Sutaria, Charles Suter, G Russell Sutherland, 
Frederick H Suydam, PhD, James A Svetgoff, Karl Svoboda, Skip Swanner, 
Thomas Swanson, William A Sweeney, PhD, Ronald L Sweet, PhD, Richard 
Swenson, R P Swift, PhD, Robinson M Swift, PhD, Elizabeth D Swiger, 
PhD, Ronald J Swinko, Chauncey M Swinney, PhD, Robert D Sydansk, Donald 
E Sykes, PhD, Leif Syrstad, S S Szabo, PhD, Danuta Szalecka, Wojciech 
Szalecki, PhD, Steven Szambaris.

Category: T
    Lars Taavola, Charles E Tackels, Delley Tafel, PhD, David Taft, 
PhD, B A Tait, PhD, Larry Talley, PhD, Katherine Talluto, PhD, John 
Talpas, Kim H Tan, PhD, John Tanaka, PhD, Rita Tao, Waino A Tapale, 
Armen Charles Tarjan, PhD, Milton A Taves, PhD, Douglas H Taylor, PhD, 
Gene Warren Taylor, PhD, Harold M Taylor, PhD, John E Taylor, PhD, Paul 
J Taylor, PhD, Richard Taylor, PhD, Robt Techo, PhD, Stephen Tedore, 
Robert W Temple, David M Tennent, PhD, Martha Tennent, Harold Tenney, 
Wilton R Tenney, PhD, Aubrey Tennille, PhD, Lowell G Tensmeyer, PhD, 
Thomas Tepas, Kenneth J Terbeek, PhD, Glenn A Terry, PhD, W G Teubner, 
Richard Tew, PhD, Ram Tewari, PhD, Raymond Thacker, PhD, Warren A 
Thaler, PhD, Walter E Thatcher, PhD, John Thebo, Brenda Theis, Don 
Theis, Wayne Therrell, Richard C Theuer, PhD, Lawrence Thieben, Gregory 
Thiel, Thomas Thiel, Lawrence Euegene Thielen, Vernon J Thielmann, PhD, 
John D Thirkill, Kris V Thiruvathukal, PhD, Edward F Thode, PhD, 
Richard W Thoma, PhD, Charles Thomas, Jr, PhD, Dean Thomas, Dudley G 
Thomas, Forrest D Thomas, PhD, Gerald Thomas, PhD, James Thomas, PhD, 
Jerry Thomas, Christina Thompson, Ellen Thompson, Gerald E Thompson, 
Grant Thompson, PhD, Herbert B Thompson, PhD, Jack Thompson, Louis M 
Thompson, PhD, Louis Thompson, PhD, Mary Thompson, PhD, Neal P 
Thompson, PhD, Ralph N Thompson, Richard D Thompson, Richard Thompson, 
PhD, Robert R Thompson, PhD, Ted Thompson, Eyvind Thor, PhD, G J 
Thorbecke, PhD, Henry Thorland, Charles Thorman, PhD, Francis Thorne, 
PhD, David Thornton, Robert Thornton, PhD, Ruth D Thornton, PhD, Thomas 
Thorpe, Peter E Throckmorton, PhD, Lewis J Throop, PhD, John G Thweatt, 
PhD, Melinda Tichenor, Albert W Tiedemann, PhD, Thomas Tighe, Frank M 
Tiller, PhD, Henry C Tillson, PhD, Torke E Timell, PhD, William Timm, 
Richard Timmons, PhD, Samuel W Tinsley, PhD, James Tobey, Robert A 
Tobey, PhD, Stephen W Tobey, PhD, Douglas M Tollefsen, PhD, Manolis M 
Tomadakis, PhD, Arthur J Toompas, Vladimir P Torchilin, PhD, Calvin D 
Tormanen, PhD, Joseph Torosian, Mary E Totaro, Ildiko Toth, PhD, Paul E 
Toth, Robert Totusek, PhD, Mike Touchinski, Donald R Tourville, PhD, 
Laura L Tovo, PhD, D A Towner, Peter Toynbee, Ralph Trambarulo, PhD, 
John H Trapp, Tim Trapp, Del Traveller, Jeffrey C Trewella, PhD, Wm W 
Trigg, PhD, Robert B Trimble, PhD, Glover B Triplett, PhD, Charles F 
Trivisoono, Joseph M Tropp, Alvah F Troyer, PhD, G I Troyer, Richard A 
Trudel, Judith L Truden, PhD, Patricio Eduardo Trujillo, John Trulio, 
PhD, Larry Trzupek, PhD, Richard Trzupek, Jane Tsai, A Tschaeche, 
Walter R Tschi, PhD, Manuel Tsiang, PhD, Billy Bob Tucker, PhD, Mary 
Ann Tucker, Richard Tucker, W Daivd Tucker, Paul Tueller, PhD, Laland W 
Tufts, Robert J Tuite, PhD, Bryan Tullis, Donald Tuomi, PhD, Peter 
Turbett, Natasha Turkai, Anthony Turkevich, PhD, Brian Turner, Ella V 
Turner, PhD, E Brent Turnipseed, PhD, Henry A Tuttle, Ian C Twilley, 
PhD, James Twohy, Knorad T Wu, PhD, Ed Tyczkowski, PhD, Tony Tye, 
Edmund E Tylutki, PhD.

Category: U
    George Uhlig, PhD, Joseph J Ulliman, PhD, Alexander Ulmer, E H 
Ulrich, Kathleen Umstead, Paul W Unger, PhD, Simon Upfill-Brown, Wm A 
Uricchio, PhD, Dave Uscheek, O Manuel Uy, PhD.

Category: V
    Richard Vacherot, James Vacik, PhD, Kyriake U Valassi, PhD, Laura 
Valdes, Siva Vallabhaneni, Vida Vambutas, PhD, Horn H H Van, PhD, 
Rheenen B Van, PhD, Strien R E Van, PhD, Willard Van Asdall, PhD, 
Theodore Van Bruggen, PhD, Clayton Van Hall, PhD, Wayne Van Meter, PhD, 
Richard J Van Pelt, Steve Vanata, John L Vandeberg, PhD, Thomas H 
Vanderspurt, PhD, Jerry G Vandertuig, PhD, John Warren Vanderveen, 
Donald Vandervelde, Christina Vandervende, PhD, Sam Vandivort, Edward 
Vandrunen, Tina K Vandyk, Richard M Vaneffen, PhD, Naoloa Vanorden, 
PhD, Jerry Vanseckle, Richrad S Varga, William York Varney, PhD, James 
E Varnon, PhD, Bangalore S Vasu, PhD, Robert Dahlmeier Vatine, PhD, Eva 
Vavrousek-Jakuba, PhD, Thomas M Veazey, PhD, Rodney D Veitschegger Jr, 
MD, Steve Venner, Carl J Verbanic, PhD, Anthony J Verbiscar, PhD, John 
R Vercellotti, PhD, Laval Verhalen, PhD, Lonnie W Vernon, PhD, Jim 
Vess, Kent Vickie, Edward J Vidt, Richard A Vierling, PhD, Herbert M 
Vines, PhD, Alfred Viola, PhD, Luciano Virgili, PhD, Robert L Vitek Sr, 
C J Voelkel, Dennis E Voelker, C L Voellinger, Bill Vogel, Richard W 
Vogel, Roger F Vogel, Paul Vogt, Staci Voll, Gert P J Volpp, PhD, Jim 
Volz, Paul A Volz, PhD, James Vomocil, PhD, Hans Von Amsberg, PhD, 
Howard Voorhees, PhD, Norman Vorcheimer, PhD, Frederick H Vorhis, 
Carroll Voss, Deone Voss, Donald L Voss, Edward W Voss, PhD, Duc Vu.

Category: W
    Lois Wachtman, Robert Wade, PhD, Thomas J Wade, PhD, Allan G 
Waelchli, Salome G Waelsch, PhD, A R Wagner, Anne M Wagner, Frederick 
Wm Wagner, PhD, Chien Moo Wai, PhD, John Wakeman, PhD, Wm D Wakley, 
PhD, F A Walas, Mike Wadlington, Harry M Walker, PhD, Jerry C Walker, 
PhD, Jimmy N Walker, Russell W Walker, PhD, William C Walker, PhD, 
William T Walker, Haven N Wall Jr, MD, Brent Wallace, David R Wallace, 
Edwin G Wallace, PhD, John Wallace, Lynn Wallace, Michael Wallace, 
James Waller, PhD, Wm Walls, Kevin K Walsh, Robert Jerome Walsh, 
William T Walter, Arthur E Waltking, Theo R Walton, PhD, Wilber Walton, 
Frederick F Wangaard, PhD, Mansukhlal C Wani, PhD, R Wanke, PhD, Edward 
H Ward, PhD, Robert S Ward, W C Warlick, Brian Warner, James A 
Warnhoff, Lawrence Warzel, PhD, Robert Washburn, Stephen S Washburne, 
PhD, Maurice Wassmann, G S Wassum, Calude G Wasterlain, PhD, David 
Waters, PhD, James D Waters, Charles Watkins, PhD, Michael J Watkins, W 
D Watkins, B Watne, PhD, Thomas L Watschke, PhD, Jeff Watson, Dean D 
Watt, PhD, Kenneth E F Watt, PhD, Kyle L Watt, Mark Weatherston, Harry 
Weaver, Jay Weaver, William M Weaver, PhD, A Dinsmoor Webb, PhD, Jack W 
Webb, James Webb, Michael Webb, William Paul Webb, PhD, Arthur P Weber, 
PhD, David F Weber, PhD, David J Weber, Mary Weber, William Weber, PhD, 
John R Wesbster, Orrin J Webster, PhD, Owen Webster, PhD, Wm J Wechter, 
PhD, David S Weddell, PhD, George G Weddell, Robert G Weeks, Howard H 
Weetall, PhD, Gene Wegner, PhD, Charles W Wehking, Timothy S Wehmes, 
Donald C Wehner, A R Weide, MD, T Craig Weidensaul, PhD, Patrick L 
Weidner, Edward D Weil, PhD, Roy Weiland, Eugene C Weinbach, PhD, 
Leonard H Weinstein, PhD, Donald J Weintritt, Eugene Weipert, PhD, Wm W 
Weiss, George A Weisgerber, PhD, Leonard Weisler, PhD, FD Weiss, MD, 
Harvey J Weiss, MD, PhD, Eugene P Weisser, Barry R Weissman, Frank J 
Welch, PhD, Donald C Wells, Larry Wells, PhD, Shane Wells, Jerome R 
Welnetz, Lisa M Welter, PhD, Irving Wender, PhD, Michael G Wendling, 
Roger Michael Weppelman, PhD, Leslie M Werbel, PhD, Robert J Werth, 
PhD, Wescott, PhD, Richard West, Warwick R West, Richard S Westberry, 
DDS, Gerald T Westbrook, Carl A Westby, PhD, Tammy Westerman, D T 
Westermann, PhD, Wm M Westhoff, John A Westland, PhD, Thomas 
Westmoreland, PhD, Henry G Weston, PhD, Raymond Westra, PhD, Edgar F 
Westrum, PhD, James Wm Westwat, PhD, Robert L Wetegrove, PhD, Robert L 
Wetegrove, PhD, John E Wey Jr, Joseph Whalen, PhD, Keni Whalen, Richard 
Whalen, PhD, James Wharton, PhD, Frank C Wheeler, PhD, Thomas J 
Wheeler, John M Whelan, PhD, D K Whigham, PhD, Roy L Whistler, PhD, 
Hall Whitacre, Alan W White, PhD, James D White, PhD, Joe Lloyd White, 
PhD, Randall White, Richard White, William White, Kenneth E Whitehead, 
Richard Whiteley, PhD, Joe U Whiteman, PhD, Charles Whiteside, PhD, 
Jack Whiteside, James R Whitley, PhD, Wendell K Whitney, PhD, Roy E 
Whitt, Leslie Whitton, PhD, Donald E Whyte, PhD, Harry Wiant, PhD, 
Donna Wichers, William Wickham, PhD, Steven Widen, PhD, Vernon R 
Widerquist, Joseph R Wiebush, PhD, Grace M Wieder, PhD, Robt R 
Wiederkehr, PhD, Matthew Wielgosz, Doug Wiens, Tadeusz Karol 
Wiewiorowski, PhD, Alan R Wiggins, Larry Wiginton, Charles Wilber, PhD, 
Gary Wilcox, PhD, Gene Wild, PhD, Kenneth A Wilde, PhD, Tom V Wilder, 
Richard Wildermuth, W V Wilding, PhD, Bill B Wiley, PhD, Jim Wiley, 
Robert A Wiley, PhD, Stella H Wilkes, Donald W Wilkie, Robert A 
Wilkins, PhD, Peirre A Willermet, PhD, C H Williams, PhD, D J Williams, 
Denise Williams, Donald H Williams, PhD, Douglas Williams, J F 
Williams, PhD, Jack M Williams, PhD, James M Williams, Karla E 
Williams, Richard Williams, PhD, Tom V Williams, PhD, Gene Wills, PhD, 
Alan P Wilson, Armin Wilson, PhD, Byron J Wilson, PhD, James Wilson, 
Jeffrey P Wilson, PhD, Leslie Wilson, PhD, Lowell Wilson, PhD, Robert 
Wilson, PhD, Wilbur William Wilson, PhD, James D Winefordner, PhD, 
David Wing, PhD, John R Wingard, Gary M De Winkle, Bruce Winn, Robert S 
Winniford, PhD, Weldon E Winsauer, Anthony E Winston, Lesley Winston, 
William Winter, PhD, Harry Winterlin, Wray L Winterlin, Richard B 
Winters, MD, Craig Wise, Richard M Wise, PhD, Robert H Wise, Jr, 
Lawrence A Wishner, PhD, Eugene H Wissler, PhD, Paul C Witbeck, Peter C 
Witherell, PhD, Mark Witowski, Gilbert Witschard, PhD, Jerry Witt, PhD, 
George K Wittenberg, PhD, Lloyd D Witter, PhD, Frank A Witzmann, PhD, 
Gerald Woehick, Charles E Woelke, PhD, William E Woenker, Robert C 
Wohl, PhD, David A Wohleber, PhD, Peter J Wojtowicz, PhD, Jim Wolf, 
George Wolfe, John B Wolff, PhD, Jerry Wolfkill, Tammy L Wolfram, Peter 
Wolle, Woller, K Wong, PhD, Ka-Chun Wong, Laurence Wong, PhD, Otto 
Wong, PhD, Earl C Wood, MD, Henry Wood, PhD, John L Wood, PhD, Malcolm 
Wood, Mike Wood, Roberta L Wood, Scott Emerson Wood, PhD, Thomas Wood, 
PhD, William A Wood, PhD, William A Wood, PhD, Joseph Eliot Woodbridge, 
PhD, Robert T Woodburn, Frank Woodfield, Jim Woodford, David J Woods, 
Jack Woods, David Woodward, PhD, Richard Woodward, Marvin S Wool, David 
Dilley Wooldridge, PhD, Tyler A Woolley, PhD, Gerald B Woolsey, PhD, 
Barbara E Workentine, PhD, David Eugene Worley, PhD, Richard F Worley, 
DDS, Walt Worsham, PhD, Johathan Worstell, PhD, James G Worth, Von 
Worthington, Donald P Wrathall, PhD, Charles H Wright, PhD, Glenn 
Wright, PhD, Jerry Wright, Nathan Wright, Paul M Wright, PhD, Robert 
Wright, MD, Robt W Wright, PhD, William Wright, Yao Hua Wu, PhD, 
Stephen Walker Wunderly, PhD, David Wurm, PhD, Reece E Wyant, Philip R 
Wyde, PhD, Kathi Wyldeck, PhD, John Wylie, Margret J Wyllie, E Staten 
Wynne, PhD, Elmer S Wynne, PhD, Leslie K Wynston, PhD, R A Wynveen, 
PhD, Richard F Wyse, Stephen L Wythe, PhD.

Category: Y
    Gilbert Yan, Will Yanke, William H Yanko, PhD, John Lee Yarnall, 
PhD, Sidney Yaverbaum, PhD, David A Yeadon, Randy Yeager, Elisabeth 
Stelle Yearick, PhD, Carlton S Yee, PhD, Ying C Yee, PhD, Charles Yeh, 
Wilbur Yellin, PhD, Yin Chao Yen, PhD, Stuart Yntema Sr, John H Yopp, 
PhD, Masami Yoshimura, PhD, Marvin Yost, PhD, Richard A Yost, PhD, 
David C Young, PhD, G Young, Ralph S Young, Raymond H Young, PhD, 
Robert D Young, William D Young Jr, Ralph Yount, PhD, Morgan Chuan Yuan 
Sze, PhD, Stephen A Yuhas, Mary Alic Yund, PhD, Libby Yunger, PhD.

Category: Z
    Jeffrey Zachman, Stanley E Zager, PhD, Edwarfd P Zahora, Ihor 
Zajac, PhD, Ethel S Zalay, PhD, Andreas A Zavi, PhD, John Zebrowski, Wm 
N Zeiger, PhD, Allen Zelman, PhD, Jiri Zemlicka, Kerry Zemp, Donald F 
Zetik, PhD, Dong Er Zhang, PhD, Timothy D Ziebarth, PhD, Edward N 
Ziegler, PhD, John Benjamin Ziegler, PhD, Wm A Ziegler, W E Zieman, 
Charles W Ziemer, PhD, Ferdinand Zienty, PhD, Robert G Zimbelman, PhD, 
Arthur J Zimmer, PhD, Curt Zimmerman, John G Zimmerman, PhD, Tommy 
Zimmerman, PhD, Gary Zimmermann, Donald Zink, PhD, Ronald F Ziolo, PhD, 
Steven L Zirkelbach, MD, Thomas A Zitter, PhD, Darryl E Zoch, Marvin H 
Zoerb, Harry D Zook, PhD, Charles Zubritsky, David Zuckerberg, Carl 
Zuehlke, PhD, Perr Zuman, PhD, Edward J Zuperku, PhD, Soloman 
Zwerdling, PhD, Steven C Zylkowski.
       Statement by Atmospheric Scientists on Greenhouse Warming

(http://www.sepp.org/statment.html, February 24, 2006)

WASHINGTON, D.C., FEBRUARY 27, 1992--As independent scientists, 
researching atmospheric and climate problems, we are concerned by the 
agenda for UNCED, the United Nations Conference on Environment and 
Development, being developed by environmental activist groups and 
certain political leaders. This so-called Earth Summit is scheduled to 
convene in Brazil in June 1992 and aims to impose a system of global 
environmental regulations, including onerous taxes on energy fuels, on 
the population of the United States and other industrialized nations.
    Such policy initiatives derive from highly uncertain scientific 
theories. They are based on the unsupported assumption that 
catastrophic global warming follows from the burning of fossil fuels 
and requires immediate action. We do not agree.
    A survey of U.S. atmospheric scientists, conducted in the summer of 
1991, confirms that there is no consensus about the cause of the slight 
warming observed during the past century. A recently published research 
paper even suggests that sunspot variability, rather than a rise in 
greenhouse gases, is responsible for the global temperature increases 
and decreases recorded since about 1880.
    Furthermore, the majority of scientific participants in the survey 
agreed that the theoretical climate models used to predict a future 
warming cannot be relied upon and are not validated by the existing 
climate record. Yet all predictions are based on such theoretical 
models.
    Finally, agriculturalists generally agree that any increase in 
carbon dioxide levels from fossil fuel burning has beneficial effects 
on most crops and on world food supply.
    We are disturbed that activists, anxious to stop energy and 
economic growth, are pushing ahead with drastic policies without taking 
notice of recent changes in the underlying science. We fear that the 
rush to impose global regulations will have catastrophic impacts on the 
world economy, on jobs, standards of living, and health care, with the 
most severe consequences falling upon developing countries and the 
poor.

David G. Aubrey, Ph.D., Senior Scientist, Woods Hole Oceanographic 
        Institute.
Nathaniel B. Guttman, Ph.D., Research Physical Scientist, National 
        Climatic Data Center.
Hugh W. Ellsaesser, Ph.D., Meteorologist, Lawrence Livermore National 
        Laboratory.
Richard Lindzen, Ph.D., Center for Meteorology and Physical 
        Meteorology, M.l.T.
Robert C. Balling, Ph.D., Director, Laboratory of Climatology, Arizona 
        State University.
Patrick Michaels, Ph.D., Assoc. Professor of Environmental Sciences, 
        University of Virginia.
Roger Pielke, Ph.D., Professor of Atmospheric Science, Colorado State 
        University.
Michael Garstang, Ph.D., Professor of Meteorology, University of 
        Virginia.
Sherwood B. Idso, Ph.D., Research Physicist, U.S. Water Conservation 
        Laboratory.
Lev S. Gandin, Ph.D., UCAR Scientist, National Meteorological Center.
John A. McGinley, Chief, Forecast Research Group, Forecast Systems 
        Laboratory, NOAA.
H. Jean Thiebaux, Ph.D., Research Scientist, National Meteorological 
        Center, National Weather Service, NOM.
Kenneth V. Beard, Ph.D., Professor of Atmospheric Physics, University 
        of Illinois.
Paul W. Mielke, Jr., Ph.D., Professor, Dept. of Statistics, Colorado 
        State University.
Thomas Lockhart, Meteorologist, Meteorological Standards Institute.
Peter F. Giddings, Meteorologist, Weather Service Director.
Hazen A. Bedke, Meteorologist, Former Regional Director, National 
        Weather Service.
Gabriel T. Csanady, Ph.D., Eminent Professor, Old Dominion University.
Roy Leep, Executive Weather Director, Gillett Weather Data Services.
Terrance J. Clark, Meteorologist, U.S. Air Force.
Neil L Frank, Ph.D., Meteorologist.
Michael S. Uhart, Ph.D., Meteorologist, National Weather Service.
Bruce A. Boe, Ph.D., Director, North Dakota Atmospheric Resource Board.
Andrew Detwiler, Ph.D., Assoc. Prof., Institute of Atmospheric 
        Sciences, S. Dakota School of Mines & Technology.
Robert M. Cunningham, Consulting Meteorologist, Fellow, American 
        Meteorological Society.
Steven R. Hanna, Ph.D., Sigma Research Corporation.
Elliot Abrams, Meteorologist, Senior Vice President, AccuWeather, Inc.
William E. Reifenyder, Ph.D., Consulting Meteorologist, Professor 
        Emeritus, Forest Meteorology, Yale University.
David W. Reynolds, Research Meteorologist.
Jerry A. Williams, Meteorologist, President, Oceanroutes, Inc.
Lee W. Eddington, Meteorologist, Geophysics Division, Pacific Missile 
        Test Center.
Werner A. Baum, Ph.D., former Dean, College of Arts & Sciences, Florida 
        State University.
David P. Rogers, Ph.D., Assoc. Professor of Research Oceanography, 
        Scripps Institution of Oceanography.
Brian Fiedler, Ph.D., Asst. Professor of Meteorology, School of 
        Meteorology, University of Oklahoma.
Edward A. Brandes, Meteorologist.
Melvyn Shapiro, Chief of Meteorological Research, Wave Propagation 
        Laboratory, NOM.
Joseph Zabransky, Jr., Associate Professor of Meteorology, Plymouth 
        State College.
James A. Moore, Project Manager, Research Applications Program, 
        National Center for Atmospheric Research.
Daniel J. McNaughton, ENSR Consulting and Engineering.
Brian Sussman, Meteorologist.
Robert D. Elliott, Meteorologist, Fellow, American Meteorological 
        Society.
H. Read McGrath, Ph.D., Meteorologist.
Earl G. Droessler, Ph.D., North Carolina State University.
Robert E. Zabrecky, Meteorologist.
William M. Porch, Ph.D., Atmospheric Physicist, Los Alamos National 
        Laboratory.
Earle R. Williams, Ph.D, Assoc. Prof. of Meteorology, Massachusetts 
        Institute of Technology.
S. Fred Singer, Ph.D., Atmospheric Physicist, Univ. of Virginia, 
        President, Science & Environmental Policy Project.

    Please note: Affiliations listed are for identification purposes 
only.
            THE LEIPZIG DECLARATION ON GLOBAL CLIMATE CHANGE

(http://www.sepp.org/leipzig.html, February 24, 2006)

    As independent scientists concerned with atmospheric and climate 
problems, we--along with many of our fellow citizens--are apprehensive 
about emission targets and timetables adopted at the Climate Conference 
held in Kyoto, Japan, in December 1997. This gathering of politicians 
from some 160 signatory nations aims to impose on citizens of the 
industrialized nations--but not on others--a system of global 
environmental regulations that include quotas and punitive taxes on 
energy fuels to force substantial cuts in energy use within 10 years, 
with further cuts to follow. Stabilizing atmospheric carbon dioxide--
the announced goal of the Climate Treaty--would require that fuel use 
be cut by as much as 60 to 80 percent--worldwide!
    Energy is essential for economic growth. In a world in which 
poverty is the greatest social pollutant, any restriction on energy use 
that inhibits economic growth should be viewed with caution. We 
understand the motivation to eliminate what are perceived to be the 
driving forces behind a potential climate change; but we believe the 
Kyoto Protocol--to curtail carbon dioxide emissions from only part of 
the world community--is dangerously simplistic, quite ineffective, and 
economically destructive to jobs and standards-of-living.
    More to the point, we consider the scientific basis of the 1992 
Global Climate Treaty to be flawed and its goal to be unrealistic. The 
policies to implement the Treaty are, as of now, based solely on 
unproven scientific theories, imperfect computer models--and the 
unsupported assumption that catastrophic global warming follows from an 
increase in greenhouse gases, requiring immediate action. We do not 
agree. We believe that the dire predictions of a future warming have 
not been validated by the historic climate record, which appears to be 
dominated by natural fluctuations, showing both warming and cooling. 
These predictions are based on nothing more than theoretical models and 
cannot be relied on to construct far-reaching policies.
    As the debate unfolds, it has become increasingly clear that--
contrary to the conventional wisdom--there does not exist today a 
general scientific consensus about the importance of greenhouse warming 
from rising levels of carbon dioxide. In fact, most climate specialists 
now agree that actual observations from both weather satellites and 
balloon-borne radiosondes show no current warming whatsoever--in direct 
contradiction to computer model results.
    Historically, climate has always been a factor in human affairs--
with warmer periods, such as the medieval ``climate optimum,'' playing 
an important role in economic expansion and in the welfare of nations 
that depend primarily on agriculture. Colder periods have caused crop 
failures, and led to famines, disease, and other documented human 
misery. We must, therefore, remain sensitive to any and all human 
activities that could affect future climate.
    However, based on all the evidence available to us, we cannot 
subscribe to the politically inspired world view that envisages climate 
catastrophes and calls for hasty actions. For this reason, we consider 
the drastic emission control policies deriving from the Kyoto 
conference--lacking credible support from the underlying science--to be 
ill-advised and premature.

    This statement is based on the International Symposium on the 
Greenhouse Controversy, held in Leipzig, Germany on Nov. 9-10, 1995, 
and in Bonn, Germany on Nov. 10-11, 1997. For further information, 
contact the Europaeische Akademie fuer Umweltfragen or The Science and 
Environmental Policy Project in Arlington, Virginia.<singer@sepp.org>
                 SIGNATORIES TO THE LEIPZIG DECLARATION

(http://www.sepp.org/LDsigs.html, February 24, 2006)

    The following is a partial list only. Following the Kyoto 
Conference on global warming, the original Declaration was slightly 
amended. The posting of 33 additional signatories is pending 
verification that the scientists still agree with the statement. The 
list will be updated as these verifications come in.

Dr. John Apel, oceanographer, Global Oceans Associates, formerly with 
        Johns Hopkins University Applied Physics Laboratory.
Dr. David Aubrey, Senior Scientist, Marine Policy Center, Woods Hole 
        Oceanographic Institute, Massachusetts.
Dr. Duwayne M. Anderson,Professor, Texas A&M University.
Dr. Robert Balling, Professor and Director of the Office of 
        Climatology, Arizona State University; more than 80 research 
        articles published in scientific journals; author of The Heated 
        Debate: Greenhouse Predictions vs. Climate Reality (1992); co-
        author, Interactions of Desertifications and Climate, a report 
        for the UN Environmental Program and the World Meteorological 
        Organization; contributor/reviewer, IPCC.
Dr. Jack Barrett, Imperial College, London, UK.
Dr. Warren Berning, atmospheric physicist, New Mexico State University.
Dr. Jiri Blumel, Institute Sozialokon. Forschg. Usti nad Labem, Czech 
        Republic.
Bruce Boe, atmospheric scientist and Director of the North Dakota 
        Atmospheric Resources Board; member, American Meteorological 
        Society; former Chairman, AMS Committee on Planned and 
        Inadvertent Weather Modification.
Dr. C.J.F. Bottcher, Chairman of the Board, The Global Institute for 
        the Study of Natural Resources, The Hague, The Netherlands; 
        Professor Emeritus of physical chemistry, Leiden University; 
        past President of the Science Policy Council of The 
        Netherlands; former member, Scientific Council for Government 
        Policy; former head of the Netherlands Delegation to the OECD 
        Committee for Science and Technology; author, The Science and 
        Fiction of the Greenhouse Effect and Carbon Dioxide; founding 
        member of The Club of Rome.
Dr. Arthur Bourne, Professor, University of London, UK.
Larry H. Brace, physicist, former Director of the Planetary Atmospheres 
        Branch, NASA Goddard Space Flight Center; recipient NASA Medal 
        for Exceptional Scientific Achievement.
Dr. Norman M.D. Brown, FRSC, Professor, University of Ulster.
Dr. R.A.D. Byron-Scott, meteorologist, formerly senior lecturer in 
        meteorology, Flinders Institute for Atmospheric and Marine 
        Science, Flinders University, Adelaide, Australia.
Dr. Joseph Cain, Professor of planetary physics and geophysics, 
        Geophysical Fluid Dynamics Institute, Florida State University; 
        elected Fellow, American Geophysical Union; formerly with NASA 
        Goddard Space Flight Center (scientific satellites) and the 
        U.S. Geological Survey.
Dr. Gabriel T. Csanady, meteorologist, Eminent Professor, Old Dominion 
        University, Norfolk, Virginia.
Robert Cunningham, consulting meteorologist, Fellow, American 
        Meteorological Society.
Dr. Fred W. Decker, Professor of meteorology, Oregon State University, 
        Corvalis, Oregon; elected Fellow, AAAS; member, RMS, NWA, AWA, 
        AMS.
Lee W. Eddington, meteorologist, Naval Air Warfare Center.
Dr. Hugh Ellsaesser, atmospheric scientist, Lawrence Livermore National 
        Laboratory (1963-1986); Participating Guest Scientist, Lawrence 
        Livermore Natl. Lab. (1986-1996), more than 40 refereed 
        research papers and major reports in the scientific literature.
Dr. John Emsley, Imperial College, London, UK.
Dr. Otto Franzle, Professor, University of Kiel, Germany.
Dr. C.R. de Freitas, climate scientist, University of Auckland, New 
        Zealand, Editor of the international journal Climate Research.
Dr. John E. Gaynor, Senior Meteorologist, Environmental Technology 
        Laboratory, National Oceanic and Atmospheric Administration, 
        Boulder, Colorado.
Dr. Tor Ragnar Gerholm, Professor Emeritus of Physics, University of 
        Stockholm, member of Nobel Prize selection committee for 
        physics; member, Royal Swedish Academy of Sciences and Royal 
        Swedish Academy of Engineering Sciences, author of several 
        books on science and technology.
Dr. Gerhard Gerlich, Professor, Technical University of Braunschweig.
Dr. Thomas Gold, Professor of astrophysics, Cornell University, Ithaca, 
        New York.
Dr. H.G. Goodell, Professor, University of Virginia, Charlottesville.
James D. Goodridge, climatologist, formerly with California Dept. of 
        Water Resources.
Dr. Adrian Gordon, meteorologist, University of South Australia.
Prof. Dr. Eckhard Grimmel, Professor, University Hamburg, Germany.
Dr. Nathaniel B. Guttman, Research Physical Scientist, National 
        Climatic Data Center, Asheville, North Carolina; former 
        Professor of atmospheric sciences/climatology; former Chairman, 
        AMS Committee on Applied Climatology.
Dr. Paul Handler, Professor of chemistry, University of Illinois.
Dr. Vern Harnapp, Professor, University of Akron, Ohio.
Dr. Howard C. Hayden, Professor of physics, University of Connecticut.
Dr. Michael J. Higatsberger, Professor and former Director, Institute 
        for Experimental Physics, University of Vienna, Austria; former 
        Director, Seibersdorf Research Center of the Austrian Atomic 
        Energy Agency; former President, Austrian Physical Society.
Dr. Austin W. Hogan, meteorologist, co-editor of the journal 
        Atmospheric Research.
Dr. William Hubbard, Professor, University of Arizona, Dept. of 
        Planetary Sciences; elected Fellow of the American Geophysical 
        Union.
Dr. Heinz Hug, lecturer, Wiesbaden, Germany.
Dr. Zbigniew Jaworski, University of Warsaw, Poland.
Dr. Kelvin Kemm, nuclear physicist, Director, Technology Strategy 
        Consultants, Pretoria, South Africa; columnist, Engineering 
        News; author, Techtrack: A Winding Path of South African 
        Development.
Dr. Robert L. Kovach, Professor of geophysics, Stanford University, 
        Palo Alto, California.
Dr. David R. Legates, Professor of meteorology, University of Oklahoma.
Dr. Heinz H. Lettau, geophysicist, Increase A. Lapham Professor 
        Emeritus, University of Wisconsin.
Dr. Henry R. Linden, Max McGraw Professor of Energy and Power 
        Engineering and Management, Director, Energy and Power Center, 
        Illinois Institute of Technology; elected Fellow, American 
        Institute of Chemical Engineers; former member, Energy 
        Engineering Board of the National Research Council; member, 
        Green Technology Committee, National Academy of Engineering.
Dr. Richard S. Lindzen, Sloane Professor of Meteorology, Center for 
        Meteorology and Physical Meteorology, Massachusetts Institute 
        of Technology, Cambridge, Massachusetts.
Dr. J. P. Lodge, atmospheric chemist, Boulder, Colorado.
Dr. Anthony R. Lupo, atmospheric scientist, Professor, University of 
        Missouri at Columbia, reviewer/contributing author, IPCC.
Dr. George E. McVehil, meteorologist, Englewood, Colorado.
Dr. Helmut Metzner, Professor, Tubingen, Germany.
Dr. Patrick J. Michaels, Professor and Director of the State Office of 
        Climatology, University of Virginia; more than 50 research 
        articles published in scientific journals; past President, 
        American Association of State Climatologists; author, Sound and 
        Fury: The Science and Politics of Global Warming (1992); 
        reviewer/contributing author, IPCC.
Sir William Mitchell, physicist, University of Oxford, U.K.
Dr. Asmunn Moene, former chief of Meteorology, Oslo, Norway.
Laim Nagle, energy/engineering specialist, Cornfield University, UK.
Robert A. Neff, former U.S. Air Force meteorologist: member, AMS, AAAS.
Dr. William A. Nierenberg, Director Emeritus, Scripps Institute of 
        Oceanography, La Jolla, California; Professor Emeritus of 
        oceanography, University of California at San Diego; former 
        member, Council of the U.S. National Academy of Science; former 
        Chairman, National Research Council's Carbon Dioxide Assessment 
        Committee; former member, U.S. EPA Global Climate Change 
        Committee; former Assistant Secretary General of NATO for 
        scientific affairs; former Chairman, National Advisory 
        Committee on Oceans and Atmospheres.
Dr. William Porch, atmospheric physicist, Los Alamos National 
        Laboratory, New Mexico.
Dr. Harry Priem, Professor of geology, University of Utrecht.
Dr. William E. Reifsnyder, Professor Emeritus of biometeorology, Yale 
        University; elected Fellow, American Association for the 
        Advancement of Science; former Chairman, National Academy of 
        Science/National Research Council Committee on Climatology; AMS 
        Award for Outstanding Achievement in Biometeorology.
Dr. Alexander Robertson, meteorologist, Adjunct Professor, Memorial 
        University of Newfoundland, Canada; author of more than 200 
        scientific and technical publications in biometeorology and 
        climatology, forestry, forest ecology, urban environmental 
        forestry, and engineering technology.
Dr. Thomas Schmidlin, CCM, Professor of meteorology/climatology, Kent 
        State University, Ohio; Editor, Ohio Journal of Science; 
        elected Fellow, Ohio Academy of Science; member, AMS.
Dr. Frederick Seitz, physicist, former President, Rockefeller 
        University, former President, U.S. National Academy of 
        Sciences; former member, President's Science Advisory 
        Committee; recipient, U.S. National Medal of Science.
Dr. Gary D. Sharp, Executive Director, Center for Climate/Ocean 
        Resources Study and the Cooperative Institute for Research in 
        the Integrated Ocean Sciences; contributed to the initial 
        development of the Climate Change Program of the National 
        Oceanic And Atmospheric Administration; investigated climate-
        related resource variabilities, sustainable development, and 
        basic environmental climatology for the UN, World Bank, and 
        USAID.
Dr. S. Fred Singer, atmospheric physicist; President, The Science & 
        Environmental Policy Project; former Director, U.S. Weather 
        Satellite Service; Professor Emeritus of environmental science, 
        University of Virginia; former Chairman, federal panel 
        investigating effects of the SST on stratospheric ozone; author 
        or editor of 16 books, including Global Climate Change (1989) 
        and Hot Talk, Cold Science: Global Warming's Unfinished Debate 
        (1997).
Dr. A. F. Smith, chemical engineer (ret.), Jacksonville, Florida.
Dr. Fred J. Starheim, Professor, Kent State University.
Dr. Chauncey Starr, President Emeritus, Electric Power Research 
        Institute; winner, 1992 National Medal of Engineering.
Dr. Robert E. Stevenson, Secretary General Emeritus, International 
        Association for the Physical Sciences of the Oceans, and a 
        leading world authority on space oceanography; more than 100 
        research articles published in scientific journals; author of 
        seven books; advisor to NASA, NATO, U.S. National Academy of 
        Science, and the European Geophysical Society.
Dr. George Stroke, Professor, Max Planck Institute for Meteorology, 
        Munich, Germany.
Dr. Heinz Sundermann, University of Vienna, Austria.
Dr. George H. Sutton, Professor Emeritus, University of Hawaii.
Dr. Arlen Super, meteorologist, U.S. Bureau of Reclamation, Lakewood, 
        Colorado.
Dr. Vladimir Svidersky, Professor, Sechenoc Institute, Moscow, Russia.
Dr. M. Talwani, geophysicist, Rice University, Houston, Texas.
Dr. W. F. Tanner, Professor, Florida State University.
Peter Arnold Toynbee, chemical engineer, F. Institute of Energy, 
        London, England.
Dr. Christiaan Van Sumere, Professor, University of Gent, Belgium.
Dr. Robin Vaugh, physicist, University of Dundee, UK.
Dr. Robert C. Wentworth, geophysicist, Oakland, California, formerly 
        with Lochheed Reseach Laboratory.
Dr. Robert C. Whitten, physicist, formerly with NASA.
Dr. Klaus Wyrtki, Professor Emeritus, University of Hawaii Sea Level 
        Center.
                     TELEVISION NEWS METEOROLOGISTS

(affiliation for identification purposes only)

Elliot Abrams, meteorologist, Senior Vice President, Accuweather, Inc.
Richard Apuzzo, meteorologist, WXIX-TV (FOX), Cincinnati, Ohio; member, 
        AMS, NWA, SKYWARN; recipient of ``Best Weathercast'' awards 
        from Associated Press and United Press International.
Andre Bernier, meteorologist, WJW-TV (FOX), Cleveland, Ohio.
Sallie Bernier, meteorologist, WJW-TV (FOX), Cleveland, Ohio.
Bob Breck, meteorologist, WVUE-TV (ABC), New Orleans, Louisiana.
Matthew Bye, meteorologist, KPIX-TV (CBS) San Francisco, California.
A. J. Colby, meteorologist, WICU-TV (NBC), Erie, Pennsylvania.
Dr. Neil L. Frank, meteorologist, HOU-TV (CBS), Houston, Texas, former 
        Director, National Hurricane Center.
Dick Gance, meteorologist, Weather Forecasting, Inc., Concord, Ohio.
Dick Goddard, meteorologist, WJW-TV (FOX), Cleveland, Ohio.
Shane Hollett, meteorologist, WJW-TV (FOX), Cleveland, Ohio.
Mark Johnson, meteorologist, WEWS-TV (ABC), Cleveland, Ohio.
Roy Leep, meteorologist, WTVT-TV (CBS), recently retired; Director, 
        Gillette Weather Data Services, Tampa, Florida; elected Fellow, 
        American Meteorological Society; former member, AMS Executive 
        Council; among the group of TV meteorologists invited to the 
        White House for a briefing on global warming.
Mark Koontz, meteorologist, WJW-TV (FOX), Cleveland, Ohio.
Jon Loufman, meteorologist, WKYC-TV (NBC), Cleveland, Ohio.
Dan Maly, meteorologist, WOIO-TV (FOX), Cleveland, Ohio.
Ryan McPike, atmospheric scientist, WICU-TV (NBC), Erie, Pennsylvania.
James T. Moore, meteorologist, KSWO-TV (ABC) Lawton, Oklahoma.
Scott R. Sabol, meteorologist, WBOY-TV (NBC), Clarksburg, West 
        Virginia.
Dr. Joseph Sobel, meteorologist, Pennsylvania Public Television 
        Network; Senior Vice President, Accu-Weather, Inc., State 
        College, Pennsylvania; co-author, Changing Weather: Facts and 
        Fallacies About Climate Change and Weather Extremes.
Brad Sussman, meteorologist, WEWS-TV (ABC), Cleveland, Ohio, AMS, NWA, 
        Broadcast Seal Committee Chair NWA.
Brian Sussman, meteorologist, KPIX-TV (CBS) San Francisco, California; 
        member, American Meteorological Society (served on AMS 
        Education Committee), 12-time recipient of the ``Best 
        Weathercast'' award from the Radio and Television News 
        Directors Association and Associated Press.
Anthony Watts, meteorologist, KHSL-TV (CBS), Chico, California.
Don Webster, meteorologist, WEWS-TV 9 (ABC), Cleveland, Ohio.
Brian Westfall, meteorologist, Weather Forecasting, Inc., Akron, Ohio.

    Mr. Rohrabacher. Thank you very much and with that, thank 
you very much. I look forward to working with you to making 
sure we get the most out of our research dollars and that we 
become energy sufficient, self-sufficient in the years ahead. 
Thank you very much.
    Chairman Boehlert. And let the Chair note that he looks 
forward to our continued working partnership and I don't 
consider you a skunk at the lawn party. First of all, this is 
not a lawn party and secondly, you referred to yourself in that 
manner. I refer to you as a valid colleague and hope springs 
eternal. One day we might succeed in convincing you that global 
climate change is for real. With that, the Chair----
    Mr. Rohrabacher. It's only who causes it that's the real 
debate here.
    Chairman Boehlert. With that, the Chair is pleased to 
recognize the gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to start out 
by echoing one of the things that Mr. Rohrabacher had said in 
applauding the President for coming forward in the State of the 
Union Address and talking about a vision or making it a 
priority that we do improve technology, we improve education in 
math and science, produce more engineers and also energy 
independence. These are fantastic ideas and these are things 
that we need to be working on. I'm afraid that what we really 
are at here now is where the rubber meets the road and there 
are some places where already it seems to be slipping, that 
there isn't the commitment to this vision from the 
Administration. But before I get into that, I want to start 
by--unfortunately, Dr. Bartlett's not here. Earlier on, he 
spoke about the importance of training engineers--and sometimes 
I feel guilty.
    I used to be an engineer; got degrees in actually, a 
Bachelor's and a Master's in engineering and I don't practice 
engineering, but I sometimes feel guilty for doing that, come 
here and talk about the importance of engineers and having more 
engineers and I left all that behind, but Dr. Bartlett even 
made it worse when he was talking about going from--we have too 
many lawyers and too many political scientists, not enough 
engineers. I went from being an engineer, I got my Ph.D. in 
political science and therefore I went apparently to the dark 
side, but I try to redeem myself here and I think the 
engineering background helps me tremendously, engineering about 
problem solving. That's what we are here to do in Congress, 
we're all here, is to solve problems. Now, I look back at what 
inspired me to become an engineer and it was really my 
education before I got to college.
    And I'm very disappointed that the Math and Science 
Partnership Program is being cut drastically. The amount 
proposed this year will only fund those existing grants. I just 
think it's a tremendous way to get--I was also a college 
professor. I think it's great to be able to get those at the 
college level involved with the high school levels, other 
levels, elementary education, in order to inspire kids to go 
ahead and go into science, math, engineering. Dr. Bement, 
what's the reason--is there some reason for cutting that? Is 
the Administration not seeing it as effective or what is the 
purpose of that?
    Dr. Bement. My answer to that, Mr. Lipinski, is that the 
Math and Science Partnership came subsequent to Systemic 
Initiative support from the Foundation and those test beds 
provided a tremendous amount of understanding of good practice 
and also the importance of getting community involvement, as 
well as business sector involvement in education to go from 
commitment to involvement. Those lessons have been learned, but 
they've been learned in a program that could only reach a few 
dozen school districts. The time has come now to take those 
lessons learned and to implement them and propagate them more 
broadly among the 15,000 school districts that we have in the 
country and one can't really argue that the Administration is 
not paying attention to education when really, they're focused 
on implementation and propagation----
    Mr. Lipinski. Okay, my time's very short. I don't think 
that we've figured out all the answers. Yes, I agree we need to 
propagate it, but I think there's more to learn. I think we 
could put more of that--I have to move on quickly. I just want 
to add I'm very glad, happy that the Chairman is committed to 
MEP. In my district, manufacturing has declined tremendously. 
Manufacturers are coming to me and saying we need some kind of 
help in order to compete and this is one way that's been 
proven--one program that's proven to help the American 
manufacturers compete. One last thing, Mr. Gutknecht 
mentioned--talking about DARPA--if Dr. Marburger maybe would 
comment on a bill that Ranking Member Gordon introduced to 
create ARPA-E, which is ARPA for Energy. If you're familiar 
with that and what your thoughts are on it?
    Dr. Marburger. First of all, I want to declare I am 
familiar with DARPA because when I was doing active science, I 
got a lot of my research support from the early DARPA. At that 
time it was called ARPA and I was doing very basic research, by 
the way. Similar programs were also funded by the National 
Science Foundation and other agencies at that time. My view 
about these types of organizations that we can imagine can be 
effective in agencies, my view is that we should listen to the 
Cabinet officials and administrators and directors of those 
agencies to see--whom we rely on to guide the agency, manage it 
to get the maximum benefit of our taxpayer dollars. We should 
rely on their judgment and so in the American Competitiveness 
Initiative, we did not put in a lot of requirements on these 
high-priority agencies that are testifying here today.
    We decided that we would propose to increase their budgets 
and then let them decide if they needed to propose additional 
mechanisms and reorganizations within their agencies and they 
may well do that, either now or later on in the program after 
all--we have a commitment to continue to increase their budgets 
over a period of years. It may well be that in subsequent 
budgets or even in the near future agencies may decide that 
they need to change their organization to spend these funds 
more effectively. We're going to rely on the Presidentially 
appointed leadership of those agencies to tell us what the most 
important thing to do with those funds is.
    Chairman Boehlert. Thank you very much.
    Mr. Lipinski. Thank you. I thank all of you for the work 
that you're doing and Doctor, I'm very happy that NSF is 
getting an increase in funding this year.
    Dr. Marburger. Thank you.
    Chairman Boehlert. Thank you very much. Dr. Schwarz.
    Mr. Schwarz. Thank you, Mr. Chairman. Very briefly. I'm not 
going to cut into anybody's lunch time here. I know better. 
First, thank you very much to the American Competitiveness 
Initiative, think big, please, think big whether it's nuclear 
or nano or bio, think big and go get them. And there are people 
out there who would set up barriers in this country. There are 
Luddites among us and we know that, you know that. I can think 
of several. The trial bar comes to mind, but who's thinking? 
Question. What has happened with the rare isotope accelerator? 
What's going on, Secretary Bodman, Dr. Bement, perhaps can tell 
me. My interest is because I don't quite, but represent 
everything around Michigan State University which has one of 
the largest accelerators in the country and is ready, willing 
and able and then, in the Midwest, as well, Argonne, I know, 
was in the mix, so what's happened, what's going on, when is 
this going to move forward? The research community, at least 
the nuclear research community feels this is a very important 
project.
    Secretary Bodman. I'm aware of the interest in Michigan and 
Illinois. We look very hard at the importance of the RIA 
program. It is important. As we allocated the funds and looked 
at the potential increases that we're dealing with, this is a 
billion to a billion and a half dollar project, to build it and 
operate it and we simply couldn't afford it with everything 
else that we're doing. We think it's important, so we have a 
program in place that over the next five years will be spending 
funds in significant amounts, $5, $6 million a year to fund 
this activity and to work with foreign-based partners who are 
already in this business, both in Germany and in Canada, I know 
are two of the three that are being considered. In the year 
2011, that's when we are planning, at least as we look forward 
to the flow of funds in this department, we would be looking 
forward to doing preliminary engineering design and so in 
effect, it's going to be put off five years; that's at least as 
we see it. And I know that's not happy news for you, nor will 
it be happy news for Congresswoman Biggert, who has departed, 
but those are the facts as we see it.
    Mr. Schwarz. I just wanted to assure you, Mr. Secretary, 
that Michigan State University is ready and willing whenever 
you are. Thank you, sir.
    Secretary Bodman. Thank you, sir.
    Chairman Boehlert. Ready to go, huh? Mr. Matheson.
    Mr. Matheson. Thanks, Mr. Chairman. Thanks, everybody, for 
being here today and Secretary Bodman, I appreciate your being 
here. We had a discussion last year, at this very hearing--it 
was right after you became Secretary--about the uranium mill 
tailings pile near Moab, Utah and a lot has happened since we 
had that discussion a year ago. As you know, the environmental 
impact statement process was completed and the record of 
decision decided that the pile should be moved, which is, of 
course, as you may recall what I was hoping would happen and 
I'm glad that it has and that that decision has been made to 
move forward.
    I wanted to discuss with you, though, what the next step's 
going to be because it's going to be, roughly speaking, a $450 
million project to move this pile. It's the largest of all the 
mill tailings piles the DOE's been in charge of that they've 
had to move. This is much bigger in scale than the others. And 
the reason I want to talk to you about it is I was concerned 
with the budget that was submitted last week where we see a 
reduction in the recommended amount to be spent on removal of 
this pile. The budget rates for this year is $22.8 million, 
which is actually almost 20 percent less than what was 
appropriated in the current fiscal year for this project and 
I'm concerned that we may be getting into a circumstance where 
this is going to drag out not over eight years to move this 
pile, but 22 years or longer and wanted to know if you had any 
insight into what the decision making was about dropping the 
budgeting down and stretching this program out or if you had 
any information you could share with me on that?
    Secretary Bodman. First of all, I'm happy that you seem to 
be happy that we made a decision to move forward with this, 
sir. Secondly, I think it's an error, which often seems to 
happen in the government where there is a correlation between 
the amount of money spent in a particular year and the physical 
process or the things that must be done. I do know I don't have 
all the details. I would be happy to give them to you in 
writing, but I do believe that there's an environmental impact 
statement that has to be done and that there is work that will 
be done in 2007 preparing the place where the tailings will be 
placed and so there is quite a rigorous program that has been 
laid out and that we expect to make the schedules that, you 
know, as advertised. If you think that it's going to be 22 
years----
    Mr. Matheson. I hope not.
    Secretary Bodman.--I would be happy to investigate that and 
see to it that that's not the case.
    Mr. Matheson. I hope it's not and I hope that just in the 
name of short-term savings we don't get into a longer term as 
I'm sure you know where I'm coming from. In the long run 
sometimes, you're better off spending more money up front than 
letting something get stretched out over time. At the end of 
the day, we end up spending more taxpayer money when we let 
things get stretched out for a long period of time.
    Secretary Bodman. Well, you are quite right about that and 
we're seeing that in a number of different areas. On the other 
hand, I am satisfied that this Department, in the past, has not 
distinguished itself at times, particularly in the 
environmental management area, in having rushed into something 
without adequate planning and without an adequate discussion of 
exactly what it's going to cost and how long it will take. And 
I--we're trying to do this in a rigorous fashion.
    Mr. Matheson. Understood.
    Secretary Bodman. I hope you appreciate that.
    Mr. Matheson. I do, and if I could just--I may send you 
just a quick written question, if we can just get a sense of 
what the Department views the schedule over the next few years 
for doing that, I'd really appreciate that.
    Secretary Bodman. Be happy to do it, sir.
    Mr. Matheson. Okay, thank you. And with that, I'll yield 
back, Mr. Chairman.
    Chairman Boehlert. The gentleman from Texas, Mr. Hall.
    Mr. Hall. Chairman, I thank you and I'm looking for some 
happy news. I'm looking for better news than I expect. I think 
all of us agree with Mr. Rohrabacher and the other gentlemen 
and ladies that have discussed here today about economic growth 
in our country and how we depend on knowledge based industries 
and resources. To that end, I don't think there's any question 
that this year's budget proposal seeks to bolster math and 
science education. The President mentioned it in his speech the 
other evening. I've heard it from almost every podium how 
important it is and I agree with it. It provides jobs for 
citizens and solutions to their problems. One of the most 
important, though, and one of the greatest challenges today, I 
think, is energy and all of us agree that we need to move 
toward what they call energy independence and I've heard, Mr. 
Bodman, you speak about the 60 percent reliability we have on 
people that maybe don't trust us totally or we don't trust them 
or we're fearful of it.
    I've heard the President make similar statements and I 
certainly agree with him. And I'm pleased to see that the 
budget highlights alternative fuel technology; solar, biomass, 
nuclear, hydrogen and clean coal and all of these are going to 
help us, but I must say that I'm a little distressed to see 
that the Administration has also chosen to zero out some very 
important oil and gas research programs. If we want to become 
energy independent from foreign sources, then we need to 
support innovation in this area, I think, to the hilt and 
Secretary Bodman, as you know, independent producers drill 
about 90 percent of the Nation's wells and produce 85 percent 
of the Nation's oil and gas, so this isn't something that we're 
pitching to the majors that report huge profits every year and 
something that maybe the people feel that they ought to be 
having to put some of that back in the refineries or helping us 
with their energy problems.
    Now, I'll subscribe to most of that, but troubling to me is 
the Administration's proposal to end a program that we've all 
passed here, this committee's passed them for the last four 
years. I passed the budget, the ultra-deep arrangement three 
times as a Democrat and once as a Republican. It survived the 
conference committee each time and I think it's the will of 
this Congress. And I won't get into the royalty waivers because 
ultra-deep program doesn't have any such waivers. We excluded 
those waivers from this. We knew it would be objectionable. We 
didn't put that in there.
    But the program's designed for independent producers, not 
the majors. They help out by taking it over afterwards, and 
dozens of universities, companies all across this country and 
research labs everywhere are ready to move in and carry out 
this energy bill that we just proposed, but I think the thing 
that concerns me most and maybe you can explain it a little bit 
better to me, I sure hope you can, because I'm really concerned 
about it and the Department of Energy, FY 2007 Presidential 
budget request and the budget highlights on page 50, where it 
lays out their fossil energy research and development and under 
natural gas technologies and petroleum/oil technologies, for FY 
2007 request is zeroed out. Is that correct? Is that the 
recommendation of the Department of Energy?
    Secretary Bodman. It is the recommendation of the 
Administration, yes, Mr. Hall.
    Mr. Hall. Then I won't ask you to express your opinion on 
it at this time, but I'm going to want to talk to you about it 
later and maybe ask you to give us some more information on it.
    Secretary Bodman. Well, I'd be happy to provide any 
information, sir, as I can.
    Mr. Hall. You always have been and I'm very hopeful that we 
can work something out on this, but at page 52 of the report it 
says, ``The FY 2007 budget proposed to terminate the oil 
technology and natural gas technologies' research and 
development programs. Federal staff paid from the program 
direction account will continue to work toward an orderly 
termination of this program.'' What federal staff would that 
have been?
    Secretary Bodman. This is the staff that is working on the 
research and development programs in the laboratories--as well 
as in the Energy Department.
    Mr. Hall. And you have access to that?
    Secretary Bodman. Do I have access to that?
    Mr. Hall. Do you have access to it?
    Secretary Bodman. Yes, sir.
    Mr. Hall. Let me be more specific. We get to the ultra-deep 
water and unconventional natural gas and other petroleum 
research fund that we've created; for 10 years we've been 
trying to pass an energy bill. For four years we've had these 
provisions in it and the request, it states that ``ultra-deep 
water and unconventional natural gas and other petroleum 
research fund was created by the Energy Policy Act of 2005 as a 
mandatory program beginning in FY 2007. The program would be 
funded for mandatory federal revenues from oil and gas leases. 
The budget proposes to repeal the program through a future 
legislative proposal consistent with the decision to terminate 
the discretionary oil and gas programs.'' And FY 2005 shows the 
current appropriation and goes on through the FY 2007, that 
they're zeroed out. Are you aware of that?
    Secretary Bodman. Yes, sir, I'm aware of it.
    Mr. Hall. All right, then, might I ask you if you intend to 
try to repeal the program through a future legislative 
proposal, what type proposal would that be?
    Secretary Bodman. Well, I think you'll find that the 
Congress will receive from the Administration a proposal to 
rescind that portion of the Energy Bill that deals with this 
particular program. My further understanding, sir, is that 
Congress, in passing the bill and the President, in signing the 
bill and creating the bill, has provided for the funding of 
this particular program starting in the year 2007 and that to 
the extent that Congress does not respond favorably to the 
proposal from the Administration, this Department will obey the 
law and we'll just----
    Mr. Hall. Well, I know you'll do that. My argument's not 
directly with you, it's with the decision that's been made 
somewhere.
    Secretary Bodman. I understand, but I'm just telling you 
that my understanding is that there is funding provided, that 
it's mandatory and we will pursue the matter. We have already 
done that which the law requires us to do. We have conducted 
the solicitation, the responses to the solicitation have been 
submitted and we are in the process of evaluating those at the 
current time.
    Chairman Boehlert. Thank you very much. Gentleman's time 
has expired. Chair recognizes Mr. Wu.
    Mr. Hall. In that case, I yield back my time.
    Chairman Boehlert. Mr. Wu.
    Mr. Wu. Thank you very much, Mr. Chairman. I fully support 
the President's initiative to increase funding for greater 
competitiveness and innovation in America, but our budget, as 
passed, is simply not consistent with these goals. Immediately 
after the President made these proposals in the State of the 
Union Address, we cut college student financial aid by $12 
billion and that was an Administration proposal to cut college 
financial aid by $12 billion. We've got to walk the walk as 
well as talk the talk. Competitiveness is, in large part, about 
job creation and I can see nothing more important than a 
college education. It is also about job retention and we must 
work to make the President's competitiveness initiative more 
than just words and rhetoric; our citizens deserve that. 
Research and development funding should be increased overall 
and not just for the favorite few programs at the expense of 
the rest. Again, we've got to walk the walk as well as talk the 
talk.
    The Administration seeks to completely gut the Advanced 
Technology Program and to decrease funding for the 
Manufacturing Extension Partnership, two programs with a proven 
record of creating and retaining manufacturing jobs today and 
into the future. We need results, not just empty promises and 
faulty reasoning. We in Congress have consistently stood our 
ground and increased overall science and technology investment 
above and beyond the Administration's request and I encourage 
my colleagues to continue to do so.
    Dr. Marburger, I have a couple of questions for you. It has 
been two years since allegations of scientific manipulation and 
censorship were first made against this Administration. Despite 
your assurances that these claims had no validity whatsoever 
and that you were looking into this very important matter, 
allegations have continued to surface. They are not confined to 
a single office or agency. The recent incidents concerning Dr. 
Hansen at NASA, the reports about problems at NOAA, the 
mysterious transformation of the Technology Administration's 
report on off-shoring, and the suspension of a forest research 
grant at Oregon State University suggest that these problems 
are continuing in the Federal Government.
    Despite your assurances to the contrary, it appears that 
this Administration continues to confuse the roles of science 
policy and politics. It seems to many that information 
inconsistent with a favored political message is being 
suppressed and I submit to you, sir, that it is not just in 
science. That's exactly what happened in the Intelligence 
Committee and that's why we are stuck in a situation in the 
Middle East. It is time to stop politicizing science and 
muzzling scientists. This incident involving the publication of 
Science, in my home State, of a forest regeneration study by a 
student from Oregon State University is truly, truly troubling.
    The Bureau of Land Management suspended the federal 
research grant that funded this work, suspended it based on 
trumped up charges that the authors had violated a grant 
agreement. BLM almost immediately reversed itself in a 
firestorm of controversy and the grant suspension has been 
lifted, but the chilling effect of the BLM action continues to 
reverberate in the academic community. Dr. Marburger, this is a 
very serious problem. Why are we still learning about these 
incidents of scientific suppression two years after you wrote 
to this committee and this Congress assuring us that scientific 
integrity was not a problem in this Administration? For an 
Administration that takes more than a dozen hours to report a 
shooting, two years is a very, very long time and we still have 
this problem. Why is that so?
    Dr. Marburger. Congressman, I couldn't agree more with the 
undesirability of politicizing science. Unfortunately, science 
does have a credibility that stands by itself and everyone who 
has an opinion or an idea wants to grab a little of that 
credibility to bolster their own opinion. I'm not familiar with 
the case in Oregon State University and I'd be glad to look 
into it and respond to you and to any other specific incidents 
that you would like to direct me to. I personally believe, 
based on my own observation and interviews with leadership in 
the agencies, that there is not, in fact, an effort by this 
Administration to censor science or politicize it in any way.
    Mr. Wu. Dr. Marburger, what has your office done 
specifically to investigate the many, many allegations?
    Dr. Marburger. Whenever I hear of an allegation of this 
sort, I ask for a briefing on it either through my staff or 
directly from the agency where the incident occurred. I get all 
of the information----
    Mr. Wu. Since my time is expiring, maybe we could have 
another answer in writing addressing each of the specific 
incidents and we would appreciate receiving that.
    Dr. Marburger. I would be glad to do so.
    Mr. Wu. And perhaps we could further bolster your efforts 
by asking for a GAO report on the same topic, investigating 
whether these incidents are real and perhaps we could also get 
the National Academy of Sciences involved at some point.
    Chairman Boehlert. The gentleman's time has expired. 
Gentleman from South Carolina, Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman. I apologize for being 
late to this hearing. Ms. Jackson Lee and I were just finished 
at the mark up in Judiciary, so we're happy to be here now 
talking about these topics. And Dr. Bement, you have talked and 
the National Academy of Sciences has, I think, suggested that 
the icebreakers in the Antarctic Program be owned by the Coast 
Guard rather than charged to the NSF. This budget this year, 
again, has the money coming from the NSF. Any hope that we're 
going to get to implement that recommendation that we get those 
back to the responsibility of the Coast Guard?
    Dr. Bement. I don't recall actually making that statement. 
We have established an MOU with the Coast Guard, in which case 
the Coast Guard retains operational responsibility for the 
icebreakers and we have the responsibility for tasking the 
Coast Guard for the use of icebreakers. Based on that tasking, 
they then present us with a plan and then we negotiate the 
price and sometimes those negotiations are tough.
    Mr. Inglis. Let me make sure, I didn't mean to indicate 
that you had said anything about the icebreakers being 
transferred back to Coast Guard; the National Academy of 
Sciences has recommended that and I'm inclined to agree with 
that recommendation, so is a way of freeing up funds in your 
budget would be my main goal in transferring back to Coast 
Guard.
    Dr. Bement. We certainly appreciate your interest in that 
and we're also looking forward to the final report by the 
National Research Council on the issue.
    Mr. Inglis. It's helpful. I guess it's a question that has 
a direction to it. In other words, some hope that we can move 
back to a situation where the NSF budget is not taxed by those 
doing the icebreaking operations.
    And for all of the witnesses, one of the challenges, I 
suppose, in running your agencies is identifying the truly 
innovative projects and devoting resources to those, and these 
are the high-risk kind of breakthrough technologies. If you 
could give us a couple of lines on how it is in your agency you 
attempt to focus some resources on the truly innovative 
realizing that you've got to balance that with the things that 
will be yielding practical results soon and anybody that wants 
to start, I'd be happy to----
    Secretary Bodman. I'd be happy to start and we are working 
on broadening the types of feedstock that can be used to 
manufacture ethanol from corn or sugar cane to less valuable 
materials to so-called switch grass or corn stover or other 
materials and the President has asked for and provided for 
roughly, a $50 million increase from roughly $100 million to 
$150 million that will enable us. Before, I think, we were 
focusing entirely on the corn stover. We will now be able to 
work on a variety of feedstock. So that's one area.
    And the second one is in the solar energy and we are quite 
optimistic that by using also an additional $50 million 
approximately that has been indicated for that program. We will 
do a solicitation and be looking at the improvement of the 
efficiency of affordable cells that are currently making 
electricity at a price of roughly 20 to 25 cents. We need to 
cut that in half and there are some approaches that we have 
talked about that we believe have the potential. It's not 
certainty, but the potential of substantially reducing that, 
maybe cutting it in half, so those would be two suggestions.
    Dr. Sampson. At Commerce, we're focusing, in this budget 
increase, on nanotechnology, moving from just a pure art; 
research on the lab bench from nanotechnology to application in 
the manufacturing context. Secondly, hydrogen; the hydrogen 
economy, the safe manufacture, storage, sale of hydrogen. And 
then thirdly, quantum information science. If we're successful 
in moving down the road toward quantum computing, it will 
result in computers that can solve the most complex cases in 
seconds that today's most advanced supercomputers could not 
solve in years and so those are the areas that are identified 
for R&D funding at NIST.
    Chairman Boehlert. Gentleman's time--all right. Go to it. 
The wrong part, the end of the table.
    Mr. Inglis. No, I say you're at the beginning of the table.
    Chairman Boehlert. Yes.
    Dr. Bement. Let me say, Mr. Inglis, that the number one 
priority at the Foundation is moving the frontier forward, 
advancing the frontier, so that it would take a very long time 
to go through examples, but beyond that, let me say that we are 
trying to promote high-risk research. We do that by giving our 
program officers up to five percent of their budget to invest 
in new ideas that are scientifically feasible but also entail 
high risk. Each of our directors have part of their budget set 
aside, peer reviewed activities, but they are also oriented 
toward high-risk research. And finally, I could mention the 
LIGO experiment, which is Laser Interferometer Gravitational 
Wave Observatory, to measure gravitational waves. That is 
really an example of very high-risk research in terms of the 
level of investment, but also the precision of measurement 
required. As a result of that investment, we have advanced 
optics technology, we've advanced laser technology and we've 
advanced active and passive damping technology beyond anyone's 
imagination.
    Mr. Inglis. Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you and the gentleman's time is 
expired. Earlier in an exchange with Secretary Bodman, Mr. 
Honda asked some very important questions and it's our 
understanding now, in checking with the staff, that you did 
include in your testimony answers to the questions from Mr. 
Honda. We're going to bring those to his attention and so we 
hope he will be satisfied that you have been responsive in a 
timely fashion. If he's not satisfied, then we'll hold his hand 
and call you up and say we want more.
    Secretary Bodman. Here they are, sir.
    Chairman Boehlert. Okay, thank you.
    Secretary Bodman. They were delivered on October 26, 2005 
and----
    Chairman Boehlert. Fine, and I think that was not brought 
to Mr. Honda's attention and it will be, so thank you very 
much, Mr. Secretary, for your responsiveness. Chair recognizes 
Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman, for this very 
important hearing. I'm delighted my colleague shared with you 
that we were unavoidably detained in a mark up in Judiciary. 
Needless to say, this is a crucial hearing for America. As we 
sit here today, I think we can be very confident that China now 
graduates more scientists in the multiple disciplines than we 
do in a year. So we know that there are challenges that we have 
to confront together and you all present in a wonderful array 
of disciplines. But as we have made the very complementary, if 
you will, support statements as relates to the President's 
American Competitiveness Initiative, might I, for the record, 
restate which I know has already been restated, that despite 
these increases, the overall federal Science and Technology 
budget has been cut by one percent.
    Even in the face of the tragedy of the tsunami, we find 
that NOAA, indeed, for oceanic and atmospheric research has 
declined by eight percent even though NASA and NIH are, in 
fact, flat. We also see that DOE sustains major cuts throughout 
energy efficiency and for the second year, DOE would have to 
eliminate the Gas and Oil Technologies Program. On the other 
hand, I think there are some opportunities that we have if we 
can shed ourselves of the partisanship that seems to plague 
this terrible shortage and question of science and technology 
proudness in American. For example, the President's budget 
would double basic R&D in physical sciences at some of our 
agency in 10 years, frankly, many of us who are Democrats 
believe it should be done in five years. We cannot wait. Some 
would say that we cannot fall behind on our clock.
    In addition, I think it is important to note, for those of 
us who live in the inner city and rural districts, broadband 
access is paltry. There are no new federal investment in 
broadband access. That speaks poorly of a nation who is at the 
cutting edge of research. And then, as I said earlier, this 
particular budget fails to provide adequate funding to invest 
in the development of clean, sustainable energy alternatives 
such as bio-based fuels, as well as new engine technologies for 
flexible fuel vehicles. Of course, I come from the energy 
capital of the world and I am certainly not going to step away 
from that. We're proud, in Houston, Texas, to have a number of 
major oil companies and gas companies who are on the cutting 
edge of technology, but as we well know, the Internet was 
created by the wisdom of government scientists, no matter what 
anyone might articulate, and therefore, I know that we can do a 
better job in alternative fuel.
    So I have a number of questions that I hope I can have 
reasonable time for you to respond. First of all, Secretary of 
Energy, Dr. Bodman, might I say to you we need to see you more. 
In these months of crisis with energy prices soaring, the 
question of the environment versus energy, the question of the 
whole issue of, as I said, gas technology, oil technology and 
alternative fuels, frankly, I don't know how the energy policy 
of America has been articulated. I frankly don't believe it 
should be articulated from the Administration with closed door 
meetings. You're the Secretary of Energy. We need to see you 
more. And I think there needs to be policies that are 
progressive and innovative that are bipartisan.
    I was not sure of the line of questioning that my good 
friend and colleague, Mr. Hall, was approaching you with, but I 
know very well the details of the royalty provisions because 
they were passed under the Clinton Administration and at the 
time, I supported them, coming from Houston, Texas. I frankly 
thought there was reason, in order to encourage the domestic 
development here in the United States. But I believe this 
Administration owes a responsibility to this nation to look at 
those royalties and assess whether they are viable at this time 
when we are struggling economically, particularly in the 
sciences and looking at alternative sources of fuel. Why not 
use those dollars, why not waive those royalties as we speak 
and provide those dollars to be invested back in science and 
alternative fuel?
    So let me start, Dr. Marburger, and Dr. Bement can answer 
these, as well. To the good graces of this committee, we passed 
legislation signed by the President that established the Dr. 
Mae Jemison Grant Program--you may be familiar with her math 
and science outreach. I'd like to know your sense of whether 
those kinds of programs should be funded. When I say math and 
science outreach to minorities and others and women to avoid 
statements to encourage young people to be engaged in the 
sciences. The bill was passed through the authorization and 
signed by the President. Do you believe those kinds of programs 
should be supported? Dr. Bement, if you would comment on that, 
as well. Secretary Bodman, if you would comment on why you 
don't have enough money for federal funding of alternative 
fuels and why you continue with Yucca Mountain.
    Chairman Boehlert. Just let the Chair observe that you used 
the entire five minutes to ask a series of questions and to 
answer all of the questions adequately, I think it would take 
another 10 to 15 minutes and so the panelists will have your 
questions and I would ask the panelists to respond in writing 
to the specific questions made by Ms. Jackson Lee.
    Ms. Jackson Lee. Well, Mr. Chairman, I beg your----
    Chairman Boehlert. The Chair has----
    Ms. Jackson Lee. If they can ask for one--If they can 
answer the question each in one minute, I think that would be 
appropriate and then they can answer the rest----
    Chairman Boehlert. But the Chair would observe, and I've 
been in the Chair a long time and you've been a valued Member 
of the Committee for a long time, but that when you use all the 
time allotted to you just to ask a series of questions and then 
have every right to expect answers to them, but that is going 
to be very time consuming. There are other members of the panel 
who also have an interest in picking the brains of these very 
distinguished gentlemen and we want answer to our questions, 
too. The Chair has always been generous and I will be generous 
now and I will give them an opportunity to respond, but I also 
want them to respond to the last question specifically and the 
other questions in writing because quite frankly, I'm not 
prepared to sit here until this evening to get all the answers 
to all the questions.
    Ms. Jackson Lee. Well, Mr. Chairman, if the gentleman would 
yield----
    Chairman Boehlert. I'll be glad to yield.
    Ms. Jackson Lee. Dr. Marburger and Dr. Bement--is it--how 
do you pronounce your name, sir? What is it?
    Dr. Bement. Bement.
    Ms. Jackson Lee. Bement.
    Chairman Boehlert. And Dr. Marburger?
    Ms. Jackson Lee. Yes, to answer----
    Chairman Boehlert. Dr. Bement?
    Ms. Jackson Lee.--the question on the Dr. Mae Jamison 
Program and I'd like the Secretary to answer in one minute 
about the royalties. If there are other questions that they can 
answer in writing----
    Chairman Boehlert. Gentlemen, the Floor is yours.
    Ms. Jackson Lee.--I would appreciate----
    Chairman Boehlert. We'll start with Dr. Marburger.
    Ms. Jackson Lee. This is a serious hearing, Mr. Chairman. I 
thank the----
    Chairman Boehlert. This is a serious hearing and as you've 
observed, you were forced out of the hearing because you had a 
very serious hearing in Judiciary Committee----
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Boehlert.--and all of us have a lot of serious 
business that don't relate directly to this committee, but we 
all have to be considerate of the time constraints on our 
colleagues and our very distinguished witnesses. So with that, 
Dr.
    Marburger----
    Ms. Jackson Lee. I appreciate that.
    Chairman Boehlert.--please respond specifically.
    Ms. Jackson Lee. I'm always considerate.
    Dr. Bement. Thank you, Congresswoman. In fact, I do believe 
that programs to encourage young people from all classes and 
socioeconomic levels and under-represented groups to study 
science, technology, engineering, mathematics fields, the so-
called STEM fields, are very important. I think that 
scholarship programs like that are good and I advocate these 
types of programs because they have an important impact on all 
of young people, not just under-represented minorities. Let me 
state that this is one of our highest priorities. If you look 
at a cluster of programs that have very high impact, like TCUP, 
HBCU-UP, CREST, AGEP, LSAMP, and Noyce Program, collectively, 
we have increased those budgets on the average of 22.4 percent 
in '07 budget and these programs are joined and they're 
cooperative collaborations both from our EHR directorate as 
well as our Research and Related Activities directorate, so we 
have a full court press in this area.
    Chairman Boehlert. Mr. Secretary, would you respond?
    Secretary Bodman. First of all, the Interior Department is 
the department that deals with the matters of royalties. 
Secondly, my understanding is that President Clinton, under his 
leadership in the late '90s passed a law that would relieve the 
oil companies, as a part of their program, from paying 
royalties in order to stimulate more oil and gas drilling. That 
was the object. Apparently, he was successful.
    Ms. Jackson Lee. We don't need it now.
    Secretary Bodman. I'm sorry?
    Ms. Jackson Lee. We don't need it now.
    Secretary Bodman. I understand that. On the other hand, a 
deal was made and a contract was drawn. I have spent a lot of 
my time since I came to this Administration traveling the 
world, visiting with other countries, talking about the 
sanctity of contracts and making an agreement and I think that 
if the deal were changed at this point in time, even in the 
face of the profitability that the oil and gas companies have, 
in my judgment, that would be an error. Could they live with 
it? I would imagine that they could. Could I live with it? I 
certainly could. But it's not something that I would advocate.
    Chairman Boehlert. I would hope that when we revise and 
extend our remarks, we talk about commitments or arrangements. 
Too many deals made in Washington that offend a lot of people, 
but I must admit, Ms. Jackson Lee has touched on a subject that 
hits all of us right here and she's got some merit to what 
she's saying and I'm really concerned about that and so that's 
something you're going to be hearing more about from us on a 
bipartisan basis. With that, the Chair will recognize, and I 
would note, Ms. Jackson Lee, that I've given you double the 
amount of time accorded some other Members----
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Boehlert.--because they're thoughtful questions 
and I appreciate them. Mr. Miller.
    Mr. Miller. Thank you. Dr. Marburger, I know that you're in 
a hurry this morning, but I really urge you to go back and read 
this article again. It is apparent, based upon your summary of 
the article that you read it entirely too quickly. The last 
paragraph that says, ``I am thus left with nothing to report,'' 
only refers to that portion of the column that begins here, and 
that is a discussion of how five research scientists at 
Caltech, and I assume research scientists at Caltech are the 
real deal. I mean, that's a pretty good school, right? That 
since that report that had found such disfavor, they had never 
gotten a federal research grant again.
    Now, the reason that this whole matter came to this 
columnist's attention was that there was an article just a 
couple, three weeks ago, there was some press coverage two or 
three weeks ago that one of the world's leading preeminent 
climate scientists, Jim Hansen of NASA, was being urged to 
soften what he had to say by a NASA spokesman and the NASA 
spokesman had resigned and that she said she'd gotten many 
calls of other instances that the columnist said, how does she 
describe it? All were from people with similar tales of 
government funded scientists intimidated by heavy handed public 
relations departments, and she pursued one of the stories, 
which was this one. What she says is that all of that part of 
the story is confirmed, referring to the part above, how 
they've never gotten a grant and they believed it was--another 
grant--they believed it was in retribution for what they'd done 
in that research report.
    And what was confirmed was that your office had killed a 
press conference and a press release just as Secretary Abraham 
was about to speak on the hydrogen cell research in Europe as 
evidence that it was the Bush Administration's concern for the 
environment. Your spokesman does say pretty much the same thing 
in this article that you said this morning, that that was so 
that you could talk to the Department of Energy. Nobody at 
NASA, all of them were speaking without attribution, seemed to 
buy that at all. They thought it was political.
    So please read this article again and Dr. Marburger, also, 
please read the report of about two and a half years ago by the 
Union of Concerned Scientists, that were multiple reports of 
intimidation of scientists, of scientists having their grants 
revoked, which is Mr. Wu's tale earlier of the scientists from 
his district that you said you hadn't heard about, reports 
being edited, revised, censored because their findings were 
unpalatable, of advisory panels being stacked with scientists 
whose views were not necessarily in the mainstream of the 
scientific community, but were very compatible with what the 
Administration believed. Please read that article again this 
morning and that report by the Union of Concerned Scientists.
    Chairman Boehlert. Thank you, Mr. Miller. I'd like to make 
this point to Mr. Miller. This committee is vitally concerned 
with scientific inquiry. We want to be informed by scientists. 
We don't want to intimidate them. And when matters are brought 
to the attention of the Chair that question the process, that 
would indicate that perhaps the process is not working as 
desired, the Chair is very active. I would point out that I am 
most familiar with the Hansen case, as it's now known, around 
this town. I want to point out that NASA took immediate action. 
Mike Griffin, the Administrator of NASA, took immediate action 
to advise one and all within that agency that scientific 
inquiry is not to be stifled, scientific opinion is not to be 
stifled. I applauded him for that.
    I want to point out that this committee took to task 
another committee because we thought that other committee, in 
this instance, Energy and Commerce, in dealing with Dr. Mann 
and his associates on the so-called hockey stick theory 
involving global climate change, we thought that the Energy and 
Commerce Committee was not proceeding in an appropriate manner. 
Rather than conducting public hearings, discuss the subject and 
to question the science, they launched an investigation to 
intimidate the scientists and I made that very public. In this 
instance, there are a lot of questions to be asked and I am 
convinced that Dr. Marburger, in his capacity, and I am 
convinced that each of the gentlemen before me in their 
capacity, would agree with the basic premise that science 
should inform us, we should not engage in trying to intimidate 
scientists who happen to have an opinion different from the 
political orthodoxy of the day.
    I like to point out to people that you and I, Mr. Miller, 
both work in a town where everyone likes to say they're for 
science-based decision making until the scientific consensus 
leads to a politically inconvenient conclusion, then some 
people want to go to Plan B. But I am convinced, after all the 
effort and energy of my staff and I in looking into these 
matters, that's there's no secret plot hatched on high to 
intimidate science, but there are some people who get off the 
reservation and this 24-year-old rogue assistant in the Public 
Affairs Department is a case in point, thinking that he was, 
you know, aiding the cause and did something that was totally 
unappropriate. I would further point out that that young rogue 
is no longer on the payroll of the United States Government and 
that swift, prompt, decisive, crystal-clear action was taken by 
the Administrator of NASA. The word went out to the scientific 
community, as the word should go out from this Chair and from 
all of you very distinguished gentlemen that we want to be 
informed by science. We don't want to intimidate scientists. 
Thank you very much, Mr. Miller.
    Mr. Miller. Mr. Chair, may I point back, since you pointed 
out a few things?
    Chairman Boehlert. Yes, sir, I'd be glad to do it, Mr. 
Miller.
    Mr. Miller. First of all, I readily can say the Democratic 
Party is also plagued by 24-year-olds who are remarkably self-
important and get us all into trouble. I do not want to 
disagree with my Chairman. He is certainly one of the fairest 
chairmen here and does preside over this committee in a very 
nonpartisan way, certainly a bipartisan way. However, the 
Democrats on this committee have tried to make this question a 
subject of committee hearings. We did that two and a half years 
ago when the Union of Concerned Scientists issued their report 
and Mr. Chairman, you would not agree to conduct committee 
hearings on that point. We now have the issue of Jim Hansen, 
one of the world's preeminent climate scientists who has been 
told by a 24-year-old to keep quiet. We have Mr. Wu's specific 
instance in Oregon. Dr. Marburger says he'll look at this on a 
case-by-case basis, but we have heard from many others that 
this is not a case-by-case matter, this is something that 
crosses all the scientific research agencies. We have the 
instance in this morning's paper of five Caltech research 
scientists who have not gotten a single grant since they issued 
an unpalatable report. Mr. Chairman, will you agree to hold 
hearings on this topic?
    Chairman Boehlert. Wait to get an answer from Dr. Marburger 
after he has had an opportunity to look into the matter and 
report back. I'm not reluctant to have hearings on anything. My 
job is not to be a cheerleader for the Administration even 
though it's the Administration that I gladly identify with and 
proudly identify with, I stand up to the Administration when I 
don't agree with the Administration and there are occasions 
when I don't. Secretary Bodman knows, for example, that on the 
Energy Policy the Administration advanced, I didn't think it 
handled the challenge in the correct way and I was a leader of 
the opposition, trying to make something better.
    But the point is, I'd be glad to hold hearings when I think 
they are in the jurisdiction of this committee and when they 
involve something where there is compelling evidence that 
indicates that this committee has to take its time and energy 
to hold hearings and right now, we're talking about the 
American Competitiveness Initiative, we're talking about the 
American Energy Initiative. Those are vitally important 
subjects. We have very distinguished Americans before us that 
are giving us their time, they're sharing with us their wisdom 
and we're learning from that process.
    This committee's going to have a whole series of 
Subcommittee hearings over the ensuing weeks and months to try 
to bring all of this to a logical conclusion where we establish 
responsible public policy that's responding to the national 
need in the proper way. So with that, let me tell you I will be 
glad to entertain any request from any Member of the Committee, 
Republican or Democrat, for hearings. I want those requests 
backed up by supporting documentation that the hearings are 
warranted or justified.
    And quite frankly, it's my sincere feeling, from the heart, 
from the gut, from the head, that this institution, the 
Congress of the United States, in which we proudly serve, is 
far too partisan, far too partisan. The election is over. Let's 
get on with identifying, with shaping responsive public policy 
in a responsible way. With that, let me have one last question 
for Dr. McQueary because you've been sitting here all this time 
so patient and I want to give you an opportunity before you 
leave to address one question.
    The President's budget contains strong new support--wait a 
minute. I want to make sure I got the right question. All 
right, there you go. How are DHS--this is very important 
because it's relevant to you and it's also relevant to 
Commerce. How are DHS and NIST working together with industry 
to ensure that high quality standards are being developed for 
homeland security related technologies such as biometrics and 
cyber security and inter-operable communications and how would 
the proposed reduction in funding for standards within DHS S&T 
affect the future of DHS' internal program, its relationship 
with NIST and its relationship with the makers and users of 
homeland security technologies? That's a big question, but it's 
also very important.
    Dr. McQueary. It's a very important question. The--I need 
to emphasize that the relationship that we have with NIST, in 
my judgment, could not be better, starting with when Dr. Bement 
was there. We worked out that relationship. We have a NIST 
person on detail to Science and Technology that actually heads 
up the standards work that we do. All of the work that we deal 
with in standards is a consensus standard approach in which we 
engage not only NIST but ANSI and any other standards agency 
around the country to try to make sure that what we propose to 
do in either draft standards or in final standards represent a 
point of view that those who would be most affected by it could 
use.
    We also have a NIST person that is working with us in our 
critical infrastructure protection area. Now, with that said, 
the issue on the budget, a part of that reduction, there are 
two things you see in the number; one, is we made a substantial 
move of monies into the management and administrative account, 
which we needed to do in order to properly account for how our 
funds are being spent. That is one issue. The other is the 
DNDO, or the radiation standards. That will be paid for out of 
the DNDO budget. We will assist them, but fundamentally the 
budget, for what they have to do in developing standards there. 
So the accommodation of those two things represent the primary 
change in that number. I'm not concerned that we're about to 
start sliding standards at all with that, with the budget level 
we have.
    Chairman Boehlert. And how about the relationship with 
NIST? I mean, do you feel that's solid?
    Dr. McQueary. The relationship is excellent. I knew Bill 
Jeffrey. It was good there when we were with Dr. Bement. Bill 
Jeffrey I knew when he was working for Dr. Marburger, and so we 
have a very good relationship with them and look forward to 
continue it. It's an excellent organization.
    Mr. Boehlert. Dr. Sampson, do you want to give us your take 
on that?
    Dr. Sampson. Well, I would concur. We have worked very 
closely with Homeland Security on biometric standards. Dr. 
Jeffrey is a true leader. He is a excellent scientist. He's a 
good manager. He's a good colleague with partner agencies, and 
so we have a very strong relationship.
    Mr. Boehlert. We promised to get you gentlemen out before 
the sun sets today, but as a famous talk show host used to say, 
for the last word, I will recognize Ms. Jackson Lee for a short 
intervention.
    Ms. Jackson Lee. Thank you, Mr. Chairman, and it is an 
intervention to you, please. Thank you for your kind remarks 
regarding the royalty payments. I do want to say that, 
hopefully, in a bipartisan manner, we can have hearings. I 
indicated that Houston still considers itself the energy 
capital of the world and I represent it proudly, but that 
language and contract were passed during a time when there was 
a necessity to encourage development and the energy industry 
was, of course, experiencing some difficult times. I hope we'll 
have the opportunity to consider it and reconsider it, not on 
breaking contract, but on the progressive or forward-thinking 
of what we can do to enhance alternative fuels.
    Chairman Boehlert. Thank you very much and I agree----
    Ms. Jackson Lee. And I hope we can have hearings was my 
question.
    Chairman Boehlert. And I thank you very much. I would like 
to claim jurisdiction over the whole wide world. Unfortunately, 
this committee does not have jurisdiction. It's in the 
Resources Committee.
    Ms. Jackson Lee. Waive it.
    Chairman Boehlert. And we'll go hand in hand to the 
Resources Committee and then make the case. But thank you very 
much. I appreciate all the time you've given us in your very 
busy schedules. I know you will be responsive in a timely 
manner to the written questions we submit. I also know from 
personal experience, and it's not just because I'm the 
Chairman, my colleagues reported the same thing, all of you 
gentlemen have had dialogue over the telephone, in person, in 
office meetings with various Members of this committee. I 
commend you for your great work for the Nation. And, Dr. 
Bement, I'm glad to see you smiling. This hearing is adjourned.
    [Whereupon, at 1:15 p.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by John H. Marburger III, Director, Office of Science and 
        Technology Policy

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  What level of funding is proposed in the Fiscal Year 2007 (FY07) 
budget request specifically for studying potential environmental and 
safety implications associated with nanotechnology? Please provide 
agency-specific budget levels and describe for each agency the research 
that it plans to focus upon. How is nanotechnology environmental and 
safety research coordinated with R&D on potential new nanotechnology 
products? How is it coordinated with the needs of regulatory agencies?

A1. In accordance with the 21st Century Nanotechnology Research and 
Development Act of 2003 (P.L. 108-153), information regarding the 
spending for environmental, health, and safety (EHS) research related 
to nanotechnology will be provided in the National Nanotechnology 
Initiative (NNI) Supplement to the President's FY 2007 Budget. The 
Supplement will be delivered to the Committee after it is reviewed and 
approved by the 25 NNI agencies. (As called for under P.L. 108-153, the 
supplement will include a description of the amount of Small Business 
Innovative Research and Small Business Technology Transfer Research 
funds directed at nanotechnology research and development. Collection 
of these data from all of the NNI agencies has delayed completion of 
the report, but publication is imminent.)
    Although the Government generally does not perform safety testing 
or research on specific products, environment and safety research 
(whether on nanotechnology-enabled materials or otherwise) is performed 
on classes of compounds or materials based on a number of criteria, 
including the likelihood of exposure and potential for toxicity (based 
on preliminary data or similarities with other compounds). Such 
research falls within the jurisdiction of several agencies, including 
the National Science Foundation, the Environmental Protection Agency, 
the National Institute for Occupational Safety and Health, and the 
National Institutes of Health's National Toxicology Program.
    Within the National Science and Technology Council's Nanoscale 
Science, Engineering, and Technology Subcommittee, the Nanotechnology 
Environmental and Health Implications (NEHI) Working Group provides for 
coordination among the research agencies and those agencies with 
regulatory responsibilities. A document is in preparation that 
identifies the research needed to support risk assessment and 
regulatory decision-making.

Q2.  In his testimony to the Science Committee on February 15, Dr. 
Sampson mentioned that in April 2005, the Office of Science and 
Technology Policy completed a Strategic Plan for a U.S. Integrated 
Earth Observing System. How did the strategic plan guide development of 
the Administration's FY07 budget request for activities related to the 
earth observing technologies? What is the Administration's FY07 request 
for the activities that are identified as contributing to, or are a 
part of, the strategic plan for earth observing systems? Of that 
amount, how much is for new initiatives created to support the 
strategic plan and how much is for previously existing programs?

A2. The 15-agency U.S. Group on Earth Observations (USGEO), as a 
Subcommittee of the National Science and Technology Council's Committee 
on Environment and Natural Resources, develops plans and guidance for 
an Integrated Earth Observing System (IEOS). The primary goal of IEOS 
is to fully utilize and optimize our existing (substantial) investments 
in Earth observing systems through improved prioritization, integration 
and coordination. Many of the Earth observation programs throughout the 
Federal Government are beginning to voluntarily align themselves with 
the goals and processes of the USGEO.
    With the publication of the U.S. Strategic Plan for IEOS in April, 
2005, the USGEO has been focusing on the development of plans to 
implement the IEOS. Near-term Opportunity Plans have been developed and 
will be released in the next several weeks. These plans address a wide 
range of societal benefit areas, from reducing loss of life and 
property from disasters to supporting sustainable agriculture, to 
improving public health. The plans will be factored into the agency and 
OMB for the FY 2008 planning activities and budget request. The USGEO 
has also begun mid- and long-term planning for these and some 
additional areas.
    With the FY 2007 budget request, agencies are beginning to address 
the priorities outlined by USGEO and the IEOS Strategic Plan. In 
addition, many of the Earth observation programs throughout the Federal 
Government are beginning to voluntarily align themselves with the goals 
and processes of the USGEO.
    Some examples of increases (over 2006 estimate) in the President's 
Request in the areas of the six Near-Term Opportunities include:

        <bullet>  An Air Quality Assessment and Forecast System: $2.5M 
        increase at NOAA.

        <bullet>  Improved Observations for Disaster Reduction: $12.36M 
        increase at NOAA for Tsunami observation and warning programs 
        at NOAA; $2.8M increase at USGS for National Streamflow 
        Information Program; $27.4 million for EarthScope at NSF.

        <bullet>  A Global Land Observation System: $98 million at NASA 
        to procure a next-generation Landsat instrument to continue the 
        30-year record of land imagery. In addition, the $16M increase 
        in Landsat funding at USGS in FY 2006 is also requested for FY 
        2007. The Administration has directed the USGEO to develop a 
        long-term plan to meet U.S. operational land observing needs 
        for decades to come, but there is no immediate budget 
        implication for FY 2007.

        <bullet>  National Integrated Drought Information System: $4M 
        increase at NOAA.

        <bullet>  A Sea Level Observation System: $13.5 million 
        increase at NSF for the Ocean Observatories Initiative and 
        $56.0 million for the Alaska Region Research Vessel.

        <bullet>  An Architecture and Data Management System for the 
        U.S. integrated system: $6.8M increase for NOAA data centers 
        that provide access to environmental records.

Q3.  In the National Windstorm Impact Reduction Act of 2004, the Office 
of Science and Technology Policy was directed to submit to Congress by 
October 25, 2005 an implementation plan for the National Windstorm 
Impact Reduction Program (NWIRP) which would include a designation of 
the lead agency for the program. Has a lead agency been designated? 
When will the implementation plan be delivered to Congress? What do the 
four agencies involved in NWIRP propose to spend on these programs in 
FY07?

A3. The National Windstorm Impact Reduction Program implementation plan 
has been completed and was delivered to Congress on April 5, 2006. The 
plan recommends that a coordinated, comprehensive multi-agency, multi-
disciplinary group be established as a working group of the National 
Science and Technology Council's Committee on Environment and Natural 
Resources, Subcommittee on Disaster Reduction. The charter of the 
working group is to reduce the impact of wind hazards by facilitating 
better communication among agencies, effectively allocating collective 
resources and operating within a common framework. This working group 
shall meet at least quarterly, report to the Subcommittee on Disaster 
Reduction annually and work with State, local officials and non-
government organizations as appropriate. All federal agencies 
contributing to the plan shall be members of the working group and the 
chair of the working group will rotate between NIST, NSF, NOAA and FEMA 
with each agency serving a two-year term as chair. Existing research 
and development activities contain components that are relevant to wind 
research. However, the lack of common criteria to identify wind hazard 
reduction programs in different agencies makes identifying budgets 
across agencies relevant to wind impossible or meaningless at this 
time. An early action of the working group will be to inventory and 
analyze wind-related research programs to assess current investments in 
the different aspects of wind hazards and to optimize the portfolio to 
address the highest priority wind research.

Question submitted by Representative Eddie Bernice Johnson

Q1.  Improvement of math and science education is a major longstanding 
responsibility of NSF. The President's proposed competitiveness 
initiative provides a funding increase for NSF of nearly eight percent. 
Unfortunately, this same budget proposal actually cuts NSF's K-12 
education programs by seven percent.

     Dr. Marburger, why is NSF not an important participant in the part 
of the President's competitiveness initiative that calls for grants to 
implement research-based math curricula and interventions, to provide 
professional development for in-service teachers so they can 
effectively teach advanced placement courses in science and math, and 
to attract more qualified individuals to science and math teaching?

A1. The Department of Education is the focus of the ACI education 
component because of its close and direct connection to local school 
districts and State education agencies. While NSF funds a number of 
programs that seek to develop better teaching practices and materials, 
it does not provide funding to disseminate the products of that work to 
teachers across the country. It is the Department of Education that is 
best able to take projects and materials developed (often by NSF-funded 
projects), evaluate those materials for their efficacy, and disseminate 
them across the country. NSF programs provide unique tools and 
capabilities that are complementary to the education component of ACI, 
and I can assure you that NSF and the Department of Education will be 
working together to ensure that these new programs are coordinated with 
similar NSF programs.
    NSF support for K-12 math and science education is still a very 
important component of our overall efforts, and these programs will 
also benefit from the President's American Competitiveness Initiative. 
The FY 2007 Budget proposes an increase in funding for NSF's Education 
and Human Resources Division (HER) of $19.53 million, or 2.5 percent, 
to a total of $816 million. Although the percentage increase for EHR is 
smaller than it is for some of the research directorates, it should be 
recognized that the Research and Related Activities account includes 
support for K-12 activities. Also, because of the scheduled transition 
of the Math and Science Partnerships program to the Department of 
Education, as well as the end of a one-year pilot program for Young 
Scholars, the overall budget does not accurately depict the general 
trend which is to increase funding for the majority of education 
programs.
    EHR is realigning its K-12 programs over FY 2006 and FY 2007, 
resulting in the consolidation of several programs. During FY06, two 
EHR divisions--Elementary, Secondary and Informal Education (ESIE) and 
Research, Evaluation and Communication (REC), will be combined into the 
Division of Research on Learning in Formal and Informal Settings. This 
realignment includes the consolidation of a number of programs in order 
to meet current needs in education research, development and 
evaluation. In addition, during FY06, three programs--Research on 
Learning and Education (ROLE), Evaluative Research and Evaluation 
Capacity (EREC), and Interagency Education Research Initiative (IERI)--
will be combined into the Research and Evaluation on Education in 
Science and Engineering (REESE) program. The consolidation effort will 
continue in FY07 with the three additional programs--Instructional 
Materials Development (IMD), Teacher Professional Continuum (TPC), and 
Centers for Learning and Teaching (CTL)--being merged into the new 
Discovery Research K-12 program. The Math and Science Partnerships 
program has also been moved to the Division for Undergraduate 
Education.
    Within the new Division of Research on Learning in Formal and 
Informal Settings, funding for Discovery Research K-12 and for Informal 
Science education is increased by $10.71 million or 11.5 percent, and 
$2.94 million or 4.7 percent, respectively. Funding for long-term, 
high-risk education research within REESE program goes down by $6.87 
million due to the phase out of IERI. The Discovery Research K-12 
program grows to move research results into the classroom on a shorter-
term.
    To fully appreciate the level of funding that NSF directs toward 
improving K-12 education, one must look beyond the Division of Research 
on Learning in Formal and Informal Settings, the new division that is 
the primary center for K-12-focused activities. Numerous programs in 
other divisions within EHR also provide funding to improve K-12 
education. For example, while the Advanced Technological Education 
(ATE) program is funded through the Division of Undergraduate Education 
primarily to improve two- and four-year programs in technological 
education, many projects and centers funded through this program have 
strong links to high school students who frequently begin college level 
work while still in secondary school. The ATE budget increases in FY07 
by $990,000 to $45.92 million. Similarly, the Robert Noyce Scholarship 
Program, a program aimed at helping individuals with degrees in STEM 
fields to transition to careers in K-12 teaching, enjoys a budget 
increase of over 11 percent in FY07. Funding for the National STEM 
Digital Library, an on-line resource for educators and students, also 
increases by $500,000 in FY07.
    Within the Division of Graduate Education, the budget for the 
Graduate Teaching Fellows in K-12 Education program, a program that 
puts STEM graduate students into K-12 schools where they improve 
communication and teaching, increases by 8.7 percent to $46.8 million.
    Beyond the EHR directorate, there are a number of programs in the 
Research and Related Activities Account that devote significant 
resources to the goal of improving K-12 education. For example, the new 
Middle and High School Geosciences Program, administered by the 
Geosciences Directorate, will provide $3 million to improve geosciences 
education in grades 6-12. Additionally, the Geosciences Directorate 
will expand support for the network of Centers for Ocean Science 
Education. Within the Integrative Activities Directorate, funding for 
the Science of Learning Centers increases by $4.29 million to $27.0 
million. And within the Engineering Directorate, funding for the 
Research Experiences for Teachers increases by $100,000 to $4.10 
million and for GK-12 fellowship support increases by $180,000 to $3.37 
million. Beyond that, Engineering Research Centers are required to 
include K-12 education and outreach activities in their work plan. And 
much of the work funded by the Social, Behavioral and Economics 
Directorate is targeted advancing our understanding of education and 
workforce development.
    Additionally, NSF is an important member of the American 
Competitiveness Council. Created by Congress in the Deficit Reduction 
Act, this Council aims to look across the Federal Government at all the 
money spent in STEM education programs and align our efforts around 
shared, strategic goals. The various types of education programs housed 
at NSF will provide valuable insight into the process as we look to 
evaluate how well all federal math and science programs are working and 
work to improve coordination between them.
                   Answers to Post-Hearing Questions
Responses by Samuel W. Bodman, Secretary, Department of Energy

Questions submitted by Chairman Sherwood L. Boehlert

Advanced Fuel Cycle Facility

Q1.  The Fiscal Year 2007 (FY07) budget request contains dedicated 
funding for a detailed systems analysis of the advanced nuclear fuel 
cycle. When will the systems analysis be completed? Will that be early 
enough to affect the decision on whether and how to move ahead with new 
facilities, including the Advanced Fuel Cycle Facility, the 
demonstration reprocessing facility, and the demonstration sodium-
cooled fast reactor?

A1. The Advanced Fuel Cycle Initiative (AFCI) has been conducting 
systems analysis for several years and that work, which is an 
evolutionary process, has been key to the development of the new Global 
Nuclear Energy Partnership (GNEP) initiative and the associated 
proposed demonstration facilities. While systems analysis will continue 
to refine the overall programmatic goals, it does not replace the need 
for the development of conceptual designs of facilities. We anticipate 
that the next steps that will determine whether and how to move ahead 
with new facilities include development of conceptual designs of the 
various facilities and their associated cost and schedule. We believe 
that this process, and additional systems analysis, will be completed 
by mid-2008.

Q2.  The FY07 budget request proposes to undertake at least three new 
major demonstration facilities--the sodium-cooled fast reactor, the 
gas-cooled reactor, and the demonstration reprocessing facility--in 
addition to the research-oriented Advanced Fuel Cycle Facility. Each of 
these projects will involve substantial outyear financial commitments. 
What is the total cost of each of these items, and the projected 
spending profile? What other programs are you expecting to cut to fit 
these facilities into the budget, or will they require new money?

A2. Early, pre-conceptual estimates of the cost to bring these three 
integrated recycle demonstration facilities to the point of initial 
operation range from $4 billion to $9 billion. The Department will 
develop a baseline cost and schedule for the proposed GNEP technology 
demonstration facilities over the next two years in conjunction with 
completion of conceptual design studies. The Department has requested 
$250 million in FY 2007 to accelerate the planning and research needed 
to proceed with the demonstration effort. While we anticipate making 
additional investments in fiscal years 2008 and 2009, the efforts over 
the next two years are critical to refining these cost estimates. The 
Department has made no decisions about outyear funding for these 
projects. As noted in the Department's Five Year Plan for FY 2007-FY 
2011 (March 2006), the Administration determines the details of its 
appropriations request one year at a time. Each year, the 
Administration works to develop the detailed estimates for the budget 
year for individual programs. The FY 2008 and subsequent years' 
requests will be made in the future.

University Reactor Infrastructure and Education Program

Q3.  The explanation given in the FY07 budget submission for the 
cancellation of the University Reactor Infrastructure and Education 
program is that the program's goals have been met in terms of the 
numbers of students enrolled in nuclear science and engineering 
disciplines. What are the consequences of a $23 million dollar drop in 
Department of Energy (DOE) funding to current students and faculty in 
these disciplines? What specific plans does DOE have to help attract 
top students and faculty into nuclear disciplines?

A3. Over the last decade, university nuclear engineering schools 
leveraged funding provided by DOE and industry partners to strengthen 
the nuclear engineering education infrastructure and attract students 
to careers in nuclear engineering. With enrollments at their highest 
levels in over a decade and four new university nuclear engineering 
programs launched over the last five years, the Department believes 
that the objectives of the government's support to nuclear engineering 
programs have been achieved and funding has not been requested in FY 
2007.
    That said, the Department will continue to fund university 
participation in the Department's nuclear energy research programs, 
through the Generation IV nuclear energy systems initiative, the 
Nuclear Hydrogen Initiative, and the Advanced Fuel Cycle Initiative. 
Under the Nuclear Energy Research Initiative, the Department awarded 24 
new research grants to universities in FY 2006, totaling $12 million 
over the next three years. With the funding requested for nuclear 
energy research in FY 2007, the Department would continue to fund 
ongoing research grants as well as award $4 million in new research. 
Additionally, as part of the Advanced Fuel Cycle Initiative, the 
Department will continue efforts to attract students to the field of 
transmutation and spent fuel recycling. The Department will continue to 
engage faculty and students in AFCI research and development through 
NERI, through the University of Nevada-Las Vegas, the University of 
Nevada-Reno, the Idaho State University Accelerator Center, and through 
the AFCI Fellowship Program. Over the last four years, the Department 
has sponsored AFCI fellowships for 25 students seeking post-graduate 
degrees in study related to advanced fuel cycles, including fuels, 
recycling and transmutation engineering. The Generation IV program is 
also planning to start a university fellowship program in FY 2006 for 
post-graduate study related to advanced reactor systems.

Q4.  While the FY07 budget request purposes to increase funding 
significantly for solar, wind, biofuels, and hydrogen, it also proposes 
to decrease funding for energy efficiency technology development and 
deployment by more than eight percent. What is the rationale for these 
proposed cuts? What role do you see energy efficiency playing in 
meeting the President's goal of reducing the U.S. ``addiction'' to oil? 
What role do you see for DOE in advancing the role of energy 
efficiency?

A4. Reducing America's growing dependence on foreign oil and changing 
how we power our homes and businesses are among the Department's 
highest priorities, as outlined in the President's Advanced Energy 
Initiative. The FY 2007 Budget directs resources to those programs with 
the greatest potential to contribute to that goal.
    The FY 2007 DOE budget requests $2.1 billion for program included 
in the Advanced Energy Initiative, an increase of $381 million over FY 
2006. Funding will help develop clean, affordable sources of energy 
that will help reduce the use of fossil fuels and lead to changes in 
the way we power our homes, businesses and cars. Efficiency 
improvements pursued by the Vehicle Technologies program can 
significantly reduce the Nation's growing demand for oil.
    The Advanced Energy Initiative includes a broad mix of oil 
displacement and clean energy R&D initiatives, including nuclear (up 56 
percent to $392M), solar (up 78 percent to $148M), and biomass (up 65 
percent to $150M). Specific goals include reducing the cost of 
cellulosic ethanol to $1.07/gallon by 2012, and reducing the cost of 
solar PV to less than 10 cents/kilowatt hour by 2015.

Q5.  Your testimony notes that the Climate Change Technology Program 
was authorized in the Energy Policy Act of 2005. This program has been 
operating primarily with personnel temporarily assigned from other 
programs. Do you expect to have a full time staff for this effort or 
will the program continue to be staffed as it has been with temporary 
assignments?

A5. The Department does have dedicated staff for CCTP within the Office 
of Policy and International Affairs (PI). Because of the nature of the 
CCTP work (interagency coordination, advice, strategic planning), we 
expect DOE program staff and staff from other agencies will continue to 
dedicate some time to CCTP as part of their regular responsibilities. 
The Fiscal Year 2006 Energy and Water Development Appropriation reduced 
funding for the Departmental Administration account, of which a portion 
(PI) supports CCTP. The FY 2007 Budget requests $1 million within PI to 
support CCTP.

ITER

Q6.  There is a perception in the fusion research community that 
funding for ITER will reduce funding for the domestic research program, 
yet there is a $19.5 million increase in enabling research and 
development (R&D) for ITER. According to DOE budget documents, these 
research ``activities are directly associated with the ongoing base 
program.'' It sounds like these activities involve the research and 
design, by the domestic fusion program, of the high tech components of 
ITER. Will these increased funds for enabling R&D for ITER be spent in 
the United States by scientists and technologists in our existing 
fusion laboratories and university programs?

A6. The $19.5 million increase in enabling research and development for 
ITER is, in large measure, for activities to be carried out within the 
domestic fusion program by scientists and engineers in our existing 
fusion laboratories and universities. About $11.6 million of the 
increase will be for R&D by these scientists and engineers in support 
of the components to be provided by the U.S. to the ITER site. The 
remaining $7.9 million will be spent in industry for manufacturing R&D 
and process demonstration at a production scale in order to show that 
the components can be manufactured accurately and efficiently.

Participation of the National Institute of Standards and Technology at 
                    the National Synchrotron Light Source

Q7.  The FY07 budget request includes plans to enhance the National 
Institute of Standards and Technology (NIST) presence at the National 
Synchrotron Light Source (NSLS) at Brookhaven National Laboratory. DOE 
is planning to build NSLS-II, ultimately as a replacement for the 
current Brookhaven light source. How will DOE coordinate NIST's new 
investments at the existing NSLS with Brookhaven's plans for a newer 
facility? How will DOE coordinate its instrumentation plans for its 
entire suite of light sources with NIST's light source investments?

A7. In the near-term, NIST's FY 2007 investment at NSLS will build on 
current capabilities there by providing an expanded set of scientific 
instruments and attracting additional top scientific talent. Because 
the NSLS-II project will not be operational until FY 2013 at the 
earliest, enhancing the NIST instrument suite will enable these 
instruments to remain at the forefront during the years of design and 
construction of NSLS-II. New instruments developed for NSLS will be 
designed with the possibility of transfer to NSLS-II when that new 
facility becomes operational.
    The method of development of the entire suite of instruments at the 
new NSLS-II facility will be similar to the model developed for the 
Spallation Neutron Source (SNS). That is, a majority of the beamlines 
will be built. and operated by the facility itself acting in 
collaboration with user groups that are strongly involved with all 
aspects of instrument scientific justification, development of 
technical specifications, and production of instrument conceptual 
designs. Other beamlines will be built and operated by external 
entities such as NIST. Advisory Committees for NSLS-II are now being 
established to provide advice and guidance on all aspects of the NSLS-
II project, including the development of an optimized instrument suite 
and a standardized user access policy. Because NIST is a leading user 
of the NSLS, researchers from this institution will be actively 
involved with these Advisory Committees.

Questions submitted by Representative Bart Gordon

New Domestic Fusion Facilities

Q1.  Secretary Bodman, my understanding is that in addition to their 
participation in the ITER Project, China, Japan, South Korea and India 
are all constructing major new domestic facilities. When is the last 
time that the U.S. constructed a major new domestic facility? Do you 
envision a time in the foreseeable future that the U.S. might build a 
major new facility at home? If so, what would be the purpose of that 
facility?

A1. We are currently building the National Compact Stellarator 
Experiment (NCSX) at Princeton Plasma Physics Laboratory, with 
operations scheduled to begin in FY 2009. Similar to a tokamak, and 
therefore able to make use of the results from ITER, the compact 
stellarator concept offers the possibility of a fusion power plant that 
is more attractive than one based on the simple tokamak. In addition, 
the National Ignition Facility (NIF) at Lawrence Livermore National 
Laboratory, funded by the DOE's National Nuclear Security 
Administration (NNSA), is scheduled to begin fusion ignition 
experiments in 2010, with a primary mission of ensuring that the 
Nation's nuclear stockpile remains safe, secure, and reliable.
    With regard to building another major new facility at home and its 
purpose, Dr. Orbach, the Director of the DOE Office of Science, has 
recently issued a charge to the Fusion Energy Sciences Advisory 
Committee (FESAC) requesting a 10-year plan for how the Office of 
Fusion Energy Sciences program should evolve over the coming decade to 
take into account new and upgraded international experiments, and how 
the program should prepare to make the transition to ITER. FESAC will 
be examining the productive lifetime of existing facilities and whether 
reconfigurations, replacements with new facilities, or additional 
participation in foreign facilities would be more appropriate to fill 
important gaps in fusion research in the years to come. This report is 
due by the end of February, 2007.

Effect of Domestic Fusion Cuts on Workforce

Q2.  Secretary Bodman, I am pleased to see that your budget request for 
fusion energy sciences maintains the U.S. Commitment to the ITER 
project and provides some additional funding for the major fusion user 
facilities. However, I am concerned that several of the smaller 
elements of the fusion program suffer significant cuts, including 
fusion materials research, small innovative experiments, high energy 
density physics, and fusion theory. Given concerns that have been 
voiced about the aging fusion research community, and the need to 
maintain U.S. expertise in these fields to maximize our return from 
international partnerships, does it make sense to cut these programs?

A2. With this budget, we strove to maintain a balanced domestic program 
while reorienting it to support ITER to the maximum extent possible. 
With regard to the programs that have been reduced or redirected, we 
believe some of the reductions will be alleviated by other programs. 
For example, some materials research will be conducted as part of our 
contribution to ITER, and the increased budget for the SciDAC 
(Scientific Discovery through Advanced Computing) program will offset 
reductions in the fusion theory program. Active research in High Energy 
Density Physics (HEDP) is also being conducted by DOE's National 
Nuclear Security Administration (NNSA), helping to limit the 
programmatic impact of the reductions within the Office of Science-
funded piece of DOE's HEDP program.

Q3.  The President signed EPACT 2005 just six months ago. This budget 
requests falls short of EPACT 2005 by 23 percent in Energy R&D, with 
many programs less than half of what is authorized. In light of the 
need for this R&D, why did the Department not seek funding for these 
programs despite widespread Congressional and Presidential support?

A3. The Energy Policy Act contains authorizations for a variety of 
initiatives and programs. As the Administration noted in a July 15, 
2005, letter to the conference committee on H.R. 6, ``The House and 
Senate versions of H.R. 6 also include authorization levels that in 
many cases significantly exceed the President's Budget. These 
authorizations set unrealistic targets and expectations for future 
program-funding decisions.'' The President's Fiscal Year 2007 Budget 
proposal reflects the Administration's programmatic and fiscal 
priorities. Those priorities took into account the spending 
opportunities presented by the Energy Policy Act.

Q4.  Last fall the President and you announced a major energy 
efficiency initiative, and just a month ago the White House signed an 
interagency MOU calling for energy efficiency measures throughout the 
Federal Government. Then we get a budget that slashes that the exact 
programs that will accomplish this. Please tell the Committee how we 
are supposed to take seriously the Administration's commitment to 
energy efficiency when you give us a request that makes a mockery of 
it?

A4. Facing greater uncertainty over the price of petroleum, as well as 
tightening federal budgets, the Department made very difficult choices 
in developing its FY 2007 budget request. We concluded that reducing 
America's growing dependence on foreign oil is the highest priority for 
the Office of Energy Efficiency and Renewable Energy in FY 2007 and 
have directed our resources to those programs with the greatest 
potential to contribute to that goal.
    The Department's FY 2007 budget request maintains robust funding 
levels in a variety of energy efficiency programs. Funding for energy 
efficient vehicle technologies, exclusive of earmarks, is up $4.2 
million compared to the FY 2006 appropriation. Funding for the Building 
Technologies program is up $8.1 million, with significant increases for 
the Solid-State Lighting Initiative and appliance standards and 
equipment standards and analysis. While funding for FEMP is down 
slightly compared to FY 2006 appropriations, that decrease reflects the 
contribution of new efficiencies within the program that will allow the 
Department to achieve the same or even better results with less money.

Q5.  Why do cuts to the Federal Energy Management Program (FEMP) 
continue when you and the President personally called for more 
efficiency in the government?

A5. The Energy Efficiency and Renewable Energy budget request for the 
Federal Energy Management Program shows a decrease of $2.1 million in 
FY 2007 due to streamlining the Program's management, training and 
communications efforts. We expect to be able to achieve the same, or 
better, results.

Q6.  The Industries of the Future program at DOE has a long history of 
supporting R&D that improves energy efficiency in some of our most 
valued core domestic industries, the same industries that are rapidly 
heading overseas. Yet, this administration continues to decrease 
support of this program at a time when it is most needed. Please 
explain how 30 percent decrease in funding will affect our core 
domestic industrial sections.

A6. While industry remains a major energy end-use sector of the 
Nation's economy, significant gains in energy efficiency have already 
been achieved (output since the 1970s has more than doubled for 
essentially the same energy consumption). Since significant economic 
incentives exist for industry to continue on its own to invest in new, 
more efficient technologies, the Department is shifting some of its 
limited resources toward higher-priority R&D areas, such as reducing 
our national dependence on foreign oil. At the same time, we are 
refocusing our activities in the Industrial Program to promote more 
effectively energy savings in the industrial sector.

Q7.  Please be prepared to discuss at the hearing the status and 
implementation of the following sections of the Energy Policy Act of 
2005 and submit a report detailing the status of implementation of all 
other sections of Title IX of the Act:

Section 912--Next Generation Lighting Initiative

Q7a.  Did DOE seek funding for this program in its request to OMB? If 
not, why not? What is the status of discussions with the National 
Academy of Sciences to conduct the periodic review of the program 
required under section 912(i)?

A7a. DOE's 2007 budget requests increased funding for Solid-State 
Lighting.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The amounts shown in the table above are the Solid-State Lighting 
(SSL) portion of the lighting R&D sub-program in FY 2005 and FY 2006. 
The non-SSL portion of the program was about $2 million for each FY. In 
the FY 2007 request, the total funding for lighting R&D is for SSL.
    We have not begun discussions with NAS for a period review since we 
have just completed an extensive peer review with strong industry 
participation.

Section 914--Building Standards

Q7b.  The need for sustainable buildings that are energy efficient has 
been made abundantly clear over the last year both by the damage from 
Hurricane Katrina and the record energy bills we are all experiencing 
even though this has been a very mild winter. Did DOE seek funding for 
this program in its request to OMB? If not, why not? Section 914(b) 
requires the DOE to enter into an agreement with the National Institute 
of Building Sciences to conduct certain assessments and other 
activities for the program within a 120 days after date of enactment. 
Has DOE entered into an agreement with National Institute of Building 
Sciences to begin this work? If not, why not?

A7b. The Department has requested a significant level of funding to 
provide needed research, development, validation, and market 
introduction of energy-efficient building technologies. The request for 
commercial building integration, including research and development, 
analysis, modeling, and best practices development, is $4,699,000. 
However, no funding for Section 914 was included in the 2006 Energy and 
Water Development Appropriations Act, and the Department has not 
requested funding for Section 914 in FY 2007. DOE continues to work 
with the National Institute of Building Sciences and other stakeholder 
organizations to promote energy-efficient building technologies, but 
has not entered into a financial agreement with the Institute because 
the activities described in Section 914 will not contribute to the 
program goals of achieving 30-50 percent energy efficiency improvement 
in commercial buildings.

Section 917--Advanced Energy Technology Centers

Q7c.  Did DOE seek funding for this program in its request to OMB? If 
not, why not? What progress has DOE made in organizing the Committee 
required under section 917 to advise DOE on the establishment of the 
centers?

A7c. The Department's 2007 budget does not include funding for this 
program. Section 917(a) instructs DOE to make grants available to State 
and local governments, or universities, to establish a geographically 
dispersed network of Advanced Energy Efficiency Technology Transfer 
Centers. The centers are to focus on needs for increased energy 
efficiency for manufactured and site-built housing, encourage 
demonstration and commercial application of advanced energy efficient 
technologies, including distributed generation technologies. Section 
917(f) instructs DOE to establish an advisory committee to advise the 
Secretary on the establishment of the centers. The section provides 
authorizations for ``such sums as may be appropriated.''
    The Office of Energy Efficiency and Renewable Energy (EERE) 
provides grants support to States, communities, and other partners, to 
achieve the goals of Section 917. Specifically, the EERE Building 
Technologies Program provides grants to support the adoption of energy 
efficient technologies in new and existing homes, use of ENERGY STAR 
appliances, and expanded energy efficient efforts in schools and 
commercial buildings. Furthermore, the Office of Electricity Delivery 
and Energy Reliability operates eight (8) regional centers for the 
express purpose of encouraging the adoption of distributed generation 
technologies. These Combined Heat and Power (CHP) Regional Application 
Centers (RACs) have been established in selected parts of the country 
to facilitate deployment of CHP technologies. CHP is one of the most 
energy efficient distributed generation technologies with numerous 
commercial applications. The centers operate by educating regional 
players on benefits of CHP technologies, providing project-specific 
support; providing feedback to DOE and industry regarding future R&D 
program needs; and interacting with states to encourage a favorable 
policy environment for CHP.

Section 983--Science Education and Pilot Program

Q7d.  What progress has DOE made in awarding the grant required under 
the Act to a university consortium? If the grant has not been awarded, 
what is the current timetable for such an award? If there are no plans 
for such an award, what are the DOE's reasons for not making the grant?

A7d. The Energy Policy Act authorizes appropriations for Section 983 
for FY 2007, 2008 and 2009 under the Energy Enhancement Fund. Office of 
Science staff have met with representatives of the university consortia 
regarding their initial proposals and have begun investigating how we 
would work towards ensuring a productive end. There is no funding in 
the 2007 budget for this pilot program. The DOE has not yet formulated 
a response to the 0.3 percent budget assessment called for under the 
Energy Enhancement Fund.
    This issue has been somewhat overtaken by events including the 
President's American Competitiveness Initiative, which could have a 
significant effect on the DOE education and workforce development 
plans. DOE staff has met with their counterparts in the Department of 
Education and plan to work together in their efforts in teacher 
professional development.

Q8.  The President in his State of the Union address showed a change of 
direction from heavy reliance on oil and gas to broadening the energy 
supply base and he called for replacing 75 percent of Middle East 
energy imports by 2025. How difficult a goal is this to achieve?

A8. Diversification of our energy supply has always been a priority of 
this Administration. Since 2001, the Administration has spent nearly 
$10 billion to develop cleaner, cheaper and more reliable energy 
sources. This is not a change in policy, but the acceleration of a 
priority. In order to achieve this goal, we must fundamentally 
transform how we produce and consume energy.
    The President's Advanced Energy Initiative proposes aggressive 
research in technologies that hold the greatest potential in helping 
America achieve this goal, primarily by changing how we power our 
transportation sector. The achievement of this goal is dependent on the 
successful commercialization of these technologies. For example, the 
commercialization of cellulosic ethanol and improved batteries for 
hybrid and ``plug-in hybrid'' vehicles can fundamentally change the way 
we fuel our transportation sector. The development and market 
penetration of hydrogen-powered fuel cell vehicles will also 
contribute.

Q9.  The Administration, through its first five years, has stated that 
we do not know if global warming is the threat that most of the other 
nations of the world believe it to be. We have been spending money over 
the past five years on global warming research. Has this research 
brought us any closer to deciding one way or other what our policy 
should be? Do we have adequate contingency plans if it turns out by 
2025 that we have to reduce our use of fossil fuels?

A9. The President has regularly stated his view that global climate 
change is a serious problem that must be addressed with a global, long-
term approach that is consistent with the long-term goal of stabilizing 
greenhouse gas concentrations in the atmosphere.
    The Bush Administration's policy on climate change is designed to 
harness the power of markets and innovation to enable rapid development 
and deployment of cleaner, more efficient energy technologies. We 
recognize that climate change is a long-term issue that cannot be 
addressed in isolation from other needs, such energy security and 
pollution abatement. Growing economies are in the best position to 
finance investment in advanced, clean energy technologies. Major 
elements of the Administration's approach include near-term policies 
and measures to slow the growth in greenhouse gas emissions, investing 
in climate change science and technology, and international 
collaboration.
    By 2025, many low- or zero-emissions technologies--such as carbon 
sequestration, hydrogen, advanced nuclear, and biofuels--could be 
available for widespread deployment, while others--such as fusion--may 
be still be further away. Through our technology research programs, the 
U.S. will be poised to capitalize on technical breakthroughs that can 
achieve real emission reductions at reasonable cost.

Nuclear Energy Outlook

Q10.  How do you believe nuclear energy will be a factor by 2025 in 
reducing dependence on imported oil? There has been a flurry of 
interest in recent months in licensing sites for new reactors. Do we 
have the licensing policies in place to have significant numbers of new 
reactors on line by that date? Will we have the workforce to run the 
reactors? Does the sale of Westinghouse and decline of U.S. nuclear 
plant component manufacturers affect this capability?

A10. Nuclear energy is used to generate electricity and it is generally 
not considered a substitute for oil which is primarily used for 
transportation purposes. Nonetheless, there are two avenues through 
which nuclear energy could potentially help to reduce U.S. dependence 
on imported oil. To the extent that nuclear energy replaces natural gas 
in electricity production, more natural gas would be available which 
may be used to replace oil in some transportation, home heating and 
industrial processing applications. The other possible alternative for 
using nuclear energy to reduce oil imports is to generate large 
quantities of hydrogen using advanced nuclear reactor technologies. The 
Department recognizes the potential of this approach and has pursued 
such research and development (R&D) under our Nuclear Hydrogen 
Initiative and Generation IV program. While further R&D is required, 
our efforts in these areas are expected to help to offset oil imports.
    Licensing policies are currently in place to bring a significant 
number of new nuclear power plants on line by 2025. In the early 
1990's, the Nuclear Regulatory Commission (NRC) put new rules in place 
to allow efficient licensing of new nuclear power plants. These rules 
were specifically designed to streamline the licensing process and 
permit resolution of all public health and safety issues associated 
with siting, construction, and operation of a new nuclear power plant 
before a power generation company makes a significant financial 
investment and begins construction of the plant. Under these rules, 
reactor designers are successfully working to obtain NRC certification 
of their advanced reactor designs, which will allow deployment of a 
large number of new nuclear plants through development of standardized 
power plant designs. The Department is working with industry through 
our Nuclear Power 2010 program to demonstrate the untested licensing 
processes and develop standardized advanced light water reactor plants. 
It is anticipated that the new licensing processes will be fully vetted 
and any associated policy issues fully resolved around 2015 when the 
first new nuclear power plant comes on line.
    The United States will have the workforce to run its reactors. Over 
the past few years, there has been a resurgence of enrollments in 
college nuclear programs, as well as an increase in the number of 
universities offering nuclear engineering and technology courses. The 
continuation of this trend is expected to result in a sufficient 
workforce needed to run future reactors. The nuclear industry will also 
continue to invest in nuclear programs, thus ensuring the adequacy of 
the future workforce.
    Nuclear energy is a global industry. The sale of Westinghouse to 
Toshiba should not affect the plans for deployment of new nuclear power 
plants in the U.S. U.S. manufacturers and fabricators are currently 
providing equipment and prefabricated modules for the nuclear plants 
under construction in Asia. Recent studies showed that the necessary 
manufacturing, fabrication, labor, and construction equipment 
infrastructure is available today or can be easily developed to support 
the construction and commissioning of new nuclear power plants expected 
in the coming years. The U.S. has substantial capabilities for 
producing mechanical equipment modules, piping modules, piping spools, 
structural and electrical modules. Although there is only one supplier 
for forgings used for reactor pressure vessels (Japan Steel Works, 
Ltd.), U.S. and international manufacturers have the capacity to 
produce steam turbine generators, condensers, pumps, valves and other 
components necessary to build nuclear power plants.

Q11.  What do you expect to be the state of U.S. oil and gas reserves 
in 2025 in areas that are not environmentally sensitive?

A11. As of 2004, proved reserves of crude oil and natural gas in the 
United States, all of which are located in areas where production is 
possible including some areas that are environmentally sensitive, are 
estimated at 21.4 billion barrels and 192.5 trillion cubic feet, 
respectively. The United States Geological Survey (USGS) and Minerals 
Management Service estimate that total recoverable resources for oil 
and gas, which include resources in areas currently under moratoria or 
otherwise restricted areas, are 174.8 billion barrels and 1430.6 
trillion cubic feet, respectively. There is no standard interpretation 
of the term ``environmentally sensitive'' nor are there any 
consistently developed estimates of the oil and gas resources that 
might be covered by it.
    As of January 1, 2003, the regional distribution of the technically 
recoverable resources under federal moratoria (including Presidential 
withdrawal) is:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In most recent years, additions to proved reserves have been 
roughly equivalent to U.S. production of oil and gas, so the overall 
level of proved reserves has been relatively stable. The Energy 
Information Administration's Annual Energy Outlook 2006 Reference Case 
projections for lower-48 end-of-year proved reserves in 2025 in non-
moratoria areas is 226.9 trillion cubic feet of natural gas and 18.7 
billion barrels of crude oil.

Q12.  If we become highly dependent on Biomass, how do we avoid 
depleting the soil on which these fuels are being grown?

A12. As with all agricultural crops, biomass crops will need to be 
produced sustainably; and USDA is helping to support these efforts 
through the promotion of practices such as no-till cultivation (which 
inherently protects the soil). In some cases biomass crops have 
advantages over row crops such as corn and soybeans, because they have 
perennial roots that further protect the soil. Switchgrass, mentioned 
by President Bush in the State of the Union, is a perennial grass with 
a deep root structure that has been planted on Conservation Reserve 
Program lands as a means to thwart soil erosion, thus avoiding the 
depletion of soils.

FutureGen Project

Q13.  Is the Administration completely committed to the FutureGen Coal 
program? When do you expect the first plant to be on line and, assuming 
these technologies can be developed and integrated into a working power 
plant in the time contemplated, what will be the state of readiness of 
these types of plants to contribute to electric energy supply in 2025?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


A13. FutureGen is a key component of the President's commitment to 
research and development of clean coal technologies. Our FY 2007 budget 
request funds FutureGen at $54 million, in accord with the planned 
funding profile in FutureGen report to Congress, and includes an 
advance appropriation of $203 million for FY 2008.
    We anticipate that the FutureGen plant will begin operations in FY 
2012 and continue operations for four years into FY 2016, followed by a 
monitoring period of two to three years. Assuming the plant achieves 
its performance goals of technical feasibility and economic viability, 
we expect the industry will have the technology and data to design and 
build the first commercial versions of near-zero atmospheric emission 
coal plants based on the FutureGen concept within 10 years of FutureGen 
start up. This would provide the engineering basis to enable FutureGen 
type plant deployment in the energy market place by 2025-2030 time 
frame.

Q14.  Buildings consume an estimated 20 percent of domestic energy 
supply. Reducing energy consumption in existing buildings seems like a 
fertile area to find energy savings, particularly in existing buildings 
stock. Why aren't we hearing more about conservation and sustainability 
with these potential energy savings in sight?

A14. The Department of Energy has several activities aimed at reducing 
energy consumption in the existing buildings stock, including:

        <bullet>  The appliance standards program, which is focused on 
        increasing the efficiency of many residential energy-using 
        products sold to existing homeowners;

        <bullet>  A variety of consumer tools and informational 
        brochures, such as the Energy Savers Guide, fact sheets based 
        on DOE building-science research, and the Home Energy Saver Web 
        Tool;

        <bullet>  The Energy Star program (administered jointly with 
        EPA), which identifies for consumers those products in the 
        market place that are most energy efficient;

        <bullet>  Home Performance with Energy Star, a joint program 
        with the EPA and HUD that offers a comprehensive, whole-house 
        approach to making energy-efficiency improvements to the more 
        than 80 million existing homes; and

        <bullet>  Numerous efforts to encourage incorporation of 
        energy-efficiency technologies and practices in the Gulf Coast 
        rebuilding effort.

    In addition, the Energy Policy Act of 2005 offers consumers and 
businesses federal tax credits beginning in January 2006 for energy-
efficient appliances and products. Most of these tax credits remain in 
effect through 2007.

Q15.  In light of the President's increased interest in science 
education in the State of the Union Address, will the administration 
use the requirement to spend 0.3 percent of its energy research and 
development budget on science education to get a jump start on these 
programs in FY06, including the SEEPP project in Section 914?

A15. The Office of Science has reviewed the DOE investments in the 
areas spelled out in the relevant section of the bill, but has not yet 
formalized a response. The recently introduced PACE-Energy Act has 
influenced the nature of our internal deliberations since, if it were 
enacted as currently written, it would have a significant impact on our 
workforce and education development plans. DOE staff has met with SEEPP 
representatives to explore how they might work towards the common goals 
of the SEEPP and the DOE.

Q16a.  The President has spoken about the need for the U.S. to become 
more competitive in the world through innovation and research and 
development. He emphasized the particular importance of the physical 
sciences in his State of the Union message. Since our economic 
competitiveness is expressed ultimately through the efforts of industry 
(as opposed to national labs or universities), what is the Department 
doing to ensure that U.S. industry is included in and benefits from the 
research done at the labs and universities?

A16a. The DOE's Office of Science (SC) has a number of direct and 
indirect ways of transferring the technology derived from DOE research 
or DOE-funded university research, to industry. The direct route is for 
industry to use, or to partner with universities and other research 
institution to use, DOE SC facilities at the national labs. Industry 
has used our light sources and high-end computation facilities, for 
example, to perform both proprietary and non-proprietary research. The 
indirect path is carried out either through technology transfer 
programs, which are largely run by the labs, or through the publication 
of non-proprietary research results in journals.
    DOE is always looking for ways to improve the transfer of 
technologies from the lab floor to the factory floor, and there is room 
for improvement. The timely dissemination of useful technologies is a 
cornerstone of the President's American Competitiveness Initiative.

Nuclear Energy Outlook

Q16b.  Please give us specific examples as to how the Offices of 
Nuclear Energy, Energy Efficiency and Renewable Energy and Fossil 
Energy and/or their labs are partnering with industry to ensure that 
their efforts have an economic impact? In dealing with industry, does 
the Department make any distinction between U.S.-owned companies and 
those with foreign ownership? Does DOE need additional authority to 
facilitate government-industry partnerships? If so, what are DOE's 
recommendations?

A16b. Several companies are actively engaged in research and 
development efforts under the Generation IV Nuclear Initiative and the 
Nuclear Hydrogen Initiative. In addition to the short-term economic 
impact observed via research personnel salaries and equipment 
procurements, long-term economic impact will also be realized through 
continued industrial partnering to develop commercial products or 
processes which industry endorses as being needed. From a broader 
nuclear power industry perspective, through cost-shared demonstration 
projects under the Nuclear Power 2010 Program, the Department is 
working to reduce the regulatory and financial uncertainty and achieve 
the near-term deployment of new nuclear power plants. Also, the 
Department is developing a standby support program intended to protect 
sponsors of the first new nuclear power plants against the financial 
impact of certain delays during construction or in gaining approval for 
operation that are beyond the sponsors' control.
    Regarding the Department's Nuclear Power 2010 program, no 
distinction was made between U.S.-owned companies and those with 
foreign ownership in the awards made to Dominion and NuStart to develop 
and submit to the Nuclear Regulatory Commission combined construction 
and operating license applications for new nuclear power plants within 
the United States. However, through administrative reviews of the 
proposals, the Department determined that all of the U.S. Government 
cost share under the Cooperative Agreements would be spent within the 
United States.
    The Department has sufficient authority within the Code of Federal 
Regulations, Part 600, Financial Assistance Rules, to enter into 
government-industry partnerships. A cooperative agreement is the 
typical method used by the Office of Nuclear Energy, Science and 
Technology on joint, cost-shared projects with industry.

Energy Efficiency and Renewable Energy

    The Office of Energy Efficiency and Renewable Energy (EERE) is 
conducting a number of activities in partnership with industry. One 
important example is EERE's hydrogen technology activities, which, in 
conjunction with private sector research and development, reduced the 
cost of automotive fuel cell high-volume systems from $200/kW in 2004 
to $125/kW in 2005, and is on target to achieving its $45/kW goal in 
2010. Similarly, EERE's Office of FreedomCAR and Vehicle Technologies 
has partnered with the automotive and material industries to develop 
magnesium casting technology that provides a 30 percent weight savings 
relative to the aluminum components it replaces; the technology has 
been adopted by General Motors for its 2006 model year.
    EERE follows applicable laws and Departmental guidelines when 
establishing partnerships with industry.
    EERE does not need any additional authority to facilitate 
government-industry partnerships.

Fossil Energy

    In 2001, President Bush challenged the Federal Government to make 
itself more results-oriented, and more accountable to the citizens who 
pay taxes and benefit from the programs and services government 
provides.
    The Office of Fossil Energy's ultimate success comes when the 
advanced technologies emerging from our research activities are 
commercialized by the private sector. Presented here is solid evidence 
that the taxpayers' investment has paid real and measurable dividends. 
These are just a few examples of the technological innovations 
introduced through the Office of Fossil Energy R&D Program that now 
provide consumers cost-effective, clean, fossil fuel-based energy.

NETL Licenses Mercury Removal Method

    FE's National Energy Technology Laboratory has issued an exclusive 
license to Powerspan Corporation for a patented method to remove 
mercury from flue gas streams using irradiation with ultraviolet light. 
The potential market for the licensed invention is estimated to be 
between $3 billion and $7.5 billion. NETL is pursuing opportunities to 
license the patent for applications in fields other than fossil-fueled 
power generation.

DOE Celebrates Success of Regional Carbon Sequestration Partnerships

    A report released by DOE's Office of Fossil Energy details the 
success of the Regional Carbon Sequestration Partnerships in laying the 
groundwork for field testing and verifying carbon sequestration 
technologies in the near-term.

Development of Turbine Blade Monitor Makes Major Progress

    Researchers at Siemens Power Generation, with funding from the U.S. 
Department of Energy, have produced high-speed infrared images of the 
first row of blades in a Westinghouse 501FD gas turbine under full 
operation. Once perfected, online monitoring will detect the integrity 
of thermal barrier coatings as they operate within the gas turbine. 
This technological breakthrough could help keep electricity rates down 
by saving gas turbine utility operators an estimated $600 million per 
year.

Direct FuelCell Technology Advances

    FuelCell Energy of Danbury, CT, developed its patented Direct 
FuelCell technology in a research partnership with DOE that began more 
than 25 years ago. By October 2004, more than 50 million kilowatt hours 
of electricity had been generated from power plants incorporating 
Direct FuelCell technology.

Weyburn Project Demonstrates Safety and Permanence of Sequestration

    A multi-national project that includes DOE's Office of Fossil 
Energy has injected more than 100 billion cubic feet of 95 percent pure 
carbon dioxide into the Weyburn oil field in Saskatchewan, near the 
North Dakota border, demonstrating the safety and permanence of 
sequestration while producing more than six mullion barrels of oil.

Clean Coal Project Continues to Pay Back Taxpayer Investment

    The Advanced Flue Gas Desulfurization Demonstration Project, 
selected as part of the DOE Clean Coal Technology Demonstration 
Program, is the first clean coal technology project to accumulate over 
$1 million in repayments, and represents more than half of all 
repayment funds collected under the Clean Coal Technology Demonstration 
Program. The project's advanced desulfurization unit continues to 
operate commercially, scrubbing approximately 70,000 tons of sulfur 
dioxide annually at the Northern Indiana Public Service Company's 
Bailly Generating Stations near Chesterton, IN.

Florida Demo Tames High Sulfur Coal

    Recent tests with one of the Nation's mid- to high-sulfur coals 
have further verified that a new electric generation technology in its 
first large-scale utility demonstration at JEA's Northside Generating 
Station in Jacksonville, FL, is one of the world's cleanest coal-based 
power plants.

Questions submitted by Representative Jerry F. Costello

FutureGen

Q1.  I am pleased to see the Administration's continued support for the 
FutureGen Initiative with a $54 million budget request for FY07. This 
funding request keeps the program on schedule as outlined in the 
FutureGen Report to Congress. My question pertains to the $203 million 
balance that has been set aside for FutureGen for FY08 and beyond. Is 
$203 million enough to fund FutureGen beyond FY08?

A1. The $203 million will provide sufficient funding for the government 
cost-share for FY 2008 and most of FY 2009. As indicated in the funding 
profile (in unescalated 2003 dollars) outlined in the FutureGen Program 
Plan submitted to Congress on March 4, 2004, additional funding would 
be required to complete the planned FY 2009 expenditures and for 
subsequent years for the government cost-share. In addition, funding is 
also required from the private sector partners and from international 
partners.

Advanced Energy Initiative

Q2.  The President's Advanced Energy Initiative provides a 22 percent 
increase for research that can help reduce America's dependence on 
foreign oil and advance clean energy technologies. Can you please 
indicate what types of research and give the percentage they will 
receive to equal the 22 percent increase?

A2. The attached table provides the types of research and details the 
percentages they will receive to equal 22 percent.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Questions submitted by Representative Eddie Bernice Johnson

Q1.  Last fall the President and you announced a major energy 
efficiency initiative, and two weeks ago the White House signed an 
interagency MOU calling for energy efficiency measure throughout the 
Federal Government. Then we get a budget that slashes the exact program 
that will accomplish this. Please tell the Committee how we are 
supposed to take seriously the Administration's commitment to energy 
efficiency when you give us a request that makes a mockery of it?

A1. The Department's FY 2007 budget request maintains robust funding 
levels in a variety of energy efficiency programs. While funding for 
the Federal Energy Management Program is down $2 million compared to FY 
2006 appropriations; the decrease reflects the contribution of new 
efficiencies within the program that will allow the Department to 
achieve the same or even better results with less money. In addition, 
the Department requests a $2 million increase for an enhanced 
Technology Advancement and Outreach effort that will build upon FEMP 
outreach efforts. Finally, it is important to note that FEMP merely 
facilitates energy efficiency improvements. Agencies are responsible 
for improving energy management, making cost effective energy 
efficiency investments, and procuring energy efficient products (such 
as Energy Star products) that will help them achieve their energy 
efficiency goals.

Q2.  The Industries of the Future program at DOE has a long history of 
supporting R&D that improves energy efficiency in some of our most 
valued core domestic industries, the same industries that are rapidly 
heading overseas. Yet, this administration continues to decrease 
support of this program at a time when it is most needed. Please 
explain how 30 percent decrease in funding will affect our core 
domestic industrial sections.

A2. While industry remains a major energy end-use sector of the 
Nation's economy, significant gains in energy efficiency have already 
been achieved (output since the 1970s has more than doubled for 
essentially the same energy consumption). Since significant economic 
incentives exist for industry to continue on its own to invest in new, 
more efficient technologies, the Department is shifting some of its 
limited resources toward higher-priority R&D areas, such as reducing 
our growing national dependence on foreign oil. At the same time, the 
Industrial Technologies Program is refocusing its activities for 
maximum benefits from its appropriations.

Question submitted by Representative Michael M. Honda

Q1.  I was hoping you could help me to understand the rationale behind 
the planned termination of the Industrial Assessment Centers over the 
next two years. My understanding of the program is that it funds a 
network of universities which send graduate engineering students out to 
small and medium sized manufacturers, conducting energy audits that 
identify a range of low and modest cost efficiency improvements. It 
seems like this program is right in line with the Administration's goal 
of training more engineers and scientists in the energy field, and it 
provides real help to U.S. manufacturers struggling to cope with energy 
prices. Alumni are very much in demand by the top firms as energy 
managers who can come in with real-world knowledge and experience to 
work on projects immediately and improve the bottom line. Can you 
explain why DOE would want to eliminate this program, given the 
President's stated commitment to competitiveness, energy efficiency, 
and energy independence?

A1. With rare exception, the Administration has not made budget 
decisions beyond FY 2007. The Department's five-year budget profiles 
represent scenarios or options that could be considered during budget 
development in future years.
    That said, while industry remains a major energy end-use sector of 
the Nation's economy, significant gains in energy efficiency have 
already been achieved (output since the 1970s has more than doubled for 
essentially the same energy consumption, in large part because of 
improved efficiency). Significant economic incentives exist for 
industry to continue on its own to invest in new, more efficient 
technologies. In the FY 2007 Budget, the Department focuses its 
resources toward higher-priority R&D areas outlined in the President's 
Advanced Energy Initiative.

Questions submitted by Representative Brian Baird

BPA Debt Prepayment Proposal

Q1.  As stated in the President's Budget, the Bonneville Power 
Authority provides about 40 percent of the Pacific NW region's electric 
energy supply and three-fourths of the regions' electric power 
transmission capacity. Clearly, BPA plays a vital role in keeping the 
lights on in the Pacific NW region. Knowing of BPA's importance to the 
Pacific NW region, why is it that the Administration did not consult 
with any Members of the Pacific NW before moving forward with the BPA 
secondary revenue proposal? Knowing of the Pacific NW delegation's 
disapproval of the process, will you commit to meeting with the 
delegation to discuss the proposal?

A1. The President's Budget is developed inside the Executive Branch. 
Following the release of the President's budget on February 6, 2006, I 
have remained committed to meet with members of the region's 
congressional delegation to address concerns and ensure that an undue 
burden is not placed on the Pacific Northwest rate payers. I respect 
and welcome your desire to discuss these issues further with the 
Administration.

Q2.  According to a February 8, 2006, analysis by the non-partisan 
Northwest Power and Conservation Council, the OMB proposal will result 
in a rate increase of at least 6.6 percent, raising power rates by $145 
million a year, costing retail consumers an additional $26.13 a year 
(energy intensive industries, such as pulp and paper mills, will suffer 
even more), decreasing personal income in the Northwest by $109 
million, and resulting in the loss of 1,120 jobs. Did OMB conduct any 
sort of analysis of the macro-economic impact of this proposal prior to 
its release? Does the OMB have any data to refute the aforementioned 
study?

A2. Although to our knowledge OMB did not conduct a detailed macro-
economic analysis of the budget proposal we believe it is sound 
business practice to use higher-than-historical revenues to pay down 
debt, which will allow for additional flexibility and ability to make 
necessary future investments in energy infrastructure for the benefit 
of the Northwest economy. The Administration's intent is to capture the 
unique potential opportunities offered in the short-term by high 
natural gas prices to derive a long-term benefit for Pacific Northwest 
rate payers. This proposal will be more fully assessed in an expedited 
BPA rate case to implement the policy of advance payments on Treasury 
bonds with net secondary revenues that exceed $500 million annually.

Q3.  The budget states that the reason for the secondary revenue 
initiative is so that BPA can ``pay down debt'' and ``invest back into 
energy infrastructure.'' However, BPA is not in jeopardy of missing a 
Treasury payment. In fact, they have made their Treasury payment on 
time and in full for more than 20 years running. In addition, 
Bonneville has voluntarily made more than $1.46 billion in early 
payments on its federal debt over the last couple of years. Contrary to 
OMB's current proposal, this was done without raising rates. If this 
secondary revenue proposal moves forward, how can you ensure that 
payments would, in fact, be used to pay down BPA's debt or invested in 
infrastructure, instead of redirected by the Administration to fulfill 
a different purpose?

A3. BPA's payments to the Treasury are used to pay down BPA's federal 
debt consistent with the sound business practices required under the 
law including the Federal Columbia River Transmission System Act of 
1974, and consistent with statutory priority of payment requirements. 
This Administration's proposal does not change that current law. 
Moreover, and just as with BPA's past early payments on its bonded 
debt, the proposal in the budget would free up available borrowing 
authority that BPA will be able to use. Recent debt optimization early 
prepayments have not resulted in higher rates because we structured the 
bonds to avoid upward rate pressure and we amortized debt with on-
average higher interest rates.
    Additionally, from a technical perspective, BPA has a mandate to 
operate on a ``self-financing basis'' and all receipts and expenditures 
are processed through the BPA Fund, a public enterprise revolving fund 
account within Treasury. Therefore, through established Treasury 
collection mechanisms, all secondary revenue receipts would be directed 
to the BPA Fund and accordingly, BPA would, initiate intragovernmental 
repayment transactions with Treasury's Bureau of the Public Debt to pay 
down BPA's debt. The Bureau of Public Debt maintains the detailed 
records of the debt securities transactions between the Department of 
the Treasury and other federal agencies such as BPA. (Prepared by: 
Roger Seifert)

Q4.  How does the Administration justify demanding BPA pay the Treasury 
an arbitrary ``surplus'' above $500 million in revenue-producing years 
(when BPA is keeping rates level or possibly lowering rates), when the 
Administration has not been willing to offer any additional assistance 
in years with a loss of revenue, such as the energy crisis, when rates 
skyrocketed? Does the Administration have a plan in place under this 
proposal to assist BPA in times of revenue loss as they take away BPA's 
flexibility to level out energy rates?

A4. The Administration's intent is to capture the potential unique 
opportunities offered in the short-term by high natural gas prices to 
derive long-term benefit for rate payers. I remain committed to meet 
with members of the region's Congressional delegation to address 
concerns and ensure that an undue burden is not placed on the Northwest 
rate payers.

Q5.  If funding for Hanford nuclear reservation clean-up was held 
``level'' with 2005 funding, it would be $2.221 Billion, which is $376 
million higher than the President's Budget Request for 2007, adjusted 
for inflation. Instead, the request is $1.845 billion, including using 
$78 million for security, rather than cleanup. The President's budget 
request for Hanford Clean-Up cuts funds for cleanup of contaminated 
soil and groundwater; and, reduces funding for the safe storage, 
monitoring and retrieval of High-Level Nuclear Wastes by $44 million in 
2007. How does the Administration plan on making up this shortfall now 
and in future years as Hanford, the largest nuclear waste dump in the 
Western Hemisphere, continues to be under-funded by the Administration 
and pose a public health and environmental risk to our nation?

A5. The 2007 Budget requests $1.9 billion for the Hanford site, an 
increase of $135 million above the 2006 enacted level. We remain 
committed to completing the Environmental Management (EM) mission in a 
manner that is protective of the environment and public.

Questions submitted by Representative Jim Matheson

Q1.  DOE estimated that the cleanup costs for the Moab uranium mill 
tailings site is $420 million. The groundwater cleanup is an estimated 
$70 million in addition. The Administration's FY 2007 budget request 
provides $22.8 million. As we discussed during your recent appearance 
before the Committee, please provide a project schedule that identifies 
estimated annual expenditures and activities that will take place each 
year.

A1. On August 25, 2005, the Deputy Secretary approved Critical Decision 
(CD) 0, which approves mission need for the Uranium Mill Tailings 
Remedial Action Project at Moab, Utah. The outyear funding profile and 
activities to be performed will be established as the Department moves 
through the CD-1, approval of preliminary baseline range, and CD-2, 
approval of performance baseline, decision processes. The approval 
memorandum on the CD-0 decision directed the Office of Environmental 
Management to develop an Acquisition Strategy in accordance with 
Department of Energy (DOE) Order 413.3, Project Management for the 
Acquisition of Capital Assets. The CD-1, Major System Project 
Acquisition Strategy, details the project schedule, major work 
activities, estimated annual expenditures for the life-cycle of the 
project, and the various acquisition alternatives. The CD-1 package has 
been developed and is being reviewed within DOE Headquarters, approval 
is expected next month. Once approved, the selected acquisition 
alternative will be executed to procure contractors who have the 
responsibility of developing a project baseline and cost estimate that 
can be validated and approved by the DOE, as part of the CD-2 decision 
process.

Q2.  Does the budget for this year include funding to continue 
monitoring nine wells installed in 2003 as part of research conducted 
by the University of Utah which led to the Investigation of the 
Hydrologic Connection between the Moab Mill Tailings and the Matheson 
Wetlands Preserve (Gardener and Solomon, December 2003) report? It is 
my understanding that since 2003, there has been no systematic sampling 
of these wells on the part of the Department of Energy. Do any 
projections for future years include funding for monitoring? If not, 
why not?

A2. Yes. The Department of Energy (DOE) understands your concern 
regarding potential migration beneath the Colorado River to the 
Matheson Wetlands Preserve located across the Colorado River from the 
Moab Remedial Action Project site. The DOE sampled the subject wells in 
2003 to establish a baseline in order to determine whether there was 
any contamination migrating to or on the Matheson Wetlands Preserve and 
found no evidence of contamination. The wells were sampled again in 
late 2005, confirming the statement contained in the 2005 Final 
Environmental Impact Statement that groundwater discharge and potential 
contaminates do not migrate from the Moab site, beneath the river, to 
the Matheson Wetlands Preserve. On November 16, 2005, DOE committed to 
continue to sample the subject wells, plus 25 additional existing 
monitoring wells, and three surface water locations in the Matheson 
Wetlands Preserve. In FY 2006, DOE plans to spend more than $1 million 
to sample all of these locations three times during the year, 
concurrent with the routine sampling DOE is performing at the Moab 
Remedial Action Project site, and to expand the interim ground water 
cleanup action, which has been expanded each year for the last four 
years. Expansion of the interim ground water actions continues to 
reduce the amount of contaminants that may migrate to the Colorado 
River. The results of this additional sampling should provide further 
support to DOE's environmental assessment, thus alleviating any 
concerns regarding potential contaminant migration to the Matheson 
Wetlands Preserve. The results of all of the sampling data and 
analysis, and environmental performance evaluations of our ground water 
cleanup to date can be obtained on the Moab Remedial Action Project web 
site (http://gj.em.doe.gov/moab). DOE's 2007 budget provides funding to 
continue monitoring, as appropriate.

Q3.  Does the estimated cleanup cost for the project include what is 
commonly known as ``community impact funding'' (i.e., funding to assist 
local counties and municipalities inform residents and visitors of 
cleanup efforts which may affect them)? If not, why not? How will DOE 
ensure that locally affected residents and visitors are safeguarded 
throughout the remediation of the site and the relocation of the 
tailings? What are the responsibilities of the not-yet selected 
contractor in terms of working with the local community?

A3. The estimated cleanup cost for Moab does not specifically include 
``community impact funding.'' Currently, the federal project staff at 
the Moab site promotes community outreach through participation in 
Cooperative Agency (12 State and federal agencies) Meetings, led by the 
Executive Director of Environmental Quality for the State of Utah (no 
regulatory role), which happens roughly quarterly. Typically, 
concurrent with these meetings, the Moab Federal Project Director 
conducts public meetings at the cities of Moab and Thompson Spring to 
update the public on site activities, to present and discuss results of 
current monitoring data, to provide status relative to the ongoing 
interim ground water remediation activities, to provide an update on 
characterization results at Crescent Junction Site (the uranium mill 
tailings off-site disposal location) and vicinity properties, and as 
part of the project planning process to inform the public about overall 
project progress. The Department of Energy (DOE) has a detailed Moab 
Project Public Participation Plan that can be obtained on the Moab 
Remedial Action Project web site (http://gj.em.doe.gov/moab). In 
addition, the federal project staff has implemented emergency response 
plans in coordination with local and State officials and has presented 
the necessary information at the public meetings. The federal project 
staff is frequently in contact with the appropriate local officials on 
all matters pertaining to public safety, including coordinating future 
work activities that involve use of public roadways. The DOE would 
expect any future contractors to build upon the efforts made to date by 
DOE to work with the local community, State and federal agencies, and 
stakeholders.
                   Answers to Post-Hearing Questions
Responses by David A. Sampson, Deputy Secretary, Department of Commerce

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  The Fiscal Year 2007 (FY07) budget request includes plans to 
enhance the National Institute of Standards and Technology (NIST) 
presence at the National Synchrotron Light Source (NSLS) at Brookhaven 
National Laboratory, a Department of Energy research facility. The 
Department of Energy is planning to build NSLS-II, ultimately as a 
replacement for the current Brookhaven light source. How will NIST 
coordinate its proposed investments at the existing NSLS with 
Brookhaven's plans for a newer facility? How will NIST coordinate its 
proposed investments with DOE's instrumentation plans for their entire 
suite of light sources?

A1. The National Institute of Standards and Technology (NIST) has been 
a respected and valued on-site partner with the Department of Energy 
(DOE) for over twenty years in the joint operation of synchrotron 
beamlines at the National Synchrotron Light Source (NSLS). NIST 
management is coordinating with Dr. Steven Dierker, the Brookhaven 
National Laboratory Associate Director responsible for the NSLS-II 
Project, on the development of novel, advanced measurement capabilities 
for both the existing NSLS and the planned NSLS-II. The entire suite of 
NIST end-station measurement instrumentation will be migrated to the 
NSLS-II in a manner that assures that the NIST capabilities complement 
Brookhaven's proposed investments at the new facility. On a broader 
level, NIST will coordinate its planned investments through Dr. Dierker 
and the DOE Office of Science, and via its own representative, Dr. 
Patrick Gallagher, on the Office of Science and Technology Policy 
interagency working group established to report on the Nation's 
synchrotron facilities.

Q2.  NIST sent teams to hurricane-affected areas last year to study 
some of the damage and learn about the impacts of the storms on 
buildings and other structures. NIST chose not to invoke the National 
Construction Safety Team Act (NCST), which would have given it subpoena 
power over documents and other evidence to contribute to its 
investigation. Another team assembled by the National Science 
Foundation encountered problems accessing sites and could have used 
subpoena authority during its investigation of levee failure in the 
area. Did NIST encounter problems accessing sites during its hurricane 
assessments? Does NIST plan to invoke the NCST more routinely during 
future investigations of building failures?

A2. NIST assembled a team of 26 experts from federal agencies, 
academia, and private industry to conduct reconnaissance of damage to 
major buildings, physical infrastructure, and residential structures in 
areas affected by Hurricane Katrina and Hurricane Rita. During its 
deployments to the field, NIST coordinated with local authorities, 
building and facility owners and operators, and federal agencies to 
obtain access to sites and, as a result, NIST encountered few problems 
accessing sites during its field reconnaissance. The one exception was 
petrochemical plants in Texas as these plants were in the process of 
restarting operations and there were legitimate safety concerns 
involved. However, damage to these facilities was limited and NIST 
determined through visual observation and discussions with company 
personnel that access was not essential to the reconnaissance.
    NIST has several authorities under which it can conduct an 
investigation. The NIST Director selects the most appropriate authority 
to get the job done. NIST will invoke the NCST whenever it is the 
appropriate authority to use, i.e., in the wake of any building failure 
that has resulted in a substantial loss of life or that posed 
significant potential of substantial loss of life. The building failure 
must also meet the additional requirements set out in the procedures 
for the establishment and deployment of teams that have been developed 
by NIST which were called for in the NCST Act.

Q3.  NIST is the coordinating agency for the National Earthquake Hazard 
Reduction Program (NEHRP), but only has approximately $1 million in its 
FY06 budget for both program management and research activities. Please 
explain what NEHRP activities NIST will undertake in FY06, and how the 
approximately $700,000 in new funding requested in FY07 for NEHRP will 
be used.

A3. For FY 2006, NIST has redirected $750,000 of its approximately 
$914,000 in NEHRP-related base research funding to support the NEHRP 
Lead Agency management function. This funding is being supplemented by 
$85,000 of support from each of the other NEHRP agencies (FEMA, NSF, 
and the U.S. Geological Survey), providing approximately $1 million of 
total support for the Lead Agency management function. The new ``NEHRP 
Secretariat'' became active in early February 2006, with NIST's hiring 
of the first formal program Director, who comes to his new assignment 
after almost 18 years of research in the U.S. Army Corps of Engineers, 
including 15 years of seismic engineering research.
    Initial NEHRP Secretariat activities center on addressing high-
priority requirements identified in the NEHRP Reauthorization Act of 
2004, including:

        <bullet>  Establishing the Interagency Coordinating Committee

        <bullet>  Establishing the Advisory Committee for Earthquake 
        Hazards Reduction

        <bullet>  Developing an updated NEHRP Strategic Plan

        <bullet>  Developing a NEHRP Management Plan

        <bullet>  Developing a coordinated Interagency Budget for FY08 
        and beyond.

    Beyond the $750,000 that was redirected to the NEHRP Secretariat 
function, approximately $160,000 of FY 2006 NEHRP research funding is 
being used to partially support a much larger multi-year project 
addressing the prevention of progressive collapse in buildings that are 
subject to catastrophic events, such as earthquakes, fires, or 
explosions.
    For FY 2007, the NEHRP base funding would be applied similarly as 
it is in FY 2006. In addition, approximately $800,000 of the new 
funding requested in the President's FY 2007 budget will be used to 
begin implementation of the R&D roadmap developed by industry through 
the Applied Technology Council to close the research-to-practice gap 
and accelerate the use of new earthquake risk mitigation technologies. 
This effort will initiate several projects that address critical topics 
supporting the development of Performance-Based Seismic Engineering 
(PBSE) and will assist industry in improving building codes and 
standards, advance seismic engineering practice, and facilitate 
technology transfer for efforts that have been undertaken by NEHRP. All 
of these research efforts will be undertaken in close cooperation with 
practitioners and with standards and codes development bodies.

Q4.  Many of the National Oceanic and Atmospheric Administration's 
(NOAA's) National Weather Service's automated surface observing 
stations and its NOAA Weather Radio antennas do not have backup 
electrical power and become inoperable during hurricanes and other 
sever weather events. To fix this problem, in the FY06 hurricane 
supplemental, NOAA received $5 million to provide backup power for 
those two systems in coastal areas. Will all the systems in hurricane-
prone coastal areas be upgraded in time for the 2006 hurricane season? 
If not, what percentage of upgrades do you anticipate will be complete 
in time for the 2006 hurricane season, and what are the criteria for 
selecting which areas to upgrade first?

A4. The Department of Defense, Emergency Supplemental Appropriations to 
Address Hurricanes in the Gulf of Mexico, and Pandemic Influenza Act of 
2006 (P.L. 109-148) included $4.9 million to provide backup emergency 
power for hurricane-prone coastal Automated Surface Observing Systems 
and coastal NOAA Weather Radio All-Hazards transmitters. NOAA will work 
as quickly as possible to upgrade the equipment. The National Weather 
Service has begun engineering development (including site surveys and 
assessment of existing site power infrastructure requirements) and 
equipment procurement (generators and ancillary cables) for this 
effort. We anticipate procurement of hardware for backup power to be 
completed by September 2006, with installations to commence in October/
November. Initially, we will focus on installations in Florida and the 
Gulf Coast region; we will then shift our focus to the Atlantic Coast.

Q5.  When asked last October, Max Mayfield (Director of the National 
Hurricane Center) indicated that the five highest priority areas for 
improving hurricane forecasts are improved computational capacity, 
research to improve hurricane models, an expanded buoy network, 
improved satellite sensors, and additional flight hours on hurricane 
hunters. Please explain where each of these priorities is funded in 
NOAA's FY07 budget request, and the amount of funding provided in the 
request. Please also describe what level of funding was provided for 
each of these priorities in FY06, including which line office at NOAA 
received the funding.

A5. Please see the attached table for the response to Question 5.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions submitted by Representative Bart Gordon

Q1.  For five years the Administration has either proposed eliminating 
or cutting MEP funding by 50 percent. However, MEP is a partnership 
between State and the Federal governments. What meetings have you had 
with State officials regarding your past or proposed budget cuts--and 
by this I don't mean MEP Center Directors, but with the State officials 
which are responsible for allocating the one-third matching funds? Why 
haven't you consulted with the States?

A1. The FY 2007 budget request for the Hollings MEP is similar to 
previous years and as such NIST is able to rely on responses provided 
by our stakeholders from the three web cast and two regional meetings 
held during 2004. NIST will also actively engage our State partners in 
dialogue this year through a series of roundtables. The first 
roundtable was held on March 15th in Columbus, OH. In addition, these 
meetings are designed to look at the future of manufacturing and how 
the MEP partnership with the States can best address those needs.

Q2.  What was the Department's analysis that shows that $47 million is 
enough funding to maintain an effective network of national centers?

A2. The $47 million for the FY07 budget is consistent with the 
President's FY06 request. This year the Administration had to make 
tough budget decisions and set priorities in a tight budget year. MEP 
is one part of the Administration's broader plan to support small 
manufacturers. The President remains committed to strengthening the 
competitiveness of the Nation's manufacturing industry and is focusing 
efforts on the American Competitiveness Initiative to support 
innovation.

Q3.  You have justified the MEP cut because the program has evolved to 
a stage where less funding is required--this is different from past 
year's justifications for funding cuts. What is the analysis and 
criteria that you used to make this determination? You have also 
justified the MEP cut because the program offers services that are also 
provided by the private sector. Could you provide us with the analysis 
that backs this assertion. The reason that I ask these questions, is 
that the Department commissioned the National Academy of Public 
Administration (NAPA) to do a study on the MEP. One of their findings 
was: ``The small manufacturing market is under-served in terms of 
assistance with productivity and performance measures.'' The NAPA study 
also found that MEP did not displace private companies offering 
services to small manufacturers.

A3. Since taking office, the President has worked to improve the 
competitiveness of the manufacturing industry in numerous ways, 
including providing tax relief that benefits manufacturers of all 
sizes, and proposing an aggressive job training initiative.
    The small manufacturing base is critical to the U.S. economy and 
integral to U.S.-based supply chains. Accordingly, NIST supports the 
small manufacturing community not only through the Hollings MEP, but 
also through laboratory activity across the Institute. More than half 
of the NIST lab activities are either directly or indirectly geared to 
enhancing manufacturing. The President has demonstrated his strong 
commitment to the NIST laboratory programs by including them in the 
American Competitiveness Initiative (ACI) for FY 2007. ACI increases 
funding for the NIST laboratory and construction programs above the 
base level by 24 percent to $535 million.

Q4.  You justify eliminating the ATP because of the growth of venture 
capital funds and other financial services for high-risk technology. 
This Committee has heard repeatedly during the past four years that 
venture capital funds for high-risk technology development are scarce. 
Could you provide us with the documentation that supports your claims? 
Also, if venture capital funds are so plentiful for high-risk, high 
tech projects, why is the Administration requesting funds for Red 
Planet Fund at NASA which will be an ATP-like program at NASA?

A4. Data shows that there have been significant private equity funding 
available and that the level of funding continues to be strong. A 2002 
study by Lewis Branscomb et al. at Harvard University that analyzed 
data from 1998 estimates that between $5.4 billion (conservative 
estimate) and $35.5 billion (inclusive estimate) was invested in early 
stage technology development (Branscomb and Auerswald, Between 
Invention and Innovation). These estimates include $1.4 billion to $7.3 
billion in investments from the Federal Government.
    In 2005, venture capitalists invested $21.7 billion in 2,939 deals, 
which matched the level invested in 2004. Funding for start-up and 
early stage companies slipped slightly for the year to $4.1 billion in 
922 deals compared to $4.4 billion in 2004. Anecdotal evidence shows 
that 2006 will see an increase in early stage investing both in number 
of companies funded and amount of money invested, negating the need for 
governmental support. (Source: National Venture Capital Association)
    The Department of Commerce's knowledge of the Red Planet Capital is 
limited; therefore it would be inappropriate to comment on NASA's 
reasoning for requesting its establishment.

Q5.  You justify abolishing ATP because it only benefits a single 
company and not industry at large and that American Competitiveness 
Initiative will not impact individual company but be broadly based. The 
ATP's mandate is that it can fund projects that will only have broad 
industry impacts far beyond private profit. I'll cite just a few 
examples such as the two milli-meter project, the Affymetrix DNA 
diagnostics project and the Integrated Circuit project; these were 
successful APT projects which had broad industry impacts. Why doesn't 
the ATP fit within the scope of the Administration's Initiative?

A5. The FY 2007 budget reflects the Administration's policy and funding 
priorities to address the Nation's most pressing needs. In contrast to 
ATP, the President's American Competitiveness Initiative invests in 
broad basic research that will benefit entire industries. The request 
continues the orderly ATP phase-out that was initiated with recent 
appropriations and will meet all existing grant obligations.

Q6a.  An article appeared in the February 11 issue of the St. 
Petersburg Times about NOAA's proposal to offer early retirement to 
1,000 employees of the weather service. The article indicates a number 
of these positions may be permanently cut and others will be filled 
through promotion of junior staff.

      We are very concerned about the implications of this type of buy-
out from the perspective of public safety and continuity of service at 
the weather service.

      What implications does this plan have for the future of 24/7 
coverage that is now provided through all of the weather forecasting 
offices (WFO)?

A6a. The Voluntary Early Retirement Authority is no longer under 
consideration as it is too late in the fiscal year to achieve 
significant savings.

Q6b.  Is the Administration planning to reduce the routine hours of 
service delivery from some or all of the WFOs?

A6b. There are currently no plans to reduce the routine hours of 
service delivery at any Weather Forecast Offices.

Q7.  Mr. Sampson, your testimony highlights the requested increases for 
the new satellite systems--GOES-R and NPOESS. Well, as you know we 
cannot really evaluate the request for the NPOESS program because there 
have been so many schedule delays and cost overruns that it is now 
under complete review within the Department of Defense's Nunn-McCurdy 
process.

     At this point, NPOESS--its cost and schedule--are both very 
uncertain and the risk of a data gap is very high. What commitment is 
the Administration prepared to make--in dollars and actions--to ensure 
this new system is delivered in time to ensure the continuity of 
weather forecasting data? Is the Administration prepared to amend the 
FY07 request and ask for additional funds to ensure the continuity of 
our weather forecasting enterprise? If additional funds are required 
should we expect cuts to other NOAA programs to offset the NPOESS 
increases?

A7. The Administration remains committed to polar satellite data 
continuity. These data are the foundation for our global weather 
models, which are critical to our mid- to long-range forecasts. The 
Administration is aggressively addressing the issues related to the 
NPOESS Program. Pursuant to Title 10 USC  2433, the Under Secretary of 
Defense for Acquisition, Technology and Logistics (USD (AT&L) ) has 
directed a full Nunn-McCurdy review that requires a written 
certification to be presented to Congress with supporting explanation 
that:

        1.  the acquisition program is essential to national security;

        2.  there are no alternatives to such acquisition program which 
        will provide equal or greater military capability at less cost;

        3.  the new estimates of the program acquisition unit cost or 
        procurement unit cost are reasonable; and

        4.  the management structure for the acquisition program is 
        adequate to manage and control program acquisition unit cost or 
        procurement unit cost.

    Under the leadership of USD (AT&L), the Department of Defense has 
convened four working groups to address these criteria and has invited 
NOAA and the National Aeronautics and Space Administration (NASA) to 
participate as full partners in all four working groups. A decision is 
expected no earlier than June 5, 2006. Until that decision has been 
made, it would be premature for the Administration to amend the FY 2007 
President's budget to request additional funds. There are currently no 
plans to cut other NOAA programs to offset any possible NPOESS 
increases. The Administration will conduct a full briefing for the 
House Science Committee soon after the final Nunn-McCurdy decision is 
reached in June 2006.

Q8a.  Your written testimony indicates that NOAA's FY 2007 request 
includes an increase for the tsunami warning system of $12 million 
bringing the total funding for the tsunami warning system to about $20 
million per year. We are all pleased to have the system expanded to 
cover both of our coasts and the budget request appears to contain 
sufficient funds to operate and maintain the system.

      However, the request for the Tsunami Hazard Mitigation Program 
receives no increase for FY 2007 and the TsunamiReady Program is 
reduced by $1 million--an 80 percent reduction from the FY 2006 enacted 
levels. The budget request for these two programs confirms concerns 
raised by Members of this committee when the expansion of the system 
was proposed--that we would have the technology in place, but would not 
have the funds to enable State and local governments to prepare 
themselves to heed the warnings the system delivers. The utility of the 
warning network is dependent upon the work done to prepare coastal 
communities through the Mitigation Program and TsunamiReady program.

      Why were these funds not increased to accommodate the increased 
number of State and local communities that will now be served by the 
network?

A8a. Prior to the Administration's commitment to accelerate its U.S. 
Tsunami Warning System (FY 2005-2006), the National Tsunami Hazard 
Mitigation Program (NTHMP) was NOAA's primarily vehicle to test many of 
the improvements made to the existing U.S. Tsunami Warning Program. 
NOAA's development, deployment and initial maintenance and operation of 
its Deep-ocean Assessment and Reporting of Tsunami stations were funded 
by the NTHMP. Similarly, NOAA tsunami inundation mapping and modeling 
efforts were also tested and funded by the NTHMP. Finally, the NTHMP 
funded many of the improvements made by the USGS in upgrading and 
expanding its network of real-time reporting seismometers along the 
West Coast and Alaska.
    During the past ten years of the NTHMP, over 60 percent of the 
NTHMP funding supported these hazard detection efforts. Under the 
Administration's plan to strengthen the U.S. Tsunami Warning Program 
(which began with the FY 2005 supplemental request), these key programs 
initially developed and funded by the NTHMP are fully funded by the new 
program. Consequently, in FY 2007, NTHMP funding will be used only to 
fund State and local tsunami awareness and tsunami mitigation efforts--
and not tsunami detection efforts. This shift in funding requirements 
allows NOAA to more than double NTHMP funding support for State and 
local tsunami awareness and tsunami mitigation efforts.

Q8b.  Will the west coast states involved in the Mitigation Program 
have their funds reduced or will there be no funds for the east coast 
states and Caribbean territories? How does NOAA intend to allocate the 
limited funds available to the states and territories?

A8b. As stated above, in FY 2007 NOAA expects to use 100 percent of 
available NTHMP funding to support State and local tsunami awareness 
and tsunami mitigation efforts. The NTHMP steering committee, comprised 
of representatives from NOAA, the Federal Emergency Management Agency, 
the U.S. Geological Survey and the States of Hawaii, Alaska, 
Washington, Oregon, and California endorsed the concept of forming 
regions, which would receive and distribute funds. All coastal states 
and U.S. Territories at-risk from a tsunami are invited to participate 
in this process. In FY 2006, NOAA plans to schedule a series of NTHMP 
meetings involving (1) the original five states (HI, AK, WA, OR, and 
CA), (2) southern U.S. coastal states and territories with tsunami 
vulnerabilities, and (3) east coast states with tsunami 
vulnerabilities. At these meetings, discussions will be held regarding 
the future of the NTHMP.

Q9.  Mr. Sampson, the President requested and the Congress agreed to 
provide a pay raise for federal employees. However, over the past few 
years the extra funds for the pay raise have not been fully budgeted 
for in either the appropriations bills or the President's request for 
NOAA. As you know, when this happens the funds to meet the pay raise 
are acquired by other means including drawing from the programs and 
imposing hiring freezes.

Q9a.  How much funding will be diverted from program activities in FY 
2006 to cover the cost of the pay raise?

A9a. The FY 2006 President's Budget included funding for a 2.3 percent 
pay raise. Congress enacted a 3.1 percent pay raise in legislation, but 
did not provide the funding to cover the full raise. NOAA absorbed $6.2 
million in FY 2006.

Q9b.  The FY 2007 request includes a request for funds to cover the pay 
raise. How much of the total cost of the pay raise is covered by the 
request?

A9b. In the FY 2007 President's Budget, the Administration proposes a 
2.2 percent standard pay raise for most federal employees. This raise 
is covered completely within the request, totaling $17.423 million.

Q9c.  Does the FY 2007 request for these funds recover the deficit from 
previous years or are these funds only to cover the pay raise for FY 
2007?

A9c. The FY 2007 President's Budget funds only the 2.2 percent pay 
raise associated with the FY 2007 request. There is no provision in the 
request to recover the pay raise differential from previous years; 
however, $4.662 million is included to annualize the January 2006 pay 
raise.

Q10.  The Administration is requesting $3.5 million in additional funds 
above the FY 2006 enacted level to ensure the wind profiler information 
remains available to weather forecasters. We realize the transmission 
frequency for the profilers must be converted to avoid a conflict with 
new search and rescue satellites. How many profilers will be converted 
to the new frequency with the proposed FY 2007 funds? What is the 
estimate for the total cost to complete the conversion of all 
profilers?

A10. The FY 2007 request includes a $3.5 million increase to begin the 
required development and re-engineering to convert the existing Wind 
Profilers in order to avoid frequency conflicts with the planned 
European Space Administration's (ESA) 30-satellite Galileo Global 
Positioning System network. No wind profilers will be converted to the 
new frequency with FY 2007 funds. FY 2007 funds are for re-engineering 
design and production of the prototype unit. Contingent upon the 
availability of funding, NOAA projects to complete the conversion of 
the 32 existing Wind Profilers that operate on conflicting frequencies 
(404 MHZ) by the end of FY 2010. The projected total cost to convert 
these 32 wind profilers is estimated at $13.2 million. There are five 
additional profilers in the network which already operate on a non-
interfering frequency.

Q11.  The Administration is requesting a restoration of funding for the 
Space Environment Center (SEC) of $3.2 million above the FY 2006 
enacted levels. Our understanding from the hearing we held in this 
committee during the last Congress is that even the $7 million range of 
funding is not going to permit much, if any, upgrade to space weather 
forecasting services. Is that the case? The SEC relies upon data 
collected from instruments on several satellite systems, including a 
NASA research satellite (ACE). What is the anticipated life-span of the 
current ACE satellite? What plans does NOAA have to replace the data 
stream from the ACE sensors once the current ACE satellite mission has 
ended?

A11. The FY 2007 requests restoration of $3.2 million to the Space 
Environment Center's (SEC) operating budget. This $3.2 million will 
allow the SEC to be funded at the $7.347 million level. At this $7.347 
million level, the SEC will have sufficient funding to continue its 
improved suite of space weather forecasts and products. The funds 
requested are necessary to operate and perform critical research at the 
SEC. SEC warnings and forecasts are relied upon by NASA, the DOD, power 
industries, private satellite operators, and the airlines and 
communications industries for real-time forecasts and warnings of high-
frequency radio blackouts caused by solar flares, solar radiation 
storms, and geomagnetic storms.
    The NASA ACE satellite is a research satellite that the SEC has 
used for observing solar activity. The SEC also uses capabilities from 
NOAA GEOS, NOAA POES, and DOD's DMSP for space weather forecasting. 
While the ACE satellite has outlived its scheduled research life-span, 
its unique orbit (one million miles) requires minimal fuel to maintain. 
NASA projects sufficient ACE fuel reserves to maintain its orbit for 
many years. In anticipation of potential future ACE data loss, the SEC 
is planning to hold a stakeholder meeting to assure understanding of 
the situation and ensure users know the impact and any loss of certain 
products and efforts.

Questions submitted by Representative Vernon J. Ehlers

Q1.  In October 2005, the Science Committee held a hearing on the final 
report of the NIST investigation into the collapse of World Trade 
Centers 1, 2, and 7. At this hearing, the Committee learned that, based 
on the recommendations contained in this report, NIST would be working 
with codes and standards groups to submit proposed changes to the 
International Building Code, the deadline for which is March 24th, 
2006. Where is NIST in this process? What specific changes will be 
proposed, and does NIST have supporters who will champion these 
proposals in the ICC?

A1. After issuing the final report, NIST assigned top priority to work 
vigorously with the building and fire safety communities to assure that 
there is a complete understanding of the recommendations and to provide 
needed technical assistance in getting them implemented. NIST has 
implemented a web-based system (http://wtc.nist.gov/recommendations/
recommendations.htm) so that the public can track the progress on 
implementing the recommendations. The web site lists each of the 
recommendations, the specific organizations (e.g., standards and code 
developers, professional groups, State and local authorities) 
responsible for its implementation, the status of the implementation by 
organization, and the plans or work in progress to implement the 
recommendations. The status of the implementation of the 
recommendations is current as of January 31, 2006. The status will be 
updated periodically to report progress.
    NIST has been working vigorously with the building code experts who 
were convened pursuant to a contract to the National Institute of 
Building Sciences (NIBS) to translate the NIST WTC recommendations into 
code change proposals. Key representatives of the International Code 
Council (ICC) (as well as other standards and code organizations) are 
actively engaged in this effort and submitted code change proposals for 
the International Building Code. The NIBS building code experts and the 
ICC representatives are expected to champion these proposals in the 
ICC.

Q2.  The President's fiscal year 2007 budget request includes $2 
million for a project to increase the resilience of structures and 
communities to hurricanes, fires, and earthquakes. Some of this funding 
would be used to conduct research on multi-hazard failure analysis and 
the role of fire in the progressive collapse of structures. That kind 
of research was recommended in NIST's Report on the Collapse of the 
World Trade Center Towers. This report recommended several other areas 
where further research was needed (such as testing protocols for wind 
loads on tall building or improving test methods for fireproofing 
materials) but those areas are not funded in the FY07 budget request. 
What was the rationale behind selecting multi-hazard and fire failures 
for funding?

A2. The decision-making rationale for selecting the program elements of 
the ``Structural Safety in Hurricanes, Fires, and Earthquakes'' was 
based on consideration of several factors. First, this request will 
permit NIST to carry out critical R&D to reduce the vulnerability of 
citizens and the built environment to these natural disasters. Each 
year the United States suffers an estimated $52 billion in property 
damage, disruption of commerce, and lost lives due to natural 
disasters.
    Another factor is that this proposed program is focused directly on 
providing some of the solutions demanded by four of the six Grand 
Challenges outlined by the President's National Science and Technology 
Council's Subcommittee on Disaster Reduction.
    Finally, the initiative complements existing efforts from previous 
appropriations. In addition to redirected internal base funds, the 
Congress has appropriated $3 million in FY 2003 and $2 million in FY 
2005 for research related to our World Trade Center research effort.

Q3.  And finally, how many Neutron facilities in the world would be 
considered world class, and where are they?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In terms of impact, the NCNR consistently ranks in the top three 
facilities worldwide. The preceding graph shows the results of an 
analysis from Christian Vettier from the Institute Laue-Langevin (ILL) 
which is widely regarded as the leading neutron facility in the world. 
It shows the number of papers published in high-impact journals over a 
five-year period.
    In terms of capability (intensity plus number of instruments) the 
leading world wide facilities include the following facilities (taken 
from Table 3 of the OSTP report on the Status and Needs of Major 
Neutron Scattering Facilities and Instruments in the United States). 
Top three indicated above line:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Questions submitted by Representative Eddie Bernice Johnson

Q1.  You justify eliminating the Advanced Technology Program because of 
the growth of venture capital funds and other financial services for 
high-risk technology. This committee has heard repeatedly during the 
past four years that venture capital funds for high-risk technology 
development are scarce. Could you provide us with the documentation 
that supports your claims?

A1. Data shows that there have been significant private equity funding 
available and that the level of funding continues to be strong. A 2002 
study by Lewis Branscomb et al. at Harvard University that analyzed 
data from 1998 estimates that between $5.4 billion (conservative 
estimate) and $35.5 billion (inclusive estimate) was invested in early 
stage technology development (Branscomb and Auerswald, Between 
Invention and Innovation). These estimates include $1.4 billion to $7.3 
billion in investments from the Federal Government.
    In 2005, venture capitalists invested $21.7 billion in 2,939 deals, 
which matched the level invested in 2004. Funding for start-up and 
early stage companies slipped slightly for the year to $4.1 billion in 
922 deals compared to $4.4 billion in 2004. Anecdotal evidence shows 
that 2006 will see an increase in early stage investing both in number 
of companies funded and amount of money invested, negating the need for 
governmental support. (Source: National Venture Capital Association)

Q2.  Since 2001, we have lost 2.8 million manufacturing jobs; last year 
alone we lost another 55,000 manufacturing jobs. These jobs are high-
skill, high-wage jobs that on average pay 23 percent more than the 
national average.

     I would like for you to explain to our constituents why the 
Administration proposes to gut the Manufacturing Extension Program that 
has a proven track record in creating and retaining good jobs.

A2. The budget constraints have forced the Administration to make some 
difficult budget decisions--in this case reducing the Hollings MEP. MEP 
is just one method by which NIST supports small manufacturers. More 
than half of the NIST lab activities are either directly or indirectly 
geared to enhancing manufacturing.
    The President has demonstrated his strong commitment to the NIST 
laboratory programs by including them in the American Competitiveness 
Initiative (ACI) for FY 2007. ACI increases funding for the NIST 
laboratory and construction programs above the base level by 24 percent 
to $535 million.
                   Answers to Post-Hearing Questions
Responses by Arden L. Bement, Jr., Director, National Science 
        Foundation

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  The Fiscal Year 2007 (FY07) budget request includes an eight 
percent increase in funding for nanotechnology R&D at the National 
Science Foundation (NSF). What level of funding will NSF be devoting to 
studying potential environmental and safety implications associated 
with nanotechnology? How does this compare to FY06, in terms of funding 
and subject matter? How is NSF's nanotechnology environmental and 
safety research coordinated with R&D supported by other agencies on 
potential new nanotechnology products? How is it coordinated with the 
needs of regulatory agencies?

A1. The FY 2007 Budget Request includes $59 million in funding for the 
societal implications of nanotechnology research and development--this 
is a 7.6 percent ($7.55 million) increase over FY 2006.
    A portion of this investment--$25.65 million--will be directed 
toward studying the potential environmental and safety implications 
associated with nanotechnology. This is a 16 percent ($3.55 million) 
increase from FY 2006. This research will be directed at the impact of 
nanoparticles and nanostructured materials in the environment, 
including air, water, soil, biosystems, and the work environment. It 
also will study the non-clinical biological implications of 
nanoparticles. In 2007, however, research will expand beyond passive 
nanostructures to include the implications of active nanostructures and 
nanosystems.
    NSF collaborates with other agencies on environmental and safety 
research through the National Nanotechnology Initiative (NNI). One 
example of this collaboration is the joint program solicitation on 
``Nanotechnology Research Grants Investigating Environmental and Human 
Health Effects of Manufactured Nanomaterials.'' This collaboration is 
with the Environmental Protection Agency, the National Institute for 
Occupational Safety and Health, and NIH's National Institute of 
Environmental Health Sciences (NIEHS). The Nanomaterials Environmental 
and Health Implications (NEHI) working group facilitates the 
coordination with other research and regulatory agencies.

Q2.  How will the new Research and Evaluation on Education in Science 
and Engineering (REESE) program on what works, why, and for whom in 
math and science education coordinate with the Science of Learning 
Centers already underway at NSF? How have results from REESE's 
predecessor program--Research, Evaluation and Communication--affected 
NSF's K-12 programs and how are results from REESE expected to affect 
them in the future?

A2. The new Research and Evaluation on Education in Science and 
Engineering (REESE) program coordinates with the Science of Learning 
Centers (SLC) on several levels. At the NSF management level, one of 
the REESE program officers is the EHR representative to the SLC 
coordinating committee. At the scientific level, three of the four 
Principal Investigators for SLC centers are grantees of the Research on 
Learning and Education (ROLE) program, a predecessor to REESE. In 
addition, many of the co-Principal Investigators are also grantees of 
the ROLE program. At the discipline level, the SLCs are participating 
in the major meetings for education researchers (including the American 
Education Research Association meeting and the International Conference 
on the Learning Sciences meeting).
    Results from REESE's predecessor programs (primarily ROLE) in the 
Research, Evaluation and Communication (REC) division have influenced 
NSF's K-12 programs in a variety of ways, thereby ensuring that 
practice is informed by research. Here are two examples:

        1.  An Interagency Education Research Initiative (IERI) project 
        developed and distributed modeling and simulation software for 
        biology, chemistry, and physics to over 250 high schools in a 
        project called Modeling across the Curriculum. The use of this 
        software has been shown to improve the performance of students 
        taking science courses. Early research for the IERI project was 
        supported by ROLE.

        2.  ROLE supported research that led to the development of 
        cognitive tutors that provide individualized guidance to 
        learners. Now these tutor systems help more than 325,000 middle 
        school and high school students in 750 school districts learn 
        complex problem-solving skills in areas such as algebra, 
        geometry, and computer science. In carefully controlled 
        studies, classes using the algebra tutor system have shown 
        dramatic achievement gains over control classes--as much as 25 
        percent better on standardized tests of basic skills, and 100 
        percent better on assessments of problem solving. The effective 
        use of the tutors is being studied in an IERI project and in 
        the Pittsburgh SLC.

    Looking to the future, REESE will continue to support basic and 
applied research on teaching and learning that will subsequently 
influence the development of innovative instructional materials, 
curricula, pedagogical practices, and teacher training in math and 
science education. REESE program officers have served, and will 
continue to serve, on committees that manage several NSF programs that 
support K-12 science and math education in addition to the SLCs. These 
include, for example, Human and Social Dynamics, Information Technology 
Research, and Advanced Learning Technologies.

Questions submitted by Representative Bart Gordon

Q1.  As was the case last year, the budget request includes $57 million 
to reimburse the Coast Guard for icebreaker services in support of 
Polar research. In addition, for FY 2006, NSF contracted for additional 
icebreaker services at a cost of $9 million.

     Has a decision been made on the way NSF will obtain icebreaker 
support beyond FY 2007? Should we expect to see NSF retain the 
responsibility for maintaining and operating the aging Coast Guard 
icebreakers, or will NSF have the freedom to pursue other options for 
polar research support?

A1. NSF plans to continue to task the USCG to operate the HEALY in the 
Arctic, either singly or in concert with other nations' icebreakers 
such as the joint cruise with the ODEN that was funded in FY 2005.
    For Antarctic resupply, NSF plans to continue to secure icebreaking 
services from a reliable provider at the most economical cost. USCG has 
stated that the NSF-funded maintenance being performed on the POLAR SEA 
in FY 2006 will enable her to conduct the Antarctic break-in for at 
least FY 2007 and FY 2008. Whether a back-up vessel will be needed in 
those years will be the subject of discussions with the USCG in the 
next few months. The decision will be based on many factors, such as 
progress on the POLAR SEA's maintenance work, casualties (if any) 
sustained to the POLAR SEA during the FY 2007 break-in and escort 
duties, and predictions of ice thickness and extent.
    In securing polar icebreaking services to support NSF-funded 
research, NSF is guided by the FY 2006 President's Budget Request, 
which noted that funding for the polar icebreakers was transferred to 
NSF in order to ``permit NSF to define the options for reimbursement or 
replacement of two of the ships. . .'', and by Congressional action on 
the budget request noting that NSF is expected to ``immediately begin a 
concurrent pursuit of alternative, more economical icebreaking 
solutions. . ..''
    NSF is in the process of reviewing comments from a Request For 
Information seeking information on the availability and cost of 
icebreaking services from any capable providers. The response to this 
RFI will assist NSF in formulating a strategy for meeting its Antarctic 
icebreaking needs over both the intermediate and the long-term. In 
addition, NSF is seeking funding to initiate projects that will enable 
it to deal with a possible one-year failure of the ship-borne resupply 
mission. For example, increasing fuel storage at McMurdo Station; 
implementing the surface traverse to South Pole Station; and 
investigating the feasibility of supplying South Pole Station largely 
by air from off-continent locations.
    NSF does not operate or maintain the polar icebreakers. Rather, it 
is responsible for tasking the USCG to operate them and for providing 
the associated operations and maintenance funding in accordance with an 
MOA between the two agencies that outlines the process for budget 
submission, review and approval, and reimbursement. However, without 
significant refurbishment, the USCG polar class icebreakers are very 
close to the end of their useful lives, and NSF will not be able to 
rely on them beyond the next two to four years. Our longer-term 
solution to the Antarctic resupply problem will be informed by the 
National Research Council's study on Polar Icebreaker Roles and U.S. 
Future Needs. The Committee addressing the Nation's need for polar 
icebreakers has been very active and its meeting agendas demonstrate a 
commitment to ensuring that it appropriately and thoroughly considers 
all aspects of the question. In parallel with the NRC Committee's work, 
NSF will commission design and operating concept studies to determine 
the most reliable, efficient, and cost-effective resupply system.

Q2.  The education directorate has been headed by an acting assistant 
director for the past year, and three of the five division director 
positions are vacant. What steps are being taken to fill these 
positions and when may we expect to see permanent staff in place?

A2. Efforts to fill Executive positions within the Education and Human 
Resource Directorate (EHR) are underway. Since October 2005 a total of 
five Division Director positions have been advertised, and each is now 
at varying stages of being filled.
    Each vacancy was announced with Senior Executive Service (SES) 
career and limited term appointment options, as well as 
Intergovernmental Personnel Act assignment options. Each announcement 
was open to all qualified applicants and posted on the NSF web site and 
OPM's USAJobs. In addition, the positions were advertised both in print 
and electronically in publications of The Chronicle for Higher 
Education and Science.
    Details regarding the status of each vacancy follow:

         Director, Division of Graduate Education: The vacancy 
        announcement was posted from October 12, 2005 through January 
        16, 2006. As a result of the recruitment and merit staffing 
        process a list of four highly recommended and five recommended 
        candidates were referred to EHR for further consideration. EHR 
        is in the process of interviewing the four highly recommended 
        candidates.

         Director, Division of Human Resource Development: The vacancy 
        announcement was posted from December 23, 2005 through February 
        7, 2006. As a result of the recruitment and merit staffing 
        process a list of five candidates were referred to EHR for 
        further consideration. EHR is in the process of interviewing 
        these candidates.

         Director, Division of Elementary, Secondary and Informal 
        Education and Director, Division of Research, Evaluation and 
        Communication: The announcements for these two positions were 
        posted from January 6, 2006 through February 17, 2006. The 
        merit staffing process is underway and the most qualified 
        applicants will be referred to EHR for consideration.

         Director, Division of Undergraduate Education: The vacancy 
        announcement that opened on February 10, 2006 closes on March 
        24, 2006. Once closed, the merit staffing process will 
        commence, and the most highly qualified will be referred to EHR 
        for consideration.

    In addition to these five positions, the Office of the Director is 
conducting a nation-wide search to fill the Assistant Director position 
for the EHR Directorate.

Q3.  The budget request includes $50 million, the first payment of a 
$200 million investment, to develop a leadership-class high-performance 
computing system for support of scientific and engineering research. 
The Department of Energy is also acquiring very high-performance 
computing systems. What is the nature and extent of coordination and 
collaboration between the two agencies in providing high-performance 
computing capability so that the needs of U.S. scientists and engineers 
in different fields are met?

A3. While DOE has specific energy-related mission requirements that 
they must address, NSF provides high performance computing resources 
specifically targeted to fundamental research in the broad, open 
science and engineering communities. Nonetheless, there are many ways 
in which the two agencies collaborate and coordinate activities in high 
performance computing.
    For quite some time now, NSF has been coordinating and 
collaborating its high performance computing systems activities with 
the Department of Energy (Office of Science and National Nuclear 
Security Administration), the Department of Defense's DARPA High 
Productivity Computing Systems (HPCS) initiative as a mission partner 
in that activity during its Phases I and II, and with NASA.
    There are instances where Department of Energy (DOE) and NSF 
jointly fund activities that are of common interest. An example of such 
a collaboration is the High-End Computing University Research Activity 
(HEC-URA) which began in 2004 and is co-funded by NSF, DOE and DARPA. 
HEC-URA is an outgrowth of the interagency High-End Computing 
Revitalization Task Force (2003), in which NSF, DOD and DOE played 
leadership roles. There are also several ongoing activities coordinated 
through the High-End Computing Interagency Working Group, a subgroup of 
the Administration's Networking and Information Technology Research & 
Development (NITRD) National Coordinating Office (NCO). An example of 
such an activity is the identification of a common set of benchmarks 
that are being used to guide the acquisition of high performance 
computing systems; NSF and DOE play significant roles in this activity 
too.
    Finally, NSF and DOE share high performance computing expertise 
through participation in review panels and committees, with DOE experts 
serving on NSF review panels and committees and NSF experts serving on 
DOE review panels and committees. We expect to continue to have 
frequent discussions with our colleagues in DOE and other federal 
agencies, as we move forward with the proposed FY 2007 acquisition.
    The interactions described herein allow both NSF and DOE to 
leverage expertise and promising practices and to minimize duplication 
of effort. Most importantly however, it allows us, together, to better 
serve the American public, stimulating innovation and economic growth 
through scientific breakthroughs created with a portfolio of 
leadership-class systems.

Q4.  A recent report from the National Academy of Sciences called for 
federal R&D agencies to institute programs to allow institutions of 
higher education to acquire research instrumentation that costs in the 
$1 to $10 million range. The report specifically recommends that NSF 
expand its Major Research Instrumentation program to allow awards over 
the current $2 million limit.

Q4a.  What is your view of this recommendation, and what priority would 
you give to such an instrumentation program?

A4a. In the 2003 report of the National Science Board entitled Science 
and Engineering Infrastructure for the 21st Century: the Role of the 
National Science Foundation (NSB02-190), the Board recommended that NSF 
develop a funding mechanism to support mid-sized instrumentation 
projects. This report was published shortly after enactment of the NSF 
reauthorization law that included language doubling NSF's budget over 
five years. Since that time, budgetary restrictions have limited the 
agency's ability to initiate such a program.
    As currently designed, NSF's Major Research Instrumentation Program 
(MRI) supports instrumentation acquisition and development for research 
and research training purposes for awards between $100,000 and $2 
million. Increasing the scale of the MRI program to include mid-size 
instrumentation (between $2 million and $20 million) would require a 
higher degree of management oversight than is required for typical MRI 
awards. Many awards, even at the low end of this scale, require long-
term commitments on the part of the host institution, the federal 
supporting agencies, and often the scientific community. The NSF 
currently supports a small number of such research instrumentation 
efforts through other NSF programs. Rather than being supported by the 
MRI Program, proposals can be submitted to and awards can be made by 
divisions that support instrumentation. Before an award is made, there 
are in-depth discussions with the cognizant research communities, the 
research institutions that are involved, and the federal agencies that 
are partners. It is now clear that available opportunities and 
mechanisms are not always transparent to the scientific community. 
Therefore, NSF senior management will make changes this year to ensure 
more transparency of the processes it uses to support mid-size 
instruments. Moreover, raising the cap on the MRI program is currently 
under discussion. There will be some closure on this issue by July 
2006.
    The 2005 report of the National Academy of Sciences, Academic 
Research Instrumentation and Facilities was presented to the Director 
of NSF on January 5, 2006. Since that presentation, NSF senior 
management has been studying the report along with NSF's current set of 
(17) instrumentation programs, with a focus on how we might best 
implement the numerous recommendations.

Q4b.  What has been the effect of NSF's abandonment of cost sharing on 
the number of awards provided under its existing Major Research 
Instrumentation program?

A4b. FY 2005 was the first year that the no cost sharing policy set by 
the National Science Board was implemented. Based on one year's data, 
it does not appear that the number of awards provided under the 
existing MRI program was significantly affected by the change in cost 
sharing. To guarantee the productive use of the equipment, the 2005 
program solicitation required institutions to submit management plans 
describing how they planned to address those costs that had previously 
been considered as `cost sharing' throughout the life of the project. 
In addition, the management plan became an explicit review criterion. 
The drop in the number of proposals from the FY 2004 level to the FY 
2005 level can be attributed to proposals that were withdrawn (n=13) 
and returned without review (n=58) because they did not respond to the 
changes in the MRI program. While the number of awards and the success 
rate decreased between FY 2004 and FY 2005, the decline can be 
attributed to the decrease of approximately $20 million in program 
funds between those years. Approximately 36 awards could have been made 
had there not been a decrease in the MRI program budget.
    The following table has been provided for your reference.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

Q4c.  Why doesn't cost sharing make sense for this kind of program as a 
way to leverage a greater national investment in cutting-edge research 
instrumentation?

A4c. Cost sharing may make sense for this kind of program as a way to 
leverage greater national investment in cutting-edge research 
instrumentation. As noted above, the emphasis has shifted from capital, 
one time, cost sharing requirements to cost sharing by way of long-term 
institutional commitment to operations and maintenance. Requiring 
awardees to document these costs leverages the investment and ensures 
that the equipment is functioning, put to good use, and not idle due to 
lack of resources to support ongoing cost for operations and 
maintenance. This approach is consistent with the National Science 
Board's cost sharing policy while still recognizing the partnership 
between the federal sponsors of research and the grantee.

Q5.  Last May, the NSF's Advisory Committee for Business and Operations 
reviewed NSF's management of large facilities construction projects. It 
criticized what it characterized as ``under-investment'' in 
engineering, cost-estimating and project management support during the 
development stage when baseline project definitions are being 
formulated. Please comment on this finding. Do you believe the NSF 
scientific directorates are budgeting adequately for the costs 
associated with the development stage of large facilities projects 
which they must bear prior to a project's approval for construction 
(after which costs are covered by funds from the Major Research 
Equipment and Facilities Construction account)?

A5. Projects proposed for future construction funding must be well 
defined, well budgeted, and there must be appropriate emphasis and 
resources provided to those involved in planning so that there is a 
capable project management infrastructure in place and prepared to 
execute construction. NSF has taken steps to make it clear to our 
research communities, and to NSF staff, that NSF has these expectations 
and that they will be held accountable for satisfying them. In 
November, NSF released a new document, endorsed by the National Science 
Board, entitled ``Guidelines for Planning and Managing the Major 
Research Equipment and Facilities Construction Account'' which lays out 
NSF's expectations for a structured, incremental process of planning, 
development, and assessment by NSF of proposed projects; proceeding 
through a Conceptual Design, a Preliminary Design, and a Final Design 
Review prior to commencement of construction. NSF recognizes this will 
cost money (increasing the investment in engineering, cost-estimating, 
and project management leading to baseline definition) but the greater 
investment in pre-construction planning will result in net savings in 
terms of improved definition of a project's scope, better assessment of 
a project's risks, the formulation of a plan that minimizes risk 
exposure, a more robust budget estimate, and a better forecast of a 
facility's likely operating costs, so that NSF knows beforehand that 
these costs are supportable.
    Under the new Guidelines, the NSF's MREFC Panel, with the 
independent assessment of the Deputy Director for Large Facility 
Projects, will make a recommendation, which the NSF Director must 
approve, in order to advance any candidate new project to a more 
advanced stage of pre-construction planning (for example, from 
Conceptual Design to Preliminary Design related activities). NSF 
recognizes that adequate investment in the pre-construction planning 
process is essential to project advancement and eventual construction. 
Each Directorate/Office has the responsibility to make that judgment 
regarding how much of their budget to devote to project planning versus 
investment in other base program activities, in order to maintain and 
promote the vitality of the research in that area.

Q6.  The past few independent auditor's reports for NSF have pointed to 
shortcomings in the agency's post award management. NSF has developed 
procedures for identifying high-risk awards, but the IG finds that NSF 
does not ensure that all high-risk institutions are adequately 
monitored. The IG's last report indicates that, out of 167 high-risk 
institutions, only 25 were visited during the past year. How does NSF 
plan to monitor high-risk institutions that are not visited? Does NSF 
have the sufficient staff and travel funds to carry out substantially 
more site visits?

A6. The strategic plan to monitor all institutions identified by the 
model as managing high risk awards is detailed in the Office of Budget, 
Finance and Award Management (BFA) Post-award Monitoring Standing 
Operating Guidance (SOG) 2005-2. It is a comprehensive, integrated plan 
for post-award monitoring of all institutions including those that 
manage high risk awards. Post award monitoring is not limited to site 
visits and includes evaluation of final adjustments, FCTR transaction 
testing, and monitoring by grants and agreements officers in the 
Division of Grants and Agreements (DGA) and the Division of Acquisition 
and Cooperative Support (DACS) as well as program officer monitoring, 
and evaluations performed by special request. As part of its ongoing 
effort to strengthen its award monitoring program, NSF management 
anticipates making a contract award in Spring 2006 that will provide 
additional resources to conduct desk reviews of high risk awards that 
are not selected for award monitoring site visits during development of 
our annual monitoring plan. Once the contract is awarded, the task 
order for this particular deliverable will address the need to develop 
the specific procedures that will comprise the desk reviews, including 
any needed follow up to results.
    NSF management will continue to update the above noted SOG and 
linked policy or procedural documents as appropriate based on changes 
in its operations including items such as the above noted desk reviews. 
In addition, NSF management will ensure that the guidance clearly 
states how site visit selections are determined including the basis for 
excluding institutions managing high-risk awards from a site visit 
review.
    It is important to note that NSF management identifies awards as 
high risk; accordingly, NSF does not identify an institution itself as 
being high risk. This nuance is important in that an institution is 
identified as managing a high risk award rather than being considered a 
high risk institution. In addition, it is important to understand that 
of the 167 institutions identified in the IG's last audit report as 
managing high risk awards, that not only were 25 visited in FY 2005 but 
also 48 had been visited or audited during the previous four years and 
49 had awards that were due to expire. The remainder of institutions 
that were not visited results in only 45 institutions.
    NSF management believes that the augmentation of our current 
resources with contract resources will strengthen our Post Award 
Monitoring and Business Assistance Program. While the augmentation of 
existing staff and travel funds would certainly bring additional 
resources to our program, NSF strongly believes that the selection of 
institutions for site visits is based on a sound methodology that is 
one part of its larger NSF ``Gold Standard'' Post Award Monitoring and 
Business Assistance Program.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Improvement of math and science education is a major longstanding 
responsibility of NSF. The President's proposed competitiveness 
initiative provides a funding increase for NSF of nearly eight percent. 
Unfortunately, this same budget proposal actually cuts NSF's K-12 
education programs by seven percent.

     Dr. Bement, within the healthy budget increase proposed for NSF 
for FY 2007, why does K-12 education fare so poorly?

     If one looks at educational materials development, teacher 
development, and the Math and Science Partnership program, which has 
been heavily focused on improving teacher performance, the FY 2007 
budget proposal is 38 percent below the FY 2004 level. You have even 
reorganized the education directorate in a way that drops ``elementary 
and secondary education'' from the title of the division that contains 
the remaining K-12 programs. This certainly sends the signal that NSF 
is de-emphasizing K-12 education activities. Is this the case, and if 
not, what do you consider NSF's role to be, and what is your long-term 
plan for supporting K-12 science and math education?

A1. The ongoing consolidation of the Math and Science Partnership at 
the Department of Education accounts for a significant portion of the 
drop in NSF's K-12 budget (down $17.18 million from the FY 2006 Current 
Plan). Also, the K-8 pilot program was funded in FY 2006 and not in FY 
2007 ($6.94 million). The total planned reduction of these two programs 
combined is $24.12 million. With this planned reduction taken into 
account, and when the entire NSF budget for K-12 programs is counted, 
K-12 investments throughout the Foundation actually increase by over 10 
percent. This is because the Foundation's education portfolio includes 
a number of investments throughout the Research and Related Activities 
account. This includes programs, such as the Graduate Teaching 
Fellowships in K-12 Education (GK-12) program (managed by EHR and 
funded by both EHR and R&RA), which contributes significantly to K-12 
education but whose funding is counted as graduate research dollars.''
    The NSF portfolio for FY 2007 emphasizes four priorities that will 
strengthen the science and engineering enterprise through investments 
in frontier research, the workforce, education, and cutting-edge 
research tools. Bolstering K-12 Education is one of the four 
priorities, signaling its importance to the Foundation. NSF has a long 
history of building strong research foundations and fostering 
innovation in K-12 science and mathematics education. Skills in 
science, technology, engineering, and mathematics are increasingly 
necessary for success in the workforce and for full participation in 
the life of the Nation. The Foundation's education portfolio, including 
its K-12 portfolio, resides in both the Education and Human Resources 
account and the Research and Related Activities account. A new program 
to improve geoscience education at the middle and high school levels, 
for example, is funded in the Research and Related Activities account.
                   Answers to Post-Hearing Questions
Responses by Charles E. McQueary, Under Secretary, Science and 
        Technology, Department of Homeland Security

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  The Fiscal Year 2007 (FY07) Department of Homeland Security (DHS) 
budget request for the DHS Science and Technology (S&T) Directorate is 
organized by ``portfolios'' (biological countermeasures, cyber 
security, critical infrastructure protection, etc.).

Q1a.  How is the money in each portfolio area being spent, by 
performer? Please provide for each area a breakdown of the amount of 
funding that was directed to the private sector, Department of Energy 
laboratories, federal laboratories, other government agencies, and 
universities in FY05. Please provide an estimate of the same 
information for FY06.

A1a. The following are obligations against the FY 2005 S&T Directorate 
appropriation by Program, Project, Activity (PPA); the obligations 
include those made through March 30, 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q1b.  How much funding did the Homeland Security Advanced Research 
Projects Agency distribute in FY05? How much do you estimate it will 
distribute in FY06 and FY07? Please specify this distribution by 
portfolio and performers as above.

A1b. The following are obligations against the FY 2005 S&T Directorate 
appropriation by Program, Project, Activity (PPA) made through HSARPA; 
the obligations include those made through March 30, 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The S&T Directorate is working to determine the appropriate FY 2006 
funding levels to be directed through HSARPA to private sector, 
national laboratories, federal laboratories, other government agencies, 
and universities while considering how best to meet the Directorate's 
and Department's mission. Based on the FY 2005 figures, the S&T 
Directorate anticipates a similar funding breakdown by PPA, through 
HSARPA, for FY 2006 and likewise for FY 2007.

Q2.  In his testimony, Dr. McQueary mentioned a ``Research, 
Development, Testing and Evaluation (RDT&E) process'' that has been 
developed to assist with the determination of priorities. Please 
explain how you assess the threats and vulnerabilities across a broad 
range of possible terrorist actions and develop a strategy to reduce 
the risks through investments in science and technology? Do you take 
into account the DHS mission to respond to natural disasters in your 
prioritization of projects?

A2. The S&T Directorate's RDT&E process consists of four main sub-
processes: 1) needs and risk assessment, 2) strategic planning, 3) 
program definition, and 4) program execution. The first two sub-
processes ensure that the S&T Directorate considers user needs, 
available intelligence, big-picture risks, national goals and inputs 
from other external agencies and advisory bodies to establish its 
annual RDT&E program. The second two sub-processes provide a framework 
for program execution using the best available systems engineering and 
program management techniques. Threat assessments and material threat 
determinations developed by DHS are critical factors in the 
determination of requirements and the identification of critical 
capability gaps.
    Risks and gaps are identified using multiple sources and techniques 
including the Homeland Security Council's 15 Planning scenarios which 
include two catastrophic natural disasters. In developing solutions, 
the process also engages end-users throughout the requirements 
definition, development, testing, and transition phases. One of the 
primary areas where end-users are directly involved in requirements 
generation is the Emergency Responder community. Firefighters, law 
enforcement officers, and other federal, State, and local agencies have 
been key partners and participants in various workshops to identify and 
define the technology needs of those entities that have the 
responsibility to respond to all-hazards events including natural 
disasters.

Q3.  DHS received $23 million in FY06 to conduct a planning and 
feasibility study for a National Bio- and Agro-defense Facility, which 
would serve as a replacement for the Plum Island Animal Disease Center. 
No additional request was submitted for the new facility for FY07.

Q3a.  Please describe the timeline and process for how DHS will decide 
whether to build a new facility and how it will choose a site. What are 
DHS's long-term plans for funding this large capital project?

A3a. The S&T Directorate initiated an Expression of Interest (EOI) to 
explore potential sites for the National Bio- and Agro-defense Facility 
(NBAF). The EOI was published Jan. 17, 2006 in the Federal Business 
Opportunities and Jan. 19, 2006 in the Federal Register. Site criteria 
and requirements were developed by an interagency technical working 
group [including DHS, the U.S. Department of Agriculture (USDA), and 
the Department of Health and Human Services (HHS)] to evaluate sites 
that would best support research in high-consequence animal and 
zoonotic diseases in support of Homeland Security Presidential 
Directives, HSPD-9 and HSPD-10.
    The results of the EOI will be evaluated in an environmental impact 
statement (EIS) in the fall of 2006, at which time the public will have 
the opportunity to comment on the scope of the analysis. In addition, 
the S&T Directorate issued a solicitation in April 2006 to procure 
architect-engineer services to conduct conceptual design studies and 
initial cost estimates for the NBAF. The conceptual design will be 
completed in 2007. Under the present schedule construction for NBAF 
will begin in 2009 and be operational by the end of 2012.

Q3b.  In Dr. McQueary's testimony, he mentioned that we have an 
insufficient supply of laboratory space for foreign animal diseases. 
What evaluations have been conducted to assess the Nation's future 
needs for capacity in this area? Have these evaluations been 
coordinated with the National Institutes of Health, which is currently 
providing funding to build a number of bio-containment laboratories 
across the country?

A3b. The departments of Homeland Security (DHS), Health and Human 
Services (HHS) and Agriculture (USDA) have together determined that 
their interrelated bio-defense missions with respect to agriculture 
security all require new research and development infrastructure that 
can accommodate extensive testing with a variety of animal models.
    This conclusion was reinforced in two independent reports: a Report 
of the joint U.S. Animal Health Association/American Association of 
Veterinary Laboratory Diagnosticians Committee on Diagnostic Laboratory 
and Veterinary Workforce Development\1\ and the GAO Report to 
Congressional Committees, GAO-06-132 Plum Island Animal Disease 
Center,\2\ December 2005. These reports recognize the importance of 
having adequate facilities to counter today's agroterrorism threats. 
They state respectively that: over 75 percent of all emerging 
infectious diseases and over 80 percent of biothreat agents of concern 
are zoonotic; and that over 40 contagious foreign animal diseases 
threaten the United States' agriculture economy, the largest and most 
integrated in the world.
---------------------------------------------------------------------------
    \1\ Report of the USAHA/AAVLD Committee on Diagnostic Laboratory 
and Veterinary Workforce Development, http://www.usaha.org/committees/
reports/2005/report-lvwi-2005.pdf
    \2\ GAO Report to Congressional Committees, GAO-06-132 Plum Island 
Animal Disease Center, December 2005.
---------------------------------------------------------------------------
    Currently, the Plum Island Animal Disease Center (PIADC) provides 
the only U.S. research and confirmatory diagnostic capability for high-
consequence foreign animal diseases. It is also the only laboratory in 
the United States equipped with research facilities that permit study 
of these diseases in livestock, such as cattle, sheep and swine. The 
proposed National Bio- and Agro-defense Facility (NBAF) would replace 
the existing PIADC facility and enhance capabilities to meet the 
mandated national bio- and agro-defense mission requirements of DHS, 
HHS and USDA.
    NBAF is envisioned to provide the Nation with the first integrated 
agricultural, zoonotic disease and public health research, development, 
testing and evaluation facility with the capability to address threats 
from human pathogens, high-consequence zoonotic disease agents, and 
foreign animal disease.
    Site criteria and requirements for NBAF were developed by an 
interagency technical working group, including DHS, USDA, and HHS to 
evaluate sites that would best support research in high-consequence 
animal and zoonotic diseases in support of Homeland Security 
Presidential Directives, HSPD-9 and HSPD-10.

Q4.  Funding for research on decontamination technologies and protocols 
appears to be receiving less attention than in prior budget requests. 
The FY06 budget request for DHS called for a reduction in funding for 
building decontamination research and development (R&D) programs, and 
the FY07 DHS budget request contained little reference to 
decontamination programs. What will be DHS's role in addressing the 
remaining challenges to decontamination of chemical agents in FY07? How 
will this be coordinated with the Environmental Protection Agency?

A4. In the chemical countermeasures program, the emphasis on 
decontamination has not decreased. Rather, it increases from FY 2005 
through FY 2007. In FY 2005, our budget for decontamination was 
$800,000. Our FY 2006 decontamination budget is $8.8 million and our FY 
2007 request is $9 million.
    The decontamination program consists of two major components. The 
first is a Facility Restoration Demonstration Program, which concludes 
in FY 2008. It will provide guidance on the use of decontamination 
technologies for restoration after a chemical attack. The guidance will 
be developed in concert with transit facility Los Angeles International 
Airport (LAX) management and transition to other similar operational 
situations. EPA participates on the advisory board for this 
demonstration program.
    The second program is a research and development (R&D) program to 
develop approaches to fill gaps in our ability to decontaminate 
persistent chemicals. This R&D program increases substantially from FY 
2006 to FY 2007. In FY 2006, our budget for decontamination R&D is $2.9 
million, and the budget request for FY 2007 is $4 million.
    The program addresses emerging threat materials (such as non-
traditional agents) and specific operational gaps. EPA is a key partner 
in this effort. The Science and Technology (S&T) Directorate and the 
EPA's Homeland Security Research Center hold annual joint workshops to 
coordinate programs such as this.
    Additionally the S&T Directorate works closely with the EPA on 
related projects that provide the capability to conduct analysis of 
environmental samples in the wake of a chemical attack, which is an 
important adjunct to decontamination in the restoration process. 
Specifically, the Department and the EPA are working together to ensure 
that the DHS-developed mobile laboratory will be consistent with EPA 
practice when it transitions to EPA.
    DHS is also establishing, in FY 2006 and FY 2007, prototype fixed 
laboratories that can analyze environmental samples that contain 
chemical warfare agents. These laboratories will be established in the 
Washington, D.C. and New York City regions for eventual transition to 
EPA stewardship. Multiple agencies, including EPA and the Department of 
Defense (DOD), have joined with the S&T Directorate to develop this 
capability.

Q5.  When DHS develops a useful new technology, like BioWatch, that 
gets deployed into an essential national system, the DHS S&T 
Directorate then has to allocate an increasing proportion of its R&D 
budget to maintaining and operating this new system. Can the S&T 
Directorate hand these new technologies off to somewhere else within 
DHS? How will this be managed in the future as new technologies are 
purchased, installed, and maintained by cities and other local 
communities?

A5. To the extent that the S&T Directorate is responsible for 
maintaining and operating the systems that arise out of the technology 
it develops, the directorate has to allocate an increasing portion of 
its research and development (R&D) budget for these activities. 
Ideally, this would be addressed by transitioning the systems' 
operation to a DHS operational directorate or to end users. The S&T 
Directorate has looked closely at this transition issue for the 
BioWatch system, since its maintenance and operation requires about 25 
percent of the Biological Countermeasures Portfolio budget. A `BioWatch 
Transition Study' concluded that in its current form, BioWatch requires 
considerable technical support for its operations and in evolving its 
concept-of-operations. Hence, it is not yet ready for transition. We 
believe that once we develop and field the fully autonomous Gen-3 
BioWatch system, that it would be appropriate to transition BioWatch to 
a DHS operational directorate such as the Preparedness Directorate, and 
to fund that activity either directly through that directorate or the 
Office of Grants and Training program.
    Similar considerations will apply to other systems developed by the 
S&T Directorate. In general, systems that are reasonably self-
contained, commercial systems, can be transferred to operational 
directorates. Systems that are still evolving and require considerable 
scientific reach-back for their routine operations, are best retained 
within the S&T Directorate.

Q6.  The Homeland Security Act of 2002 requires DHS to establish a 
Homeland Security Institute (HSI) to provide analytical services, 
including risk assessment and vulnerability modeling. What tasks has it 
accomplished to date? Please provide examples. What projects are 
planned for FY06 and FY07? Have other units of DHS utilized HSI's 
capabilities? How are those projects funded?

A6. To date, the Homeland Security Institute (HSI) has developed and 
continues to refine core capabilities in the areas outlined in the 
Homeland Security Act of 2002; including systems analysis, risk-
consequence-vulnerability analyses, operational and capability 
assessments, multi-faceted threat evaluations, economic and policy 
analysis, alternative investment comparisons, and simulations. As 
envisioned by Congress, the HSI is developing rigorous independent 
concepts, like an overarching risk management methodology and decision-
support tool to help prioritize programs which are currently being 
incorporated in the Science and Technology (S&T) Directorate and are 
planned for roll-out in the DHS planning process.
    At the request of a variety of DHS sponsors, the HSI studies and 
analyzes germane topics like Wide Area Biological Restoration, Sector 
Specific Infrastructure R&D Needs, Illegal Immigration Modeling, 
Improvised Explosive Devices Scenario Modeling, and other similarly 
focused issues. HSI has also been working with various standards 
committees to help foster development and promote community-wide 
acceptance of homeland security related standards. HSI was also funded 
to assess Urban Bio-Monitoring Architecture, Vulnerability of the 
Global Positioning System Network, Advances in Red Teaming Methods, in 
addition to evaluating the readiness of federal assets like the 
National Science and Technology Threat Assessment and Reachback Support 
Center and the federal laboratory network.
    HSI continues to reach out and build its understanding of the 
homeland security complex through interactions and funded tasks with 
the various DHS operating elements like the Office of Policy, the 
Office of Intelligence and Analysis, Customs and Border Protection, the 
Office of Grants and Training, the Coast Guard, and the DHS 
Preparedness Directorate. Through these diverse interactions, HSI 
develops knowledge to describe strategic processes and interactions. 
This knowledge, in turn, helps HSI to build overarching frameworks for 
DHS processes that can emphasize the particular requirements within the 
various operating elements and identify synergies throughout the 
Department.
    Each year, the S&T Directorate and the Institute, in coordination 
with the Assistant Secretary for Policy, the Under Secretary for 
Preparedness, and the Chief Intelligence Office, work together to 
develop an annual research plan. This plan supports projects that serve 
the entire Department by performing research and analysis needed to 
address the Department's most critical and strategic initiatives, such 
as those outlined in the Department's Integrated Planning Guidance 
(IPG). The $10 million annual core funding investments reflect the 
Secretary's five priorities: improving preparedness; strengthening the 
borders and reforming immigration; increasing information sharing with 
its partners; enhancing transportation security through more efficient 
and secure system control; and strengthening the Department's 
organization to maximize its performance.
    The S&T Directorate funds HSI core tasks, while analytic tasks may 
be funded by various sponsors throughout DHS including the S&T 
Directorate. Core tasks are intended to be cross-cutting in nature and 
scoped to address broader and longer-term research needs and strategic 
issues of the Department. Analytic tasks support more immediate 
research that is focused on specific issues. In FY 2005, the S&T 
Directorate funding was more than double that of the FY 2004 funding 
level; and the S&T core funding represented 67 percent of the total 
funding. The FY 2006 funding for HSI includes the same amount of core 
funding as FY 2005; but the FY 2006 funding ratios are about 45 percent 
S&T core, 25 percent S&T analytic, and 30 percent non-S&T analytic. The 
planned FY 2007 funding for HSI is expected to increase by 25 percent 
due to increased analytic task funding--predominantly from non-S&T 
elements within DHS.

Questions submitted by Representative Bart Gordon

Q1.  The R&D summary from the President's FY 2007 budget shows that 
basic research funding at DHS drops by 48 percent, which is only three 
percent of the total R&D funding level. Also, applied research falls by 
14 percent. Are you satisfied that the balance between near-term 
technology development and deployment and more long-term R&D is 
addressed satisfactorily by this budget allocation? How will DHS meet 
future threats unless it supports a more long range vision?

A1. The emphasis toward the development-and-deployment end of the R&D 
spectrum is to provide DHS agents, officers, screeners, and enforcement 
personnel the best counter-terror tools available in the shortest 
amount of time. Most of their expressed needs--such as improved 
detection of fraudulent documents, faster scheduling of duty 
assignments, more secure cargo containers, easy access to multiple 
databases, robust communications, information sharing protocols, user-
friendly command and control techniques, simpler ways to tell if a 
white powder is dangerous, better identification of watercraft in 
harbors, even relatively simple (but meaningful) upgrades in their 
uniforms, protective gear, and equipment--do not require basic research 
or, in some cases, only require a little applied research.
    However, this focus does not mean that critical, long-term issues 
are being abandoned. Substantial (and necessary) basic and applied 
research is underway in many critical areas--such as improved biometric 
identification techniques; reliable ways to determine hostile intent; 
automated video scene understanding; and detection of chemical, 
biological, and explosive substances in the most stressing and 
difficult environments. For the most critical DHS long-term needs, 
diligent, careful research is underway.
    Because basic research programs typically have a longer timeline 
than applied and developmental programs, it is essential that the S&T 
Directorate always has a stable basic research program in areas 
relevant to the Department's and the S&T Directorate's strategic 
objectives. The S&T Directorate budget is currently focused on areas of 
highest risk and greatest benefit, aligned with the Department's and 
the S&T Directorate's strategic plans. The following shows the 
breakdown.
    In FY 2005 approximately two percent of S&T Directorate funding 
went to basic research, 79 percent to applied research, and 19 percent 
to developmental research--very similar to our FY 2004 budget 
allocations. The budget allocation in FY 2006 and FY 2007 is expected 
to be similar. An improved method for tracking these types of 
allocations was established in FY 2006 and will improve the accuracy of 
estimates in the future. The table below shows budget allocations by 
PPA with actuals for FY 2005 and estimates for FY 2006 and FY 2007. 
Dollars shown are in thousands.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  The Science Committee has advocated that DHS allot greater 
resources to cyber security research, and this budget request does 
provide a 47 percent funding increase. Unfortunately this is from a 
very small base, so that the funding for cyber security, $23 million, 
is only about two percent of the Science and Technology Directorate's 
budget. Will we see efforts in the next few years toward substantial 
increases in cyber security research, or are you satisfied that the 
priority reflected by this request is consistent with addressing the 
potential threat to the Nation from cyber attack?

A2. We believe that our investment balance among the various technical 
portfolios, including cyber security, is appropriate for the resources 
that the S&T Directorate currently has available. The allocation of 
funding resources to portfolios in the S&T Directorate is based on a 
formal planning process that takes into consideration risks, threats, 
vulnerabilities, and other strategic objectives, to perform 
prioritization within and across technical portfolios. The Department 
is highly supportive of the planning approach taken by the S&T 
Directorate, and believes that this process results in technically 
sound and supportable decision-making with regards to funding 
allocations.

Q3.  Explosives Countermeasures is one of the major components of the 
S&T budget. How are activities supported at DHS related to DOD efforts 
in this area? Also, NSF proposes a new initiative on sensors relevant 
to the detection of explosives. What is the nature and extent of 
coordination on explosives programs between NSF and DHS?

A3. Although Department of Defense (DOD) and the Department of Homeland 
Security (DHS) explosives threats and their associated scenarios are 
different, common technologies employed as explosives countermeasures 
can be appropriate. When appropriate, DOD and DHS have leveraged their 
resources and collaborated on research, development, testing and 
evaluation (RDT&E) efforts. For example, the Night Vision Laboratory's 
evaluation of Millimeter-wave and Infrared cameras to screen people for 
suicide bombs.
    The S&T Directorate also works to coordinate explosives 
countermeasures programs with the National Science Foundation (NSF). 
The S&T Directorate plans to work with the NSF on explosives 
countermeasures projects relevant to the domestic improvised explosive 
device threat. In addition, the S&T Directorate plans to collaborate 
with the NSF to develop a strategic roadmap of the most promising 
enabling sciences.

Q4.  The budget request merges the Rapid Prototyping Program with the 
Emerging Threats Program into the Emergent and Prototypical Technology 
Program. The funding for the new program, which looks at emerging 
threats and seeks rapid solutions, as well as provides a clearinghouse 
relevant to public safety technologies, is 40 percent below the 
previous combined funding level. What are the reasons for this funding 
decrease in an area that would seem to have a high priority?

A4. The Science and Technology (S&T) Directorate places high priority 
on identifying and assessing emerging threats and developing rapid 
solutions to those threats for which countermeasures do not exist. We 
believe that our investment balance among the various technical 
portfolios, including Emergent and Prototypical Technology, is 
appropriate for the resources that the S&T Directorate currently has 
available.
    Congressional appropriations for the separate portfolios in FY 2006 
(Conference Report H.R. 2360, Department of Homeland Security 
Appropriations Act, 2006) were $8 million for Emerging Threats and $35 
million for Rapid Prototyping, for a total of $43 million. Included in 
the Rapid Prototyping funding for FY 2006 was $10 million to evaluate 
civil aviation defense technologies and $4 million to encourage further 
implementation of Section 313 of the Homeland Security Act of 2002, and 
to increase the speed innovative products are being reviewed, 
certified, and released to market; these one-time funding actions total 
about 33 percent of the combined FY 2006 appropriated funding and 40 
percent of the FY 2006 appropriations for Rapid Prototyping.

Q5.  After a large funding decrease for FY 2006, the University 
Programs receives an additional four percent cut in the request. Why 
does this program continue on a downward path?

A5. The President's FY 2007 budget request for University Programs is 
$52 million. This funding will allow us to sustain six DHS Research and 
Education Centers of Excellence. Collectively, these centers are 
working on more than 150 projects, with higher education institutions 
that include Historically Black Colleges and Universities and other 
Minority Serving Institutions, State and local agencies, and industry 
in numerous states. Hundreds of researchers associated with these 
centers are conducting multidisciplinary research in risk and economic 
analysis of terrorism events, agricultural security, social and 
behavioral aspects of terrorism, and high consequence event 
preparedness and response. The Science and Technology (S&T) Directorate 
has teamed with other entities to work on topics of mutual interest. 
The first cooperative center is with the U.S. Environmental Protection 
Agency and focused on microbial risk assessment. The other is with 
Lawrence Livermore National Laboratory in discrete sciences. 
Additionally, University Programs will continue to sustain a cadre of 
public service-oriented scientists and engineers from undergraduates to 
postdoctoral scholars.

</pre></body></html>
